<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman

 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        RODNEY P. FRELINGHUYSEN, New Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 MARCY KAPTUR, Ohio                 JACK KINGSTON, Georgia
 ALLEN BOYD, Florida                KAY GRANGER, Texas
 STEVEN R. ROTHMAN, New Jersey      HAROLD ROGERS, Kentucky
 SANFORD D. BISHOP, Jr., Georgia    
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________

                                 PART 3
                                                                   Page
 Africom..........................................................    1
 Navy and Marine Corps Military Personnel.........................   57
 Combat Aircraft Acquisition......................................  167
 Army Aviation Programs...........................................  223
 Shipbuilding Programs............................................  273
 Missile Defense Agency...........................................  329
 Fiscal Year 2010 Department of Defense Budget 
 Overview Hearing.................................................  413
                                ________

         Printed for the use of the Committee on Appropriations





             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman

NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
PETER J. VISCLOSKY, Indiana             DAVID L. HOBSON, Ohio
JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, New Jersey
MARCY KAPTUR, Ohio                      TODD TIAHRT, Kansas
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  ROGER F. WICKER, Mississippi
ALLEN BOYD, Florida                     JACK KINGSTON, Georgia
STEVEN R. ROTHMAN, New Jersey           
SANFORD D. BISHOP, Jr., Georgia    

NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
 Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
 Committee, are authorized to sit as Members of all Subcommittees.

Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________

                                 PART 3
                                                                   Page
 Africom..........................................................    1
 Navy and Marine Corps Military Personnel.........................   57
 Combat Aircraft Acquisition......................................  167
 Army Aviation Programs...........................................  223
 Shipbuilding Programs............................................  273
 Missile Defense Agency...........................................  329
 Fiscal Year 2010 Department of Defense Budget 
 Overview Hearing.................................................  413
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-285                     WASHINGTON : 2010





                     COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

NORMAN D. DICKS, Washington            JERRY LEWIS, California
ALAN B. MOLLOHAN, West Virginia        C. W. BILL YOUNG, Florida
MARCY KAPTUR, Ohio                     HAROLD ROGERS, Kentucky
PETER J. VISCLOSKY, Indiana            FRANK R. WOLF, Virginia
NITA M. LOWEY, New York                JACK KINGSTON, Georgia
JOSE E. SERRANO, New York              RODNEY P. FRELINGHUYSEN, 
ROSA L. DeLAURO, Connecticut           New Jersey
JAMES P. MORAN, Virginia               TODD TIAHRT, Kansas
JOHN W. OLVER, Massachusetts           ZACH WAMP, Tennessee
ED PASTOR, Arizona                     TOM LATHAM, Iowa
DAVID E. PRICE, North Carolina         ROBERT B. ADERHOLT, Alabama
CHET EDWARDS, Texas                    JO ANN EMERSON, Missouri
PATRICK J. KENNEDY, Rhode Island       KAY GRANGER, Texas
MAURICE D. HINCHEY, New York           MICHAEL K. SIMPSON, Idaho
LUCILLE ROYBAL-ALLARD, California      JOHN ABNEY CULBERSON, Texas
SAM FARR, California                   MARK STEVEN KIRK, Illinois
JESSE L. JACKSON, Jr., Illinois        ANDER CRENSHAW, Florida
CAROLYN C. KILPATRICK, Michigan        DENNIS R. REHBERG, Montana
ALLEN BOYD, Florida                    JOHN R. CARTER, Texas
CHAKA FATTAH, Pennsylvania             RODNEY ALEXANDER, Louisiana
STEVEN R. ROTHMAN, New Jersey          KEN CALVERT, California
SANFORD D. BISHOP, Jr., Georgia        JO BONNER, Alabama
MARION BERRY, Arkansas                 STEVEN C. LaTOURETTE, Ohio
BARBARA LEE, California                TOM COLE, Oklahoma
ADAM SCHIFF, California                
MICHAEL HONDA, California              
BETTY McCOLLUM, Minnesota              
STEVE ISRAEL, New York                 
TIM RYAN, Ohio                         
C.A. ``DUTCH'' RUPPERSBERGER, Maryland 
BEN CHANDLER, Kentucky                 
DEBBIE WASSERMAN SCHULTZ, Florida      
CIRO RODRIGUEZ, Texas                  
LINCOLN DAVIS, Tennessee               
JOHN T. SALAZAR, Colorado              
PATRICK J. MURPHY, Pennsylvania        

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

                              ----------                              

                                          Thursday, March 19, 2009.

                                AFRICOM

                               WITNESSES

GENERAL WILLIAM E. WARD, USA COMMANDER, UNITED STATES AFRICA COMMAND
MARY PLEFFNER, DEPARTMENT OF COMMERCE
JERRY LANIER, DEPARTMENT OF STATE

                           Opening Statement

    Mr. Bishop. The subcommittee will come to order.
    Good morning. This morning the committee will hold a 
hearing regarding the United States Africa Command, AFRICOM. We 
are pleased to welcome General William Ward, AFRICOM's 
commander.
    General, thank you for your service, and thank you for 
being here this morning. You have had a long and distinguished 
career. I will just say to the committee that I was extremely 
proud to be able to witness the excitement when you received 
your four stars. So it is a very special privilege to have you 
here and to welcome you to the subcommittee.
    With AFRICOM fully functional for 6 months, this hearing 
offers a timely opportunity for the subcommittee to get an 
update on how the stand-up of this new command is progressing 
and on the challenges and opportunities it is confronting in 
Africa.
    For too long, the United States has paid Africa very little 
attention, focusing on the continent only long enough to 
respond to crises. Within the Department of Defense, the 
responsibility for Africa has heretofore been divided among 
three separate commands: European Command, Central Command and 
Pacific Command. With everyone responsible for Africa, no one 
was responsible for Africa. U.S. attention to the continent has 
been uneven, inconsistent and poorly organized to adequately 
anticipate, prevent, or respond to the crises on the continent.
    Africa occupies about 3\1/2\ times the size of the land 
area of the Continental United States. It is home to nearly 900 
million people and 53 nations. It is rich in human and natural 
resources, and Africa's strategic importance has never been 
more obvious than it is today, a fact that the United States 
has been somewhat late in recognizing.
    Over the last decade, China, Iran and al Qaeda have all 
made significant and growing investments in Africa. It is in 
this context that AFRICOM was conceived to create one unified 
command, to maintain a consistent focus, and to coordinate DOD 
policy toward the vast and increasingly important continent. 
But AFRICOM, the debut of the Africa Command, has not gone 
smoothly.
    First, in the context of the U.S. invasion of Iraq, a lack 
of outreach to African leaders allowed suspicion to grow with 
potential African partners who feared that AFRICOM was the 
first step toward the establishment of a large, permanent U.S. 
troop presence on the continent. Not surprisingly, only one 
African nation, Liberia, publicly expressed its willingness to 
host AFRICOM's headquarters, which are still located in 
Stuttgart, Germany. No government agreed to host any one of the 
five regional integration teams--the small, lightly staffed 
mini-headquarters that would have allowed AFRICOM to maintain 
closer, more consistent contact with African leadership.
    Second, unfortunately, the Rumsfeld Pentagon declared that 
AFRICOM would be taking the lead on all U.S. policy toward 
Africa. That was a stance that was not only untrue, but it was 
also unhelpful in persuading the Department of State and the 
U.S. Agency for International Development (USAID) to share with 
AFRICOM the advice and expertise that AFRICOM has sought from 
those interagency partners.
    Finally, AFRICOM's purpose, mission and organization were 
not adequately explained to this body to assuage the concerns 
that the new combatant command was not just one more in a long 
line of instances where the Department of Defense was taking 
over the responsibilities that rightly belonged to the State 
Department.
    Questions from members of the committee will very likely 
address these issues and many others, and I think that we can 
look forward to a very interesting and useful question-and-
answer session.
    General, before we hear your testimony, I would like to 
call on the Ranking Member, my good friend and mentor, Mr. Bill 
Young, for any comments that he would like to make.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much.
    I want to welcome General Ward here.
    This is a very important issue. Africa is a very important 
part of the world, and our presence there is extremely 
important. I know the General knows that at one point, there 
were those in the Congress who thought that the Africa Command 
should be disbanded and eliminated. We resisted that because we 
think it is important. The work you do is very, very important, 
and is good for the United States and for our relationship with 
the African communities.
    So, General, thank you for being here today, and we 
appreciate the good work that you are doing.
    Mr. Bishop. Thank you, Mr. Young.
    General Ward, please proceed with your summarized 
statement. Your entire statement, of course, will be placed in 
the record.

                   Summary Statement of General Ward

    General Ward. Well, Congressman Bishop, thank you very 
much, sir, and it does seem like almost 3 years ago when I 
pinned on the fourth star. It was only yesterday, but in other 
respects, it seems an eternity ago. Three years, in fact, has 
not gone by quickly.
    Mr. Young and distinguished members of the committee, I 
appreciate the opportunity to provide this overview of the 
United States Africa Command. With me today are Ms. Mary 
Pleffner from our Department of Commerce as well as Mr. Jerry 
Lanier from our Department of State.
    Today Africa Command is executing our mission of conducting 
sustained security engagement through military-to-military 
programs and military-sponsored activities to promote a stable 
and secure African environment. We work in concert with other 
U.S. Government agencies as well as with international partners 
to ensure that our activities are harmonized. Our strategy is 
based on military-to-military efforts to enhance the security 
capability and the capacity of our African partners.
    In many engagements with African leaders during my time as 
commander of U.S. Africa Command and previously as deputy 
commander for the United States European Command, the 
consistent message that they gave me is their intent for 
African nations to provide for their own security. Most welcome 
our assistance in reaching their goals for security forces that 
are legitimate and professional, that have the will and means 
to dissuade, deter and defeat transnational threats, to perform 
with integrity, and that are increasingly able to support 
international peace efforts.
    We work as a part of the overall United States Government 
effort. We work closely with the Department of State, with the 
Chiefs of Mission and country teams, with the United States 
Agency for International Development, with the Departments of 
Treasury, Commerce, Homeland Security, Agriculture, and other 
agencies that do work on the continent. Like Secretary Gates 
and Admiral Mullen, I fully support enhancements to the 
capabilities of our interagency teammates.
    Similarly, we reach out to international partners, 
including Europeans, international organizations, 
nongovernmental organizations, private organizations, and 
academia. Their perspectives on the situation in Africa are 
valuable. The United States Africa Command is involved in 
military training, education, sustainment, and logistic support 
among other activities that occur throughout our area of 
responsibility.
    The Combined Joint Task Force--Horn of Africa, 
headquartered in Djibouti, conducts training, education and 
civil military assistance that helps prevent conflict and 
promote regional cooperation among nations of eastern Africa.
    Operation Enduring Freedom, Trans-Sahara, is the military 
component of the Department of State's counterterrorism 
partnership with North and West Africa nations.
    Africa Endeavor is an annual communications and 
interoperability exercise that this year will include 23 
African nations. We support the State Department's African 
Contingency Operations Training and Assistance, (ACOTA) that 
trains, roughly, 20 battalions of peacekeepers a year. The 
peacekeepers have deployed to United Nations and African Union 
missions across the continent. Recently, we have helped deploy 
Rwandans and some of their cargo to the United Nations' mission 
in Darfur. Continuing deployments of the Africa Partnership 
Station provide training to the navies and coast guards of 
maritime nations in the Gulf of Guinea and the East Coast of 
Africa, helping them better secure their own territorial 
waters.
    Given the lack of infrastructure within Africa and the 
island nations, our sustainment infrastructure, forward 
operating sites and en route infrastructure are vital. I 
endorse upgrades to these activities and in keeping these key 
infrastructure nodes in service. The enduring presence at Camp 
Lemonier in Djibouti makes possible our engagement in East 
Africa and in other parts of the continent as well as supports 
our U.S. strategic goals in that part of the world.
    It is my honor to serve with our uniformed and civilian 
women and men of the Department of Defense as well as our 
interagency teammates who are making a difference on the 
continent every day. Their dedicated efforts are a testament to 
the spirit and determination of the American people and our 
commitment to contributing to the well-being and security of 
our Nation and the people of Africa.
    Again, thank you for your support, and I look forward to 
further participation in this important hearing. Thank you, 
sir.
    [The statement of General Ward follows:]
    [GRAPHIC] [TIFF OMITTED] T6285A.001
    
    [GRAPHIC] [TIFF OMITTED] T6285A.002
    
    [GRAPHIC] [TIFF OMITTED] T6285A.003
    
    [GRAPHIC] [TIFF OMITTED] T6285A.004
    
    [GRAPHIC] [TIFF OMITTED] T6285A.005
    
    [GRAPHIC] [TIFF OMITTED] T6285A.006
    
    [GRAPHIC] [TIFF OMITTED] T6285A.007
    
    [GRAPHIC] [TIFF OMITTED] T6285A.008
    
    [GRAPHIC] [TIFF OMITTED] T6285A.009
    
    [GRAPHIC] [TIFF OMITTED] T6285A.010
    
    [GRAPHIC] [TIFF OMITTED] T6285A.011
    
    [GRAPHIC] [TIFF OMITTED] T6285A.012
    
    [GRAPHIC] [TIFF OMITTED] T6285A.013
    
    [GRAPHIC] [TIFF OMITTED] T6285A.014
    
    [GRAPHIC] [TIFF OMITTED] T6285A.015
    
    [GRAPHIC] [TIFF OMITTED] T6285A.016
    
    [GRAPHIC] [TIFF OMITTED] T6285A.017
    
    [GRAPHIC] [TIFF OMITTED] T6285A.018
    
    [GRAPHIC] [TIFF OMITTED] T6285A.019
    
    [GRAPHIC] [TIFF OMITTED] T6285A.020
    
    [GRAPHIC] [TIFF OMITTED] T6285A.021
    
    [GRAPHIC] [TIFF OMITTED] T6285A.022
    
    [GRAPHIC] [TIFF OMITTED] T6285A.023
    
    [GRAPHIC] [TIFF OMITTED] T6285A.024
    
    [GRAPHIC] [TIFF OMITTED] T6285A.025
    
    [GRAPHIC] [TIFF OMITTED] T6285A.026
    
    [GRAPHIC] [TIFF OMITTED] T6285A.027
    
    [GRAPHIC] [TIFF OMITTED] T6285A.028
    
    [GRAPHIC] [TIFF OMITTED] T6285A.029
    
    [GRAPHIC] [TIFF OMITTED] T6285A.030
    
    [GRAPHIC] [TIFF OMITTED] T6285A.031
    
    [GRAPHIC] [TIFF OMITTED] T6285A.032
    
                            THREE D STRATEGY

    Mr. Bishop. Thank you very much, General.
    This is a very, very significant and important command that 
has been stood up. Certainly, I think it can and will play a 
very, very vital role in our national security.
    The Appropriations Committee noted in a report that 
accompanied the 2009 Defense Appropriations bill that 
traditional U.S. military operations are not an appropriate 
response to many of the challenges that are facing Africa, 
including poverty, famine, armed conflicts, political 
corruption, and the spread of HIV/AIDS.
    Of course, AFRICOM has responded to this concern by saying 
that your programs are driven by the Three D strategy--
Diplomacy, Development and Defense--which aims to balance the 
full spectrum of our national security resources to meet the 
challenges that Africa faces today.
    Would you state for the record for us what the Three D 
strategy is and how it is being used by AFRICOM, and why it is 
important to incorporate the diplomatic and development efforts 
in planning operations of the combatant command and, where 
there is a conflict, who the final arbiter is when DOD, State 
or USAID disagree about a course of action and who pays for it?
    General Ward. Thank you, sir.
    First, as you pointed out, we clearly understand that when 
you look at the Three D--Defense, Diplomacy, Development--those 
activities work, in my mind's eye, in a very harmonious way. 
Mr. Bishop, I will tell you that it did not just occur to me in 
this assignment how critical those linkages are.
    Beginning with my time on the continent almost 20 years 
ago, going through my time in the Balkans as I commanded the 
stabilization force for NATO, my time in the Middle East and 
working activities there, what is very apparent to me is that 
in order to produce stability in an area, security has to take 
hold so that development and diplomacy--those actions and 
attitudes of elected representatives who do things in support 
of their people--occur together.
    So the Three D strategy recognizes the importance of a 
coherent approach to what we do that causes elements of 
security to be closely supportive of those things that need to 
go on in the field of development as well as diplomacy, 
institutions of government, that take care of its people so 
that they are, in fact, working as effectively as they can 
work.
    Our role in that is not to do development, not to do 
diplomacy but to assure ourselves, as best we can, that those 
activities that we perform in the defense arena are as 
supportive of those other two legs of the triad as possible. 
Everyone who would be involved in that would, in fact, pay for 
their part of it. The activities that we do are obviously paid 
for by our defense budget as a part of our role in 
accomplishing that Three D strategy.
    I think I would say that, when you look at what we do 
compared to the totality of what is being done on the 
continent, our portion of that budget is very small. I cannot 
cite the numbers, but I can cite an example.
    If you look at a program, just one, the PEPFAR--the 
initiative for the prevention of HIV/AIDS--that program is well 
in excess of $6 million on the continent. Our total program of 
activities on the continent are much, much, much less. So we do 
not have numbers in our defense activities that in any way 
compare to what is going on in those other activities--
development and diplomacy. In our efforts, we work very closely 
with the Department of State and with USAID so that our 
activities are, in fact, complementary to what is being done by 
the other elements of our government.
    Most significantly, the Ambassadors and the country teams 
have a very heavy say in what we do, to the degree--if an 
Ambassador or a country team recommends against doing some 
particular military or security activity, we do not do it, 
because our activities fully support or align with our foreign 
policy objectives. We look to our Ambassadors. We look to our 
work that we do in the relationship we have with the Department 
of State and also inside the U.S. Agency for International 
Development, to ensure that our work complements theirs and 
does not contradict theirs.
    Mr. Bishop. I have to agree with you. I think the fiscal 
year 2009 budget was $400 million, and USAID spent $6 billion.
    General Ward. I meant billion. Yes, sir.
    Mr. Bishop. This was just on the HIV/AIDS programs.
    When there is disagreement, though, who is the arbiter? Do 
you defer always to the Ambassador?
    General Ward. Quite candidly, we get to resolution prior to 
getting to the conflict, and I will tell you how I try to do 
this.
    As we developed our campaign strategy, our theater plans--
and we did this now beginning almost a year ago at the onset of 
planning right here in Washington, D.C.--we met with the 
Department of State and with USAID. As we developed our 
strategy and as we are now developing our campaign plans, those 
agencies are a part of our planning process so that as we move 
ahead, we are not coming up with programs and projects that are 
outside the parameters of what they would see as important 
activities for us to accomplish in support of the development 
and diplomacy.
    We carry it a step further when it comes to the execution 
of those plans and programs and in working very closely with 
the Ambassador and with the country teams. Then ultimately, if 
we go through all of that process and it comes to the execution 
on the ground, for timing reasons and for the atmospherics of a 
particular situation, if the Ambassador says, ``I do not think 
we should be doing that just yet,'' then I would say we would 
not do it.
    So who resolves the conflict? Typically, we do not have 
conflicts, but if something were to occur that would say that 
doing a particular military activity at this point in time is 
not wise and that comes from our diplomatic community, I would 
defer to that recommendation.
    Mr. Bishop. Thank you, General.
    Mr. Young.

                                 PIRACY

    Mr. Young. Mr. Chairman, thank you very much.
    General, a lot of things are going on in Africa that are 
troublesome to the United States, that are troublesome to the 
world and that are troublesome to anyone who is civilized. I am 
talking about Somalia, and I am talking about the piracy off 
the coast--the kidnappings, the holdings for ransom, the taking 
over of ships with oil and arms and things like this. Do you 
play a role in any of these issues?
    General Ward. Thank you, Representative Young.
    Yes, sir, we do. The at-sea portion of our counter-piracy 
effort is conducted by the U.S. Central Command. So we are 
fully aware of those activities. We are fully involved in what 
they are doing, the work of that combined task force at sea. 
That coalition of international forces from various nations 
will come together to conduct naval patrolling at sea.
    When it comes to the suspected pirates who may be 
apprehended as a result of those counter-piracy actions, we 
play a role, as those pirates are then brought ashore on the 
continent. We work with the governments of East Africa for 
their taking those suspected pirates into custody and in 
further adjudication of the particular case.
    We also are involved in the work that we do--and you talked 
about East Africa, the nations of East Africa--in helping them 
to increase their capacity to provide better control over their 
territorial waters, which, in fact, is a counter-piracy measure 
as those nations have better control over their sovereign 
force. We do that.
    We know that for Somalia, in particular, the lack of an 
effective government is clearly the root of why we have these 
pirate activities to the degree that they occur. Clearly, they 
could occur anywhere. Piracy is not a new phenomenon in this 
world, but to the degree that they occur, the lack of an 
effective government in Somalia is a part of that.
    To that degree, we clearly support, again, our stated 
foreign policy objectives of support to this Transitional 
Federal Government and what is done there to help them be more 
effective in governing their territory. Should our policy 
dictate otherwise, we then would be involved, as so stated, by 
our foreign policy. So we see the lack of effective governance 
as one of the root causes of the piracy efforts.
    We support those counter-piracy efforts as they go on, as 
we work with our friends and neighbors, both our fellow 
agencies, including Central Command, as well as working with 
the nations in the East of Africa to adjudicate suspected 
pirates once they have been apprehended.
    Mr. Young. General, the Navy, of course, has the primary 
responsibility in dealing with the pirates. But in the Somalia 
area, are you called on to provide any direct or indirect 
military support of any of the activities in or around Somalia?
    General Ward. My command is not, sir.
    Mr. Young. Say that again, please.
    General Ward. My command is not.
    Mr. Young. It is not.
    General Ward. It is not.
    Mr. Young. As for your military presence, actually as far 
as personnel under your control, you have a very small command, 
actually, don't you?
    General Ward. A very small command. We do not have a 
military presence in Somalia, my command.

                      IMPROVEMENTS TO HEADQUARTERS

    Mr. Young. Well, you have a military presence in Stuttgart, 
Germany. Several of our staff members paid a visit to your 
headquarters last year, and what they found was a headquarters 
that was relatively inefficient, with wires strewn across the 
floor, trying to keep all of the electronics together.
    Do we have anything in a budget request to improve or to 
make more effective your headquarters in Stuttgart?
    General Ward. I think we do. That is a work in progress, 
Mr. Young, what was seen a bit ago. Every day, improvements are 
made. I count it as a victory when I can pick up the phone or 
can send an e-mail and it goes to the same address. And we are 
getting more and more of that in that way.
    I think as to the renovations to our IT infrastructure and 
to our force protection requirements, we have seen steady 
progress now over the year and a half that we have begun to 
renovate our facilities. We have a bit more to go, and some of 
that additional work is, in fact, in the budget submission that 
we have sent forward.
    Mr. Young. I am aware that there is no real consideration 
of moving your headquarters to Africa, but is there any 
consideration of moving it to another location other than 
Stuttgart?
    General Ward. Not at this time, sir. I would say that the 
work that we are doing there in Stuttgart is work that--because 
Stuttgart is one of our enduring communities overseas, that 
work--regardless of my command being there for another 3, 5 or 
10 years, whatever the case may be, I have--or permanently, I 
just do not know--there is no consideration. But regardless, 
those enhancements to that infrastructure would be used by 
whatever U.S. Government activity that would fall in on it, 
because it is one of our overseas enduring locations.
    Mr. Young. Okay. General, thanks for what you do. We 
appreciate the importance of what it is that you do and what 
your command does, and thank you very much for being here 
today.
    Thank you, Mr. Chairman.
    General Ward. Thank you, sir.
    Mr. Bishop. Ms. Kilpatrick.

                    LOCATION OF AFRICOM HEADQUARTERS

    Ms. Kilpatrick. Thank you very much, Mr. Chairman.
    General, good morning.
    General Ward. Good morning, ma'am.
    Ms. Kilpatrick. I am most proud of you.
    General Ward. Thank you.
    Ms. Kilpatrick. I have watched this since the announcement 
last February 2007 when the former administration announced a 
new command. I know that you were fully operational in October 
of 2008, just recently, a year and a half, as you say, just 
under a year and a half. I have watched your career. I am most 
proud of what you have done for our country as well as for your 
new command assignment.
    I was going to ask the Germany question on Stuttgart, and 
you have explained it. It has been one of our best partners 
over the years, probably since World War II and beyond. Yet I 
did not understand why we were not moving it, and I understand 
it takes time to get up. You have said 3, 5, 10 years from now.
    Do you foresee our having the command on the continent 
ever? Is it necessary?
    General Ward. Thank you for that, Ms. Kilpatrick.
    Two things. There is clearly a potential that the 
headquarters could be somewhere located on the continent of 
Africa--or some portion of the headquarters. In today's 
environment, it is not essential. It is not something that is 
important for now and what we are doing. From my perspective, 
our work that we do is the important thing. Our program is the 
important thing. Our staff headquarters with the planning that 
it does, quite frankly, could be done from anywhere, that 
planning function.
    Right now, Africans see us as partners and allies, not as 
part of their problem. So, for many reasons, being on the 
continent today is not something that is either necessary or 
has been sought after, because it is not the central part of 
doing what we need to do to bring value added to our program on 
the continent.
    Our presence on the continent, as leaders of Africa have 
told me and as our Ambassadors and country teams have told me, 
is better realized through our offices of security 
cooperation--those programs that we implement, the support that 
we provide; not the headquarters function, the planning 
function----

                   MILITARY TO MILITARY (MIL TO MIL)

    Ms. Kilpatrick. Okay. Hold it. I appreciate that.
    So when I was reading military to military--mil-to-mil, I 
guess, as you call it--what exactly is that as it relates to my 
former question? Is it mil-to-mil toward governments of the 
world? I know throughout this, you have called them ``states'' 
and not ``countries,'' and there must be a reason for that. We 
call them ``countries.'' You call them ``states.'' Is there a 
reason for that?
    General Ward. They are countries. They are nations.
    Ms. Kilpatrick. And they have their own hierarchy and 
whatever. What is the mil-to-mil? What does that really mean in 
the capacity that our command in Africa serves? What does that 
mean?
    General Ward. It refers to the work that we do with the 
militaries of the nations of Africa as they attempt to increase 
their capacity to be more professional, to be able to conduct 
themselves as legitimate military with integrity.
    So it is the work that we do, from training, to providing 
the sorts of orientation, to how militaries perform in 
legitimate societies. It is young soldiers, sailors, airmen, 
Marines, and sometimes civilians who are working with the 
militaries of these nations to increase their capacity to be 
more effective in providing security for themselves. It is 
helping them understand proper techniques for boarding if they 
see something in their territorial waters that ought not be 
there.
    How do you board a vessel that has not been transmitting 
its intent to ensure that your personnel are as safe as they 
can be as well as protecting those with whom you are about to 
interact? It is our program called the Africa Deployment 
Assistance Phase Training, where nations of Africa in their 
quest to provide for their own security have said, we will 
volunteer and we will support peacekeeping efforts in places 
like Darfur, Somalia, but we need some help to get there.
    So it is training assistance that we provide when they pack 
an airplane or they load a train to conduct a rail movement. It 
is the training to determine how you properly secure cargo, how 
you properly pack the back of an airplane so that what is being 
loaded is loaded in a way that does not cause some unintended 
explosion, because you do not pack flammables with foodstuffs 
or ammunition or things like that.
    It is that sort of military professionalization enhancement 
activities that this military-to military work that we do is 
about. That is the focus of the military exercises--
interoperability--so they can work better as neighbors.
    Ms. Kilpatrick. And bring the confidence and the exactness 
they need as well.
    General Ward. Yes, ma'am.
    Ms. Kilpatrick. Finally, when we started out--I think the 
Chairman alluded to that--we did not have any communities that 
would want that cooperation.
    Have we moved in our diplomatic relationships with them to 
have a better understanding and relationship whereby that might 
now be possible?
    General Ward. That is a great question, ma'am.
    Ironically, even at the outset when we had this debate 
about whether or not they wanted the command on the continent, 
they had never said they did not want that level of 
cooperation. That level of cooperation has always been desired, 
and that was the point about it because they never said, ``We 
do not want to cooperate with America.'' They have never said 
that.
    As for the programs that were in existence prior to the 
creation of the United States Africa Command, being conducted 
as Mr. Bishop indicated, heretofore through three different 
commands, our message was we will not see any degradation of 
those programs because that was a fear that they had had. So 
that is why the focus on adding value to the programs was my 
focus as opposed to a focus about where we might station our 
headquarters that created the misperceptions about what our 
intentions were. So therefore that whole argument was not 
helpful to promoting our national security interests or in 
supporting the interests of the Africans in increasing their 
capacity to provide for their own security.
    Ms. Kilpatrick. I like that. I think that is exactly the 
way to proceed. Thank you, General, for your service.
    Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Frelinghuysen.

                              NO-FLY ZONES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General, thank you for your service.
    Apropos of your discussion with my colleague as to the 
issues of expectation with a new administration and not 
pointing fingers at the last administration, there is an 
expectation that we will be concentrating more of our efforts, 
not only through military but a lot on the people behind you, 
in looking at the needs of the African Continent and in 
understanding that there are many sovereign nations and that 
there are also expectations on the African Continent that we 
will be more involved in critical issues. Some of the greatest 
crimes against humanity have occurred in Africa. Periodically, 
we hear calls for intervention when humanitarian crises reach 
the extremes that some of these cases have.
    I just wonder, are you prepared in that regard? I mean 
there has been talk of no-fly zones. This is more than 
transporting members of the African Union and troops, but are 
you ready? Do you, perhaps, anticipate that we may be doing 
more there than we are now?
    General Ward. Thank you for that, sir.
    Two things. The forces that we use to do our engagement, 
which is the preponderance of our activities--our theater 
security cooperation, our military-to-military engagement, our 
forces that could range from individuals up to small sizes of 
groups, squads, platoons, ranging 10, 15----
    Mr. Frelinghuysen. What I am talking about is we see, 
obviously, cases of incredible horrors and deprivation, of 
unbelievable starvation, and people are saying here at home, 
why aren't we doing something about it? In some ways, you can 
use AID and you could use the State Department, but in reality, 
you often need the power and might and mobility of the military 
to get the job done. I just wondered how you are putting that 
into your overall calculations as a possibility.
    General Ward. What we do, sir, is our development of plans, 
addressing contingencies, be they disaster assistance relief, 
humanitarian assistance, but our planning then identifies the 
resources that would be required to execute that plan. I do not 
have forces assigned to do those missions. I would be required 
to submit a request for forces that would then be received by 
Joint Staff and acted upon by the Secretary of Defense, because 
it would require the allocation of forces to conduct the 
military work that would be required to do in order to satisfy 
a situation that you have described.

                      WEAPONS OF MASS DESTRUCTION

    Mr. Frelinghuysen. Okay. Weapons of mass destruction. There 
is a feeling that some of those who have been operating in the 
Middle East will find fertile ground in certain countries. Have 
you found evidence of that? I know you work pretty closely with 
the Intel Community and a variety of others--the DEA, the Drug 
Enforcement Agency.
    What have you found? How are you dealing with it since many 
countries do not have the ability, quite honestly, to stop that 
type of trafficking or to stop the development of this type of 
an activity, or who do not have the military or, perhaps, the 
political will to do anything about it?
    General Ward. Well, first, I would say here that I have no 
direct knowledge or evidence of that occurring.
    Mr. Frelinghuysen. Well, one of the reasons the command was 
set up, though, was for the possible proliferation or 
advancement of weapons of mass destruction finding their way to 
the African Continent in those countries that might be somewhat 
conducive to that type of activity. Correct me if I am wrong.
    General Ward. No. No. That is clearly a part of our mission 
set. The work that we do in working with the host nations and 
their security structure and apparatus are specifically 
designed to address their capacity to, in fact, deal with that 
should it arise.
    As I was saying, I see no evidence of that at the current 
time, but our ongoing effort and our persistent engagement is, 
in fact, designed to help them increase their capacity to 
prevent that from occurring.
    Mr. Frelinghuysen. So, just for the record, you see no 
evidence of that type of activity?
    General Ward. Correct.
    Mr. Frelinghuysen. All right.
    Thank you very much, Mr. Chairman.
    Mr. Bishop. Mr. Visclosky.
    General Ward. But, sir, if I may, the threat is clearly 
there and the potential is there. So therefore the work that we 
do with these nations is to address that threat and to 
hopefully prevent it from occurring.
    Mr. Bishop. Mr. Moran.

                                 SUDAN

    Mr. Moran. Thank you very much, Mr. Chairman.
    General Ward, thanks for testifying. More importantly, 
thank you for your service on one of the few continents that, 
despite conditions, seems to look up to the United States for 
leadership.
    The budget for AFRICOM took a big hit last year in this 
committee, largely I think because there was insufficient 
coordination, explanation, et cetera of what you were planning. 
So the committee wiped out most of the budget from $300-plus 
million down to about $80 million that was restored in 
conference with just a $40 million cut, as I recall. But I 
think this is something that we need to get a better 
understanding of as to what you are doing. Frankly, if we are 
going to adopt the so-called ``smart power'' premise that it is 
more effective, then this is the kind of activity that we need 
to invest in.
    I know China is doing it particularly in Africa but also in 
South America and on any number of continents, and they are 
making progress in establishing relationships. We had a very 
substantial study done by the Congressional Research Service 
(CRS). If anybody is interested in it, we can share it, but 
this is a clear strategy with a substantial investment on 
China's part.
    One of the problematic things about China's involvement is 
that it is amoral. I am not saying immoral. They just have no 
moral compass with which they make these decisions, and that 
becomes abundantly clear in their relationship with President 
al-Bashir of Sudan. One of the reasons Khartoum is as 
prosperous as it is is because of China's investment, frankly, 
so our sanctions would have very little effect.
    I was just at a conference on Sudan, and the situation is 
getting much grimmer because the International Criminal Court 
has indicted Bashir. He has chosen to take it out on the 
Darfurian people by withdrawing all of the aid agencies--the 
nonprofits, the NGOs. So it will continue the policy of 
genocide, perhaps in a less direct but equally effective way. 
It will be a genocide of starvation, of unclean water--
unsanitary water--which will spread disease; and of course, it 
will be the lack of health care.
    One outbreak, whether it be meningitis or whatever in those 
camps, spreads to everybody. We know about the dramatic 
instances of genocidal activity sanctioned by the Khartoum 
regime and of the gang rapes of every woman regardless of age, 
from the very youngest to the oldest.
    Something has to be done. We now have a presence on the 
continent but, really, no intervention in what Bashir has 
accomplished with regard to the genocide of the Darfurian 
people. Three hundred thousand have been killed, all told, 
about 2.5 million in that country. It looks as though, if there 
is not some intervention, as many as another 1.5 million are 
vulnerable to the same fate.
    I have gone on for a few minutes to give you an opportunity 
to compose your thoughts.
    How do you think we as a Nation should address this outrage 
against humanity occurring in Sudan?
    General Ward. Sir, thank you for that.
    Like all of us, I think it is absolutely terrible these 
crimes--the rapes, the killings--that are committed against any 
human being, and it is something that we abhor as any person 
would, the absolutely disdainful and horrible treatment of a 
human being.
    I think from the standpoint of how we approach it, it is 
something that, as you point out, is the role of the world 
community in addressing those sorts of things. I think it 
certainly requires that type of a consensus because, otherwise, 
the gaps that might exist in whatever may occur could be filled 
by someone else who would not have the same sentiment. So I 
think, from that regard, it does imply a consensus approach to 
solving a very complex and terrible situation.
    Obviously, I do not sit in those circles, sir, so as our 
policy formulations are determined, you are aware there are 
military aspects to that then. Because of where that country 
sits, in my area of responsibility, then I will clearly be 
charged with taking the appropriate action to deal with the 
military aspects of whatever policy that might be determined.
    It is something that the world community, I am sure, is 
paying attention to. I know we are paying attention to it. As 
that discussion continues for determining what those activities 
will be, I think it makes good sense for us to be prepared and 
to be ready to do whatever part we are asked to do in support 
of that policy decision.
    Mr. Moran. Could I ask one follow-up?
    Mr. Bishop. The gentleman's time has expired, but go ahead, 
Mr. Moran.
    Mr. Moran. I thank the indulgence of the Chairman.
    That is a perfect answer. It could have been just as well 
given by any diplomat with the State Department. It is exactly 
what you are supposed to say.
    We have sent somebody over--a nice guy. We have told him to 
go jaw-bone, which will have zero result. As you know, you are 
very well-informed and you are experienced. From what I can 
gather, you are pretty much a caring person as well, so you 
must have come up with some ideas in your mind. I mean, if you 
do not want to share them publicly, I would like to hear them.
    For example, if the President were to pull you aside and 
say, ``General, what do you think we should be doing with 
regard to Darfur?'' that is what I would like to hear. Now, you 
may want to be discreet and tell me afterwards, but that is 
what I am trying to get your perspective on, because it is 
tough to just stand by and see it happen with our hands in our 
pockets.
    General Ward. Yes, sir. The thing I would say--and I would 
be happy to share some of that with you, sir.
    The thing that I would say is it is no one thing. It is a 
combination of things that are required here. The military 
piece of it would be only a single piece. There are many things 
that would need to occur, and I think we ought to be 
approaching it in that very holistic way, sir; because to 
address it in only a single line, without considering those 
other lines would only achieve, if at all, very short-term 
results.
    Mr. Moran. Thank you, sir.
    Mr. Bishop. Mr. Tiahrt.

                  CHINESE ECONOMIC PRESENCE IN AFRICA

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Thank you, General Ward, for serving the country. I know 
you could do a lot of things, but serving the country is what 
you have chosen, so I appreciate it very much.
    Recently, I visited the Command and General Staff College 
at Fort Leavenworth, and I met a young man who is an officer 
from one of the countries in Africa. And I cannot remember the 
country off the top of my head, but I hope that you will find 
those officers who go through the school and will continue a 
relationship with them, because many of them become, 
eventually, their countries' leaders and they could become 
tremendous allies.
    I was reading Time magazine. Its latest issue had 10 trends 
that they see coming in the future. One of them was the 
economic expansion in Africa, and they highlighted a lot of 
involvement by the Chinese in purchasing businesses. I was 
wondering what your perspective is of the Chinese presence in 
Africa. Is it military? Is it economic?
    We know from this recent spy who defected to America from 
China that they are conducting a lot of activities in the 
counterintelligence area, but that they are also trying to 
penetrate our economy as well as our defenses.
    I wonder, military-wise, is their presence in Africa very 
large? Is it small? What is your perspective on that?
    General Ward. Sir, I thank you.
    From what I have determined, the Chinese presence in Africa 
is largely geared towards economics--access to resources. I do 
not see a great presence militarily. I do see Chinese military 
personnel on the continent. A lot of them are involved in 
infrastructure activities, engineers, doing engineering sorts 
of work--roads, building buildings, et cetera. I think that is 
being done in response to their desire for access to resources 
there on the continent.
    The point that you made to begin with, sir, with respect to 
the officer at Fort Leavenworth as a part of our International 
Military Education and Training Program, I, too, think that is 
a very important program. I think it is one of the things that, 
quite candidly, provides us our best long-term return on 
investment with respect to militaries and security structures 
on the continent of Africa that perform with integrity because 
of the exposure of those men and women who come to our country, 
who participate in that training and who carry those 
experiences back to their countries. So I am a firm supporter 
of that.
    The point that you made with respect to keeping in touch 
with those individuals is an extremely critical one to me as 
well.
    Mr. Tiahrt. One other tool that I think is available to us 
is, in a lot of Third World countries, if we develop trade with 
them, with their governments, in the form of defense products, 
sometimes that is a longtime trade relationship that becomes a 
political relationship that becomes a good ally. There is some 
hardware available like that--it is called the AT6B--that may 
be a good tool to move them. It is a light aircraft. It has 
great ISR capability. It may be a tool that you want to look 
into as far as what you use in assistance of that as well, but 
it certainly could be an open door for a lot of these 
governments that need to become good allies in the future, and 
I hope you will take a look at that.
    General Ward. Thank you, sir.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Bishop. Ms. Kaptur.

                          RELIGIOUS PRACTICES

    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    Welcome. It is good to have you before us this morning.
    From your vast experience, General Ward, just comment about 
the changing nature of religious practice across Africa, of the 
different faith groups--Islam, Christianity and different 
tribal religious practices. You can comment country-specific or 
just overall. As you look at the sweep of history, what do you 
see happening across Africa?
    General Ward. Well, I thank you for that, ma'am. I do not 
know if I would be an expert on that, though. I would offer a 
few observations.
    Clearly, the role of the tribes, of the clans, and the 
historical and cultural attitudes still are very, very 
predominant regardless of what the religion may be--
Christianity, Islam or other. I think that is still, to this 
day, very, very instrumental in whatever religious belief that 
may be being practiced. I think there are clear groupings, and 
religion remains a priority; it remains a focus. Most nations 
in Africa pay attention to religion in ways that define their 
society based on their culture.
    One of the things that for our command is very important is 
this notion of how we understand cultures, how we understand 
the society, how we understand the people, because of how that 
influences who they are. And then, quite candidly, how it 
should be guiding our interactions with them so that we 
approach it from understanding who they are as a people.
    Recently, in South Africa, my command participated in a 
worldwide chaplain conference, with chaplains from various 
militaries from around the world, to include from the Continent 
of Africa. They gathered to discuss the role of religion in 
military societies--correction--in the military institutions, 
not so much from the standpoint of directing or guiding, but 
does it have a role in the values, in the morals, et cetera, et 
cetera, of a religious military institution.
    The fact that the meeting even occurred acknowledged that 
there is a role to be played, that there is a place for this in 
military units, again, not promoting one religion or another 
but in drawing upon those common tenets that might be there 
from, as I said, treating people with dignity and respect, the 
value of a human being, values in a more broad sense, 
professionalism, what that contributes to professional 
militaries.
    So there is an awareness of it. I think there is an ongoing 
discussion of the role that the militaries could play--
correction--that religions could play in the military.

               ROLE OF RELIGION IN POLITICAL INSTABILITY

    Ms. Kaptur. If I could interrupt, General, in a nation like 
Kenya, for example, if one looks at some of the political 
instabilities there and you tried to peel off the different 
layers of what might be contributing to that, the role of 
religion and of a religious affinity, rising fervor among some 
groups, I think, would be very, very important to understand in 
the work that AFRICOM may be about here.
    I do not think we as a country are very good at 
understanding that in other nations, and sometimes we try to 
contain it in very inappropriate ways, and we end up shooting 
ourselves in the foot.
    So I think particularly across northern Africa--and I am 
not an expert on the nations of Africa--I have noted kind of an 
inability to accommodate what is really going on in some of 
these societies.
    What you said about tribes is very interesting. You know, 
there is a tribal loyalty first. What draws people? I have 
often thought that--for example, from our country, many of the 
organizations that I am aware of from our State of Ohio who are 
working in Africa are doing much better work--many of them have 
religious underpinnings of some sort--than the Government of 
the United States in building lasting friendships and in really 
helping people, particularly those who are desperate.
    So I will just place that on the table, and I am sure that 
my time has expired here, but I thank you very much, and I do 
hope you pay greater attention to that. Thank you.
    General Ward. Thank you.
    Mr. Bishop. I thank the gentlelady.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. I am all set, Mr. Chairman. Thank you.
    Mr. Bishop. Ms. Kilpatrick.

               COMBINED JOINT TASK FORCE--HORN OF AFRICA

    Ms. Kilpatrick. Just one thing. Thank you, Mr. Chairman. I 
usually do not have a second time at this.
    The Combined Joint Task Force--Horn of Africa, in Djibouti, 
they have a special program that deals with counter-extremism 
and a strategy of, as they call it, cooperative conflict 
prevention. Talk to us about that. The Horn is a very important 
part of the continent.
    What about that program? Is it helpful in that the Horn may 
be doing other things?
    I understand yours is a military command and that what we 
need on the continent are all kinds of agencies working 
together to rectify some of the things that are wrong in that 
part of the world where over 800 million people live, and 
similarly around the world, where many other countries are in 
conflict. We have severe conflict on the continent. That is why 
I am glad you are there, that we are there in a military 
capacity, not to mention that all the other things are not 
needed. We need them, too.
    In the Horn specifically and as it relates to the 
cooperation conflict prevention strategy on it--you may call it 
something else--what exactly is that?
    General Ward. Thank you for that, ma'am.
    Two things. First, what we have found is that when we bring 
together various nations and their military structures 
together, we bring them together sometimes for the first time 
to work together, to cooperate, to see a regional issue through 
a common lens. So, for us, this notion of cooperative conflict 
prevention describes the fact that, together, they can in fact 
address a common threat, but to address that common threat 
requires some degree of collaboration, of cooperation, of 
working together, of building trust and confidence among 
themselves, not just in a bilateral way with us.
    So this program that exists in the Combined Joint Task 
Force--Horn of Africa, where we conduct seminars, training 
exercises, brings in nations who are neighbors but who might 
not otherwise be exposed to one another. In so doing, something 
that might arise as an issue does not, because they are 
talking, they are interacting, they are within the command, 
they are in Djibouti.
    We have a robust liaison program whereby the nations that 
are a part of the East Africa region, the Horn of Africa, bring 
their officers into the command, as well as liaison officers, 
sharing back and forth with their home governments what is 
being done, again, increasing confidence, increasing trust 
among themselves, increasing understanding.
    In so doing, that cooperative arrangement serves to help 
prevent something that might otherwise occur in the form of 
mistaken perceptions and misunderstandings of intent. It 
reduces the likelihood of that when you come together and you 
work in a cooperative way. It just takes away some of the 
potential for some of those conflicts that may have been 
unintended.
    Ms. Kilpatrick. And your command is the lead in bringing 
that together; is that right?
    General Ward. Well, we do it. Others do it as well, but we 
clearly recognize that it is a very important part of our 
engagement strategy.
    Ms. Kilpatrick. Thank you very much.
    Thank you, Mr. Chairman.

                            AFRICOM STAFFING

    Mr. Bishop. I thank the gentlelady.
    Let me ask you, General, in regards to your interagency 
support for AFRICOM, originally you had sought to fill 25 
percent of the staff positions from other than DOD agencies. As 
of March 1 of this year, it appears that that objective has 
been abandoned and that only 2 percent of the AFRICOM staff has 
worked for agencies other than DOD. By the end of March, 29 of 
the 1,058 filled positions will be occupied by interagency 
staff, including 5 from USAID, 5 from the Department of State, 
and others from Commerce, Energy, and Homeland Security.
    Why has AFRICOM abandoned the original goal of 25 percent 
non-DOD staff? What is the preferred mix of DOD versus non-DOD 
staff? Has it been difficult to recruit staff from the other 
agencies? How does that shortage of the non-DOD staff affect 
your ability to execute the Three D strategy?
    General Ward. Thank you, Mr. Chairman. Two things.
    I wouldn't say we have abandoned it. I don't know if Kip 
Ward ever had it as a goal. I think that, as the command was 
going through its formulation, as our transition team was 
considering how the command might be organized, how it might be 
formed, what its dynamic might be, this was--and I will be very 
candid with you--this was just, kind of, thrown on the table as 
a goal. It may have been rooted more in the ability, some 
budgetary considerations.
    But I will tell you that today, from my perspective, what 
we are receiving from our interagency partners is very adequate 
to our work and ensuring that the perspectives of what goes on 
by our other governmental agencies are represented in our 
command because of the way we have matrixed our organization, 
because of the way that we are looking at how we integrate 
those members from the interagency who are a part of our 
command into our structure from the highest levels, including, 
as you know, one of my deputies, through echelon, as we work 
our various groups and committees.
    We are working with the interagency, and it is not just 
those who are there in a permanent way. There are those who 
come in on a continuous basis, in a TDY function to come in and 
work, to understand the role that they could play.
    Mr. Bishop. Do you think that the balance is sufficient? Do 
you want to increase the non-DOD, or do you think it is good 
the way it is? Do we need to help in that regard?
    General Ward. It is continually evolving, sir. And I think 
that there are additional spaces that we think would be good to 
have in the command. But, again, we are learning about that. 
And, as we learn about it, then we go out and we request that. 
And, in most instances, the agencies are providing the support 
that we would seek.
    Mr. Bishop. I raise that question because the concern that 
was expressed in the report language and by the Committee in 
the 2009 bill reflects the fact that we are not completely 
clear on the role that the non-DOD agencies are playing, and 
that they really don't want DOD to be assuming functions of 
State and USAID. And, of course, if you don't have the staff to 
perform the USAID work, it would appear as if you would have to 
do it or it doesn't get done. And if it doesn't get done, then 
that defeats your mission.
    That was the reason I was trying to go there. And if there 
is something that we can do to help, just share that with us.
    General Ward. Okay, sir.
    Mr. Bishop. Mr. Frelinghuysen?

                        SOCIO-CULTURAL ANALYSIS

    Mr. Frelinghuysen. Thank you, Mr. Chairman, for another 
bite at the apple. I would like to, sort of, follow up where 
Ms. Kaptur was going a few minutes ago.
    General, in a speech to the United Kingdom Royal United 
Services Institute back in September--we monitor you each and 
every day here--you said, and I quote, ``A lot of activity goes 
on in a continent through our nongovernmental organizations. 
Academia is involved. I showed you early on this thing about 
knowledge development. When I was in previous assignments, 
someone came to me, would talk about, `Well, Ward, you need a 
cultural anthropologist on your team. You need to have someone 
to help you understand the human dimension. You need to have 
some human terrain analysis.' ''
    As you know, we do have such groups. Recently, better 
advertised, perhaps, in ways that are not so positive. But I 
hear that the Army's human terrain system or something like it 
may be headed to Africa, and I understand that actually 
advertisements have already gone out with help-wanted ads for a 
new socio-cultural cell within your command. I, quite honestly, 
think it is a positive development. I think that is great.
    Can you tell us what we are doing and why you are doing it? 
I think we know why you are doing it. Lessons learned from Iraq 
and Afghanistan. But can you put some flesh on the bones?
    General Ward. Yes, sir. I thank you.
    That is pretty good there, sir. You go back to that RUSI. 
And I have not changed----
    Mr. Frelinghuysen. Just because you are in Stuttgart 
doesn't mean you are out of our line of sight here.
    General Ward. Exactly, sir.
    I have not changed my impression. We need to have a better 
understanding of those with whom we deal if we are to make a 
difference that makes sense from their point of view, and 
unless it does, it won't last. Our intent, sir, is to cause our 
activities to create the lasting enhancements to a secure 
environment. And we don't do that if we don't understand our 
partners.
    This business of socio-cultural awareness, human terrain 
analysis--and I probably shouldn't be using all those buzz 
words--but it is about how we understand one another. And it is 
not lost on me nor those of my command that when we sit with 
our partners and we look at ways of moving ahead, if we don't 
see things from their point of view, then we will miss the 
mark.
    This endeavor, as we look to build within our Intelligence 
and Knowledge Development Directorate, not the typical J-coded 
structures--J1, J2, J3--that you hear in most organizations, 
but Intelligence and Knowledge Development, as we attempt to 
build our base of understanding so that when we deal with our 
partners in our various partner nations, we can see things from 
their perspective a little bit better.
    It impacts, sometimes, patience. You know, we Americans are 
very impatient. I mean, we see things, typically, in hours and 
days. For many of our African partners, it is years and 
decades. Again, it is a culture--it is an appreciation of the 
culture.
    And so these entities, be they cells or teams, but these 
entities are designed to help us, as we sit and do our 
planning, to have a clearer understanding of our partner so 
that we propose activities, engagements, strategies, it 
reflects what is meaningful to them, obviously aligned with our 
objectives and, hopefully, that achieving a desired and 
permanent result that leads to peace.
    Mr. Frelinghuysen. Well, I am glad you are, you know, 
moving ahead with it. And it doesn't in any way negate the good 
work of those team members you have behind you, who, in some 
ways, do some pretty serious intelligence and economic and 
social investigation and obviously come up with 
recommendations. But I think having these teams on the ground 
is indeed reassuring.
    And let me just say parenthetically, because we are sort of 
contractor-centric around here, that it is not always--there 
are contractors, and there are contractors. And sometimes 
pulling together these people does necessitate some outside 
help that might not be innate within a governmental structure. 
So thank you for what you are doing in that regard.
    Thank you, Mr. Chairman.
    Mr. Bishop. Ms. Kaptur.

                         Remarks of Ms. Kaptur

    Ms. Kaptur. Yes, I would just like to offer an opinion--
that is the good thing about being elected and having some 
seniority, you can offer an opinion; no one has to listen to 
you--but how the United States approaches its presence in 
places with high levels of what we term ``poverty,'' ``economic 
poverty.'' And I don't think we are very good.
    If one looks at Latin America, some would say today there 
is a growing divide between the nations of Latin America and 
the United States, despite the investment by our country in 
billions and billions and billions of dollars in military 
assistance and organizations such as WHINSEC, formerly School 
of the Americas.
    And as I listen to you, General, talk about connections 
with the militaries of various nations, my mind goes to the 
kind of structure that we have funded for a long time relative 
to Latin America. Something hasn't quite happened there, in 
that, as you look at elections of leaders in that part of the 
world, despite our efforts to try to stop it, leaders and their 
followers turn more and more against the United States.
    And I think it is very instructive, as one looks at a new 
command and this enormous continent of Africa--which I view, 
tragically, as a continent that has been exploited for 
centuries, whether it is labor, the export of labor or the 
internal movement of labor within the African continent today. 
If one looks at the--if you look at the spread of AIDS in 
Africa, from South Africa up to Kenya, if you look at the 
diamond trade and you start understanding a little bit about 
that, you go, ``Oh, well, here we go then.'' There is an 
economic underpinning to the exploitation.
    You mention oil bunkering on page 6 of your testimony, and 
I think about Nigeria and the role of the oil trade and what is 
happening there. And I mentioned the diamond trade and other 
resources. There is a lot of extractive exploitation that has 
gone on by interests outside of the boundaries of the nations 
of Africa.
    And I look at our country, and I think to myself--and we 
were in Pakistan about a year ago, and we have this command 
over there, you know, from Egypt all the way to beyond 
Pakistan. And we think that somehow we are going to manage all 
of this.
    And you talk to the leaders of those countries, and you 
find their understanding of poverty within their own countries 
is almost zero--almost zero. And yet, as you embrace Africa, 
first you embrace poverty and the movement of people away from 
Africa just seeking a better life because their governments 
can't function.
    And I say to myself, what is a better model? What is a 
better model for us to embrace societies that are very 
different than ours that have been historically exploited? And, 
you know, I don't think we have it.
    And I think if you go down the path of WHINSEC, you are not 
going to succeed. I think you are better off to go back to 
George Marshall's, spend some time down at the George Marshall 
house down there at Fort Benning--I think that is in 
Congressman Bishop's district, if I am not mistaken--and just 
sit there and read his works. You have probably done a lot of 
that anyway.
    But we are missing the boat. We are missing the boat. We 
don't seem to be able to transfer democratic practices very 
efficiently.
    We had somebody in here the other day from the Army and 
Marine Corps, and they were saying that what they are going to 
do in Afghanistan now is they are going to take our soldiers 
who come from rural areas and they are going to equip them with 
machine guns and they are going to teach the people of 
Afghanistan how to farm. And I sat here and I listened to that, 
and I thought, ``Good luck.''
    So I think that I would just urge you to be a very harsh 
judge of what the Department of Defense has done in the past 
with very good intentions. But if one looks politically at what 
is happening, the proof is in the pudding that it is not 
working.
    So I thank you very much for listening.

                       REGIONAL INTEGRATION TEAMS

    Mr. Bishop. I have one other question I wanted to ask 
General Ward. And I appreciate the gentlelady's remarks.
    AFRICOM is one of our combatant commands that is designated 
``combat command plus.'' And I think the ``plus'' is because of 
the development and diplomacy that is really so much a part of 
it. And it is really a unique approach. I think only SOUTHCOM 
has really utilized that approach in the past.
    General Ward, I don't know if you have any thoughts about 
it, but some are thinking that this might be a new model for 
our military engagements as we try to improve our national 
security around the world, particularly in places like Africa 
and the other commands where we are.
    Let me just ask you one question about your regional 
integration teams. In 2008, you cancelled your plans to open 
five offices to house the small regional integration teams of 
five or 10 staff people, which would have been dispersed across 
the continent.
    Why did you cancel the plans for those teams? Which nations 
or regions did you ask or did you approach to host those 
regional integration teams?
    And given the expense and the logistics requirements of 
moving staff around the continent and how big the continent is, 
isn't it important to have a presence in those regional 
locations?
    And do you have any plans to try to re-establish, to go 
forward with the regional integration teams in 2010?
    General Ward. Thank you, Chairman.
    If I might, Representative Kaptur mentioned about this 
integration issue. And before I get to the RITs, what I would 
say is that we recognize that the long-term viability of a 
nation rests in, as I mentioned, the integration of those three 
elements: security, development, and diplomacy.
    Our part of that triad is the security part. It needs to be 
happening hand in hand with the work being done in the 
development arena as well as in the diplomacy arena, with the 
representative, some effective governance, taking care of its 
people.
    So we fully recognize that those are integrally linked 
activities, only one of which we are responsible for. The 
diplomacy, the development falls with other agencies of our 
government. And that is why my point about, you know, I clearly 
endorse their capabilities being required as much as ours are 
needed, because, without that, then we don't get the lasting 
benefit of a stable environment.
    With respect to the regional integration teams, kind of 
like the notion of how many interagency people do you need. 
Again, that initial planning team, with that concept, it was a 
concept, quite candidly, one that, as I thought about it more 
and more, and as I listened to our on-continent presence, the 
ambassadors, as well as the nations with whom we were dealing, 
that is not what they felt was most important.
    What they felt was most important was, when it came to 
executing programs in their countries, having an element in 
place that could provide a day-to-day assistance to them. That 
wasn't being provided by these regional integration teams. That 
is provided by our offices of security cooperation.
    So, therefore, my priority is to reinforce, to buttress, to 
build those teams, because that is what is important in our 
delivery of programs on the continent. The planning function, 
the integration of our activity function is done at my 
headquarters, within the headquarters. This notion of how we 
look at the various regions of the continent, we are taking 
care of that.
    And, given the infrastructure on the continent, you know, 
getting around is not facilitated, quite candidly, by being on 
the continent. Most infrastructure travel to Africa requires 
movement through Europe, Frankfurt, Paris. And so it is not 
facilitated by being there, from that coordination point of 
view, outside of the particular country you are in.

                    TRAVEL REQUIREMENTS TO/FROM AOR

    Mr. Bishop. Sir, I am glad you touched upon that. That is a 
good segue onto your transportation challenges. Of course, 11.7 
million square miles is a pretty big area to cover. And we 
appropriated, in 2009, $30 million for operational airlift 
support. Of that amount, $17.5 million was provided to your air 
component, which is the 17th Air Force, for military airlift 
support. And $12.5 million of that was for U.S. Transportation 
Command, TRANSCOM, for the purposes of contracting for AFRICOM 
staff travel support.
    What are the travel requirements of AFRICOM leadership and 
senior staff to and from your area of responsibility? And how 
much of your travel requirement is taken care of by military 
air, and how much of it is contracted out for commercial 
services?
    General Ward. Right now, sir, my staff travel is required 
for our coordination, our exercise planning. We conduct various 
in-process reviews as we prepare to conduct major seminars. 
That is a pretty robust travel requirement for my staff to move 
around the continent.
    The funds that you described there include also the funds 
for moving military supplies and equipment, as these exercises 
are conducted. And so that portion that was provided to my 17th 
Air Force takes care of transporting our military equipment, 
personnel in pursuit of exercises, relief activities, logistics 
sustainment, the----
    Mr. Bishop. You haven't had a lot of that, though, have 
you?
    General Ward. Haven't had a lot of it. We did Flintlock. We 
did Africa Endeavor. And we certainly look to have that 
increase, because, again, the point that Ms. Kilpatrick made, 
our partner countries are asking us for more.
    Mr. Bishop. Okay.
    General Ward. And so this would be very helpful in that 
mobility requirement that we have for moving around the 
continent.
    Mr. Bishop. So that is the military air portion. With the 
TRANSCOM portion, are the services that are contracted for your 
staff use, is it private air service, or is it commercial air 
service? Or what kind of air services are you using with the 
TRANSCOM contractor?
    General Ward. The TRANSCOM contract is both. We have just 
received word of a private contractor, hasn't started just yet, 
it will start at the end of this month, the first of next 
month, for helping with my staff's travel around the continent. 
And that will start, I think, the first of April, sir, that 
TRANSCOM has done that contract for.
    Mr. Bishop. Okay. Finally, with regard to that, do you have 
any challenges, do you foresee there being challenges in your 
having to utilize commercial transportation for mobility around 
Africa?
    General Ward. Oh, yes, sir, there are challenges. The 
challenges are in routing, in scheduling, in frequency of 
schedules. I had a case of one of my staff, who missed one of 
the twice-a-week departures and had to spend an additional 4 
days because of just the infrequency. I think there is one 
carrier that is authorized to travel from--African carrier--
from Africa back to our continent. So there are challenges in 
the commercial airline scheduling regime.
    Mr. Bishop. So is that why you need to rely on the private?
    General Ward. That is why we need the dedicated travel in 
order to do our coordination for building the relationships, 
yes, sir.
    Mr. Bishop. Okay. Thank you, General.
    Mr. Rothman, do you----
    Mr. Rothman. No, thank you. I am going to be reading the 
general's testimony. Thank you.
    Mr. Bishop. Thank you.
    Ms. Kilpatrick, do you have anything else?
    Ms. Kilpatrick. I am fine, sir. Thank you.
    Mr. Bishop. Good.
    General Ward, thank you for your testimony today.
    The Committee is adjourned until it reconvenes this 
afternoon at 1:30.
                                          Thursday, March 19, 2009.

                NAVY AND MARINE CORPS MILITARY PERSONNEL

                               WITNESSES

BARNEY BARNUM, ACTING ASSISTANT SECRETARY OF THE NAVY FOR MANPOWER AND 
    RESERVE AFFAIRS
VICE ADMIRAL MARK E. FERGUSON III, U.S. NAVY, CHIEF OF NAVAL PERSONNEL 
    AND DEPUTY CHIEF OF NAVAL OPERATIONS (MANPOWER, PERSONNEL, 
    TRAINING, AND EDUCATION)
LIEUTENANT GENERAL RONALD S. COLEMAN, DEPUTY COMMANDANT FOR MANPOWER 
    AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

                              Introduction

    Mr. Murtha. Let me start the hearing, but let me read 
something here to the Committee.
    ``Captain Harvey C. `Barney' Barnum, Jr.
    ``Rank and organization: Captain (then Lt.), U.S. Marine 
Corps, Company H, 2d Battalion, 9th Marines, 3d Marine Division 
reinforce. Place and date: Ky Phu in Quang Tin Province, 
Republic of Vietnam, 18 December 1965.
    ``Entered service at: Cheshire, Connecticut. Born: 21 July 
1940, Cheshire, Connecticut.
    ``Citation: For conspicuous gallantry and intrepidity at 
the risk of his life above and beyond the call of duty. When 
the company was suddenly pinned down by a hail of extremely 
accurate enemy fire and was quickly separated from the 
remainder of the battalion by over 500 meters of open and fire-
swept ground, and casualties mounted rapidly. Lt. Barnum 
quickly made a hazardous reconnaissance of the area, seeking 
targets for his artillery. Finding the rifle company commander 
mortally wounded and radio operator killed, he, with complete 
disregard for his safety, gave aid to the dying commander, then 
removed the radio from the dead operator and strapped it to 
himself. He immediately assumed command of the rifle company, 
and moving at once into the midst of the heavy fire, rallying 
and giving encouragement to all units, reorganized them to 
replace the loss of key personnel and led their attacks on 
enemy positions from which deadly fire continued to come. His 
sound and swift decisions and his obvious calm served to 
stabilize the badly decimated units and his gallant example as 
he stood exposed repeatedly to point out targets served as an 
inspiration to all. Provided with two armed helicopters, he 
moved fearlessly through enemy fire to control the air attack 
against the firmly entrenched enemy while skillfully directing 
one platoon in a successful counterattack on the key enemy 
positions. Having thus cleared a small area, he requested and 
directed the landing of two transport helicopters for the 
evacuation of the dead and wounded. He then assisted in the 
mopping up and final seizure of the battalion's objective. His 
gallant initiative and heroic conduct reflected great credit 
upon himself and were in keeping with the highest traditions of 
the Marine Corps and the U.S. Naval Service,'' for which he 
received the Medal of Honor.
    Welcome.
    I was on the board reviewing medals of honor and all medals 
in Vietnam and the first Marines. Never had one who rose to 
this level. We are proud of you.
    And with that, we ask you for any testimony you may have.

                    Summary Statement of Mr. Barnum

    Mr. Barnum. Thank you, Mr. Chairman and other distinguished 
Members of the Subcommittee. It is an honor for me to be with 
you today to testify on the Department of the Navy's manpower 
and personnel. My remarks will be brief so we can get on with 
the questioning and get into the areas that you want to focus 
on.
    You know, as we sit in this room, this hearing room today 
in peace and security, we are at war and it is the young men 
and women of the Navy/Marine Corps team that are on the tip of 
the spear in Iraq and Afghanistan. Your Navy and Marine Corps 
have met all personnel requirements of the combatant commanders 
that are prosecuting the overseas contingency operations and 
our most precious asset, our Marines and Sailors, have 
confronted the challenges of this war head on. They are 
performing marvelously. They make us proud. They are truly the 
linchpin to our success.
    I am accompanied today by Lieutenant General Coleman, the 
Deputy Commandant for Manpower and Reserve Affairs, and Vice 
Admiral Ferguson, the Chief of Navy Personnel. Our mission is 
to provide the right people at the right time and at the right 
place and at the best value, while ensuring the welfare of our 
most important asset: Sailors, Marines, civilian personnel and 
their families; and, together, we look forward to answering 
your questions as we prepare to assist you in understanding how 
we support our Sailors, our Marines, our civilian personnel, 
and our families.
    Thank you, sir.
    No written statement for Mr. Barnum--Committee requested 
statement from the Service Chiefs only.
    Mr. Murtha. Mr. Frelinghuysen, do you have any comments?
    Mr. Frelinghuysen. Just it is my pleasure to welcome you 
here today. I apologize for being late. It is an honor to be in 
your presence, Mr. Barnum, as well as the Admiral and the 
General. Thank you very much.
    Mr. Murtha. We will ask the Admiral next, although we feel 
the Navy is part of the Marine Corps.

                 Summary Statement of Admiral Ferguson

    Admiral Ferguson. I appreciate that courtesy.
    Chairman Murtha and the distinguished Members of the 
Committee, thank you for the opportunity to review with you 
today the Navy's recruiting and retention efforts, as well as 
our end-strength projections for this fiscal year.
    We remain today a global Navy, with over 40 percent of our 
forces underway or deployed. We have increased our operational 
availability through the fleet response plan and are engaging 
in new mission areas in support of the joint force.
    We continue to play a key role in support of joint 
operations in Afghanistan, Iraq, and across the globe by 
providing approximately 14,000 Sailors as individual 
augmentees. With this high operational tempo, we remain 
vigilant concerning stress on our Sailors and their families. 
We ensure that Sailors have adequate opportunity to rest and 
spend time at home between deployments and provide them a 
comprehensive continuum of care.
    The tone of the force is positive. Sailors and their 
families continue to express satisfaction with the morale and 
leadership at their commands, their health care, their benefits 
and compensation.
    Over the past year, we have been successful in recruiting 
high-quality Sailors. In 2008, we achieved our enlisted and 
officer goals across both the Active and Reserve components, 
while exceeding DOD quality standards in all recruit 
categories. For the first time in 5 years, we achieved overall 
Active and Reserve medical officer recruiting goals.
    To ensure the long-term health of the force, we are 
transitioning from a posture of reducing end strength to one we 
term stabilizing the force. To meet global demands and minimize 
stress on the force, the Secretary of the Navy used his end 
strength waiver authority for both 2008 and 2009. We project to 
finish 2009 within 2 percent above our statutory end strength 
authorization.
    The comprehensive benefits provided by the Congress for our 
service members, combined with the current economic conditions, 
have resulted in significantly increased retention and lower 
attrition across the force. We began this fiscal year with an 
end strength of approximately 332,000. Despite cutting 3,000 
accessions, reducing bonuses and being more selective with whom 
we allow to reenlist, we expect to end this fiscal year at 
approximately the same level. Consequently, we project that our 
current appropriated funding levels for manpower and personnel 
will be insufficient for this fiscal year.
    Our stabilization strategy has been directed at sustaining 
a high-quality force able to respond to new mission areas 
within our fiscal authorities. We are guided by the following 
principles: continue to attract and recruit our Nation's best 
and brightest; retain the best Sailors; and target those 
incentives we use to retain only those with the critical skills 
needed to meet mission sets; balance the force in terms of 
seniority, experience, and skills; safeguard the careers of our 
top performers and insure promotion rates; and provide the 
fleet and the joint force stable and predictable manning.
    On behalf of all the men and women in uniform who sacrifice 
daily and their families, I want to extend my sincere 
appreciation to the committee and the Congress for your 
unwavering support for our Navy.
    Thank you very much.
    [The statement of Admiral Ferguson follows:]
    [GRAPHIC] [TIFF OMITTED] T6285A.033
    
    [GRAPHIC] [TIFF OMITTED] T6285A.034
    
    [GRAPHIC] [TIFF OMITTED] T6285A.035
    
    [GRAPHIC] [TIFF OMITTED] T6285A.036
    
    [GRAPHIC] [TIFF OMITTED] T6285A.037
    
    [GRAPHIC] [TIFF OMITTED] T6285A.038
    
    [GRAPHIC] [TIFF OMITTED] T6285A.039
    
    [GRAPHIC] [TIFF OMITTED] T6285A.040
    
    [GRAPHIC] [TIFF OMITTED] T6285A.041
    
    [GRAPHIC] [TIFF OMITTED] T6285A.042
    
    [GRAPHIC] [TIFF OMITTED] T6285A.043
    
    [GRAPHIC] [TIFF OMITTED] T6285A.044
    
    [GRAPHIC] [TIFF OMITTED] T6285A.045
    
    [GRAPHIC] [TIFF OMITTED] T6285A.046
    
    [GRAPHIC] [TIFF OMITTED] T6285A.047
    
    [GRAPHIC] [TIFF OMITTED] T6285A.048
    
    [GRAPHIC] [TIFF OMITTED] T6285A.049
    
    [GRAPHIC] [TIFF OMITTED] T6285A.050
    
    [GRAPHIC] [TIFF OMITTED] T6285A.051
    
    [GRAPHIC] [TIFF OMITTED] T6285A.052
    
    [GRAPHIC] [TIFF OMITTED] T6285A.053
    
    [GRAPHIC] [TIFF OMITTED] T6285A.054
    
    Mr. Murtha. General Coleman.

                  Summary Statement of General Coleman

    General Coleman. Chairman Murtha, distinguished members of 
the Subcommittee, it is my privilege to appear before you today 
to discuss Marine Corps personnel.
    I would like to make a few key points.
    First, in regard to our end strength growth, the Marine 
Corps achieved unprecedented success in fiscal year 2008, 
growing by over 12,000 Marines; and we fully expect to reach 
our goal of 202,000 during fiscal year 2009, 2 years ahead of 
schedule. We owe this historic success in large part to our 
recruiters, who continue to meet all accession goals while 
maintaining the highest quality standards.
    Thank you for your continued support of our enlisted 
incentives, which help to make this achievement possible.
    Secondly, our active component retention continues to be 
successful. In fiscal year 2008, we achieved an unprecedented 
36 percent retention rate among our first-term Marines and are 
building on that success so far in 2009.
    We thank you for your support of our selective reenlistment 
bonus program. It will remain the foundation of our retention 
efforts as we work to maintain vital Marine Corps leadership 
and experience.
    Third, I want to reiterate that a top priority of the 
Commandant of the Marine Corps is caring for our wounded 
warriors and for the families of all our Marines. Our Wounded 
Warrior Regiment is diligently at work implementing a new and 
historic approach to wounded warrior care which makes thriving, 
not just surviving, the expectation of our wounded, ill, and 
injured Marines. Likewise, our family readiness programs have 
undergone a host of significant improvements which continue 
today.
    In closing, I want to thank you and the other Members of 
Congress for your support and partnership. They have been 
central to the strength that your Marine Corps enjoys today. It 
will continue to be essential as we work to shape the Marine 
Corps for the future so that we will always remain the most 
ready when the Nation is least ready.
    I look forward to answering your questions.
    [The statement of General Coleman follows:]
    [GRAPHIC] [TIFF OMITTED] T6285A.055
    
    [GRAPHIC] [TIFF OMITTED] T6285A.056
    
    [GRAPHIC] [TIFF OMITTED] T6285A.057
    
    [GRAPHIC] [TIFF OMITTED] T6285A.058
    
    [GRAPHIC] [TIFF OMITTED] T6285A.059
    
    [GRAPHIC] [TIFF OMITTED] T6285A.060
    
    [GRAPHIC] [TIFF OMITTED] T6285A.061
    
    [GRAPHIC] [TIFF OMITTED] T6285A.062
    
    [GRAPHIC] [TIFF OMITTED] T6285A.063
    
    [GRAPHIC] [TIFF OMITTED] T6285A.064
    
    [GRAPHIC] [TIFF OMITTED] T6285A.065
    
    [GRAPHIC] [TIFF OMITTED] T6285A.066
    
    [GRAPHIC] [TIFF OMITTED] T6285A.067
    
    [GRAPHIC] [TIFF OMITTED] T6285A.068
    
    [GRAPHIC] [TIFF OMITTED] T6285A.069
    
    [GRAPHIC] [TIFF OMITTED] T6285A.070
    
    [GRAPHIC] [TIFF OMITTED] T6285A.071
    
    [GRAPHIC] [TIFF OMITTED] T6285A.072
    
    [GRAPHIC] [TIFF OMITTED] T6285A.073
    
    [GRAPHIC] [TIFF OMITTED] T6285A.074
    
    [GRAPHIC] [TIFF OMITTED] T6285A.075
    
    [GRAPHIC] [TIFF OMITTED] T6285A.076
    
    [GRAPHIC] [TIFF OMITTED] T6285A.077
    
    [GRAPHIC] [TIFF OMITTED] T6285A.078
    
    [GRAPHIC] [TIFF OMITTED] T6285A.079
    
    [GRAPHIC] [TIFF OMITTED] T6285A.080
    
    [GRAPHIC] [TIFF OMITTED] T6285A.081
    
    [GRAPHIC] [TIFF OMITTED] T6285A.082
    
                        RECRUITING AND RETENTION

    Mr. Murtha. I just visited Fort Carson and Fort Benning, 
and I see a difference between what I am hearing here today and 
what I heard at those two bases. I met with 12 enlisted people 
at both bases. Their complaints were diverse, but, in a sense, 
it ends up by saying the people coming into the Army today are 
not meeting the standards they should meet, that the people 
coming into the Army today are less than the standards that we 
accept.
    These are Non-Commissioned Officers (NCOs) that I met with. 
All of them have been deployed to Iraq or Afghanistan or both 
and they picked the people. They were concerned that the Army 
doesn't have the high school graduates you used to have; they 
didn't have the quality they used to have.
    Now, I realize they have got a bigger problem in recruiting 
because they have a lot more people they have to recruit. Is 
this true of the Marine Corps?
    General Coleman. No, sir, it is not.
    A couple of things, sir. The DOD goal is 90 percent high 
school grad; Marine Corps is 96 percent high school grad. One 
A, the goal is 60 percent; we are at 66 percent. I will use a 
Colonel that just retired 2 months ago. He said he was a 
recruiter during the '80s, the '90s, and now 2000, over 30 
years. The recruit today is as good, if not better, than any 
recruit he has ever recruited.
    Mr. Murtha. Navy?
    Admiral Ferguson. I would echo that our recruit quality is 
the finest that we have seen over my career, 94 to 95 percent 
high school grads, 74 percent upper middle group. We see 
extraordinary performance of these young people coming in.
    Mr. Murtha. The Army also had an Antideficiency Act 
violation, we feel, because they requested funds for personnel 
problems. They closed out the books last year and ended up 
without adequate funds available. Do you have that problem, 
either in the Navy or the Marine Corps?
    Admiral Ferguson. Regarding 2008, when the Secretary 
approved the end strength over execution for last year to meet 
the IA demand and fleet manning, we did a reprogramming, which 
was supported by the Congress, to cover those funds. So we did 
not have one in 2008. This year, we project that we will 
require additional funds to meet the manpower training 
requirements.
    General Coleman. That is the same with us, sir. We would 
like to think that as we get up to 202,000 Marines, which we 
will get there this year, I believe, in the June-July time 
frame, we will do it well and with quality. But we will still 
need to shape this force. And then there are some facets, some 
Military Occupational Specialities (MOSs) that, no matter how 
much money we can raise or we can offer them, they won't take 
it, sir.
    Mr. Murtha. Well, I asked you before the hearing started, 
with no problem, basically no problems, why we are having a 
hearing? But it is--you said you are going to give us some good 
news. Well, that is good to hear some good news, because we 
have been getting so much bad news lately from the Army.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Admiral, Mr. Secretary, can we talk a little bit about the 
Navy's nuclear enterprise?
    We had the Air Force in I think within the last couple of 
weeks, and in some ways we were disturbed by some of the things 
we heard but then encouraged by some of the steps that the Air 
Force has sort of taken to sort of correct some things.
    In some of the reports we have read, there has been, 
obviously, mention of some of the Navy's involvement in the 
nuclear enterprise, which is of course a major responsibility. 
And there was some indication that perhaps there are some 
issues that you have. Can you talk to us a little bit about how 
focused you are? I mean, there are some manning issues that I 
think you pointed out in your testimony.
    Admiral Ferguson. From experience, I am a nuclear trained 
officer that came up through--interviewed with Admiral Rickover 
and came through the nuclear propulsion program.
    The Navy has a very strong entrenched program of 
accountability, of oversight, and of supervision that is 
largely centered today within the submarine force as the keeper 
of the Trident deterrent. We looked very carefully at the 
Schlesinger Report and the other lessons. As you know, Admiral 
Donald did that review for the Air Force. We have gone back at 
the direction of the Secretary, looked at all our own 
practices; and, where necessary, we increased personnel that 
were available, both in the production and maintenance of the 
facilities, and looked at security. We feel very comfortable in 
our review of the focus of the supervision and of the 
governance.
    The CNO appointed to the Director of the Navy staff, Vice 
Admiral Harvey, to head the Nuclear Weapons Council, which is 
comprised of three stars and those individuals that oversee 
this facility. So that, coupled with the oversight by Naval 
reactors and Admiral Donald, we feel like it has our focus and 
attention.
    Mr. Frelinghuysen. Well, on page 15 of your testimony, you 
speak about retention in the nuclear propulsion program. 
Correct me if I am wrong. Are you 922 Sailors short of your 
manning requirements across all zones? Is that accurate?
    Admiral Ferguson. That is correct. And those are primarily 
for manning on aircraft carriers and submarines involved in the 
operation of nuclear power plants, as opposed to the weapons 
enterprise, which is separate. So the way that we address that 
is through the enlistment bonuses, selective reenlistment 
bonuses, and increased recruiting. For next year, we have 
increased the number of operators that we will access initially 
by over 600. We feel that, even with those shortfalls, the 
ships are safe and operating correctly.
    Mr. Frelinghuysen. Your report says, and I quote, ``We have 
met our submarine officer retention goals only once in 5 years, 
and we expect to fall 2 percent short of our target in fiscal 
year 2009.''
    Correct me if I am wrong. The submarine forces are 
currently at 452 officers short of requirements?
    ``Demand critical billets Navy-wide.'' End of quotation. Is 
that accurate?
    Admiral Ferguson. Yes, but that is spread across from 
ensign all the way up through captain, through all six pay 
grades in the force. So we got support of the Congress last 
year to raise those bonuses for nuclear officers up to $30,000 
dollars a year, and so the issue with those officers is their 
high level of training. They are in great demand in the 
civilian sector, both in the conventional and nuclear industry, 
as well as in other engineering disciplines. We work very hard 
at retaining them and also giving them adequate compensation.
    Mr. Frelinghuysen. So you are addressing the challenge.
    Admiral Ferguson. Right.
    Mr. Frelinghuysen. And identifying more people that are 
capable.
    Admiral Ferguson. That is correct.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                                BONUSES

    Mr. Moran. Thanks very much, Mr. Chairman.
    Given the fact that the economy and the esprit de corps is 
working very well in the Marine Corps and Navy in terms of 
recruitment and retention, do you still need the bonuses?
    Why don't you tell us, first of all, how much in the way of 
bonuses have been given out? And then I would like to know 
whether this should be an ongoing thing, or is it possible that 
we could cut back on the bonuses since it is questionable 
whether you need that additional incentive anymore?
    General Coleman. Yes, sir. In fiscal year 2009, our 
retention bonus budget was $400 million--401, and recruiting, 
$61.6 million. We did a whale of a job with that, sir. As I 
said, we believe that we will be where we need to be this year 
numberwise but we will still need to shape the force. The 
amount of money that we will need in 2010, I would not hazard a 
guess. I would say that, yes, sir, we will still need bonuses. 
There are MOSs, such as explosive ordnance disposal, air 
crewmen on a C-130, and linguists that we are in steep 
competition with the civilian force, so we will need some 
bonuses.
    Will we always need it to stay at the level we are at? Will 
that be able to drop? I would venture to say probably, sir, but 
I could not hazard a guess now on what we will need in 2010.
    Mr. Moran. So the bonuses are primarily used for the MOSs 
that are in particular demand, where the private sector is more 
competitive in terms of salary and competition.
    General Coleman. I would say mostly. But there may not be 
call for a 0311 rifleman out in the civilian world, but we 
certainly need him in Afghanistan and Iraq, sir.
    Mr. Moran. You mentioned Afghanistan. Of the increase in 
deployment of 17,000, what portion are Marine Corps and Navy?
    General Coleman. Marine Corps is about 10,000 of that sir.
    Mr. Moran. 10,000 of the 17,000?
    General Coleman. Yes, sir.
    Mr. Moran. Are Marine Corps?
    General Coleman. Yes, sir.
    Admiral Ferguson. I think the Navy's share--we haven't got 
the firm requirement request for forces--but is somewhere 
between 1,000 and 2,000.
    Mr. Moran. So you are talking as much as 12,000 out of 
17,000 are non-Army personnel going into Afghanistan.
    Admiral Ferguson. That is our understanding.
    Mr. Moran. I didn't realize that.
    Let me ask you about dealing with PTSD. You have done a 
much improved job, but I am told that Children's Hospital here 
in D.C. has had more than 1,000 children of veterans, recent 
combat personnel, admitted primarily for mental health 
problems. That is a very substantial number. Are you able to 
use any of that money that this Subcommittee has provided for 
the problems associated with the children of combat personnel?
    Admiral Ferguson. We instituted in 2008 a program run by 
the Bureau of Medicine, Families OverComing Under Stress. And 
we reach out to families in that program through the medical 
treatment centers. We also provide support through the family 
support centers and chaplains and those located on base, and 
family service centers, and we have improved those programs as 
well.
    General Coleman. Sir, I would jump on that and concur with 
the Admiral. There are at least nine of our major bases the 
program that Admiral Ferguson is speaking to. So, yes, sir, we 
are reaching out. It is a holistic view of taking care of a 
family.
    Congress was kind enough last year to give the Marine Corps 
quite a bit of money to take care of our families. We have 
spent the money wisely and taken care of our families because 
it is a holistic approach. A Marine joins the Marine Corps, but 
he or she only stays if the family is being taken care of and 
the family feels that they are a part of the Marine Corps, 
also, sir.
    Mr. Moran. Related to that, you have gotten the ratio of 
dwell time up to 1 to 1.2. But how much of that time generally 
is with family versus still away from family in training?
    Admiral Ferguson. Right. The Navy ratio is about 1 to 3, 1 
to 2.8 for most units. We also levy the additional requirement 
is that when they are home they have to be not training or not 
underway for greater than 50 percent of the time. To break that 
limit, the CNO has to approve it. So our lowest limits in some 
of the high-stress units is about 53, 54 percent home.
    General Coleman. Sir, we are not there yet. Our goal is 
when the unit--and most units are in their 1 to 1 or better. 
There are some actually less.
    But you come home from a deployment and you get a 30-day 
block leave where there is no away-from-home time, as far as 
the Marine Corps is concerned. Prior to you deploying again, 
there is another 30-day block time. But before you deploy, 
actually leave CONUS to go, there is a 30-day block training at 
Mojave Viper out at Twentynine Palms, California. So we could 
not say to you that the dwell time when you are home for 7 
months, that you are home for those 7 months. That would be an 
incorrect statement, sir.
    Mr. Moran. Let me ask one more question, if I could.
    We have asked for the number of contractors. We got it from 
the Army, haven't gotten it from the Navy and Marine Corps. 
This goes to our Assistant Secretary here for Manpower. Are you 
working on that report, how many contractors you are relying 
upon?
    Mr. Barnum. I really can't say we are. Because those 
fundings come out of O&M, whereas we are dealing with the 
personnel end, so I would have to get back for the record on 
that.
    Mr. Moran. Okay. Well, we have been concerned about the 
integration of contract personnel, as you know, into what would 
normally be considered inherently military roles. So we are 
interested in that information.
    [The information follows:]

    In responding we assume that the question refers to the requirement 
for inventories and reviews of contracts for services set forth in 
Section 807 of the National Defense Authorization Act for Fiscal Year 
(FY) 2008, which amends Section 2330a of Title 10, U.S. Code. The 
Assistant Secretary of the Navy, Research, Development and Acquisition 
has assigned this task to the Deputy Assistant Secretary of the Navy 
for Acquisition and Logistics Management.
    The Department of Defense is implementing Section 807 in phases 
with first submissions provided during FY 2008 by the Department of the 
Army. In accordance with Deputy Under Secretary of Defense (Acquisition 
and Technology) Memorandum dated May 16, 2008, the Department of the 
Navy (DoN) will deliver a prototype inventory list for review and 
approval in FY 2009. According to the current implementation schedule, 
this prototype inventory list will be submitted to the Office of the 
Secretary of Defense, Defense Procurement Acquisition Policy (DPAP) in 
June 2009 who will in turn formally submit the prototype list to 
Congress.

    Mr. Murtha. Mr. Bishop.

                 STOP LOSS AND INDIVIDUAL READY RESERVE

    Mr. Bishop. Thank you very much, gentlemen, and welcome to 
the Committee.
    Let me just talk a little bit about personnel as it relates 
to stop loss and Individual Ready Reserve (IRR). As I 
understand it, the Marine Corps has not utilized stop/loss, 
really, since 2003. However, you have utilized the IRR 
significantly. I think you have got up to about 10,000 people 
or thereabouts in that category. Is that right?
    General Coleman. IRR yes, sir. But you are speaking total, 
not involuntary? You are just speaking Ready Reserve, is that 
correct, sir?
    Mr. Bishop. Yes, Individual Ready Reserve, people who were 
discharged subject to being recalled in the IRR and who have 
been recalled who are now serving. And I am asking that you 
have allotted 2,500 to be activated at any one time. Is that 
right?
    General Coleman. That is correct, sir.
    Mr. Bishop. And there have been two activations. How is 
that affecting your NCO ranks?
    General Coleman. Yes, sir.
    Mr. Bishop. Because it is my understanding that you can get 
a marine private a lot quicker than you can the officers and 
the NCOs who have to supervise them.
    General Coleman. That is correct, sir.
    Of that number, to date, we have only involuntarily 
recalled 1,800. So there is a great difference between----
    As you would note, sir, if I get out of the Marine Corps 
and my enlistment ends at the 4-year mark and I go into the 
IRR, but there is a war and the country calls and I raise my 
hand to go, then that is one thing. The harder part is when I 
don't raise my hand to go and you tell me, okay, come on, I 
need you anyway. So we have done some of both.
    But the invol has only been about 1,800 and the Commandant 
has decided, on his own, that this 9 tech 2, this unit that is 
going to leave during May of this year, April-May this year to 
April-May of next year, is--we are taking 350 Involuntary 
Reserves, and that is the last time we are doing that.
    Mr. Bishop. What are the specialties of the involuntaries?
    General Coleman. Sir, we need combat arms. All these folks 
will deploy. They will go to Iraq or Afghanistan. Nobody's 
going to stay back in Albany and do anything there. They will 
all deploy. But the specialties we are looking for, combat 
arms, motor T drivers, explosive ordnance, those--the critical 
MOSs that we need for the fight, sir.
    Mr. Bishop. Okay. What about the maintenance people?
    General Coleman. Maintenance also, yes, sir.
    Mr. Bishop. So that would be somebody from Albany?
    General Coleman. Yes, sir.
    Mr. Bishop. The logistics folks.
    General Coleman. Yes, sir, and they are doing a whale of a 
job. Because, as you know, with General Williams down there 
even the active duty are being deployed. It is not often that 
we take Marines from supporting the establishment and pull them 
forward as we have in this long war, sir.
    Mr. Bishop. And you think this is going to be the last 
time.
    General Coleman. This will be the last time. The Commandant 
has said this is the last time we will involuntary recall 
anyone.
    Mr. Bishop. From the IRR.
    General Coleman. From the IRR, yes, sir.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rogers.

                               RECRUITING

    Mr. Rogers. Thank you, Mr. Chairman. Welcome, gentlemen.
    Let me ask each of you, what is the size of your recruiting 
force out there?
    Admiral Ferguson. I will take that.
    I have about 3,800 recruiters in the field and about 
another 2,800 to 3,000 support personnel as classifiers and 
administrative support on top of that.
    General Coleman. I will take that one for the record sir. I 
don't know.
    Mr. Rogers. Answer for the record then.
    [The information follows:]

    What is the size of the Marine Corps' recruiting force?
    Currently, the Marine Corps Recruiting Command's total strength 
(comprised of Marines and Civilians) is 6,465, which includes 3,610 
recruiters.

    Mr. Rogers. Do you know how many recruiting stations?
    General Coleman. But every marine is a recruiter, sir.
    Mr. Rogers. All right. You have got a full house then. How 
many stations do you have?
    Mr. Murtha. Mr. Rogers, if you will yield, let me tell you 
a story about recruiting.
    When I went in the Marine Corps, my mother cried, because I 
left college right in the middle of the Korean War. My second 
brother went to the Marine Corps; she cried. My third brother 
went to the Marine Corps; she cried. When the fourth one was 
ready to go, she cried because she thought he was going to the 
Army.
    She wrote to me. The Marine Corps put so much information 
out that you know you better go to the Marine Corps. And my dad 
was in the Army.
    Mr. Moran. And he said that in front of the Army General 
that was here.
    Mr. Rogers. How many recruiting stations do we have?
    Admiral Ferguson. Navy has approximately 1,400.
    General Coleman. Sir, recruiting, I am not in charge of 
recruiting so that is another one I will take for the record, 
sir.
    [The information follows:]

    Please provide the number of Marine Corps Recruiting Stations.
    The Marine corps has a total of 48 Recruiting Stations.

    Mr. Rogers. Have you noticed, and you may have answered 
this already, Have you noticed a change during these harder 
economic times in the ability to attract recruits?
    Admiral Ferguson. From our standpoint, the quality coming 
in through the door is higher, many with associate degrees and 
other advanced degrees. And we are using fewer waivers. Waivers 
are down about 18 percent this year within the Navy. So much 
higher quality, great willingness to serve, and less issues 
with waivers.
    General Coleman. Sir, we were well on our way before the 
downturn, so at this point we have not noticed any noticeable 
difference in the number of recruits. We have not lowered our 
quality in any way, shape, or form, sir.
    Mr. Rogers. Do you co-locate recruiting stations between 
the services?
    Admiral Ferguson. Approximately 93 percent of our stations 
are co-located.
    General Coleman. Yes, sir.

                           SUICIDE PREVENTION

    Mr. Rogers. One specific note of concern that I want to ask 
you about is suicide prevention. Have you been asked about this 
today already?
    General Coleman. No, sir. Not yet today, no, sir.
    Mr. Rogers. I am told it is the second leading cause of 
death in the Marines. What can you tell us about the trends and 
the causes and what you are doing about it?
    General Coleman. Sir, that is, as far as the Commandant is 
concerned, one of his biggest concerns. He charged the 
Assistant Commandant with having a standdown. So he brought all 
of his senior leaders to Quantico to discuss this.
    We are tracking this. We are fully engaged. We have ordered 
the standdown during the month of March so that every Marine 
will receive suicide training during the month of March. That 
is the whole listing. And then at the junior level, because 
most of our suicides are in the very junior, 18 to 24 years 
old, 95 percent of them in that age group, so they are getting 
hands-on leadership in addition to what we have done.
    Every commander from the O-6 level on has been charged with 
making a video that every recruit sees, or every Marine sees, 
whether they have been in the command for 3 years or are just 
coming into the command. And we are also setting up a hot line 
so that folks can call. Ninety percent of the suicides in the 
Marine Corps have to do with a relationship that has gone 
south.
    Mr. Rogers. You mean with the spouse?
    General Coleman. Female, male or that sort of--whether 
spouse, girlfriend, whatever. But the vast, vast majority have 
something to do with that.
    Mr. Murtha. Will the gentleman yield?
    That doesn't mean the relationship wasn't caused because 
the guy was deployed or the man or woman was deployed?
    General Coleman. Oh, no, sir, in no way shape or form. All 
I am saying is, most of our suicides, a bad relationship is 
what----
    Mr. Murtha. One of the things I found was, talking to the 
Army, some of the Army personnel said the spouses ought to have 
counseling, also. Because the problem is that they are away so 
long, they are young kids, and they can't handle the money. 
They get themselves into trouble.
    So I mentioned this to the health people and said to them, 
you know, let's have some counseling for the family, in 
addition to calling the troops in and give them counseling 
before they go overseas.
    General Coleman. Yes, sir. And I don't want to take up 
time, but if I could just say one thing. Every one is a bad 
one. But you scratch your head and you always say, what could I 
do differently?
    I have been a commander a number of times. In the first 
command, we lost no Marines to suicide. The second command, we 
lost three. One was a young man that I knew from Jersey, and I 
was at Camp Lejeune, and he went home on a long weekend. Danny 
is his name. He came home after the long weekend.
    Now, he had gone to college for a year and dropped out of 
college. And when he went home a year into it, he saw all his 
college buddies who had gone to college and ran track; and he 
was a track star. And he came back, and no one noticed that he 
was down. It was just that he came back. And it would be the 
same with me if I went home and then came back after a weekend 
or whatever, you are down.
    Well, Danny went from North Carolina, from Camp Lejeune. He 
went down to Myrtle Beach, South Carolina, and checked into a 
hotel. Went to a store and got a bucket, a bag of sand, and a 
rope and went out into the pool, put the sand in the bucket, 
put it in the water, tied it to his leg and jumped in the 
water.
    And you ask yourself, what could I have done differently?
    So, I mean, we are all over this. No commander, from any 
branch of the service, wants to see that happen.
    So we are doing everything we can, even involving the young 
Marines in staging. ``Staging'' is probably not the right word, 
but they put on a show that what it does to the family and your 
fellow Marines after you are gone. This is a tough one. And we 
are looking inside.
    But you are right, sir. We have to educate the families 
also that they can see the signs.
    And I apologize for taking up all that time, sir.
    Mr. Rogers. Would you like to respond?
    Admiral Ferguson. We, also, like the Marine Corps, consider 
this a primary responsibility of the chain of command. And we 
have introduced several programs on operational stress control. 
Our data for the year is about 11.6 per 100,000, well below the 
normalized rate. But each one is a tragedy.
    So we are seeing, similar to what Mr. Murtha indicated, is 
the first indicators are often the family. And we are getting 
warnings through the family support centers, through the 
chaplains, and through these other warning indicators; and we 
are going after them aggressively and supporting the families.
    Mr. Rogers. And, lastly, have you noticed whether or not 
the suicides are more prevalent amongst personnel who have been 
deployed recently or are on deployment, as opposed to----
    Admiral Ferguson. Within the Navy, our data shows that, of 
those who committed suicide, less than half had deployed in the 
previous 3 years. So we don't see a correlation between 
deployments. We see that it is generally males, 25 to 35, with 
a failed relationship or depression, and some familiarity with 
a weapon are the primary causal factors.
    Mr. Barnum. The Marine Corps numbers, sir, for 2003 to 
2008, 16 percent committed suicide in country, in Iraq or 
Afghanistan, 32 percent after they were deployed, and 52 
percent had no deployment history.
    Mr. Rogers. Thank you.
    Mr. Murtha. Ms. Kilpatrick.

                          HEALTH AND WELLNESS

    Ms. Kilpatrick. I am stunned. Thank you, Mr. Chairman.
    First of all, I want to commend each of you for your 
service. Medal of Honor, sir, Captain, thank you so much for 
the work that you have done for our country. General Coleman, 
as well, all of your history and all of that; as well as you, 
Admiral. You all bring years of experience and dedication to 
our country, and I just want to say thank you for that.
    I was going to do suicides, but I am not touching that.
    Multiple deployments--and suicides are up everywhere. And I 
don't know if we looked at World War II or Vietnam or Korea, if 
we found deployment had any effect on suicides. But I guess 
they have. I would sit here and think that the time of war--and 
I know one thing I have found, too, after visiting some time 
ago, just recently, I should say, up in Congressman--Chairman 
Dicks' district on a Trident submarine for the first time. 
Admiral, I have read about them a long time, finally looked 
into that scope, got a picture for my dad who is a Navy man. 
Just all that you go through.
    One thing they told us on this Committee--and I have seen 
it even now, having gone on an aircraft carrier and 
submarines--is that the young men and women, Sailors, Marines, 
Airmen, Soldiers, the like, they are dedicated. I served on one 
of the academy boards, and that is what I found, the dedication 
from the young people--and they're children. I am a 
grandmother, so they're children.
    I find in our testimony that we have seen recently that, in 
addition to academics, healthiness or not is probably the next 
most critical thing that you all face as you talk to your 
recruits. And I am leaving suicide. But what about the health 
and wellness and the other thing with health care in the 
military lacking in terms of physicians? We have heard 
testimony on that as well. You may find it. You don't have to 
go there. The nutrition part of what they are, who they are, if 
they can maintain themselves. How much does that play into 
getting on those narrow ladders in the Trident and being 
effective in their daily responsibilities and whether or not 
they are depressed by that?
    I am trying to find out, not being a psychologist or any of 
that, but a grandmother, what is causing this. If it is not the 
deployment, and most people who have sat there have said that 
it is not, that it is other things. They are young, for one 
thing. Can you shed some light on that at all, either of you?
    General Coleman. Ma'am, I would just go back to the failed 
relationships. And I guess, you know, peer pressure now is 
nothing like when I was growing up. The stats for the Marine 
Corps say they are young, they are white, they are in a failed 
relationship, and I would even have thought that maybe, maybe 
alcohol was in it. But it is not, There is nothing that says 
there was a--you know, somebody was sitting around, and they 
are drinking too much. It is usually a failed relationship.
    And, again, as the Secretary said, it is not the 
deployments. I think it is the stress because----
    Ms. Kilpatrick. People don't kill themselves in bad 
relationships when they are out. I guess they do. Some do.
    General Coleman. They do. But there is stress when I 
deploy. But because I deploy, there is stress on the folks back 
home, whether at home or at the unit, because now there is more 
work for the folks back there. So it is a stressful all over.
    But I wish we could go, you know, pick up a book and say, 
this is it, and go attack it.
    Ms. Kilpatrick. Admiral.
    Admiral Ferguson. I would offer that when we looked and 
analyzed our data for those who had deployed and then committed 
suicide subsequently, it occurred normally within the first 6 
months after their return. So we found that the camaraderie, 
the leadership, and the common purpose of a deployment and that 
unit cohesiveness sustained those individuals. And then when 
they returned and had the relationship fail or had an issue, 
that is what set these tragic chain of events in motion.
    So we focused a lot on resiliency and building resiliency, 
both through physical training, mental health, and counseling 
and support; and I think that is the key component in building 
this in the young people who are going through this stressful 
period.
    Ms. Kilpatrick. So then does our health care system--have 
we adequately taken care of what your needs are, both for the 
enlisted as well as for their families? Is there some area we 
need to be beefing up or doing something different with?
    General Coleman. Let me read this, ma'am, and maybe this 
will help us:
    The key risk factors and associated suppressors, most 
common key risk factors reported suicides from 1999 to 2007. 
Depression, 34 percent; psychiatric history, 29 percent; 
anxiety, 23 percent; sense of failure, 20 percent; change in 
usual mood--that is what the Admiral was talking about--20 
percent.
    So I just don't know if we have the number--I don't know 
that we have the number of medical folks that could cover all 
that, and I don't know that that is possible.
    Admiral Ferguson. I would say that an increase in the 
number of mental health professionals in the medical community 
would be appreciated and useful in combating this within the 
service.
    Mr. Murtha. Let me answer for you folks.
    We have been working closely, as you know, with the mental 
health, with the health system as a whole, and this committee 
has probably done more than any committee in the Congress 
making sure you had what you needed to take care of health 
care.
    I meet continuously with Mrs. Emery and Dr. Gassels on this 
problem, suicide, and all these other problems that they have. 
We have put in place a plan where they have a case worker and 
they can hire psychologists.
    Now, we have a shortage of psychologists and psychiatrists 
all over the country, so no matter how much money we put in, we 
can't find enough people and we don't know exact causes.
    I had an incident. Not long ago, I visited one of the 
bases. The base commander's son was killed in Iraq. His other 
son committed suicide. His wife and he were devastated by this. 
They don't know why. He was ready to be commissioned. He would 
have been deployed.
    And suicide is just part of it. Because we know that we are 
going to have 300,000 people with PTSD, and we know the sooner 
we get them the better off we will be. So we are putting every 
bit of money, because of you, because of this committee, into 
health care that they can accumulate or that they can use in 
order to help solve this problem.
    Suicide, divorce rates are up in the Marine Corps and the 
Army because of these long deployments; and 15-month 
deployments are devastating to these troops. And the Marine 
Corps, as General Coleman said, even though they are home, they 
are not home. Because they go to schools, they go to training, 
and they go back over before their time is up. So it is a 
complicated problem.
    We are doing everything we can to make sure that--for 
instance, stop loss. The Secretary made the announcement the 
other day. He said, we are going to take care of stop loss. He 
didn't take care of stop loss. This committee took care of stop 
loss. We put the money in for stop loss, and we are going to 
put money in for stop loss, if everybody agrees to it for the 
whole--everybody who was in stop loss. I mean, 160,000 were 
stop loss. We are going to put the money in.
    And the services, some of the services argued that they 
didn't think it was right. Well, hell, you keep a guy 7 months 
past his deployment or past his enlistment, he ought to be 
given reimbursement for that. And I think this subcommittee 
will agree with me when we go to do that.
    But this is a major problem, this health care situation. So 
I appreciate Ms. Kilpatrick. This committee has been at the 
forefront of this issue, Bill Young, myself, and all the rest 
of the committee, a lot of suggestions, a lot of 
recommendations, and we have tried to follow all of them.
    Mr. Barnum. Mr. Chairman, we sincerely appreciate all the 
committee has done over the past years. And I think we are 
leaning forward in the saddle, and we are confronting the 
issues. As General Coleman just said, we wish we could turn the 
page of the book and all the answers would be there.
    But I think that BUMED has taken the lead on many of these. 
We have got a study going on with UCLA now on resiliency within 
the family and other programs, and we are hiring professionals 
to go into units. So I think we have identified the problem and 
we are attacking it.
    Mr. Murtha. Mr. Bishop, did you have a question on this?

                               DEPRESSION

    Mr. Bishop. Yes, sir. I just wanted to weigh in.
    I was listening to the statistics--you said depression, 
sense of failure, anxiety, failure of relationships. Those are 
more or less the symptoms, as opposed to necessarily the 
problem. The question is, why are they depressed? Why do they 
have a sense of failure? Why is there anxiety? And which 
results in the family rise of divorce?
    I would think that you have got adultery, you have got the 
strain on the relationship when you have got these extended 
deployments. Once that happens, you have got young people, you 
know, under 35 years old that may not have the experience and 
the maturity to be able to handle those kind of 
disappointments. They come back, and they have got a child that 
wasn't theirs. They come back, and they find out that the guy 
down the street was dating their wife, or something of that 
order. And those kinds of stresses lead to the sense of 
failure.
    I am a failure as a husband. Boom, I blow my brains out. I 
am depressed because my buddy has now been with my wife, and 
everybody on the post knows it.
    Those are the kinds of--problems that are a result of the 
multiple deployments which is hidden when you just say that the 
source, the causes of the suicide is depression, sense of 
failure, anxiety or failure of a relationship. Why does the 
relationship fail? And the strain and the not-sufficient dwell 
time to reinforce these relationships is what is driving that 
stress and that suicide rate.
    Mr. Murtha. Mr. Kingston.

              CHANGING NAME OF THE DEPARTMENT OF THE NAVY

    Mr. Kingston. Thank you, Mr. Chairman.
    I wanted to ask a question about this bill that has been 
offered by Walter Jones that changes the name of the Department 
of the Navy and Marine Corps. Do you guys have any opinion? Do 
you hear anybody talking about that might be a more diplomatic 
way? Not necessarily your own opinion, but what kind of 
opinions do you hear? The Chairman has already said he is 
amending it to change the wording around.
    Mr. Barnum. I think my opinion would be interesting but 
irrelevant right now.
    I have talked to Congressman Jones; and, of course, having 
earned the title of Marine, as the Chairman has, there is an 
emotional aspect and there is a reality aspect. It is not going 
to change, my opinion, the authority of the Secretary of the 
Navy. I think it has brought on a lot of levity to some times 
when there was tension in the room. But I think we have more 
important things on the table to accomplish than changing the 
name of the Navy to the Navy and the Marine Corps.
    Mr. Kingston. I just think about the Army several years ago 
deciding that the Rangers couldn't have the black beret, that 
everybody had to have the same color beret. So we are known to 
do things like this.
    Mr. Barnum. Well, every false step is a learning 
experience. We shouldn't make that mistake.

                                TRAINING

    Mr. Kingston. My question is, in terms of the training for 
Afghanistan, you have got 17,000 Marines going there. How is 
the training? Are you able to train on the equipment that you 
will be using?
    General Coleman. We will train on like equipment. It will 
not be necessarily the item that you have when you go to Mojave 
Viper, which is at Twentynine Palms, California. It may not be 
that same item, but it will be a like item that will, in most 
cases, will already be there or you will take from your home 
base.
    Mr. Kingston. Are you familiar with the firearms training 
system that they have in the Army? I don't know if the Marines 
have it or not. I know a lot of Guard units have it in the Army 
and then the regular Army has it.
    Mr. Barnum. You are talking about the FAST system, which is 
a simulator?
    Mr. Kingston. Yes.
    Mr. Barnum. Yes.
    Mr. Kingston. Are you training on that through the Marines?
    Mr. Barnum. We have some Reserve units that have utilized 
that system while they were at Twentynine Palms.
    Mr. Kingston. It saves money, but it is also basically the 
real weapon itself and very close to lifelike, is that correct?
    Mr. Barnum. That is very true, and I think that you are 
going to see a lot of that used in our military police units 
that are scattered around. And it is a good system, and we are 
using it with some deployed units. But the Army and the Coast 
Guard, as you probably know, are the biggest users, as I 
remember that system.
    Mr. Kingston. Is there anything we need to know in terms of 
training the Marines? Is there anything you do not have that we 
need to be aware of?
    General Coleman. I think that Congress as a whole and this 
committee specifically has done volumes for us. I would ask 
that we slowly proceed in any drawdown and retention bonuses. 
That would be my fear, is where do we go? And it is not that 
Marines feel that they, okay, this is something that they will 
always have. But in the near term, until we get right-sized and 
structured correctly, that would be my fear, is that we would 
do that. Along with, as Ms. Kilpatrick said, the health of our 
people is our biggest concern. So if we can get what we need 
for the medical side, that would be my desire, sir.
    Mr. Kingston. In terms of the physical conditioning, is it 
just as tough as it has always been? Or we had some NCOs tell 
some folks on a codel that they did not think that the newer 
Soldiers, talking about the Army Soldiers, were as physically 
up to speed as they needed to be. Are you seeing that in the 
Navy or in the Marines?
    Admiral Ferguson. We run a physical fitness test twice a 
year. That is standard, has not changed within the Navy. What 
we are seeing is probably more of a national issue of the ones 
coming out of high school in the recruiting station. About 50 
percent fail the physical test the first time they take it. We 
put them on a remedial program and work with them such that 
after they finish basic military training less than one-half of 
1 percent have a problem with failure. So we are very 
comfortable with the physical standards and how they are 
performing.
    General Coleman. We train them like we always have, sir, 
hard.
    Mr. Kingston. I thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Well, we appreciate your coming before the 
Committee. To my knowledge, we have only had one other 
Congressional Medal of Honor winner before the committee, and 
that was the guy that took MacArthur out of Corregidor. Buckley 
was his name I think, if I remember. He was the IG for a number 
of years, and they kept him on long past his retirement age. 
And so we are honored to have all three of you, but especially 
yourself, Mr. Secretary.
    Mr. Barnum. Well, thank you very much. It has been an honor 
to testify. I have got to do a lot of things in my life, and 
this is a first. So thank you very much.
    And I appreciate, I really do, on behalf of the Sailors and 
Marines that the three of us represent, we really appreciate 
the efforts of this committee. You talk the talk, and you walk 
the walk. We are very appreciative. Thank you.
    Mr. Murtha. The Committee will adjourn till next week.
    [Clerk's Note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

               Individual Augmentation (IA) Requirements

    Question. Since September 11, 2001, 76,000 Sailors have served on 
IA tours. In IA assignments Navy Sailors are in some cases filling in 
for Army and Marine Corps personnel. These assignments can be outside a 
Sailor's typical occupational experience and range from detainee 
operations to counter-improvised explosive devices operations. The Navy 
currently has 10,935 IAs and of the, 6,069 IAs are in Iraq and 
Afghanistan. Of the 6,069 IAs approximately 2,059 are noncore 
requirements. The Navy currently pays the cost of IAs from the base 
budget and has requested to fund this cost out of the FY2009 
supplemental.
    Admiral Ferguson, please explain the IA process. Do sailors 
volunteer for IA billets or are they involuntarily placed in IA 
billets?
    Answer. Combatant Commanders (COCOMs) identify requirements, which 
are forwarded to the Joint Staff for validation. Following validation 
of a Request for Forces (RFF) and Joint Manning Documents (JMDs), the 
requirements are sent to Joint Forces Command (JFCOM) for Service 
review and sourcing. Navy reviews requirements based on our capability 
and capacity to fill them, across both active and reserve components. 
Upon completion of our review a sourcing recommendation is forwarded to 
JFCOM and the Joint Staff and, when ordered by the Secretary of 
Defense, is released for execution.
    Navy uses two approaches in sourcing Combatant Commander 
requirements: GWOT Support Assignment (GSA) and Individual Augmentee 
Manpower Management (IAMM). In the GSA process, orders are issued in 
conjunction with a permanent change of station; thereby minimizing 
disruption in the lives of Sailors and their families by completion of 
an IA as part of the normal reassignment process. New and unstable 
requirements in support of overseas contingency operations, which 
cannot be accomplished through the GSA process, may be fulfilled by 
active or reserve component personnel through the legacy IA process, 
known as IAMM, which can occur during the course of a Sailors current 
assignment. Support for Sailors continues throughout their deployment 
(First I-stop, training and arrival in theater) and redeployment.
    IA billets are filled through both voluntary and involuntary 
assignments. By volunteering, Sailors are able to exercise greater 
influence over the timing and specific billet to which they may be 
assigned. Involuntary assignments are used to fill IAs for which no 
volunteer is identified. To the maximum extent possible, we attempt to 
use the less disruptive GSA approach to fill both voluntary and 
involuntary IA assignments. The predictability of the GSA process 
incentivizes volunteerism by affording Sailors the opportunity to work 
an IA into a normal career progression.
    Question. Are sailors ever taken mid-tour and placed in IA billets?
    Answer. To the maximum extent possible, we fill IA assignments 
through the GSA process. However, emerging demands dictate filling an 
IA requirement through a mid-tour IAMM assignment. The current split is 
approximately 41% IA/GSA, and 59% IAMM.
    Question. How long does the typical IA assignment last?
    Answer. Typically, an IA assignment runs from 210 days to 365 days 
in country, frequently referred to as ``boots on the ground'' depending 
on type of mission. This timeframe does not include pre-deployment 
training.
    Question. Admiral Ferguson, some IA billets are outside a Sailor's 
typical occupational experience. What are some examples of these IA 
billets?
    Answer. Approximately 4,440 Sailors are serving as IAs supporting 
``temporary'' missions. These are capabilities for which Navy does not 
have a standard military force employment package. Examples include 
Civil Affairs, Provincial Reconstruction Teams (PRTs), and Detainee 
Operations. Approximately 2,700 Sailors are serving as IAs supporting 
``adaptive core'' missions. These are capabilities for which a service 
can expand a core capability to perform with additional training and 
equipping. Examples include Counter-IED operations, Military Police, 
and Base Operations.
    Questions. Since these IA billets are outside the Navy's core 
mission, please explain how Sailors are trained for these billets?
    Answer. Training is coordinated by US Fleet Forces Command through 
Joint Forces Command and Army, to provide mission specific training 
conducted by Army at various training sites that meet Central Command 
standards. For example, Civil Affairs and PRT training is conducted at 
Ft Bragg and Detainee Operations can be conducted at Ft Lewis, 
Washington and Ft Dix.
    Question. Admiral Ferguson, what IA billets line up with the Navy's 
core mission and how are they filled?
    Answer. Approximately 7,000 Sailors are serving as IAs in support 
of ``core'' missions. Core missions are capabilities for which the 
service is uniquely responsible (Title 10) and has a standard, mission-
ready, capable military force employment package. Examples include 
construction (Seabees), airlift support, cargo handling, maritime and 
port security, and medical/Marine Corps support.
    Question. Does the Navy fill core IA billets first, then noncore IA 
billets or vice versa?
    Answer. Navy does not source IA billets based on whether they are 
core or non-core, rather sources augmentation requirements based on 
Joint Staff guidance, typically as Combatant Commander demand is 
reviewed and approved by Joint Staff. The Services source these as they 
occur based on capability and capacity.
    Question. Admiral Ferguson, is the Navy experiencing any problems 
filling these IA missions?
    Answer. Currently, we are meeting 100% of our IA missions with 
qualified Sailors while sustaining appropriate dwell time. Growth in 
certain critical skill sets demands specialties such as Intel, Supply, 
Explosive Ordnance Disposal, Engineer and certain Medical Professions, 
which may present increased challenges in meeting the demand without a 
reduction in dwell time for our Sailors.
    Question. Mr. Barnum, are any of the IA billets being assimilated 
into the Navy's Core mission?
    Answer. Navy is not growing any new mission areas due to demand. 
For example, Navy is not building Detainee Companies, Embedded Training 
Teams or PRTs as part of its Core Mission. Additionally, Navy uses 
existing skill sets with additional training that support Adaptive Core 
Mission areas. The Department has agreed to fund some skill sets that 
support Adaptive Core requirements and will support traditional Navy 
missions.
    Question. If so, how many were once performed by the Army and 
Marine Corps?
    Answer. Not applicable
    Question. Mr. Barnum, are there any new missions and requirements 
that the Navy may take on in the future?
    Answer. Navy's stabilization strategy is directed at sustaining a 
high quality force to meet the demands of the Maritime Strategy and the 
joint warfighter, while at the same time being able to respond to new 
mission areas. New and expanded mission areas include riverine warfare, 
cyber and missile defense, and SEAL/SOF (intelligence, naval coastal 
warfare, UAV, submarine operations).
    Question. Mr. Barnum, how many sailors are currently deployed in 
the Central Command Area of Responsibility and of that how many are 
used for IA missions?
    Answer. As of 16 March, thee were a total  23,800 Sailors deployed 
in the CENTCOM AOR. Of those,  14,400 are ashore and  9,400 afloat. 
The forces ashore include  8,200 augmentees sourced with a mix of 
Active and Reserve personnel.
    Question. Admiral Ferguson, what was the overall scope of the 
Navy's IA billet responsibilities over the last several years to the 
present?
    Answer. We have experienced growth over the past two and half 
years. In August of 2006 there were  9,500 augmentation requirements. 
This has increased to  11,000 requirements in April 2009. Navy expects 
these requirements to increase supporting operations in Afghanistan, 
for additional  1,600 from its current level. This includes current 
and expected support to Marine Corps units. Navy's contribution will 
remain steady provided no new growth is requested. Additionally, Navy 
contribution in Iraq is aligned to Battlespace (Counter-Rocket, 
Artillery, and Mortar/Base Operations/Navy Mobile Construction 
Battalions) and Specific Mission areas (Detainee Operations). As 
missions are returned to the Iraqis and Central Command reduces its 
footprint, then Navy may see a reduction.
                           navy end strength
    Question. Admiral Ferguson, given that the Navy IA billet demand 
appears to only be increasing, what does the Navy expect its future end 
strength to be (active duty, guard, and reserve numbers)?
    Answer. I expect to finish FY09 at an end strength level of 
approximately 331,000. At this point in the FY10 budget build, I expect 
to need fewer Sailors next year, but that number is contingent on 
pending decisions. On the reserve side, I expect to finish FY09 around 
66,700 end strength. FY10 reserve requirements are likely to be less, 
although they are also contingent on pending decisions.
    Question. Admiral Ferguson, please explain how ``sailor behavior'' 
is driving this over strength and what actions you are taking to get to 
the planned fiscal year 2009 end strength?
    Answer. We are experiencing increased retention and reduced 
attrition behaviors likely attributable to the economy. This is 
resulting in greater than planned for end-strength.
    To meet Combatant Commander Individual Augmentation demand and 
reduce stress on the force, the Secretary of the Navy approved a fiscal 
year 2009 end strength level two percent above our current 
authorization. While this action was operationally driven, it will 
allow us to remain within Secretary of the Navy approved end strength 
levels.
    To maintain a balanced force in terms of seniority, experience, and 
skills, we have implemented a comprehensive force stabilization 
strategy. We have also implemented, or will implement, a number of 
force shaping measures, including: time in grade waivers, reducing or 
eliminating selective reenlistment bonuses, performance-based 
continuation boards for enlisted personnel with greater than 20 years 
of service, Perform to Serve and voluntary early separations.
    Question. Admiral Ferguson, what is the additional cost of this 
over strength?
    Answer. The total cost due to over strength is $952M.
                       marine corps end strength
    Question. General Coleman, adding more enlisted Marines means 
adding more officers to lead them, but growing officers remains a 
struggle because of the time it takes to train an officer. What steps 
are the Marine Corps taking to match the officer side of growth to 
enlisted side?
    Answer. The Marine Corps increased both input and throughput for 
our officers, specifically:
    <bullet> Increased its share of graduates from the Naval Academy 
and NROTC
    <bullet> Lifted caps on, and encouraged the participation in, the 
enlisted-to-officer programs.
    <bullet> Provided for incentives to encourage officer accessions 
through the College Loan Repayment Program and the Officer Accession 
Incentive (FY09 initiative).
    <bullet> Increased staffing and billeting space at officer training 
venues to increase through-put thus reducing time-to-train (OCS, TBS, 
and MOS schools).
    Question. When do you think that the Marine Corps will reach the 
correct ratio of officers to enlisted?
    Answer. The Marine Corps expects to have the necessary officer-to-
enlisted ratio by the end of FY 2010.

                     Navy Recruiting and Retention

    Question. Admiral Ferguson, since the Navy is doing well in both 
the retention and recruiting side, what force shaping measures will the 
Navy use to get the ``right mix'' of personnel it needs?
    Answer. Navy will continue to focus on performance while 
maintaining a balance between seniority, experience, and skills. To do 
this, we have instituted a number of measures on the enlisted side 
including adjusting reenlistment bonuses, incorporating ``Perform to 
Serve'' through 14 years of service, allowing time-in-grade waivers for 
retirement, and implementing a continuation board for E7-E9 with over 
20 years of service. On the officer side, we will use a probationary 
officer review board intended to identify the highest performing 
officers for retention, we are similarly allowing waivers of active 
duty minimum service requirement, in targeted communities, to permit 
officers who will otherwise separate upon completing their service 
obligation, to depart the Navy up to one year early.
    In addition, we are adjusting our reenlistment bonuses to retain 
our best Sailors with critical skills. We also have focused our 
recruiting efforts on matching individuals to critical ratings.
    Question. Admiral Ferguson, since you are doing so well with 
retaining and recruiting sailors, will this help ease the burden of IA 
billets?
    Answer.Yes; the success we have experienced with recruiting and 
retaining high-quality Sailors will enable us to better fill our IA 
requirements and meet Fleet manning requirements.
    Question. Admiral Ferguson, has the Navy instituted any retraining 
efforts for officers and enlisted, targeting career fields with 
overages and shifting them into career fields with identified 
shortages? If so, please explain how the Navy chooses the personnel to 
retrain, and the average cost to the Navy to retrain these sailors.
    Answer. Navy active and reserve components have existing programs 
and processes designed for targeting and retraining enlisted Sailors 
from overmanned to undermanned skill sets. Enlisted Sailors in 
overmanned ratings are initially identified during Career Development 
Boards. These sailors are encouraged to consider a conversion to an 
undermanned rating for which they are fully qualified. Additionally, 
the Perform to Serve (PTS) process requires all Sailors with less than 
14 years of service to request reenlistment approval in their current 
rating or to convert to undermanned ratings based on the needs of the 
Navy. To achieve proper manning levels with Sailors possessing the 
appropriate skill sets, bonuses are paid to those who qualify for, and 
agree to convert to, ratings with identified shortages. Some ratings 
require traditional classroom training, while others can be 
accomplished through on-the-job training.
    Currently no officer designators are overmanned such that 
redesignation is required. However, through the lateral transfer/force 
shaping process, opportunities exist for redesignation and retraining. 
Additionally, individuals who do not make it through initial training 
pipelines may apply to redesignate to another, undermanned, community. 
If accepted they will be retrained in that community.
    Both active and reserve components have tools available to educate 
members of the enlisted and officer communities to become familiar with 
other career fields (training requirements, occupational details, sea/
shore rotations, and geographic demand). Opportunities exist for 
Sailors in overmanned ratings/designators to retrain into undermanned 
ratings/designators as they transition between Navy components.
    Costs associated with retraining and redesignating Sailors are 
negligible, since personnel are assigned to available training seats 
previously budgeted as part of the annual training plan.
    Question. Admiral Ferguson, since retention is at an all time high 
and recruiting is doing very well, are critical career fields having an 
easier time being filed? If not, why, and what efforts are being taken 
to fill shortages?
    Answer. Navy continues to experience sustained recruiting success, 
increased retention, and reduced attrition. While enlisted active and 
reserve recruiting goals have been met for 23 straight months through 
March 2009, this fiscal year is marked by higher retention and lower 
attrition than predicted due to pressure from the current national 
economy.
    This fiscal year, Navy has been successful recruiting critical 
skills. As of April 20, we have recruited greater than 93 percent of 
the requirement for Nuclear Field enlisted recruits, SEALS, Special 
Warfare Combat Crewman, Navy Divers, Explosive Ordnance Disposal 
Technicians, and Enlisted Aircrew. Two ratings we continue to focus on 
are Cryptologic Technician Interpretive (CTI) at 77.6 percent and 
Enlisted Aircrew Rescue Swimmers (AIRR) at 55.5 percent. CTI is one of 
very few ratings still available for a retention bonus and, combined 
with a $20K enlistment bonus, the fill rate is increasing. We are 
attempting to get healthy in the AIRR rating through the combination of 
a $25K enlistment bonus and filling with recruits who are unable to 
complete SEAL training, by reclassifying these individuals as Rescue 
Swimmers.
    The positive retention environment Navy has experienced this year 
is reflected across the majority of critical skills including Special 
Operations, EOD, Divers, Missile Technicians, and CTIs. Strength 
increases based upon new mission requirements require Special Warfare 
Boat Operator and Computer Network Technician retention over execution 
to achieve force requirements. Nuclear operators, dental and medical 
officers, and Independent Duty Corpsman remain a focus as competition 
from the civilian sector and high operational tempo continue to 
challenge retention in these fields. Given the change in retention and 
loss behavior, we are focused on stabilizing the force through a 
targeted investment approach--reducing or eliminating monetary 
incentives where they are not needed and through continued investment 
in critical skills.
    Question. Mr. Barnum, has the Navy analyzed why critical-mission 
military occupational specialties have consistently been under-filled? 
What is the operational impact of these shortages? What resources are 
needed to fill these positions?
    Answer. Yes, Navy has conducted such analysis.
    Unprecedented recruiting success, coupled with historic retention 
rates and low attrition, continues to strengthen the health of 
critical-mission ratings. As the Global War on Terrorism took shape, 
Navy developed strategies to grow in some of the mission-critical 
ratings.
    Navy developed a multi-pronged approach to growing in mission-
critical ratings. We expanded Navy Recruiting efforts through 
dedication of manpower, increased enlistment bonuses and focused 
recruiting programs; we conducted in-depth training pipeline analyses 
to identify efficiency gains; and we focused retention bonuses to 
ensure community health and retained growth. Since many mission-
critical ratings are in demand by the civilian economy, it is vital 
that we maintain specific enlistment and retention bonuses, and 
continue with plans to expand training throughout.
    Operational impact upon critical skill shortages creates 
considerable stress on the force in terms of additional deployments and 
``away-from-home'' time, impacting the Sailors and their families, and 
ultimately community health and retention. The SEAL officer community, 
for example, is the cohort arguable experiencing the greatest OPTEMPO 
in terms of combat deployments: an average of four combat deployments 
per Officer. It is currently 68 percent manned and is still in a DOD-
directed growth phase. Consequently, it is easy to see how the loss of 
just one SEAL significantly impacts the community's long-term health. 
Forward-deployed operational jobs are considered the most critical 
fills; where shortages occur, the CONUS-based, non-deployable jobs go 
unfilled, introduced shortfalls in the training commands (and staffs) 
which directly impacts the readiness of the Force.
    Question. Mr. Barnum, recruiting and retention goals are often 
relayed to Congress in the aggregate, providing little or no visibility 
into how each occupational specialty is staffed. Please provide the 
Committee details on recruiting and retention by military occupational 
specialty (MOS).
    Answer. Please see the attached regarding the details on recruiting 
and retention for enlisted and officer communities in the Navy.
    Navy recruiting continues to do well for both enlisted and officer 
communities. We do have certain specialties that continually require 
attention, especially the officer and enlisted nuclear fields and 
healthy profession officers.
    For enlisted, retention is broken down into zones and is calculated 
by the number of individuals who have re-listed and are currently on 
active duty in the particular zone. The three zones Navy is most 
concerned about are Zones A, B, and C. Zone A is 0-6 years on active 
duty, Zone B is 6-10 years, and Zone C is 10-14 years.
    For officers, retention is community specific since each community 
has specific milestones an officer is required to meet.
[GRAPHIC] [TIFF OMITTED] T6285A.083

[GRAPHIC] [TIFF OMITTED] T6285A.084

[GRAPHIC] [TIFF OMITTED] T6285A.085

[GRAPHIC] [TIFF OMITTED] T6285A.086

[GRAPHIC] [TIFF OMITTED] T6285A.087

[GRAPHIC] [TIFF OMITTED] T6285A.088

[GRAPHIC] [TIFF OMITTED] T6285A.089

[GRAPHIC] [TIFF OMITTED] T6285A.090

[GRAPHIC] [TIFF OMITTED] T6285A.091

[GRAPHIC] [TIFF OMITTED] T6285A.092

                 Marine Corps Recruiting and Retention

    Question. Mr. Barnum, are there plans to analyze how to keep 
mission-critical MOSs filled, and what is the operational impact of 
these shortages?
    Answer. The Marine Corps is constantly analyzing how to fill all 
MOSs, HD/LD MOSs in particular. Accession and Retention Plans are 
developed to fill all MOS requirements. Shortages in mission-critical 
MOSs have an operational impact on the Marines currently in the MOS as 
they will have less opportunity for dwell. Individually, Marines in 
these MOSs likely have less opportunity to experience other aspects of 
the Marine Corps, e.g., Special Duty Assignments, that tend to provide 
for professional growth as a Marine leader and to positively affect 
retention propensity. Commanders and their Marines always work toward 
the mission and mitigate the consequences of shortages in mission-
critical MOSs.
    Question. General Coleman, the Committee is very concerned 
regarding the recruitment and retention of mission-critical Military 
Occupational Specialties (MOS). Given the poor state of the economy and 
increased retention, has the fill rate for these MOSs improved? If not, 
what steps are you taking to fill these positions?
    Answer. Fill rates in critical MOSs have greatly improved during 
FY09. Prudent use of Enlistment Bonuses has allowed us to increase the 
numbers of accessions in our critical programs that will support 
shortfalls and reenlistments in the future. With respect to retention, 
Selective Reenlistment Bonuses (SRB) have allowed us to reenlist 291 
more Marines from our ten most critical MOSs as compared to the same 
time last year. Challenges continue for some MOSs (i.e. Intel, EOD, 
etc.) that are both lateral move MOSs and increased as a result of the 
202K growth. Again, a strong SRB program has allowed us to entice 
Marines to reenlist for a lateral move into these critical MOSs.
    Question. General Coleman, recruiting and retention goals are often 
relayed to Congress in the aggregate, providing little or no visibility 
into how each occupational specialty is staffed. Please provide the 
Committee with details on recruiting and retention by MOS?
    <bullet> 76% (31 OF 41) Occ Fields are * 90% of 202K requirement
          3 over 110% (03,31,46)
          Largest Occ Field 03XX (Infantry) at 119% (+6,185)
    <bullet> 24% (10 of 41) Occ Fields are < 90% of 202K requirement
          Shortest Occ Field 73XX (Enlisted Flight Crews) at 69% (-156)
    <bullet> 83% (34 OF 41) Occ Fields are forecasted to be * 90% of 
202K requirement by end of FY09
    <bullet> All Occupational fields forecasted to be * 90% of 202K 
requirement by end of FY12

                 Navy Enlistment and Retention Bonuses

    Question. Admiral Ferguson, to date, what was the total dollar 
amount spent on Navy recruiting and retention bonuses for FY2009?
    Answer. To date, Navy has spent approximately $423M on recruiting 
and retention bonuses. This amount includes both initial and 
anniversary payments.
    Question. General Coleman, to date, what was the total dollar 
amount spent on Marine Corps recruiting and retention bonuses for 
FY2009?
    Answer. To date, the Marine Corps has spent $30.9M on Enlistment 
Bonuses and $236.2M on retention bonuses.
    Question. Admiral Ferguson, what is the range of individual bonuses 
for recruiting? For retention? Please explain why there are 
differences.
    Answer. There are a wide range of bonuses used by Navy to recruit 
and retain Sailors. While the bonus programs may vary in programmatic 
details, they are all derived from market analysis. We adjust the 
specific bonus amount for a given skill in response to the projected 
effect current and future economic conditions will have on manning and 
retention levels.
    Bonuses are employed in recruiting to attract individuals with 
specialized, critical skills. Most ratings in the Navy are eligible for 
Enlistment Bonuses (EB) such as language proficiency. In response to 
demand for Navy employment, Navy Recruiting Command has cut the number 
of active duty EB eligible ratings from 52 to just 10 in FY09. Because 
recruitment of Sailors begins as much as one year before accession on 
active duty, recruitment bonuses are based almost entirely on current 
conditions rather than on economic projections over the lifetime of a 
Sailor. Currently, EBs range from $6,000 to $40,000 for active duty 
accessions and are paid at gates based on program specifications such 
as completion of Recruit Training, completion of ``A'' or ``C'' School, 
or completion of specialized training curriculum. For FY08, 45% of the 
38,485 active duty accessions took an enlistment bonus. For FY09, 48% 
of the projected 35,500 active duty accessions have elected to receive 
an EB.
    Selective Reenlistment Bonus (SRB) amounts can range from $0, where 
we have determined a bonus is not needed to meet our retention goals 
for a given rating/skill, to a maximum of $90,000, used to retain 
personnel in some of our most critical, highly-technical skill sets, 
where training investments and replacement costs are high. Within this 
range, Navy employs econometric modeling to target SRB payment levels 
to achieve critical skill retention. For example, at the beginning of 
FY09 approximately 38,000 of 270,000 sailors were eligible for SRB. To 
date, we have reenlisted 9,163 members, and under our most recent award 
plan released 11 March about 5,500 eligible sailors remained who had 
not made their reenlistment decision.
    We have also instituted several retention bonus programs under the 
umbrella of the Critical Skills Retention Bonus (CSRB) authorized in 37 
U.S. Code 355. In general, bonus programs under this authority are 
targeted at very specific, hard to retain and hard to replace 
populations at the more senior points in the career continuum. CSRB 
amounts can be as much as $150,000 lump-sum payments for Special 
Operations Technicians (i.e., SEALs) with 19 years of service who agree 
to remain on active duty for 6 years. Members are not authorized to 
receive more than one bonus at a time.
    Question. General Coleman, what is the range of individual bonuses 
for recruiting? For retention? Please explain why there are 
differences.
    Answer. The range for recruiting bonuses is $5-$25K. There are two 
objectives of recruiting bonuses. One, is to attract qualified 
applicants into specific programs which are either critically short or 
to fill those technical fields that require high educational or test 
prerequisites. Two, is to ship recruits at specific times of the year 
which optimizes the training process. This range accurately reflects 
those aspects in detail.
    Selective Reenlistment Bonuses (SRB) range from a low of $5,500 to 
a high of $89,000. There are differences for three primary reasons: (1) 
some MOSs had high inventories which required a lower reenlistment 
rate; (2) increase in 202K requirements; and (3) civilian employment 
opportunities.
    Fifty-four MOSs (approx. 25%) had no bonus offered in FY09.
    Question. Admiral Ferguson, have you found any imbalances or 
inequities in your recruiting and retention bonus structure?
    Answer. Our bonus rate is market-driven and offered only to a 
portion of individuals in the Navy. The amounts are established based 
on current and projected economic conditions and accession and 
retention rates versus service demand. As the economic environment 
changes, bonus amounts are routinely adjusted based on analysis of 
recruiting and retention behavior. In general, the adaptive model of 
the current bonus structure serves us well. The agile and flexible 
nature of the structure, coupled with continuous analysis, allows us to 
constructively address any imbalances or inequities that may arise.
    Question. General Coleman, have you found any imbalances or 
inequities in your recruiting and retention bonus structure?
    Answer. No. There have been no imbalances in recruiting bonuses. 
Recruiting bonuses are currently structured to make every recruiting 
program or skill set equally attainable as well as ensure that the 
manpower flow to recruit training is optimized. Linguists, which have a 
$25K bonus, require very high test and security entrance requirements 
as well as a difficult two year school. Shipping bonuses which are a 
$5K bonus, gives the Marine Corps the ability to ship recruits in the 
more difficult shipping months, which greatly increases the 
optimization of training by decreasing uneven flow rates.
    Our SRB program is designed to shape and sustain the career force 
needed to meet the 202K force structure requirements. Some MOSs with 
greater demand are paid more e.g., Intel, EOD, Linguist, Recon, etc.
    Question. Mr. Barnum, does the Department of the Navy plan to 
review its recruiting and retention bonus program for both the Navy and 
Marine Corps?
    Answer. The Navy continually analyzes the monetary incentives it 
provides to attract, recruit, and retain the highest quality 
individuals. We have taken a targeted investment approach to ensure we 
are using monetary incentives to attract and retain the skill sets and 
quantity required to meet mission requirements. This year we have 
reduced reenlistment bonuses and accession bonuses for the Active 
Component. Although we have reduced these incentives, they remain an 
invaluable tool and we will need to remain flexible for any future 
increase or decrease to respond to changing economic conditions.
    For the Reserve Component we have maintained bonus payment amounts 
over the past year. However, we have refined, and continue to refine, 
the targeted groups so that recruitment and retention bonuses are only 
given to those members in undermanned and critical skill sets.
    The Marine Corps conducts an annual review of enlistment and 
Selective Reenlistment Bonus (SRB) programs in an effort to optimize 
the resources required to maintain the 202K force.
    Question. Mr. Barnum, are there plans to promote non-monetary 
bonuses such as tuition assistance and the new G.I. Bill?
    Answer. The Navy is continually looking at opportunities to promote 
non-monetary incentives to attract and retain the best and brightest. 
These include education benefits (TA and Post 9/11 G.I. Bill), 
paternity leave (approved by Congress in the NDAA 2009), Career 
Intermission Program, telework, and career path flexibility. We believe 
that we have to be a leader in human resource solutions, exploring 
innovative ways to deliver the highest quality Sailor to the Fleet.
    The Marine Corps uses tuition assistance and post-service education 
funding as part of both recruiting and retention. There are intangibles 
such as earning the title of a ``United States Marine,'' being part of 
a small, elite fighting organization, duty station options, etc. that 
come into play in recruiting and retaining Marines. We expect that the 
new G.I. Bill will both entice Marines to leave or stay in depending on 
their individual situations. Transferability of educational benefits to 
spouse, and/or children will certainly be attractive to our career 
force and should help retain Marines with more that six years of 
service. True impacts of the new G.I. Bill will not be seen until 2010 
and beyond.
    Question. Admiral Ferguson, is there any concern that enlistment 
and re-enlistment bonuses are now viewed by sailors as an entitlement 
instead of a bonus?
    Answer. Any compensation package that is sustained over time and 
not adjusted to market forces could be viewed as an entitlement by some 
service members. Navy has recently adjusted both its enlistment and 
reenlistment bonus to respond to current market forces. Navy will 
continue to analyze monetary incentive levels, and use only what is 
necessary to incentivize the retention behavior to support our many 
requirements.
    Question. General Coleman, is there any concern that enlistment and 
reenlistment bonuses are now viewed by Marines as an entitlement 
instead of a bonus?
    Answer. Yes, and we need to remain cognizant of these expectations 
as we manage our bonus programs. However, the Marine Corps has always 
emphasized the intangibles of service--the pride of being a Marine and 
the bond that is forged in combat. Additionally, Marines are well aware 
that bonuses are tied to career force reenlistment requirements, are 
analyzed each year, and may change based on current and future manpower 
needs. Furthermore, recruiting bonuses are only given to those recruits 
with the higher test scores or prerequisites, which mean that some 
recruits will not even qualify for a recruiting bonus.
    Question. Mr. Barnum, since the state of the economy has 
contributed significantly towards recruiting and retention success, do 
the Navy and Marine Corps plan to reduce or eliminate bonuses? If so, 
what bonuses will be reduced or eliminated?
    Answer. The Navy continually analyzes the monetary incentives it 
provides to attract, recruit, and retain the highest quality 
individuals. We have taken a targeted investment approach to ensure we 
are using monetary incentives to attract and retain only the skills 
sets and quantity required to meet mission requirements. This year we 
have reduced reenlistment bonuses and accession bonuses. Although we 
have reduced these incentives, they remain an invaluable tool and we 
will need to remain flexible for any future increase or decrease to 
respond to changing economic conditions.
    Every year, the Marine Corps reviews both its Enlistment Bonus (EB) 
and Selective Reenlistment Bonus (SRB) Programs to insure they best 
support both the accession and retention requirements to support the 
202K force. Bonuses are increased or decreased based on the yearly end 
strength and inventory (MOS) requirements. We are currently reviewing 
our plans for FY10, and based on FY09 results EBs and SRBs will be 
adjusted as required. We anticipate publishing the retention plan in 
June and the accession plan in late summer.
    Question. Mr. Barnum, can you provide the committee with a complete 
list of all recruitment and retention bonuses for each MOS? Can you 
also provide the average bonus of each MOS?
    Answer. There are a wide range of bonuses used by Navy to recruit 
and retain Sailors. While the bonus programs may vary in programmatic 
details, they are all derived from detailed analysis. We adjust the 
specific bonus amount for a given skill in response to the projected 
effect current and future economic conditions will have on manning and 
retention levels.
    Bonuses are employed in recruiting to attract individuals with 
specialized, critical skills. Most ratings in the Navy are eligible for 
Enlistment Bonuses (EB) such as language proficiency. In response to 
unprecedented demand for Navy employment, Navy Recruiting Command has 
cut the number of active duty EB eligible ratings from 52 to just 10 in 
FY09. Because recruitment of Sailors begins as much as one year before 
accession on active duty, recruitment bonuses are based almost entirely 
on current conditions rather than on economic projections over the 
lifetime of a Sailor. Currently, EBs range from $6,000 to $40,000 for 
active duty accessions and are paid at gates based on program 
specifications such as completion of Recruit Training, completion of 
``A'' or ``C'' School, or completion of specialized training 
curriculum. For FY08, 45% of the 38,485 active duty accessions took an 
enlistment bonus. For FY09, 48% of the projected 35,500 active duty 
accessions have elected to receive an EB. In response to unprecedented 
demand for Navy employment, NRC has cut the number of active duty EB 
eligible ratings from 32 to just ten.
    Selective Reenlistment Bonus (SRB) amounts can range from $0, where 
we have determined a bonus is not needed to meet our retention goals 
for a given rating/skill, to a maximum of $90,000, used to retain 
personnel in some of our most critical, highly-technical skill sets, 
where training investments and replacement costs are high. Within this 
range, Navy employs econometric modeling to target SRB payment levels 
to achieve critical skill retention. For example, at the beginning of 
FY09 approximately 38,000 of 270,000 sailors were eligible for SRB. To 
date, we have reenlisted 9,163 members, and under our most recent award 
plan released 11 March about 5,500 eligible sailors remain who had not 
made their reenlistment decision.
    We have also instituted several retention bonus programs under the 
umbrella of the Critical Skills Retention Bonus (CSRB) authorized in 37 
U.S. Code Sec. 355. In general, bonus programs under this authority are 
targeted at very specific, hard to retain and hard to replace 
populations at the more senior points in the career continuum. CSRB 
amounts can be as much as $150,000 lump-sum payments for Special 
Operations Technicians (i.e., SEALs) with 19 years of service who agree 
to remain on active duty for 6 years. Members are not authorized to 
receive more than one bonus at a time.
    In addition to the bonuses used to recruit and retain Sailors, Navy 
employs other pays to incentivize Sailors to accept assignments which 
entail a level of responsibility above and beyond what is normally 
expected (including when these kinds of assignments may occur 
throughout a career in a particular rating/skill), are chronically 
hard-to-fill, or are located in less desirable locations. These include 
pays such as Special Duty Assignment Pay (SDAP), Assignment Incentive 
Pay (AIP), Career Enlisted Flyer Incentive Pay (CEFIP), etc.
    The Marine Corps' SRB program is designed to shape and sustain the 
career force needed to meet the 202K force structure requirements. The 
Marine Corps' bonus program operates in a similar manner as the Navy's.
    More specifics regarding these various bonuses and special and 
incentive pays can be found in the attached files.
[GRAPHIC] [TIFF OMITTED] T6285A.093

[GRAPHIC] [TIFF OMITTED] T6285A.094

[GRAPHIC] [TIFF OMITTED] T6285A.095

[GRAPHIC] [TIFF OMITTED] T6285A.096

    Question. Admiral Ferguson, are there any MOSs that, even with 
bonuses, you still have a problem filling?
    Answer. Yes. Nuclear operators and certain medical professionals 
continue to be a challenge.
[GRAPHIC] [TIFF OMITTED] T6285A.097

[GRAPHIC] [TIFF OMITTED] T6285A.098

[GRAPHIC] [TIFF OMITTED] T6285A.099

[GRAPHIC] [TIFF OMITTED] T6285A.100

[GRAPHIC] [TIFF OMITTED] T6285A.101

[GRAPHIC] [TIFF OMITTED] T6285A.102

[GRAPHIC] [TIFF OMITTED] T6285A.103

[GRAPHIC] [TIFF OMITTED] T6285A.104

    Question. Mr. Barnum, can you provide the Committee with a complete 
list of all recruitment and retention bonuses for each MOS? Can you 
provide the average bonus of each MOS?
    Answer. (Defer Retention Bonus Issues to N13)
    The effective Enlistment Bonus (EB) award level message determines 
the amount of EB that may be awarded and may be accompanied with the 
Navy College Fund (NCF). The authorization in effect for a particular 
Recruit is determined by the date the Recruit enters the Delayed Entry 
Program (DEP) and can vary based on ship month. Navy continually 
reviews the recruiting/enlistment bonus programs and adjusts bonuses 
and incentives accordingly with the needs of the Navy; therefore the 
average bonus of each rating depends wholly on a Recruit's entry into 
the DEP and the effective EB authorization message. Those ratings not 
listed below have an EB of $0; however, they can be eligible for other 
enlistment programs including the Loan Repayment Program, College 
First, Accelerate to Excellence and Language Proficiency for eligible 
foreign languages. Additionally, Navy offers a Physical Screening Test 
EB for Special Warfare, Special Operations and Air Rescue rates.

------------------------------------------------------------------------
       Rating-Program           Ship months       EB       EB-NCF Combo
------------------------------------------------------------------------
Aviation Electronics          APR-SEP........    $6,000  ...............
 Computer Field-FTS.
Avionics-FTS................  APR-SEP........     8,000  ...............
Cryptologic Technician        APR-SEP........    20,000  $13,000/350 per
 Interpretive-ATF.                                        month.
Information Technician-SG...  APR-SEP........    15,000  ...............
Musician-SG.................  APR-SEP........    15,000  ...............
Submarine Electronics         APR-SEP........    10,000  ...............
 Computer Field-5YO.
Nuclear Field...............  NOV-JAN........    23,000  $12,000/350 per
                                                          month.
                              FEB-MAY........    25,000  $13,00/350 per
                                                          month.
                              JUN-OCT........    21,000  $11,000/350 per
                                                          month.
Air Rescue-ATF..............  OCT-SEP........    25,000  ...............
Explosive Ordnance Disposal-  OCT-SEP........    40,000  ...............
 ATF.
Navy Diver-ATF..............  OCT-SEP........    25,000  ...............
Special Boats-ATF...........  OCT-SEP........    25,000  ...............
Special Operations-ATF......  OCT-SEP........    40,000  ...............
FTS-Full Time Support.......
ATF-Advanced Technical Field
SG-School Guarantee.........
5YO-5 Year Obligation.......
------------------------------------------------------------------------

[GRAPHIC] [TIFF OMITTED] T6285A.105

[GRAPHIC] [TIFF OMITTED] T6285A.106

[GRAPHIC] [TIFF OMITTED] T6285A.107

[GRAPHIC] [TIFF OMITTED] T6285A.108

[GRAPHIC] [TIFF OMITTED] T6285A.109

[GRAPHIC] [TIFF OMITTED] T6285A.110

    Question. Admiral Ferguson, are there any MOSs that, even with 
bonuses, you still have a problem filing?
    Answer.Yes. Nuclear operators and certain medical professionals 
continue to be a challenge.
    Question. General Coleman, are there any MOSs that, even with 
bonuses, you are still having problems filling?
    Answer. Yes. Although we have had tremendous reenlistment successes 
we still have some lateral move MOSs that may potentially fall short 
this FY. Two examples include 0211s (Counter Intell/Humint Specialists) 
and 2336s (Explosive Ordinance Disposal Technician).

                       Fiscal Year 2009 Execution

    Question. Admiral Ferguson, the Navy over-executed its end strength 
in fiscal year 2008 and continues to do so in fiscal year 2009, what 
factors are contributing to the over-execution of end strength and what 
steps will the Navy take to address this problem?
    Answer. The economy has impacted the behavior of the force. We are 
seeing increased retention, as well as significantly reduced attrition. 
To meet Combatant Commander Individual Argumentation demand and reduce 
stress on the force, Secretary of the Navy approved a fiscal year 2009 
end strength level above our current authorization. To maintain a 
balanced force in terms of seniority, experience, and skills, we have 
implemented a comprehensive force stabilization strategy. We have 
implemented, or will implement, a number of force shaping measures 
including time in grade waivers, reducing or eliminating selective 
reenlistment bonuses, performance-based continuation boards for 
enlisted personnel with greater than 20 years of service, and voluntary 
early separations. We have also reduced accessions and controlled the 
number of reenlistments and short-term extensions we allow.
    Question. Admiral Ferguson, when can the Committee expect to see a 
reprogramming request to address the shortfall due to the Navy's over 
strength and how much will it be?
    Answer. Navy is conducting a mid-year review of program execution 
and will assess our ability to reprogram funds. We have not determined 
the reprogramming amount, but anticipate preparing a proposal for OSD 
to support a summer submission to the Congress. Currently, the FY09 MPN 
shortfall is projected to be approximately $350 million.
    Question. Mr. Barnum, currently, what is the monthly ``burn rate'' 
for the Navy and Marine Corps' personnel costs?
    Answer. The DoN monthly burn rates (in $Millions) through February 
2009 are:

MPN........................................................       $2,159
RPN........................................................        151.9
MPMC.......................................................        1,086
RPMC.......................................................         49.1


    Question. Mr. Barnum, when do you anticipate the Navy and Marine 
Corps' military personnel accounts will run out of money in FY 2009?
    Answer. Projections based on expenditures through February 2009 for 
run out dates without the proposed FY2009 Overseas Contingency 
Operations Supplemental Budget (OCOSB):

MPN.......................................  6 September 2009.
RPN.......................................  22 September 2009.
MPMC......................................  21 August 2009.
RPMC......................................  12 September 2009.


                         Sailors in Afghanistan

    Question. The new Administration announced that it will send an 
additional 17,000 personnel to Afghanistan.
    Admiral Ferguson, how many sailors are going?
    Answer. It is yet to be determined which specific missions that 
Navy will be supporting are directly linked to the 17,000. Navy has 
agreed to support an additional  61,600 requirements that are believed 
to be inclusive of the 17,000.
    Question. General Coleman, how many of the 17,000 servicemembers 
being sent to Afghanistan are Marines?
    Answer. Currently, there are approximately 3,300 Marines in 
Afghanistan. 2nd MEB will have approximately 10,100 Marines once fully 
established.
    Question. General Coleman, of the Marines being sent, how many will 
be on their first and how many will be on their second tour?
    Answer. The next rotation of units deploying to Afghanistan will 
deploy in November. These units will not stabilize for deployment until 
the May/June time frame. However, as an example, the typical deploying 
infantry battalion--46.4% of the Marines are on their first deployment; 
39% are on a second deployment; and 14.6% are on a third or greater 
deployment. These percentages would generally be mirrored in other 
deploying units.
    Question. Admiral Ferguson, do Sailors deploying to Afghanistan, 
train with the same equipment they will use when deployed?
    Answer. The equipment used to train Operation Enduring Freedom 
bound Sailors is the same Ready For Issue/Organizational Clothing and 
Individual Equipment--initial issue for Iraq. Actual employment will 
depend on the mission in theater. Routinely theater asks for specific 
communication training based on equipment. Army has standard equipment 
in both Iraq and Afghanistan, absent some vehicle differences, the 
training is standard.
    Question. General Coleman do Marines deploying to Afghanistan, 
train with the same equipment they will use when deployed.
    Answer. Marines train with the same individual equipment that they 
will deploy with. They will train with the same type of major end items 
(i.e. Humvees, mortars, etc.), but will fall in on the equipment sets 
already in theater when they arrive in Afghanistan. This is the same 
procedure as Iraq.
    Question. Admiral Ferguson, what sort of physical conditioning is 
done to prepare Sailors for deployment?
    Answer. Sailors are required to have passed the current Physical 
Readiness Test. Once reporting to training, they conduct physical 
training daily as well as train with full battle gear, e.g., 1-2 mile 
hikes fully loaded.
    Question. How is physical fitness maintained once Sailors are 
deployed?
    Answer. In theater, it is the parent organization that is required 
to ensure physical readiness which Sailors must participate in.
    Question. General Coleman, what sort of physical conditioning is 
done to prepare Marines for deployments? How is physical fitness 
maintained once Marines are deployed?
    Answer. A combination of strength, mobility and anaerobic/aerobic 
endurance training is conducted by Marines prior to deployment. A 
typical week's physical training plan includes load bearing 
conditioning hikes, weight lifting using compound functional movements 
and agility training such as sprint workouts with changes of directions 
and jumps. The goal of predeployment physical training is to enhance a 
Marine's physical capacity across a broad spectrum of physical skills. 
All training is done in a progressive manner with controls applied such 
as programmed rest to allow for adaptations and to mitigate injuries.
    The Marine Corps measures basic fitness levels with two semi-annual 
tests: the Physical Fitness Test, consisting of pull-up, abdominal 
crunches and a three mile run, that assesses general fitness; and the 
Combat Fitness Test consisting of three events that more accurately 
assess battlefield physical capabilities such as repeatedly lifting 
ammunition boxes and sprinting while carrying a wounded comrade. Other 
mandatory Service programs that contribute considerably to every 
Marine's fitness include the Marine Corps Martial Arts Program and the 
requirement for periodic swimming requalifications.
    During deployment, Marines remain fit through the conduct of 
rigorous missions under demanding operational conditions, augmented by 
the continuous unit and individual physical fitness training which is a 
vital element of our Marine Corps regimen.
    Question. Admiral Ferguson, how do Sailors prepare for high 
altitude operations such as those they will perform in Afghanistan?
    Answer. There is no additional training to prepare Sailors for 
altitude extremes in Afghanistan.
    Question. General Coleman, how do Marines prepare for high altitude 
operations such as those they will perform in Afghanistan?
    Answer. Fortunately, our Marine Air Ground Task Force Training 
Center (MAGTFC) in 29 Palms, California and our Mountain Warfare 
Training Center (MWTC) in Bridgeport, California closely approximate 
the environmental conditions (to include altitudes) found in 
Afghanistan Regional Commands (RC) South and East. Marine units 
deploying to RC South conduct their mission rehearsal exercise (MRX) at 
20 Palms prior to deploying. Marine Embedded Training Teams (ETTs)
deploying to RC East in Afghanistan conduct their predeployment 
training at the Mountain Warfare Training Center (MWTC) in Bridgeport, 
California, where the altitude ranges from 6,800 to 11,300 feet and 
there is significantly complex, compartmentalized terrain. At these two 
operational venues, Marines conduct a number of tactical exercises 
while exposed to Afghanistan-like environmental conditions.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                         Wednesday, March 25, 2009.

                      COMBAT AIRCRAFT ACQUISITION

                               WITNESSES

VICE ADMIRAL DAVID ARCHITZEL, USN, PRINCIPAL DEPUTY, ASSISTANT 
    SECRETARY OF THE NAVY, RESEARCH, DEVELOPMENT AND ACQUISITION
LIEUTENANT GENERAL MARK D. SHACKELFORD, MILITARY DEPUTY, OFFICE OF THE 
    ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION

                    Opening Statement of Mr. Murtha

    Mr. Murtha. We will start the hearing. Let me welcome the 
two distinguished guests today. General Shackelford flew the 
first F-22, the first one to fly it. He was a younger fellow. 
He tells me it is a vast improvement. It took a long time to 
get out in the field. It was something we discussed before the 
hearing started, was some stability in the program, some way we 
can make sure the programs are safe. We do that all the time.
    Bill Young and myself, we try to always buy the most we can 
buy once the program is mature so we get the best price and 
stability so the industry and the Air Force and the services 
understand. It is very difficult when you don't get a budget. 
For instance, here we are into the budget process, we don't 
have a budget here in the House. We don't have the details of 
the supplemental from the Defense Department. We were supposed 
to get it last week. We haven't gotten it yet. We know that is 
not your responsibility, but it hampers us in getting our work 
done.
    We are trying to get a feel for what we can get done in the 
supplemental, which helps us with the base bill. But we know 
the constraints you are under because of the fact that the 
budget is not ready yet and you are constrained. Some questions 
you can't answer because you don't know what the results are 
going to be. We appreciate that.
    But we also have to get these hearings in. We will have had 
42 hearings and briefings between now and the 6th of April, so 
we are doing the best we can to hold up our end of the bargain. 
But we just need more information, and we appreciate your 
coming before the committee.
    Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, let me welcome our witnesses and 
look forward to our testimony this morning. I apologize for 
walking in a few minutes late. Traffic was really heavy on 395 
this morning.
    Mr. Murtha. I don't envy Bill Young. He lives out there in 
the rich section. He lives a long ways out.
    Mr. Young. Actually, I live so far away because it was much 
less expensive. But the city has moved out 35 miles to where I 
live. Anyway, I apologize for being late, Mr. Chairman.
    Mr. Murtha. We will listen to your summarized statement and 
get right to the questions. Admiral.

                 Summary Statement of Admiral Architzel

    Admiral Architzel. Mr. Chairman, Congressman Young, and 
distinguished members of the committee, it is my honor to 
appear before you today to discuss the Department of the Navy's 
Tactical Aviation program. I would like to submit my written 
statement for the record.
    Mr. Murtha. Without objection.
    Admiral Architzel. The fiscal year 2009 budget ensures that 
the Navy and Marine Corps maintain a joint force capable of 
meeting the wide spectrum of threats to our Nation. The 
Department continues the development and low rate procurement 
of the F-35 Lightning 2 aircraft and the development of the E2D 
Advanced Hawkeye, the EA-18G Growler aircraft, the CH-53 Heavy 
Lift Replacement aircraft, unmanned aviation, and new strike 
weapons capabilities.
    In total, the Navy and Marine Corps aviation will procure 
134 additional tactical and fixed wing aircraft, 69 rotary wing 
aircraft, and three unmanned systems, for a total of 206 
aircraft with our fiscal year 2009 funding.
    The Navy is committed to funding and fielding the Joint 
Strike Fighter as an affordable, multi-mission fifth generation 
strike fighter. The program is in its 8th year of a 13-year 
system design and development SDD program. There are presently 
three jets in flight test. The remaining SDD and low rate 
initial production, or LRIP aircraft, are in production. The 
initial Short Takeoff and Vertical Landing, or STOVL test 
aircraft, BF-1, took its first flight in June of 2008 and has 
flown 14 sorties to date. Initial STOVL mode operations are on 
track for this summer at Naval Air Station, Patuxent River, 
Maryland.
    BF-2, the second STOVL aircraft, first flew on 25 February 
of this year and returned with no flight discrepancies noted. 
All F-35 variants are projected to meet their respective key 
performance parameters, and while the JSF production comes on 
line, the AV-8B Harrier still comprises 40 percent of the 
Marine tactical aviation and will remain in the active 
inventory until at least 2021.
    Fiscal year 2009 provided funding for upgrades that will 
ensure the AV-8B remains viable and relevant in support of the 
Marine air-ground task force and combat and command 
requirements.
    The F/A-18E and F Super Hornet and the EA-18G Growler are 
doing extremely well, delivering a superior capability to the 
warfighter on cost and on schedule. We have delivered over 268 
Super Hornets to the fleet and procured 426 aircraft through 
fiscal year 2008. The program continues to make technological 
advances in concert with the required spiral development plan.
    Earlier this year, we deployed our first and second F/A-18 
``F'' or Foxtrot Squadrons with a new APG-79 active 
electronically scanned array AESA radar aboard the CVN 76; that 
is, the USS RONALD REAGAN and CVN 73, the USS GEORGE 
WASHINGTON, with outstanding results, five times the 
reliability and more than three times the performance over 
legacy Hornets. The APG-79 radar in particular is an 
acquisition success story.
    The EA18-G Growler is currently in operational evaluation, 
E-1, and we will have delivered the aircraft to the fleet for 
training purposes in Naval Air Station Whidbey Island. In 
fiscal year 2009, we will procure 22 aircraft and transition 
our first squadron, VAQ 132, this summer. Initial operating 
capability, or IOC, is on track for late 2009. While we are 
awaiting the Growler and JSF, the Navy and Marine Corps will 
continue to utilize the EA-6B Prowler aircraft on an extremely 
high deployment tempo, supporting operations against growing 
and extremely high and diverse warfare threats. Ongoing 
structural improvements and planned improvement capabilities 3, 
or ICAP 3 program upgrades, have extended this aircraft's 
service life and will deliver increasing capability through its 
retirement from the Navy in 2012 and the Marine Corps in 2019.
    The E-2D Advanced Hawkeye program has completed over 90 
percent of its SDD program and an Operational Assessment, or 
OAS, and has currently two aircraft in flight test. The program 
will be presented to the Defense Acquisition Board for a 
milestone decision this month.
    This program is absolutely critical to the Navy maintaining 
our continued superiority in tactical air operations against 
advanced threats. The technology is extremely challenging, but 
it is achievable.
    Funding reductions have resulted in the loss of two 
aircraft, one from the 2009 and advanced procurement for the 
second would be in 2009 as well or two aircraft in total.
    Major reductions in budget appropriations such as 
experienced in the FY 2009 President's Budget request will not 
allow the successes demanded by today's fiscal environment and 
this committee.
    We are finding new ways to acquire the Navy's weapons 
systems, as with the P-8A Poseidon, which is the replacement 
aircraft for the P-3, where we are leveraging the efficiency of 
a commercial production product, the Boeing 737 800E airline, 
to realize the technologically advanced product in a shortened 
acquisition timeline. This aircraft will deliver 9 years after 
program initiation, when it will be both extremely capable and 
affordable. The program will commence flight tests later this 
year. Initial operating capability with one squadron of six 
aircraft will be in fiscal year 2013.
    Lastly, we remain committed to the vision to meld manned 
and unmanned air systems, or UAS, in the future of tactical 
aviation by exploring an unmanned combat air system, or UCAS, 
capability. Our current demonstration efforts include maturing 
technologies for actual aircraft carrier catapult launches and 
arrested landings as well as the carrier controlled airspace 
integration. These testings will begin with first flight in 
2009 and take to the carrier at the end of 2011, sir.
    It is a pleasure to testify before the Committee today. I 
welcome your questions regarding the Department of Navy's 
tactical air programs.
    [The statement of Admiral Architzel follows:]
    [GRAPHIC] [TIFF OMITTED] T6285A.111
    
    [GRAPHIC] [TIFF OMITTED] T6285A.112
    
    [GRAPHIC] [TIFF OMITTED] T6285A.113
    
    [GRAPHIC] [TIFF OMITTED] T6285A.114
    
    [GRAPHIC] [TIFF OMITTED] T6285A.115
    
    [GRAPHIC] [TIFF OMITTED] T6285A.116
    
                Summary Statement of General Shackelford

    Mr. Murtha. General Shackelford.
    General Shackelford. Good morning Chairman Murtha, 
Congressman Young, members of the committee. It is my pleasure 
to be here today to discuss Air Force combat aircraft 
acquisition and other programs that are important to your Air 
Force and Nation. I ask that my written statement be submitted 
for the record.
    Mr. Murtha. Without objection.
    General Shackelford. My remarks today will address the 
progress on weapons systems in our global power acquisition 
portfolio and the status of the combat search and rescue 
recapitalization effort.
    This month, the Air Force accepted its 136th F-22 aircraft. 
F-22 production is currently delivering Lot 7 aircraft ahead of 
scheduled contract delivery dates at a rate of about two per 
month. When the plant delivers the last Lot 9 aircraft in 
December 2011, the Air Force will have completed the program of 
record of 183 Raptors.
    Also this month, F-35 AA-1 completed its 75th test flight, 
and in November of last year accomplished its first supersonic 
flight. The cooperative avionics test bed continues to 
demonstrate unprecedented risk reduction for this stage of 
major weapons system development. We project the F-35 will meet 
all key performance parameters.
    We continue to upgrade our legacy fighter fleet to enhance 
capabilities in support of current contingency operations. Our 
F-16s, the bulk of the fighter fleet, are undergoing structural 
upgrades to replace life-limited structural components. The 
common configuration implementation program and avionics update 
continues with modifications that include a new mission 
computer, color displays, an air-to-air interrogator, Link 16, 
and the joint helmet mounted queuing system. We expect the F-16 
to be a capable element of the fighter force through 2024.
    The F-15A through D fleet returned to flying status 
following the November 2007 mishap after engineering analysis 
confirmed safety of flight. Of the 407 aircraft in the 
inventory, nine were grounded due to the longeron crack. The 
Air Force repaired five, and four were retired due to proximity 
to planned retirement. The Air Force will conduct a full scale 
fatigue test and aircraft teardown and improve structural 
monitoring to establish the maximum F-15 service life and more 
effectively manage the structural health of the fleet.
    The F-15E, which was not affected by the longeron crack, 
continues to support ongoing operations in Afghanistan and 
Iraq. The Air Force improved the F-15E's ability to rapidly 
engage and destroy time sensitive targets by adding secure 
radios and data links for faster communications with ground 
units and forward controllers, by integrating the latest 
precision weapons that improve accuracy as well as reduce 
collateral damage, by adding a helmet-mounted queuing system 
that reduces the F-15E's time to engage a target by up to 80 
percent, and by adding a state-of-the-art active electronically 
scanned array radar system that not only addresses sustainment 
issues, but also gives the F-15E advanced capabilities to 
identify and engage targets and protect itself from enemy 
threats.
    An A-10 service life extension program and overhaul 
programs will allow us to continue flying these venerable 
aircraft. The Air Force is currently upgrading 337 A-10s to the 
C configuration with precision engagement capability, 
anticipating completion by the end of fiscal year 2011.
    The B-1 was once solely a nuclear deterrent, but the Air 
Force refocused its capabilities through modernizing its 
conventional lethality. A perfect example of the B-1's 
potential was realized by adding the advanced targeting pod to 
the platform's sensor suite. In an acquisition success, the Air 
Force and industry responded to AFCENT's highest Urgent 
Operational Need requirement by energizing a fast track 
development and procurement timeline. Thanks to supplemental 
funding, the 34th Bomb Squadron from Ellsworth Air Force Base, 
South Dakota, was able to deploy a full contingent of Sniper-
equipped B-1 bombers to support both Operation Enduring Freedom 
and Operation Iraqi Freedom operations in June 2008 without a 
single break in daily combat operations.
    B-2 availability has steadily increased over the past five 
years, largely due to focused efforts to enhance low observable 
maintenance, such as the highly successful alternate high 
frequency material program. The B-2 faces increasing pressure 
to upgrade avionics, originally designed over 20 years ago. The 
three increment Extremely High Frequency Satellite 
Communications and Computer Upgrade program seeks first in 
increment one to upgrade the Spirit's flight management 
computers as an enabler for future avionics efforts. Increment 
two integrates the family of beyond-line-of-sight terminals 
along with a low observable antenna to provide secure, 
survivable, strategic communications, while increment three 
will connect the B-2 into the Global Information Grid.
    Increment one of EHF SATCOM and Computer Upgrade is 
currently in engineering and manufacturing development and on 
track to begin procurement in fiscal year 2011 for fleet 
installations beginning at the end of fiscal year 2013. The B-2 
is also receiving a new radar antenna and upgrading selected 
radar components as part of the radar modernization program.
    The Air Force has invested in B-52 modernization programs 
to keep the platform operationally relevant by adding satellite 
and nuclear survivable and secure wideband high data rate 
communications, advanced targeting pods, both Sniper and 
Litening, aircraft computer and data transfer unit upgrades, 
and smart weapons integrated to improve conventional weapons 
capability. With the B-1 Lancer and the B-2 Spirit, the B-52 
Stratofortress serves as a key component of the United States 
long-range bomber force.
    To recapitalize our rescue helicopter fleet, the Air Force 
intends to replace 101 aging HH-60G Pave Hawk helicopters with 
141 CSAR-X aircraft. The CSAR-X is currently in source 
selection, with an expected contract award targeted for spring 
of this year. Desired initial operational capability is third 
quarter of fiscal year 2013, with a required IOC by second 
quarter of fiscal year 2015.
    We are building a 21st century Air Force prepared to 
succeed strategically, operationally, and tactically. These 
highly capable and lethal aviation programs bring global 
vigilance, global reach, and global power to the joint fight. 
They are critical enablers to the joint force.
    [The statement of General Shackelford follows:]
    [GRAPHIC] [TIFF OMITTED] T6285A.117
    
    [GRAPHIC] [TIFF OMITTED] T6285A.118
    
    [GRAPHIC] [TIFF OMITTED] T6285A.119
    
    [GRAPHIC] [TIFF OMITTED] T6285A.120
    
    [GRAPHIC] [TIFF OMITTED] T6285A.121
    
    [GRAPHIC] [TIFF OMITTED] T6285A.122
    
    [GRAPHIC] [TIFF OMITTED] T6285A.123
    
    [GRAPHIC] [TIFF OMITTED] T6285A.124
    
    [GRAPHIC] [TIFF OMITTED] T6285A.125
    
    [GRAPHIC] [TIFF OMITTED] T6285A.126
    
    [GRAPHIC] [TIFF OMITTED] T6285A.127
    
    [GRAPHIC] [TIFF OMITTED] T6285A.128
    
    [GRAPHIC] [TIFF OMITTED] T6285A.129
    
    [GRAPHIC] [TIFF OMITTED] T6285A.130
    
    [GRAPHIC] [TIFF OMITTED] T6285A.131
    
    [GRAPHIC] [TIFF OMITTED] T6285A.132
    
                         Remarks of Mr. Murtha

    Mr. Murtha. Well, thank you very much. Just a couple things 
that I wanted to comment on.
    One, we talk about a stable ability to buy for industry and 
for the military. Last year, we in our negotiations with the 
Senate had to cut out one E-2D, the Advanced Hawkeye. Since you 
use this in Iraq, the Navy uses that Hawkeye, we are going to 
see if we can work that out in the supplemental, since that is 
something that is used in the battle group flying in the war 
zone.
    Second is the F-22s. We need an answer. I never believed 
they would build the 600--some that they said they were going 
to buy in the first place. One of the complaints I have had 
over and over again is the military consistently asks for more 
than they know they are going to get because it cuts the price 
down when you average it out. But we have to pick up the tab.
    But we do need as soon as possible answers on these things. 
And I know it is not your fault, I know it is OSD and OMB that 
are making the decisions now. But it makes it very difficult 
for us to do a supplemental, do another supplemental, and then 
at the same time come up with a base bill.
    So I don't know what kind of influence you two have on the 
process, but we need some answers. We were supposed to get them 
last week, we were supposed to get them this week. The Staff 
Director now tells me it will probably be next Friday before we 
get the details so we can go forward with recommending to the 
subcommittee. Bill and I have always counseled very closely 
before we recommend to the subcommittee and then go to the full 
committee with this supplemental.
    So we know you are in a difficult position, but we need the 
information so we can do a more thorough job in making sure we 
are getting the most cost-effective programs.
    Mr. Young.

                    GENERAL AIRCRAFT PROGRAM STATUS

    Mr. Young. Mr. Chairman, I am looking for some good news 
today. As I read your testimonies and I listen to what you tell 
us, I am not sure there is a lot of good news here. We hear 
about the Joint Strike Fighter having developmental problems 
and cost overruns. You are talking about buying more Joint 
Strike Fighters, but the program is not as robust as we would 
like it to be. F-22, as Chairman Murtha has just said, we are 
not sure where you are on the F-22 program. The B-52 is pretty 
old. We are talking about trying to make it live a little bit 
longer because B-1 has problems, B-2 has some problems.
    Tell us some good news.
    Admiral Architzel. Well, if I could, I believe the progress 
we need on the Joint Strike Fighter, as an example, is 
absolutely critical to the Navy of the future. We need that 
program to IOC in 2012 for the Marine Corps, the STOVL variant, 
and 2015 for the Navy. We built our force upon that, and 
indications as we move forward now is while the JSF variants 
have slipped somewhat in production, as we go forward the 
quality has been good. We need to keep that stable and keep 
going with the program. As we get into it, I think we will find 
more and more stability and better performance as we get deeper 
into the program, sir.
    That is part of what we need to do to recapitalize, if you 
will, our Strike Fighter force. These are the fifth generation 
fighters that we will need in the future and we need to get 
stable production going. Where we see that stable production, 
we see success stories.
    I believe you will see the benefit of stable production in 
the Hornet case of the E and F, as a success story. That 
program, and its progression into the Growler where we melded 
it into the existing Hornet multiyear, and took advantage of 
building off the F-18F Lot 30, missionizing it to the Growler. 
This was a significant step forward that allowed us to bring 
that program forward.
    The P-8 is another example of what I think is a pretty 
significant step. This is the first time we have taken and 
produced on a commercial line, a militarized variant of a 
Boeing 737, which is the replacement aircraft for the P-3. That 
aircraft, as I mentioned, has taken only 9 years from concept 
development to fielding and when you look at some of these 
other timelines is pretty significant, sir. It is moving along 
well. It is on cost. It is meeting its objectives as we go 
forward. So there is another example for you as well.
    General Shackelford. Mr. Young, if I could comment on a 
couple of programs. First of all, in the area of urgent 
operational needs, which, granted, are not generally new 
weapons systems, but they are improvements to existing weapons 
systems, we have had an incredible amount of success over the 
last year providing urgent needs to the warfighter, to enhance 
the capability of weapons systems, be it the targeting pods on 
the B-1 with the laptop interface in the cockpit as an interim 
step towards integration; be it secure or beyond-line-of-sight 
radios to the F-15Es, the A-10s and the F-16s that are 
operating in the high terrain of Afghanistan; be it the joint 
air-dropped, precision air-dropped system that is essentially a 
GPS-guided pallet for delivery of supplies; or fielding of 
variations of weapons, typically laser-guided/GPS-guided 
weapons combined to give us a moving target capability.
    But beyond that, when you think about something like the F-
22 program, we have a mature production line for the F-22 right 
now.
    Mr. Murtha. Say that again? Move your mike closer.
    General Shackelford. Is that all right, sir?
    We have a mature production line for the F-22 that is 
delivering aircraft on or ahead of schedule, and many of them 
are coming along as zero defect aircraft. As we get that 
aircraft fielded and into the hands of the young aviators who 
are now learning how to employ that weapons system, we are 
discovering all kinds of new things about what we can do with 
the F-22, which then we have to take and follow back into our 
tactics, techniques and procedures to most effectively take 
advantage of what we have.
    The F-35 is at a very critical point right now because we 
are somewhat pass midway in the system design and development 
phase, but we are right on the ragged edge of beginning the 
flight test program with all the flight test aircraft, the 
developmental test aircraft to be delivered out this year.
    When it comes to a prediction about what the future of the 
F-35 holds, those predictions are based on assumptions. Those 
assumptions typically are based on some kind of best practice 
that we have in our cost estimating or scheduling paradigms. We 
will find out whether those assumptions are valid or not 
beginning this year as those flight test aircraft are 
delivered.
    Meanwhile, that program does have an incredibly robust 
laboratory and development lab infrastructure, including that 
cooperative avionics test bed, which is going to go a long way 
towards maturing the avionics and bypassing many of the 
problems we have had on earlier weapons systems and their 
development, taking care of that risk reduction early so that 
we are surprised by fewer things as we move forward into the 
program.
    Mr. Young. Well, I thank both of you for those reports that 
appear to be somewhat positive. But what worries me, and I will 
be very honest with you, there are some in the Congress and 
some in the government who have stated openly that they believe 
that some of these aircraft that we are talking about are Cold 
War relics and that we will never need them again. Of course, 
nobody can be sure of that. It is not only important, but it is 
absolutely essential that we are able to maintain complete 
control of any air over the battlefield.
    So I think you will find this subcommittee is prepared to 
do whatever it is that we need to do to be supportive of 
decisions you make, but it is important that you do make those 
decisions. I know that sometimes the decision is not entirely 
up to each one of you as individuals, but it seems like we are 
just going around in some circles here. Maybe that is just a 
feeling that I have and maybe that is totally not accurate.
    But we need to keep these airplanes going. We need to get 
them into robust programs. We need to get them into the 
inventory. If we never have to use them, we should be thankful, 
but in the event we have to use them, we sure as heck better 
have them.
    Anyway, I am here to support keeping Navy aviation and 
United States Air Force more capable than ever. We will have 
some specific questions as we go through the hearing this 
morning, but those are just my general thoughts.
    I thank both of you very much, and thank you, Mr. Chairman.

                             F-22 AIRCRAFT

    Mr. Murtha. Go to the F-22 again, because last year we put 
money for advanced procurement in to make sure the line didn't 
come to a stop. It sounds like you are saying the line is going 
well, and our concern had been that if that line closed down 
and we made the wrong decision, then it would be very expensive 
down the road.
    What do we have to do this year to make sure until a 
decision is made? If they keep putting this decision off, is 
there something we need to do in the supplemental?
    General Shackelford. Mr. Chairman, the Air Force obviously 
supports the Secretary of Defense's position on bridging the 
production line until a decision can be made attributable to 
the new administration, and that in fact is what is in place 
right now. The Defense Department----
    Mr. Murtha. Let me make sure from a technical standpoint 
this subcommittee understands. You are saying we will need more 
money this year in order to have the bridge?
    General Shackelford. I am talking about the fiscal year 
2009 funds to take care of the four aircraft that are currently 
in Lot 10, the proposed Lot 10. The action was taken between 
last November and just a few weeks ago to make sure that the 
production line for those four aircraft is preserved.
    Now, this is advance procurement funds so we are not 
actually building those aircraft yet.
    Mr. Murtha. I understand.
    General Shackelford. It is advance procurement funds, to 
lay in the initial supply chain, if you will, for the 
components that will be built up eventually into F-22 aircraft.
    Mr. Murtha. So the subcontract is a problem. If you don't 
have that money, the subcontractors start to go away. Is that 
basically the technical problem?
    General Shackelford. It is actually the supplier base 
before you even get to the subcontractors.
    Mr. Murtha. That is what I am talking about, the supplier 
base, which is the subcontractors, that if they don't have the 
advance procurement money it dries up. We got the same problem 
as if we shut down the line and started it back up again.
    General Shackelford. Yes, sir. If we reach a point where 
they do not consider the future of the program to be solid 
enough for them to continue building whatever component they 
are providing, then we wind up with a break in that supplier 
base, and that is what we are protecting right now for those 
four aircraft.
    Mr. Murtha. Mr. Visclosky.

                 JOINT STRIKE FIGHTER ALTERNATE ENGINE

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, I want to ask about the alternative engine for the 
Joint Strike Fighter. For the last 3 years, the committee has 
directed the Department to fund an alternative engine and has 
provided about $1 billion. In each year the Department has 
elected not to follow the direction. With 2,000 jets, you don't 
think competition would help as far as pricing and reliability?
    General Shackelford. Sir, while the Air Force and certainly 
the Defense Department support the notion of competition as 
being good, particularly in the manner of saving dollars for 
the taxpayer, the business case analysis that we have at this 
point, that the Defense Department has supported, shows that we 
would not be saving funds by bringing on that second engine. So 
in spite of the potential for competition, the business case 
doesn't support it at this point, and therefore the Department 
doesn't support the second engine.
    Mr. Visclosky. Could you explain the rationale of that 
report basically? What is the thesis?
    General Shackelford. There are several elements that go 
into that. Part of it is the investment required early on for 
the continued development of the second engine. Those dollars, 
were they sourced out of the existing program, would be at the 
expense of dollars going towards production of aircraft which 
has a side effect of increasing the unit cost on an annual 
basis for those aircraft, making them less affordable at that 
time.
    Likewise, the learning curve, which has a direct impact on 
the unit cost of the engines, be it the primary engine or an 
alternate engine, gets shallowed out sooner. Therefore, we 
don't save as much from a learning perspective in the increased 
production of the original engine. When you factor those items 
together, the cost-benefit does not equal a favorable number.
    Mr. Visclosky. Am I correct in understanding that the 
engine that will be used to power the Marine Corps variant of 
the Joint Strike Fighter experienced significant problems over 
the last year which delayed the first flight?
    Admiral Architzel. The problems experienced with the engine 
related to blades have been resolved and the engines are now in 
the BF-1 and BF-2 and both are proceeding in flight testing. 
The Pratt & Whitney engine issues and the root causes of the 
blade failure were resolved last year.
    Mr. Visclosky. Is the contractor still waiting for a 
certified engine?
    Admiral Architzel. On the F-135, on the Pratt & Whitney 
engine, it continues to go through tests on 11,000 hours on 16 
engines and the program continues to move forward on the 
development of that engine.
    Mr. Visclosky. Is the contractor waiting for a certified 
engine?
    General Shackelford. The engine is certified. It is in the 
aircraft and the aircraft is on the hover pit beginning initial 
evaluations in the short takeoff vertical land mode, not yet 
having flown in that mode.
    Mr. Visclosky. So the engine is certified to begin short 
takeoff and vertical landing testing?
    Admiral Architzel. Yes, sir, it is.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Murtha. Both the House and the Senate feel very 
strongly about the alternative engine. I can remember years ago 
when Pratt & Whitney was having big problems with one of their 
engines, we put GE engines in and that saved the day. We had an 
alternative to it. That is why this subcommittee feels so 
strongly, our experiences. There are times when you need not 
only competition, but you need something out there. So we feel 
very strongly about this.
    I know your answer was well, it comes out of production. 
Well, that is not the point. At some point the competition we 
feel in the long period of time, as long as these airplanes 
run, as long as we have these programs going, that we feel it 
would be actually cost-effective to have the competition. So we 
expect the Air Force to eventually build this alternative 
engine.
    Mr. Frelinghuysen.

                 JOINT STRIKE FIGHTER COMBAT CAPABILITY

    Mr. Frelinghuysen. Maybe competition--good morning, 
gentlemen--from another perspective, what the Russians are 
doing, what the Chinese are doing, Indian capabilities. Some of 
the things that happened in the Taiwan Strait in just the last 
week or so, I don't like the notion that we would ever be in a 
position where we wouldn't be able to exert our superiority.
    The Joint Strike Fighter, can you talk a little bit about 
its dogfighting ability, either of you? I still have a good 
memory of going out to Langley, and obviously I think the 
Raptor is a remarkable plane but the Raptor has stealth. The 
Joint Strike Fighter has less stealth. But I am interested in 
sort of air-to-air combat capability vis-a-vis what our 
adversaries have in terms of capabilities.
    General Shackelford. Sir, the F-22 and F-35 are really 
complementary.
    Mr. Frelinghuysen. I know they are complementary. They are 
part of our team.
    General Shackelford. What the F-35 lacks that the F-22 has 
is altitude capability, speed capability, and a certain amount 
of agility. And while it has an air-to-air weapons capability 
in the internal carriage mode that is nothing to shy away 
from----
    Mr. Frelinghuysen. How many air-to-air missiles does the 
Joint----
    General Shackelford. Internally, four AIM-120 AMRAAMs.
    Mr. Frelinghuysen. And that is internal?
    General Shackelford. Internal, yes, sir.
    Mr. Frelinghuysen. So for additional capability you would 
have to have things on the outside of the aircraft, is that 
right?
    General Shackelford. Yes, sir. To add the heat seeking 
missile, the AIM-9X, that would be external carriage.
    Mr. Frelinghuysen. And when you do that, obviously you have 
a bigger footprint, I assume, right? Whatever the stealth 
capabilities is you somewhat minimize?
    General Shackelford. Any change to the outside of the 
aircraft has a negative effect generally on low observables.
    Mr. Frelinghuysen. So how does that aircraft compare with, 
shall we say, the foreign competition, our likely adversaries. 
What are the Russians and Chinese doing? Because the issue here 
to me is that there are a lot of what we call integrated air 
defense systems out there, and I just sort of wonder what the 
capability of the Joint Strike Fighter is vis-a-vis those types 
of defense capabilities that our adversaries have and that seem 
to be proliferating?
    General Shackelford. Yes, sir. The comparative nature with 
the foreign weapons systems is something outside of my specific 
area. So we could get back to you with a direct comparison, if 
you would like.
    [The information follows:]

    The F-35 Joint Strike Fighter Lightning II will achieve an initial 
operational capability with the Air Force in Fiscal Year 2013, joining 
our active force to complement America's other fifth generation 
fighter, the F-22 Raptor. Fifth generation aircraft combine the 
attributes of stealth, maneuverability, multi-role, and sensor fusion 
to allow them to gain access into denied airspace against today's--and 
tomorrow's--air and ground threats projected to be possessed by near-
peer potential adversaries. While both possess the attributes of fifth 
generation fighters, the F-22 is optimized for air dominance through 
unparalleled speed, acceleration and maneuverability, while the F-35 is 
optimized for global persistent attack through increased payload and 
range.

    General Shackelford. From an acquisition perspective, the 
things that the F-35 brings, the stealth capability is 
important because the foreign competitors do not have that. The 
integrated avionics are important because the foreign 
competitors haven't reached that stage yet. When you combine 
those things with--particularly the stealth with the avionics 
with the weapons systems----
    Mr. Frelinghuysen. You are talking about the Joint Strike 
Fighter here?
    General Shackelford. The F-35, yes, sir. When you combine 
those things, you do put the F-35 in an advantageous sense, 
even if it is in a maneuvering capacity on par with an 
international competitor, because he will be able to engage 
prior to a visual fight where the maneuverability becomes more 
significant.
    Mr. Frelinghuysen. But if you add things that are not 
internal, you obviously have a bigger--you know, the air 
defense systems have some ability to sort of spot you, don't 
they?
    General Shackelford. The air defense systems, the surface-
to-air missiles, particularly the higher end, newer air defense 
systems that are proliferating around, will have a much more 
difficult time finding an F-35 than any fourth generation 
fighter.
    Mr. Frelinghuysen. Even with all the add-ons that are not 
internal? Your footprint isn't larger?
    General Shackelford. Once you reach a phase of the battle 
where you can afford to add external stores to the F-35, then 
those integrated air defense systems are less significant. The 
early portions of the battle are when the clean airplane--that 
is, its smallest signature, are most important. Those are the 
times when you would prefer not to add external stores.
    Mr. Frelinghuysen. All right. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Bishop.

                   F-22 REQUIREMENTS AND PERFORMANCE

    Mr. Bishop. Thank you very much, gentlemen.
    General Shackelford, I know you can't speak for the fiscal 
year 2010 proposed budget, but we have seen some press reports, 
some quoting the Chairman of the Joint Chiefs, discussing a new 
number for the F-22's combat requirement of at least 243 to 
250.
    Can you discuss this new so-called moderate risk number and 
whether it is backed up by some classified campaign-based 
analysis? In an unclassified manner, obviously, can you explain 
why the Air Force needs more than 183 in the tactical air 
fighter mix? Some people have suggested that the F-22 and the 
F-35 do the same thing. Of course, the Air Force's response is 
that they are complementary and they are different.
    Can you explain how they are different and how they are 
complementary in the context of your need for additional F-22s?
    General Shackelford. Yes, sir. Thank you for your interest 
in those fifth generation fighters.
    The Chief of Staff of the Air Force has previously said 
that 381 are too many and 183 are not enough. What comes out as 
the new number he has reserved the right to bring to the 
Secretary of Defense, and I expect some number to come out of 
the budget when it is released next month.
    As to how we judge those numbers and over time how we have 
changed the numbers, a great deal of analysis goes on in the 
background using scenarios that have various assumptions as to 
what is going to take place in the scenario and what force 
structure is brought to that scenario. So it is more than just 
a single weapons system scenario, and in this case would 
include both F-22s and F-35s.
    As that analysis takes place, part of the calculus, if you 
will, is what level of risk is there in accomplishing the 
national military strategy given those scenarios and how they 
interact. So depending on how you judge what is acceptable 
risk, that will lead you to some number and that number, that 
sort of number is what contributes to changing those 
requirements.
    Mr. Bishop. What is the difference in the F-22 and the F-
35?
    General Shackelford. Both aircraft bring stealth 
technology, integrated avionics, advanced weapons systems, 
maneuverability. The F-22 is optimized from a super-cruise 
maneuverability or agility perspective and sensor suite for 
air-to-air battle. It has air-to-ground capability in a 
supplemental sense which is growing through the modernization 
program.
    The F-35 has less performance, but a much different sensor 
suite optimized for detecting and identifying targets on the 
ground with a much larger weapon load, albeit external at some 
point once you get to a phase in the battle that you can afford 
to carry external stores.
    So complementary in nature that both of them have the 
ability to take on an integrated air defense system with the 
advantage really being initially for the F-22. But as we move 
farther into that battle, the F-35's strengths in terms of 
persistent ground attack will start to carry the day in terms 
of supporting the rest of the joint force.

                            CSAR HELICOPTER

    Mr. Bishop. Let's switch gears for a moment and talk about 
the combat search and rescue helicopter program. The Air Force 
has said that the combat search and rescue helicopter 
replacement program is the second highest priority, behind only 
the tanker replacement program.
    What is the status of the request for proposals, what is 
driving the need for the new combat search and rescue 
helicopter, and will these assets continue to be low density 
high demand, or will we buy enough and prove them sufficiently 
so they become part of the Air Force's expeditionary force?
    The Secretary of Defense has started to use the combat 
search and rescue assets to assist in medical evacuations in 
Afghanistan. How does that differ from the traditional combat 
search and rescue mission, and how will this impact the number 
of aircraft that are required by the Air Force as some of them 
will be retasked for medical evacuations?
    General Shackelford. The Combat Search and Rescue X 
helicopter program, CSAR-X, is in source selection right now. 
We are expecting a contract award late this spring and it is 
moving forward. That program replaces 101 HH-60Gs, our present 
CSAR helicopter, with 141 aircraft, bringing to mind two 
issues; sufficiency in numbers and capability. The number 
changed from 101 to 141, intended to get out of the low 
density, high demand category. The capability changes for the 
new helicopter intended to address shortfalls that the current 
HH-60G has in performing the mission.
    Mr. Bishop. What are those shortfalls?
    General Shackelford. These would be self-protection, the 
load out it can carry, how it handles higher elevations as we 
are seeing in the Afghanistan type of theater, range. So those 
are all addressed through this acquisition program.
    Mr. Bishop. So you have longer range in the new ones?
    General Shackelford. Yes, sir. When it comes to the role of 
combat search and rescue, this is a long-time role that the Air 
Force has taken on, and it differs from the use of helicopters 
in, say, a general utility role. Typically the medical 
evacuation mission is more of a general utility type of role 
for any helicopter and they are so tasked either out of the 
Army or the Air Force.
    Combat search and rescue is a riskier, much more offensive 
and self-protective type of mission, and today's CSAR 
helicopters are called upon in the theater when there is a 
medevac mission that is in a higher risk type of context, maybe 
low visibility or night, for instance, where the special 
equipment on board those helicopters and the special training 
of the personnel is valuable for personnel recovery.
    Mr. Bishop. Thank you.
    Mr. Murtha. I appreciate that line of questioning, because 
this Committee has been in the forefront of trying to make sure 
you have what you need, and we just found out it takes 72 
minutes to get an injured person on average in Afghanistan to 
the hospital, and therefore our death-to-injury ratio is much 
higher in Afghanistan than it is in Iraq.
    We went out to Nellis, I sent staff out, I went out to 
Nellis, and we put $100 million to upgrade. We know the Air 
Force is involved in trying to help the Army in increasing the 
number of medevac helicopters in Afghanistan. So we are in the 
forefront on this issue. We think it is as important as 
anything you can possibly do.
    Mr. Kingston.

                      TACTICAL AIRCRAFT SHORTFALL

    Mr. Kingston. Thank you, Mr. Chairman. I have a few 
questions for the Admiral and then one for the Air Force.
    The first question, Admiral, and I will just go through 
them, you say you have a shortfall of 125 aircraft. I was 
wondering how you get those numbers, just generally. For 
example, does it include your grounded aircraft? You have 39 P-
3s that are grounded. And then I guess along that line, you 
have 157 P-3s. How many does it take to track a sub? How do you 
decide how many P-3s you actually need? Also, did we ever 
figure out what the Chinese learned when they seized the P-3?
    Then finally, do you feel like the Prowlers are going to be 
okay for 5 more years, 10 more years, or is that something we 
should start focusing on?
    Then, General, I had a question for you on the F-22 on the 
performance-based logistic contracts. Where will that work be 
done and what is the cost-effectiveness of that? How much money 
does that save the taxpayers to have it done by a contractor? 
As I understand it, that business model did not come before the 
contract was signed, then the contract was signed and then we 
are working up the cost-effectiveness of it. And that is not an 
unfriendly question. I just wanted to know more about it.
    Admiral Architzel. Congressman, thank you for the 
questions. First, let me begin by saying as we are here today, 
future force requirements are under review and will be subject 
to further determination.
    But to your question you raised specifically addressing a 
shortfall, you also talked about 125 aircraft and then 
mentioned P-3s. If we talk about shortfall, the Strike Fighter 
shortfall will be one piece. We have shortfalls in other areas. 
For example, P-3s, as you get redstripes to P-3s, which is 
basically taking P-3s offline due to fatigue and other things 
in life, we need to do additional maintenance on them. As we 
take those aircraft offline, that creates a shortfall.
    Let me address first, again emphasizing that future force 
structure is under review, but as an acquisition person I will 
address your question specifically so as not to be evasive.
    In the FY2009 President's Budget submission, there was a 
force structure in place for tactical aviation. That involved 
supporting 11 carriers, 10 air wings and three Marine air 
wings. When you look to that force and project it forward with 
the current burn rate and projected burn rate of the aircraft 
on life cycle that is attendant with them, we did predict or 
project it out to be at that time 125 aircraft, tactical 
aircraft, short.
    Your next question was how would you make that up? It is 
through a combination of factors, where we would first ensure 
the ramp rate of the JSF to meet our 2012 and 2015 IOCs for the 
Marine Corps and the Navy. It is absolutely critical that we do 
that, and the numbers that are supported within the JSF program 
office.
    The second thing we have to do is manage our existing 
inventory. The F/A-18 E/F program today, as I mentioned, is 
executing extremely well. The program of record for that 
aircraft would have 23 F/A-18 F/Fs in the 2009 budget, and 
additionally the program would buy out at around 506 total F/A-
18 A/B/C/D aircraft. When you add that to the existing F/A-18 
A/B/C/D legacy Hornets, which the number of those is around 600 
and some odd number of aircraft, you say well, do you even have 
a shortfall?
    These aircraft, the Hornets, when they first came online, 
had a notional life of 6,000 hours. We have done center bill 
replacements on Lot 17 and below Hornets to bring them up to be 
able to fly to 8,000 hours. Every time we look at extending 
service life, we do so through a service life assessment 
program. That feeds into a service life extension program. We 
looked at whether we could get those aircraft up to 8,600 
hours. To do that would require an investment of about half a 
million dollars per aircraft we estimate, and would give you 
about 2 years additional flight service. By that, I mean you 
are figuring the notional fly rates of around 30 hours per 
month per aircraft. If you do the math it comes up about 2 
additional years.
    To fill the short gap with legacy you would have to go to 
additional hours. The question was how far could you go with 
the Hornets in lifetime. There is a SLAP analysis conducted to 
investigate going from 8,600 to 10,000 hours. This is a 
significant investment that would take a significant amount of 
maintenance and depot work to bring those aircraft up to speed. 
This effort is not funded, that is not in the plan today; but 
it is being looked at to see what we do if need be.
    The third thing we do is manage by bureau number on these 
aircraft today. We know exactly what the fatigue life is for 
each one of these airplanes. When we first started into the 
hornet looking at fatigue life, it was wing-root. We were 
concerned about traps and cats, how many landings we could get 
in these airplanes. We took that from 2,000 up to 2,700. Then 
we got into things like wing-root fatigue life issues, where we 
had to look into airframe concerns and how we resolve those 
concerns to get additional hours. All those go forward as we do 
that. We look at every individual jet, what it has on it.
    For example, if we had Marine Hornets that had cats and 
traps because they have been more shore based than at sea, but 
had limited flight hours, we could exchange them with the Navy 
and Marine Corps. The same thing with the Navy. We might have 
more hours left, but not cats and traps on them because they 
have been at sea. We could then look to share those as well, to 
bring that and fill that as much as we could as we go forward. 
That is how you would manage the force to cover that shortfall.

                          P-3 FORCE STRUCTURE

    Mr. Kingston. I know that that is a lot longer answer than 
I figured. That explains it. I got to back off though and see 
if I could get you to talk about the Chinese and the P-3, and 
then if we have time, Mr. Chairman, get to the F-22 question.
    Admiral Architzel. To the P-3 question, you had on force 
composition. That is dictated by combatant commanders' needs 
throughout the world. You go through in various theaters of 
operation you have and that is what dictates our force 
structure for the P-3. The P-8 is a planned replacement of the 
P-3 where the program of record would put us at a 108 aircraft 
requirement and that is again based on the training and 
equipping and providing for those squadrons as they go forward.
    You said was there intel. I can take that for the record 
about the impacts of the EP-3. That episode, I can certainly 
come back with that, sir.
    [The information follows:]

    Regretfully, due to the sensitive nature of this subject, I 
am unable to provide a response in this forum. However, a 
briefing could be made available to you if so desired.

                       ELECTRONIC ATTACK AIRCRAFT

    Admiral Architzel. Your last question was on Prowlers. We 
will continue to maintain our Prowlers as we go forward. The 
Navy's position is we are bringing on the Growler, which is a 
tremendously capable airplane. It has 88 envisioned in the 
program of record. It will replace, as I mentioned, our 
squadrons of Prowlers in the Navy today. The Navy is also 
decommissioning its expeditionary squadron, so we will be at 
essentially 10 Growler squadrons as we come forward with IOC at 
the end of this year.
    Then what will be the future for the Marine Corps. As the 
Navy brings the Growlers on, the Marine Corps will keep the 
Prowlers in service until sundown of 2019 for them. The Marine 
Corps are going to rely on the JSF in terms of STOVL variant. 
We are also kicking off a study this year, funded in the 2009 
budget which is an AoA for the next generation Jammer. That is 
their plan as they go forward.
    Mr. Kingston. Okay.

                    F-22 PERFORMANCE BASED LOGISTICS

    General Shackelford. Yes, sir. Thank you for your question 
on performance-based logistics. That area in general, the 
supply chain is one that is ripe for continuous process 
improvement, and performance-based logistics contracting is the 
fruit of some of that improvement. If I recall correctly, the 
F-22 performance-based logistics contract was a DOD award 
winner this past year for a success story.
    As to the details that you are asking for there, that lives 
more in the sustainment world than the acquisition world. So I 
would ask that you let me take that for the record and get back 
to you in the detail you are looking for.
    [The information follows:]

    The Product Support Integrator (PSI) role includes responsibilities 
such as supply chain management, sustaining engineering, technical 
data, and customer support. The lead PSI is Lockheed Martin in 
Marietta, GA, with support from Lockheed Martin in Fort Worth, TX and 
Boeing in Seattle, WA, Pratt and Whitney, located in Hartford, CT, is 
the engine PSI. The current PSI strategy was the result of the 
program's evaluation of request for information responses from industry 
and Ogden Air Logistics Center in 2005 and endorsed by the Rand study 
in 2006. A business case analysis evaluating alternative PSI strategies 
is currently underway and will be completed this year. Study results 
will be integrated into the out year F-22 Performance Based Logistics 
(PBL) strategy.
    Depot level maintenance is another key aspect of the PBL contract. 
This work is being accomplished in both contractor and Air Force depot 
facilities. The majority of F-22 depot workload is transitioning to Air 
Force depots over the next several years in order to meet Title 10 Core 
and 50/50 requirements. Oklahoma City ALC is partnered with Pratt and 
Whitney on the F119 engine and is doing both overhaul and repair work. 
Depot level aircraft modifications are being accomplished at Ogden ALC, 
UT, and Lockheed Palmdale, CA. The two locations are roughly equivalent 
in capacity. Airframe component workloads are being transitioned to all 
three Air Logistics Centers located in Oklahoma City, OK; Ogden, UT; 
and Warner Robins, GA, based on the assigned technology repair center 
designation. To date, eight organic activations are completed to 
include wheels and brakes, doors and panels and generators. Eight more 
activations are planned for 2009 to include fuel pumps, environmental 
control system components, and on board oxygen generation system. 
Projections show 75% of F-22 depot maintenance will be performed in 
organic depots in 2011 and 84% by 2012.
    In 2007, Rand conducted a cost benefit analysis off the proposed 
strategy prior to the PBL contract award. The RAND study results 
confirmed Lockheed as the PSI in 2008 and 2009 as the only viable 
option in the near term. The study stated that over a five year period 
organic and contractor PSI costs are comparable within study 
assumptions and margins of error. For depot level workloads, each 
activation is preceded by a comprehensive depot partnering assessment 
which defines a cost effective activation plan of the subject workload. 
These assessments have shown that recurring costs at contractor and 
organic depots are comparable.
    Based on the 2007 RAND study, there were no significant savings, 
contractor and organic costs were comparable. Depot source of repair 
decisions are primarily based on core and 50/50 requirements.
    The 2001 Quadrennial Defense Review mandated Performance Based 
Logistics implementation within DOD. The F-22 program took a number of 
steps to flesh out the details. The first was a sustainment 
alternatives study (2004) which considered a broad scope of strategies. 
This study recommended implementing a public/private partnership 
strategy with the possibility of future competition as the weapon 
system matured. In 2005, the program office released a request for 
information to determine the potential for competition and better 
understand program options. Multiple responses were received including 
Ogden Air Logistics Center. All were evaluated by an Air Force team and 
they concluded Lockheed Martin was the only viable source for overall 
weapon system sustainment until weapon system maturity (100,000 flight 
hours, approximately 2011). A similar strategy was developed for Pratt 
& Whitney on the engine except they were to interface with Lockheed 
Martin, the weapon system PSI. In 2007, RAND conducted a cost benefit 
analysis off the proposed strategy prior to PBL contract award. The 
RAND study results confirmed that the Lockheed Martin PSI approach was 
the only viable option in the near term. The study stated that over a 
five year period organic and contractor PSI costs are comparable within 
study assumptions and margins of error. The study supported the 
proposed F-22 PBL strategy and concurred with completing a full budget 
cost analysis when the program was more mature. The program office 
kicked off a budget cost analysis in August 2008. The budget cost 
analysis is evaluating several sustainment alternatives across the 
continuum between full organic and full contractor PSI. Completion of 
the budget cost analysis is expected in late 2009.

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hinchey.

                        STRIKE FIGHTER SHORTFALL

    Mr. Hinchey. Thank you, Mr. Chairman.
    Admiral, General, it is very interesting to be here with 
you and listen to your answers to these questions and the 
things that you are saying.
    I just wanted to follow up a little bit on the tactical 
shortfall, first of all, for the Navy and Marine Corps, which 
as I understand it is continuing to decline. That shortfall is 
going up in fact. More and more aircraft are in need and not 
being there to deal with the circumstances that they have to 
deal with. The number we are being given is 125. The shortfall 
is about 125 in the context of this fiscal year. So, that means 
it is likely to continue to increase over the course of the end 
of this fiscal year and into next, and that primarily the 
reason for the shortfall is the delay in the F-35, which is an 
aircraft of substantial priority and which is going to take on 
a lot of this responsibility. I assume all of that is true.
    What is delaying the F-35? Why is it not coming in as 
quickly as it was anticipated?
    Admiral Architzel. Thank you for the question, Congressman 
Hinchey. Without repeating myself on the shortfall, again, the 
force structure and composition of the future is under 
discussion today. I will caveat all of what I say with my 
discussions of a Joint Strike Fighter is based on what was 
submitted for the PB 2009 budget.
    I would emphasize the JSF as we go forward, as an example, 
we need to have the ramp rate for the JSF as it is coming now 
into its production and we see that things are a few months 
behind even today from what we thought they would be. We need 
to get them forward. The quality is excellent. For example, in 
other areas like software development, we should be about 69 
percent, it is about 70 percent. That is tracking well. There 
are areas of the program that are doing extremely well. We want 
to continue to emphasize that.
    What matters is to get into production ramp rates that 
delivers a stable quantity that we can count on to deliver 
forward. The more you slide out to the right, then obviously we 
are not having the number to fill our air wings as we go 
forward. We have to plan accordingly.
    I think the indication last year was when we had the fiscal 
year 2009 budget, it had a long lead for one carrier variant, 
for example. We requested four and it was basically reduced to 
one. Subsequently, the Congress took action to put an Above 
Threshold Reprogramming (ATR) on, official reprogramming to 
return those three aircraft, on long-lead material buy for 
Advance Procurement (AP), and that allows us then to not have 
to slide the IOC as a Navy variant, as an example. That is 
critical.
    To answer your question, it is essential that we maintain 
the future procurement of the JSF to fill our air wings and 
that we manage very closely the legacy fleet to match up with 
that.
    Mr. Hinchey. We fully understand that. And part of the 
situation that is causing concern, of course, is the additional 
pressure that is put on the existing airplanes. As an example 
of that, the F-15, which fell apart while it was in flight, I 
think it was sometime last year. So whether or not anything 
like that is likely to occur of course is a significant issue 
that we have to deal with, and it is one of the reasons why I 
am sure you are doing everything you can to press for that F-35 
to move as quickly as possible.
    Admiral Architzel. Yes, sir.

                  COMBAT SEARCH AND RESCUE HELICOPTER

    Mr. Hinchey. I just wanted to ask a question about the 
combat search and rescue helicopter that you were talking about 
a few moments ago. You said that the contract for that is going 
to be coming into effect sometime later this spring.
    General Shackelford. Yes, sir. Our intent is to award the 
contract late this spring.
    Mr. Hinchey. What do you anticipate about that? Do you know 
where the contract is going and what is the context of that 
contract? How rapidly do you anticipate that these new combat 
search and rescue helicopters are going to be put into play?
    General Shackelford. In terms of timing, the initial 
operational capability for the helicopter is intended to be 
between the third quarter of fiscal year 2013 and the second 
quarter of 2015. So a contract award this spring will lead to 
about four years from now an initial operational capability.
    Mr. Hinchey. Okay. So you are feeling comfortable with 
that?
    General Shackelford. Yes, sir.
    Admiral Architzel. Congressman Hinchey, one thing that is 
similar but not exactly the same in terms of combat SAR, would 
be the Navy's recapitalizing on its combat SAR assets on the 
carriers and the Expeditionary Strike Groups (ESGs) and the 
carrier strike groups. That was mentioned before from Mr. 
Young, as a good news story we can hear. The Romeo and Sierra 
programs are doing extremely well. The Romeo, which replaces 
our anti-surface and anti-submarine helo assets at sea, 30 
aircraft delivered, and as we go forward this year 254 is in 
the program of record.
    The Sierra is our combat SAR for the carriers and the 
expeditionary strike groups as you go forward, and those are 
part of a multiyear with the Army that produces the 60 series 
in general, both the Romeos, the Sierras and the Army. That 
multi-year has been extremely beneficial. As we go forward, we 
are about 18 sustaining rate on the Sierras, but that will 
deliver our capability there. Not the same helo, but it is a 
combat SAR. When you mention the combat SAR, that is what the 
Navy is moving on, and that aircraft which will that need for 
us.
    Mr. Hinchey. I thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Granger.

                    JOINT STRIKE FIGHTER PRODUCTION

    Ms. Granger. Thank you. This is a question to both of you 
gentlemen.
    General, given the Air Force's fiscal year 2013 IOC 
requirement and the Marines is fiscal year 2012 and the Navy 
fiscal year 2015, how important is it that the F-35 production 
stay on track and be allowed to ramp up efficiently to high 
rate production in order to stay affordable?
    General Shackelford. Ma'am, thank you for that. It is 
absolutely critical that the F-35 stay on track. Presently the 
Air Force plan is to ramp to 80 for the conventional takeoff 
and landing F-35A by fiscal year 2015. The production line can 
handle as many as 110, were we able to get to that, or a total 
of roughly 240 for the entire A, B and C production line. Were 
we able to ramp to 110 in the Air Force, that would deliver the 
Air Force's complement of presently program of record 1,763 
seven years early, and it would save the combined program $13 
billion.
    Affordability is one of the pillars of the F-35 program. 
The more we can keep it on track, the more we can buy at 
economic rates, the more economical and affordable it will be.
    Ms. Granger. Thank you. Admiral?
    Admiral Architzel. Congresswoman Granger, I can only echo 
those comments. As we said before, the JSF is critical to the 
Navy and the Marine Corps. As the program of record, for the 
Department of Navy it is 680 aircraft. How we split that as we 
go forward in the force structure will determine what the exact 
numbers fall out to be, between the STOVL and carrier Variant. 
But in the 2009 budget with the LRIP 3, seven STOVL long-lead 
with additional advance procurement for 14 in the budget 
rather, and also as I mentioned the long-lead for the CV 
variant. So it is absolutely critical that we maintain those on 
track for the 2012 IOC for the Marine Corps and 2015 for the 
Navy.
    Ms. Granger. I have a follow-up question also having to do 
with cost.
    The GAO annually expresses concerns about concurrency in 
programs, and while it is true there is an overlap in 
production in the F-35, isn't it also true that this makes the 
programs more affordable, and the lessons learned in F-22, as 
well as significant investment in laboratory and 
infrastructure, have significantly reduced the risk of overlap 
in the F-35 program?
    General Shackelford. Ma'am, when the F-35 program first 
started back in 2001, the acquisition strategy was recognized 
as having a fair amount of concurrency, and that was accepted 
by the enterprise, if you will, as an opportune way to move the 
weapons system forward. That, granted, provides a certain level 
of risk in terms of production before we are complete with 
development.
    On the other hand, what it allows us to do is take 
advantage of reduced prices, unit costs, by increasing the 
production not only in the program and--perhaps in the purist 
sense, if you try to actually split the development and the 
production, the implications for industry in terms of a break 
in production and the expertise required to build the airplanes 
would be catastrophic in terms of the cost implications.
    Now, to mitigate that in the case of the F-35, as we move 
forward on an annual basis or, more often, when we are 
discussing the program with the defense acquisition executive, 
each phase of the program has entrance criteria or exit 
criteria that play into the maturation of the development of 
the product. So we have frequent opportunities to pause if we 
see something coming along that is going to be a major 
developmental issue for the aircraft.
    But in a general sense, that trade-off between 
affordability and risk, if you will, is cooked into the F-35 
program from the start.
    Ms. Granger. Thank you.
    Admiral Architzel. I think, Congresswoman Granger, your 
question went to, as we have already mentioned, the idea of 
stability and anything we are going to acquire is always 
helpful both for long-lead material, for economic quantity, for 
industrial base considerations and producibility, and when we 
perturbate that and when we change those quantities or change 
those ramp rates, it has an impact that we have to deal with at 
that point.
    So, from an acquisition standpoint, if we know we have a 
stable amount we are going to buy and we can then translate 
that to industry and they can count on that investment, they 
can make investments in their lines, they can make investments 
in their--that gives them that return on investment that they 
can assure they are going to have. When we start to perturbate 
that, that has an impact.
    Of course, we also need the same thing back from industry, 
which is, when you say you are going to produce these, we need 
to have them come out in the numbers you said and the quality 
that we need from them, which we are seeing in the case of JSF.
    Ms. Granger. Thank you. I thank you both.
    Mr. Murtha. Ms. Kilpatrick.

                      TACTICAL AIRCRAFT INVENTORY

    Ms. Kilpatrick. Thank you, Mr. Chairman. I first want to 
commend you, Mr. Chairman and Mr. Young and the rest of the 
subcommittee, for your dedication, understanding and intellect 
of the entire Department of Defense. I am just amazed, having 
sat here now for a month or so and watched all of you; and I 
want to put that on the record.
    I am most proud of you.
    Mr. Murtha. We are glad to have you on the committee. We 
appreciate it.
    Ms. Kilpatrick. Thank you, sir.
    And to the admiral and to the general, the same to you, 
sir, to both of you. As I sat here and prepared for the hearing 
last night, it is probably the most technical in terms of 
picking out technicalities and what you need to know in this 
business, and I want to commend you both, as acquisition men, 
for your services as you represent them well, your knowledge 
and all of that.
    There has been much talk about the Joint Striker Force as 
well as the F-35, 8 years, 13 in total. As we move to 
Afghanistan, and you talked about the Joint Strike fighters and 
their coordination, the F fighters, will we have enough, will 
we be able to--because the F-35 is not readily available, will 
we have what we need as we move into Afghanistan, a different 
terrain, different type of equipment and fighters necessary?
    As the acquisition chiefs in your services, can we meet it? 
Can we meet the demands? Will our service be safe? Will we have 
what we need to secure them first, and then to--I don't know 
what you call ``win'' because there is no winning in any of 
this to me.
    Can you comment just a bit on that, first in terms of the 
equipment and capability and the protection of our men and 
women who have--who will be on the ground and in the air and in 
the water.
    Admiral Architzel. Congresswoman Kilpatrick, thank you. I 
appreciate it. We don't often get the acquisition people being 
told what a good job we are doing, so we appreciate that.
    But I will say that as we look forward to your question, 
which is a good one, we are in a position where we don't know 
what the next future force levels will be, so we are basing 
things on the here and now today. But to your comment, as an 
acquisition force, we have to look across the board both in 
service and future and what we are buying and procuring will be 
out there. Concerning the question you have on Afghanistan, per 
se, we have to deal with what we have today.
    To that aspect of it, I will say we take great pains to 
make sure that we maintain our aircraft in a vigilant way, to 
make sure that we take care of the people who are flying those 
airplanes and maintain them, that they are the best equipment 
we can have so we don't have a fair fight. We are not looking 
for a fair fight. We are looking for a fight we can win. We 
keep our warfighters in mind.
    I have had command of USS Theodore Roosevelt and a squadron 
of aircraft. General Shackelford has had his experience 
operationally, as well; and I know what it means to be out 
there in harm's way. We look to that today.
    We mentioned the maintaining of the Strike Fighters today, 
the E and F, the Hornets, the A through D as well. We have to 
make sure we maintain those aircraft so that they can go 
forward with this. It is not just the fighters either, but it 
is across the board whether it is the aircraft we introduce in 
the theater today, aircraft like the V-22s, they go in; 
whatever it happens to be, we have to make sure that we have 
capable aircraft that are ready and can perform the mission 
needed at the time they are needed.
    Thank you for your question.
    Ms. Kilpatrick. Thank you, sir.
    General Shackelford. Ma'am, if I may comment, your Air 
Force today is perfectly capable of responding when the 
combatant commander calls and asks for force structure to 
support the joint mission, which we are very capable of doing 
to the extent that we are called on in Afghanistan, which from 
an Air Force perspective could largely be thought of from a 
fighter perspective as ability to support the joint operation 
with close air support. We use the F-15E, the A-10 and the F-16 
to do that, and we have ample force structure to meet the 
needs.
    From an acquisition perspective, it brings to mind keeping 
those aircraft relevant for that particular kind of fight. And 
the types of challenges that we have run into in Afghanistan 
are primarily related to the elevation, the high terrain, line-
of-sight kinds of problems when we have ground forces that are 
down in valleys and they either have to communicate or have to 
get air support, which is available and on call.
    So, acquisition-wise, what we have done is equipped those 
types of aircraft with radios that use satellite communication 
to overcome the terrain issues. They are also secure to deal 
with possible jamming or intrusion by some bad guy that would 
want to do that.
    We have also deployed a communications gateway, a high-
altitude platform that is able to communicate with multiple 
types of radios. There are various varieties of radios and 
datalinks that don't all speak the same language, so to speak. 
Well, this gateway speaks all of them and translates so that we 
can get that direct communication between the strike aircraft 
and the folks on the ground, be they the engaged troops or the 
forward air controllers.
    Ms. Kilpatrick. Now, we are far more superior than our 
adversaries, as Mr. Frelinghuysen was asking. We can beat this 
even as we beef up our numbers and all that you have mentioned. 
Are we more superior than an adversary that we will be 
fighting?
    General Shackelford. I would suggest to you that the 
sophistication we can bring to the fight would be superior to 
what the adversary can bring. But again we have to think about 
the type of fight, the irregular warfare that is going on here. 
We have to make sure we are relevant to that context.
    Ms. Kilpatrick. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rogers.

                             F-15 AIRCRAFT

    Mr. Rogers. Thank you, Mr. Chairman.
    Gentlemen, welcome. Let me ask you about the F-15. While we 
are waiting on the F-22s and the 35s and whatever else, you 
still have to utilize and rely upon the F-15. And when in 
December 2007 one of them crashed, you grounded all of the F-15 
aircraft.
    Where do we stand now with the F-15s, and are you sure you 
have got it right?
    General Shackelford. Yes, sir. That mishap, which was early 
November, resulted in a grounding of the F-15 fleet and a 
subsequent determination that the F-15Es, the newer airplanes, 
average about 18 years old, were not at risk because of a 
different structure; so they were taken out of the equation 
immediately.
    The older F-15, As through Ds, average age of about 27 
years at this point, were the culprit, and resulted in a great 
deal of structural analysis that grounded nine aircraft though 
five of those, four of those, four or five of them we were able 
to go and repair that longeron. We retired the other aircraft, 
but only nine were ultimately at risk of the same type of 
failure.
    Following the analysis that led to an establishment of 
safety of flight, the fleet was cleared for operation and it 
has no performance limitations based on that problem with the 
longeron. There are additional inspections and additional 
maintenance personnel to make sure that we don't have a 
recurrence of that particular event.
    It also led to a resurgence, if you will, in the aircraft 
structural integrity program for the F-15, which we have got on 
contract now for a structural teardown of one of the aircraft 
and starting on contract later this summer a full-scale fatigue 
test, which we will carry out over time and will inform us as 
to what other potential issues we may have for the F-15 in the 
future, considering we plan to keep 176 what are termed 
``Golden Eagles'' out into the mid-2020s.
    Mr. Rogers. So are the Cs and Ds flying now?
    General Shackelford. Yes, sir. The fleet is flying with no 
restriction based on that longeron problem.
    Mr. Rogers. And the Cs and Ds, those are the nine that you 
repaired?
    General Shackelford. Yes, sir. As, Bs, Cs and Ds.
    Mr. Rogers. And you determined that the Es don't have that 
problem?
    General Shackelford. Yes. The structure on the E, because 
it is built for a mission that is a two-seat airplane, as 
opposed to the one seat which, for training versions, had a 
second seat applied to it--a different structure in the 
longeron area. So the design flaw that contributed to the 
mishap doesn't exist in the E model.
    Mr. Rogers. Now, what will happen to the F-15s? What is the 
prognosis of that aircraft?
    General Shackelford. As I mentioned, we have some of them 
identified as Golden Eagles; those will be the 176 that 
continue to receive all of the modernization updates over time 
so that they remain as relevant as possible out into the mid-
2020s. The rest will eventually come to a retirement date that 
will be part of the overall force structure planning for the 
Air Force.
    Mr. Rogers. Well, when the F-22 comes into play, will the 
Golden Eagle be replaced, supplanted, by the 22?
    General Shackelford. We will have all of our program of 
record F-22s by the end of 2011, so there will be a significant 
amount of time while the F-15 is still in the force structure 
out to the 2020s; so they'll exist in parallel for quite a long 
time.
    Mr. Rogers. Do you foresee that the E might have some 
structural fatigue that beset the C?
    General Shackelford. At this point, I am unaware of any 
structural issues with the E model, but that is part of that 
overall aircraft structural integrity program that will go out 
and look for those kind of potential problems.
    Mr. Rogers. So you will keep a sharp eye on that?
    General Shackelford. Yes, sir.
    Mr. Rogers. I mean, these planes are getting pretty old.
    General Shackelford. Yes, sir.
    Mr. Rogers. In fact, the C goes back to what, 1972?
    General Shackelford. Early to mid-1970s was the beginning 
of the F-15A program.
    Mr. Rogers. Thank you, gentlemen, Mr. Chairman.
    Mr. Murtha. Mr. Young.

                           F-15 GOLDEN EAGLE

    Mr. Young. Mr. Rogers' question on the F-15, the Golden 
Eagle, we are hearing something about, I think it is a 
contractor proposal on something called the Silent Eagle.
    What can you tell us about that, General?
    General Shackelford. Sir, I have read those newspaper 
articles just like you have. That particular proposal from the 
contractor is intended to provide a limited amount of stealth 
capability to the international business market--as I 
understand it, not intended to be a competition for anything 
existing within the U.S. inventory at this point.
    Mr. Young. The Navy's Growler program with the F-18 seems 
to be doing very well.
    Is the Golden Eagle program on target time-wise and cost-
wise? Is it where you want it to be?
    General Shackelford. To my knowledge, it is healthy. I will 
go back and get specific details on that and report back to 
you.
    [The information follows:]

    The F-15C/D long-term aircraft fleet, also known as the Golden 
Eagles, consists of 176 aircraft identified to augment the F-22 in the 
air superiority role of the future. There were originally 179 long-term 
aircraft, selected in the 1995-1998 timeframe based on condition and 
load factors, but three have been lost to aircraft mishaps. The Air 
Force currently expects to be flying these long-term aircraft until at 
least 2025.
    In order to keep the long-term fleet operationally relevant, the 
Air Force continually evaluates the operational environment in which 
the aircraft must operate and the current and future capabilities these 
aircraft must have. The 176 F-15C/D long term aircraft receive 
capability and sustainment upgrades to keep them operationally 
relevant. Other F-15C/Ds, including 54 test and training aircraft, 
receive only safety of flight modifications. If the Air Force 
determines that a specific long-term fleet upgrade is also required for 
test and training aircraft, then these aircraft are modified as well.
    Over the last 10 years, the long-term F-15C/Ds' upgrades have 
included engine modifications; GPS capability; two radar upgrades; 
Link-16 data link; a helmet-mounted cueing system; an Identify Friend 
or Foe (IFF) upgrade; and a radio upgrade. These programs have all been 
successfully completed, except the APG-63(V)3 Active Electronically 
Scanned Array radar upgrade, which is still in progress.
    Additional long-term aircraft upgrades that have strong Air Force 
support and may be addressed in future budgets include a cockpit 
control panel upgrade; a digital video recorder system; an IFF Mode 5 
upgrade; a Link-16 data link cryptographic upgrade; a secondar6y power 
system upgrade; an infrared spectrum search and track capability; and 
an aircraft mission computer upgrade.

    Mr. Young. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Frelinghuysen.

                        LOW OBSERVABLE AIRCRAFT

    Mr. Frelinghuysen. You seem to be focused on the stealth 
issues here. Can you comment a little about the F-22 low 
observable problems?
    I know a lot of materials are applied to aircraft. Can you 
talk about--there were some problems and have they been 
addressed?
    General Shackelford. Yes, sir. As low observable 
maintenance plays into the overall mission-capable rate for the 
F-22, yes, there have been some issues, and we are learning a 
lot about the F-22 through those.
    I might comment that----
    Mr. Frelinghuysen. Is it manning and materials?
    General Shackelford. Yes, sir it is both. The situation in 
the field is in--particularly at Langley Air Force Base where 
the MC rate dipped quite severely, the result of a combination 
of events that had to do with an upcoming inspection, moving 
experienced maintenance personnel out to the new sites at 
Elmendorf and Holloman, a general new experience level within 
the maintenance community. However, those decisions, that were 
made to favor training pilots because of the number that they 
had there, in lieu of keeping up with the low observable (LO) 
maintenance, did not yield aircraft that were not combat 
capable. Certainly, if we had been called on to deploy at that 
point, we would have taken the time to fine tune every aircraft 
that was going to deploy.
    The details of that situation and specific numbers are over 
in the operational realm. If you would like details on that, I 
can get those for you on the record.
    [The information follows:]

    F-22 mission capable (MC) rates at Langley Air Force Base, 
Virginia have been affected primarily due to maintaining the F-
22 low observable (LO) system. These F-22 MC rates are depicted 
below:

            LANGLEY AIR FORCE BASE F-22 MC RATES (FY05-FY09)
------------------------------------------------------------------------
                                                                  FY09
                                                               ---------
              FY05                  FY06      FY07      FY08     (1 Oct-
                                                                 31 Mar)

------------------------------------------------------------------------
39..............................        55        61        55        41
------------------------------------------------------------------------


                            LANGLEY AIR FORCE BASE F-22 MC RATES FY09 (Oct 08-Mar 09)
----------------------------------------------------------------------------------------------------------------
                            Oct 08                               Nov 08    Dec 08    Jan 09    Feb 09    Mar 09
----------------------------------------------------------------------------------------------------------------
18............................................................        27        30        57        60        57
----------------------------------------------------------------------------------------------------------------

    F-22 LO maintenance has been the leading Not Mission 
Capable (NMC) driver because of LO material reliability, 
component reliability, manning and management. LO system 
material durability issues are documented and both the F-22 
System Program Office (SPO) and the manufacturer are actively 
working technical solutions. Some components beneath LO 
intrusive panels are less reliable than predicted, but the SPO 
has an aggressive Reliability and Maintainability Maturation 
Program (RAMMP) that is successfully improving reliability of 
these components. To provide immediate manning assistance 
Lockheed Martin sent their own maintenance personnel to assist 
Langley in their LO maintenance recovery. AF also completed a 
Logistics Composite Model manning study that will ``right-
size'' LO maintenance manning. To improve F-22 LO maintenance 
management, the Air Force performed a LO process improvement 
team comprised of field units, major commands, SPO and Lockheed 
Martin to obtain and implement ``best practices'' across all F-
22 operating locations. Additionally, the Air Force stood up a 
LO maintenance career field in Feb 09 to better train and grow 
LO maintenance experts.
    LO maintenance lessons have been learned and Langley Air 
Force Base's F-22 MC rate is improving.

    General Shackelford. Now, from an acquisition perspective--
--
    Mr. Frelinghuysen. Well, it is such a superior plane, I 
want to make sure that it is the top of the line.
    General Shackelford. Yes, sir. And it absolutely is.
    Now, we can make choices when it comes to how much time we 
are going to set an airplane down to fine tune the signature of 
it, and that is how I would describe a lot of this decision 
process. From an acquisition perspective, what we have is an 
aircraft that is 53,000, maybe 58,000 hours into its lifetime, 
so it is still what we would consider to be immature.
    So we are learning lots of new things about particularly LO 
maintenance and the materials which we fold back into changes 
in those materials to move towards a 100,000-hour maturity 
point that has been designated to occur probably late next year 
where we have a meantime between a maintenance key performance 
parameter to meet and we project to meet that with these 
changes. But in a similar notion, taking that learning and 
applying it to the F-35, which will also be a flightline-
maintained LO platform, will help us overcome some of these 
issues and----
    Mr. Frelinghuysen. But there has been some criticism from a 
lack of stealth with the Joint Strike Fighters. There are 
certain vulnerabilities in that regard; isn't that accurate?
    General Shackelford. The signature of the F-35 is similar 
to the F-22.
    Mr. Frelinghuysen. The signature is that similar?
    General Shackelford. It is very similar.
    Mr. Frelinghuysen. I thought the F-22 was pretty invisible. 
I thought there were certain vulnerabilities----
    Mr. Murtha. I don't think we want to get into----
    Mr. Frelinghuysen. Okay. Well, thank you very much.
    Mr. Murtha. Mr. Visclosky.

                    AIRCRAFT PROGRAM COST ESTIMATES

    Mr. Visclosky. Chairman, thank you very much.
    Admiral and General, by statute, major acquisition programs 
are required to have an independent cost estimate conducted as 
part of the acquisition process, but there is no statute that 
directs the Department to actually fund that independent 
estimate.
    Several programs are not funded to the estimate but to a 
lower confidence level. One of those programs, and there are 
others, is the Joint Strike Fighter program. What factors are 
considered in funding a program to a lower confidence level 
than that provided by an independent cost estimate?
    Admiral Architzel. The factors that go into cost estimating 
in terms of the producibility, the ability to meet--the 
ability--the producibility, the affordability, the things that 
go into materials that go into the bids that would come 
forward, what is the confidence in those bids, et cetera? What 
is our confidence in the vendor's ability to produce? When you 
talk confidence factors in terms of cost estimating, you get 
into probability curves which go to about where you would want 
to fund the airplane in terms of probability of meeting or not 
meeting a certain cost estimate.
    Many, many factors that go into that run the full range 
from the producibility aspect on the producing side to the 
material side to the actual labor rates and how much we know or 
don't know on those issues as we go forward. So it is a 
variable input that comes back to say what that would be.
    Mr. Visclosky. Is the independent cost estimate usually 
followed or only followed in the breach--in estimating what a 
program is going to cost?
    Admiral Architzel. I don't mean to be evasive. I would say 
it depends on the program and where it is versus what the 
services or the program's estimate would be as well as the 
independent estimate and then doing the determination of where 
you are. Generally, I would tell you that we end up following 
the independent estimates where they will come in and say, we 
will have an understanding of what the differences are between 
an estimate from the program or from the Navy or the service 
versus, say, a Cost Analysis Improvement Group (CAIG) estimate 
that comes in; and where we can understand those differences 
and we can accept risk, we might determine not to go to the 
full CAIG estimate, but we would understand what those 
differences are before we agreed.
    If we can't and we believe it is, we would fund the 
estimate that is there.
    Mr. Visclosky. Is the budget consideration a factor here, 
where if you go to a lower confidence level as far as what the 
cost is going to be, you can put more program into a given 
budget request and worry about paying for it later?
    General Shackelford. Yes, sir.
    If I could comment from that perspective, the independent 
cost estimate that we typically use comes from the OSD Cost 
Analysis and Improvement Group For Acquisition Category (ACAT) 
1 or the larger dollar programs, and their practice is to 
recommend roughly a 50 percent confidence level in those 
numbers.
    Now, we will typically take that and if we have the ability 
within our budget, particularly at the program start point, 
which is milestone B, when we go on contract for the 
development, which is now called engineering and manufacturing 
development, our goal would be to fund that at the 80 percent 
confidence level. And that is a new initiative, if you will, 
within the Air Force, one of the five things we are looking for 
under recapturing acquisition excellence. So getting to that 
point is definitely an issue of, are we oversubscribed in the 
overall budget in terms of a lot of content and insufficient 
dollars to fund to the confidence level we would like to.
    So there is a discipline piece on our part to pick and 
choose what we actually start and make sure it is funded at a 
high confidence level at program initiation there at milestone 
B.
    Mr. Visclosky. I am confused as to what the high confidence 
level is and the 50 percent and the 80 percent. Is that the 
level in the independent estimate, or is that something 
different?
    General Shackelford. The independent estimate will produce 
a cost curve where there is a probability of that being the 
cost, based on their ability to forecast in their estimating 
technique. Fifty percent, which is what is typically an OSD 
Cost and Analysis Improvement Group (CAIG) number, officially 
means there is a 50 percent probability of coming in under that 
cost, which also means, of course, a 50 percent probability of 
being over the cost.
    If you follow up that curve farther, there is a point 
where----
    Mr. Visclosky. Of the independent cost estimate?
    General Shackelford. Of the independent cost estimate.
    If you follow that curve up farther, you will get to a 
point where the probability of the actual cost being below that 
figure is 80 percent, and that would be the desirable point for 
starting the program.
    Admiral Architzel. If I could, Congressman, when we talk 
about these numbers of 50 percent probability, above and below, 
on balance if we looked at all Navy programs, we would find 
that most average out to be at the 50 percent level.
    When we talk about that and when we talk about whether you 
are above or below in terms of where your cost estimate comes 
in, what is really important is the shape of that curve--so 
what does it mean to be--50 percent is one thing, but what does 
it mean to be 10 percent below that in a program? If it is 
dramatically different, that is significant.
    It is not just the point where you fund the 50 percent 
point or the 80 percent point of a curve, but what is the 
fidelity that goes to generate that curve and that confidence 
that is there.
    As you go further into a program, it gets more defined and, 
if you will, the shape of that curve gets steeper because the 
difference between a 50 percent and an 80 percent or a 10 
percent would dramatically change as you know more about the 
program, as you go through its development and you start to 
learn more and more.
    So at the beginning of a program, when you don't know as 
much as you would like to have, it is there.
    Mr. Visclosky. Let us take presidential helicopter. You 
have an independent cost estimate. Does that say, per copy, 
here is what it is going to cost?
    Is that what the independent cost estimate says?
    Admiral Architzel. The independent cost estimate will give 
the cost of the program, and in that you could come out and get 
the average unit cost of the airplane.
    Mr. Visclosky. You have life-cycle costs, too, for the 
program?
    Admiral Architzel. Right. As well as the nonrecurring and 
recurring costs going into what you have.
    It is all factored in as you go forward in what is provided 
in the estimates.
    Mr. Visclosky. So what is the 50 percent? If they give you 
a life-cycle cost, here's what we think it is going to cost, 
what would be the 50 percent?
    Admiral Architzel. The 50 percent would be what would be 
the average per--average unit flyaway cost, for example. That 
would be, what is it going to be and what is your confidence of 
attaining that so--on that particular issue.
    Mr. Visclosky. Let me ask it a different way, because I 
don't want to take the committee's time, because I am not 
following you at all.
    Mr. Murtha. Let me interrupt the gentleman because I have 
said this over and over.
    Now, you two are responsible for all the acquisition, not 
only tactical air but all the air. What we get from the 
services, we get an RFP which goes to the industry. The 
industry underbids it. You exaggerate the number of airplanes 
you are going to buy, or whatever it is you are going to buy, 
because you know that then reduces the cost. So whatever the 
independent cost estimate is, it doesn't mean anything because 
in the end we, representing the taxpayer, have to pick up the 
tab for your mistakes. When I say ``your mistakes,'' I am 
talking about this combination.
    Now, the helicopter, in particular we have the problem of 
the White House saying in order to protect the President, we 
have to add all these provisions. And I had 14 of them in here 
the other day trying to explain to them, Folks, we are not 
going to build this expensive helicopter. We are going to build 
the first version, but not the second version. And we have 
people on this committee, all of us want to protect the 
President, but when they keep adding criteria to this, it 
really makes it very difficult for us to come up with it.
    Every program is overrun because of that. The ship program, 
same thing: LCS said $188 million. We knew it was going to be a 
lot more than that.
    So it is a combination of things. The problem is, we have 
to pick up the tab.
    You mentioned stability in the program. We want stability 
in the program, but unless industry and the services cooperate 
and give us an honest estimate, then we have a real problem 
down the road and so we have to make up the difference.
    For instance, what happened with the E-2. We had to take 
one out to find $150 million because of all these other things 
that happened in the budget. So my advice is--and I know how 
difficult it is to have industry not come in with an 
underestimation and you not to estimate you are going to build 
``X'' number, because you know you are not going to build ``X'' 
number, so that we have a reasonable estimate of what is going 
to happen; and then we can do a better job making sure that you 
get the money and stabilize the program.
    I don't know if that answers the gentleman's question, 
but----
    Mr. Visclosky. I am in agreement with you.
    The other examples are the DDG-1000 program, the advanced 
extremely high frequency satellite program, the CVN-21 aircraft 
carrier, the helicopter program. And the concern I have from a 
budget standpoint is, then every year you get the ripples 
where, okay, now we have got to adjust each one of these 
programs; and as the chairman says, now we have got to find new 
money.
    Recognizing many of these are unique systems and you are 
always going to have problems, but you have got a statute, you 
are talking about an independent estimate, and then----
    Mr. Murtha. Let me----
    Mr. Visclosky. Why are we going through the drill?
    I am fine, Mr. Chairman.
    Mr. Murtha. Let me mention on a lighter note, I see big 
changes in the services. I had two nephews graduate from the 
Naval Academy. Big changes in the Navy.
    But the Air Force has the biggest changes. You mentioned my 
grandson was at the Air Force Academy before we met. I went out 
there to the Air Force Academy and they showed me the mud that 
these guys crawl through. They showed me the tents that they 
stay in. They showed me the combat obstacle courses they went 
through. And I was amazed.
    I don't know why they showed me that--to make sure that I 
knew how tough it was at the academy.
    And then I happened to get a call from the Secretary of 
Defense while I was out there about another matter. And I told 
him, I said, ``They are going through the mud, these poor guys 
in the Air Force; they don't ever spend any time in the mud.'' 
He said, ``It wasn't like that when I was in the Air Force.''
    And I see today evidence of that. I mean, your professorial 
response, which is good. You are the premier fighter pilot in 
the Air Force. I would never have believed that if I hadn't 
read your biography. You are the best the Air Force has; and 
you come up here, and yet you know all these technical details. 
That is a pleasure.
    And, of course, the same way, you guys have got real 
responsibility. And I know you can't control what goes over in 
RFP, but we need more honest RFPs and the industry to be more 
honest, so that we can judge this budget and stabilize the damn 
thing, so we can buy in quantities that we would like to buy, 
so we don't have these estimates which completely distort what 
we are trying to do.
    So I appreciate your testimony and we appreciate your 
service to the country, and the Committee will adjourn until 
10:00 a.m. tomorrow. Thank you very much.
    [Clerk's note.--Questions submitted by Mr. Boyd and the 
answers thereto follow:]

                 Low Observable Maintenance Facilities

    Question. Low observable maintenance is the leading F-22 non-
mission capable driver fleet-wide. Are more low observable maintenance 
facilities necessary to mitigate this problem?
    Answer. Yes, more F-22 low observable maintenance facilities will 
help mitigate the problem.

                              F-15 Eagles

    Question. How many planes are associated with a typical F-15 
squadron?
    Answer. Both the typical F-15C/D and F-15E squadrons each have 24 
primary aircraft authorized (PAA). In addition, each squadron typically 
has a two backup aircraft inventory (BAI) plus 1-2 attrition reserve 
(AR) aircraft. The BAI and AR numbers are not fixed and, can change 
over time.
    Question. How many personnel, contractors, and officers are 
associated with a typical F-15 squadron?
    Answer. Operational F-15 fighter squadrons are programmed for a 
crew-to-aircraft ratio of 1:25. This crew ratio captures the line pilot 
requirement for line units. For a squadron with 18 aircraft assigned, 
the line pilot requirement is 23. For 24 aircraft the number is 30. 
Additionally, each squadron is staffed with support functions essential 
to conduct flying operations, such as standardization and evaluation, 
aviation resource management and administrative support. Finally, 
leadership of the unit and the management of its personnel comprise the 
remainder of the organization. For a unit with 18 aircraft assigned, 
the typical unit has 48 personnel (29 officers and 19 enlisted). For a 
unit with 24 aircraft, the number is 56 personnel (36 officers and 20 
enlisted). Contractors are not associated with a typical F-15 squadron.

                             Golden Eagles

    Question. Does the Air Force intend to upgrade all the F-15C/Ds to 
be ``Golden Eagles'' or just some portion?
    Answer. There currently are 176 long-term F-15C/D aircraft, also 
known as Golden Eagles. The Air Force does not intend to upgrade 
additional F-15C/Ds to long-term status. The existing long-term 
aircraft will continue to receive upgrades as necessary.

                             F-15 Drawdowns

    Question. Does the Air Force intend to drawdown F-15s earlier than 
previously programmed? If so, is there a comparative ``Smart-
Operations'' study of alternatives on the future of the F-15 Force?
    Answer. The Air Force does intend to retire some F-15s earlier than 
previously programmed. The Air Force took a comprehensive look at the 
fighter force structure and determined it was in the best interest of 
national defense to adjust the number of aircraft world-wide to 
successfully carry out a modernization and recapitalization of the 
fighter fleet to meet the needs of the combatant commanders. The plan 
accelerates the inevitable retirements of older legacy aircraft and 
reinvests savings into the remaining legacy fighters and bombers, 
munitions, other key enablers. Although the fighter fleet is smaller, 
the effects provided by the newer modifications, preferred munitions, 
and critical enablers create a capabilities based bridge from our 
Fiscal Year 2009 legacy dominated force to the fifth generation-enabled 
fighter.

    [Clerk's note.--End of questions submitted by Mr. Boyd.]
                                           Tuesday, March 31, 2009.

                         ARMY AVIATION PROGRAMS

                               WITNESSES

LIEUTENANT GENERAL N. ROSS THOMPSON, III, PRINCIPAL MILITARY DEPUTY TO 
    THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS AND 
    TECHNOLOGY AND DIRECTOR, ACQUISITION CAREER MANAGEMENT, UNITED 
    STATES ARMY
BRIGADIER GENERAL WILLIAM T. CROSBY, PROGRAM EXECUTIVE OFFICER, 
    AVIATION, UNITED STATES ARMY
BRIGADIER GENERAL WALTER L. DAVIS, DIRECTOR FOR ARMY AVIATION, OFFICE 
    OF THE DEPUTY CHIEF OF STAFF, G-3/5/7, UNITED STATES ARMY

                              Introduction

    Mr. Boyd. The Committee will be in order. In the tradition 
of Chairman Murtha's policy, I will start on time. And we are 
very excited this morning to be holding this hearing on Army 
Aviation.
    We are very pleased to welcome General N. Ross Thompson, 
III, Principal Military Deputy to the Acting Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology; also Brigadier General William T. Crosby, Program 
Executive Officer, Aviation; and Brigadier General Walter L. 
Davis, Director of Army Aviation, Office of the Deputy Chief of 
Staff.
    General Thompson has appeared before this committee many, 
many times. Welcome back, General Thompson. Generals Crosby and 
Davis, welcome to the hearing to you, gentlemen. You are very 
well qualified to address issues related to Army Aviation, and 
those of us who know a little bit about your careers thank you 
for being here, and thank you for your many years of service to 
this great Nation that we live in.
    I anticipate that we will have a far-ranging discussion 
this morning. The Army's premier aviation acquisition program, 
the Armed Reconnaissance Helicopter, has been terminated 
following a Nunn-McCurdy review. The Army has lost more than 40 
current Scout helicopters. The OH-58D Kiowa Warrior and 
replacement aircraft are sorely needed. No doubt your 
discussions will address these programs for AH-64 Apache, UH-60 
Blackhawk, the CH-47 Chinook, and the newest Army helicopter in 
production, the UH-72A Lakota. We will also have questions 
about various unmanned aerial systems, including the Predator, 
Shadow, Raven, and the Micro Air Vehicle.
    Finally, we will have some questions on the Joint Cargo 
Aircraft, the Army's new medium-sized multipurpose cargo 
aircraft, which will replace multiple Army platforms. The 
committee is looking forward to your statement, and we 
anticipate an interesting and informative question-and-answer 
session.
    Before we have your opening statement, General Thompson, I 
would like to recognize, since Mr. Young is not here, I would 
like to call on Mr. Frelinghuysen for any remarks that he may 
have.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Gentlemen, 
welcome, and thank you for your service. Aviation assets are 
important, and let me thank you for providing them. You cannot 
fight wars without aviation. And we are appreciative of, I 
think, the tremendous job that the Army and our other services 
have done in that regard. And we look forward to your testimony 
here this morning. Thank you again for your service.
    Mr. Boyd. Thank you, Rodney.
    And General Thompson, the floor is yours.

                 Summary Statement of General Thompson

    General Thompson. Well, thank you Congressman Boyd, 
Congressman Frelinghuysen, and distinguished members of the 
Committee on Defense. I want to really thank you for the 
opportunity to appear again before the Committee today.
    And today we are going to discuss Army Aviation programs.
    Mr. Boyd. General Thompson, is your mike on?
    General Thompson. It is, sir.
    Mr. Boyd. The green light is----
    General Thompson. The green light is on.
    Mr. Boyd. Okay. Thank you.
    Mr. Bishop. Turn it to your mouth.
    General Thompson. I will talk more directly into the mike.
    Mr. Frelinghuysen. He has had all that experience before 
the Committee. I think he will get it.
    General Thompson. I do not think I could mumble my way 
through this and get away with it. So again, we are here this 
morning to talk about Army Aviation programs and our mutual 
efforts to develop and field new and improved equipment and 
systems to support our warfighters, while ensuring proper 
fiscal stewardship of the taxpayer dollars.
    With me today, as you highlighted, is Brigadier General Tim 
Crosby, who is the Program Executive Officer for Aviation, who 
does all the acquisition on our aviation systems; and Brigadier 
General Walt Davis, who is the Director for Army Aviation in 
the Office of the Deputy Chief of Staff, G3 for the Army.
    We have a joint written statement that I respectfully 
request be made a part of the record for today's hearing.

                        DEMAND FOR ARMY AVIATION

    Mr. Chairman, with the support of this subcommittee and 
other Members of Congress and the American people, Army 
Aviation is meeting the demands of our overseas contingency 
operations and keeping our aviation assets at a high state of 
readiness. The demand for our aviation forces and platforms 
continues to increase, and we expect it to peak within the next 
60 days, as the Sixth Aviation Brigade deploys to Afghanistan. 
Thus far, we have flown more than 3 million flight hours since 
2003 in support of operations in Iraq and Afghanistan. 
Depending on the aircraft type, this is three to five times 
higher than normal mission requirements, but still our aviation 
fleet is performing extremely well in theater, under very 
challenging and dangerous conditions. It has been 5 years since 
the Army, with the support of the Congress and the Office of 
the Secretary of Defense, terminated the Comanche Helicopter 
Program and took the resources to allow modernization of the 
entire Army Aviation fleet. Our progress in this regard has 
been steady and significant. And we thank you for your guidance 
and your strong support in those 5 years.
    Today, 9 of the 13 systems identified for funding at 
Comanche termination are in production. And by fiscal year 
2011, we will have started fielding 3 more of the 13 systems. 
These programs receive priority so we can field the systems to 
units that are preparing to deploy to overseas operations or to 
those that are already currently deployed in support of 
operations.
    Because of the timely modernization of the Army Aviation 
fleet, our warfighters in theater already have the advanced 
protection and support of the CH-47F Chinook and the UH-60 Mike 
Blackhawk helicopters, which are the latest variants of those 
two helicopters, along with Sky Warrior and Raven Unmanned 
Aircraft Systems, and a pre-production variant of the Micro Air 
Vehicle from our Future Combat Systems program to provide 
enhanced force protection.
    The Apache helicopter continues its role as the world's 
most lethal and survivable helicopter. Most of these aircraft 
will enter Block III remanufacture with less than 50 percent of 
the airframe's design life, which is 10,000 hours, remaining.
    Mr. Boyd. General Thompson, we will see if we can get this 
stopped. I think I have got--it is very difficult to hear over 
that. So why don't we just halt for a second? Is that something 
in another room? We really want to hear what you have to say, 
General Thompson.
    General Thompson. I assure you I did not pay that guy 20 
bucks to start drilling.
    Mr. Boyd. I hear you.
    Mr. Frelinghuysen. Good timing.

                            APACHE BLOCK III

    Mr. Boyd. Isn't Sherry wonderful? She got it stopped 
already. Thank you. Go ahead.
    General Thompson. Okay. Sir, we were talking about the 
Apache Block III. The Block III remanufacture is an ideal 
opportunity for us to insert new airframes into the Apache 
fleet at a minimal additional cost. The Army is on track with 
its commitment to modernize also the remaining AH-64 Alphas, 
the older variants of the Apaches in the National Guard.

                        LIGHT UTILITY HELICOPTER

    The Light Utility Helicopter has enabled us to return 
Blackhawks to the warfighting fleet, and allowed the retirement 
of almost all of the UH-1 Hueys, the Vietnam-era Huey 
helicopters, and the OH-58, Alpha, Kiowa, and Charlie models in 
both the Active and Reserve components. For the National Guard, 
this means more Blackhawks for homeland security and for 
disaster relief missions.

                    ARMED RECONNAISSANCE HELICOPTER

    The Army and the Department of Defense remain committed to 
the requirement for a manned armed helicopter capability and 
the need to deliver this capability to our soldiers in a 
responsible and timely manner.
    We are currently evaluating what additional enhancements 
and service life extension work will be required to continue to 
safely sustain the Kiowa Warrior fleet until a replacement 
Armed Reconnaissance Helicopter is procured.
    In other areas of aviation, the first two Joint Cargo 
Aircraft have been delivered to the Army for testing, and 11 
are on contract. The Aerial Common Sensor program is awaiting 
the Defense Acquisition Executive's approval to release the 
technology development request for proposal so we can get the 
responses back from industry. Our Army Unmanned Aircraft 
Systems continue to provide enhanced capabilities to our 
warfighters in both Iraq and Afghanistan.
    Mr. Chairman, the demands placed on our aviation crews are 
great, but these demands are continually met around the world 
and around the clock. Aviation has an essential and growing 
role in the success of our military operations worldwide, 
including homeland security. Our progress in Army Aviation is 
steady and significant.
    I want to thank you and the members of the Defense 
Subcommittee for your sound advice and your strong support. 
This concludes my opening remarks. And Brigadier General Davis 
and General Crosby and I look forward to your questions.
    The reason that they are here today is to make sure that I 
get all the answers right, or we get all the answers right. I 
am also training the bench, because someday they will be here 
and I will not. And do not let General Crosby's South Carolina 
accent fool you. He knows quite a bit about Army Aviation.
    [The joint statement of General Thompson, General Crosby 
and General Davis follows:]
[GRAPHIC] [TIFF OMITTED] T6285A.133

[GRAPHIC] [TIFF OMITTED] T6285A.134

[GRAPHIC] [TIFF OMITTED] T6285A.135

[GRAPHIC] [TIFF OMITTED] T6285A.136

[GRAPHIC] [TIFF OMITTED] T6285A.137

[GRAPHIC] [TIFF OMITTED] T6285A.138

[GRAPHIC] [TIFF OMITTED] T6285A.139

[GRAPHIC] [TIFF OMITTED] T6285A.140

[GRAPHIC] [TIFF OMITTED] T6285A.141

[GRAPHIC] [TIFF OMITTED] T6285A.142

[GRAPHIC] [TIFF OMITTED] T6285A.143

[GRAPHIC] [TIFF OMITTED] T6285A.144

[GRAPHIC] [TIFF OMITTED] T6285A.145

[GRAPHIC] [TIFF OMITTED] T6285A.146

    Mr. Boyd. Thank you very much, General Thompson. I 
apologize for the noise and the interruptions, but would just 
like to say we are going to move directly to questions. But I 
did want to say that all of us on this Committee certainly 
understand the importance of the work that the folks--that you 
folks and the folks that work for you in Army Aviation do. And 
certainly nobody understands that any better than I do, who 
spent all of my 2 years in uniform in an Army uniform, a lot of 
it in a helicopter being flown around by guys like you. So we 
understand the importance of your role in the overall mission.
    And so with that, I would like to call on Mr. 
Frelinghuysen, recognize him for first questions.

                         ARMY AVIATION BRIGADES

    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman. 
Maybe a few basic facts. How many aviation brigades do we have 
in the Army? And then talk specifically about, General 
Thompson, you said we sent our Sixth Aviation Brigade to 
Afghanistan; is that right? Talk about the aviation assets and 
where they are in Afghanistan and Iraq.
    General Davis. Yes, sir. Again, there are 11 Active 
component aviation brigades. There are eight National Guard 
aviation brigades. There are also six theater-level brigade 
structures, a general officer over some other structure, and 
then, sir, we do have some assorted capability that is not 
resident in a combat aviation brigade structure.
    So what we currently have in Iraq are four combat aviation 
brigades that are deployed in support of Iraq. And as the 
theater is divided up, you have got a brigade that supports 
essentially a multinational division sector and then in 
Baghdad.
    And then in Afghanistan, we currently have one combat 
aviation brigade that is located in Regional Command East in 
support of the 101st Air Assault Division. The second of two 
brigades that will go into Afghanistan deploys in the May time 
frame, the 82nd Combat Aviation Brigade out of Fort Bragg, 
North Carolina. So that will give us the six combat aviation 
brigades in theater.

                            AVIATION OPTEMPO

    Mr. Frelinghuysen. The OPTEMPO which was mentioned in your 
statement--never should downplay it--can you sort of add some 
emphasis onto what the--I mean these air assets, aviation 
assets have been under incredible pressure, obviously, as have 
the men and women who are responsible for them. Can you sort of 
describe in detail the--what is it--six times the normal--what 
was the comment you made, General Thompson?
    General Thompson. Yes, sir. The flying hours on a monthly 
basis are really three to five, three to six times the average 
that we would fly in a normal training environment. But despite 
that, the operational readiness rates of all the helicopter 
fleets are above the standard of 75 percent. In some cases, 
they are in the high 80 percent, is our ability to maintain 
those fleets flying while they are in a combat environment. So 
I think we have been very successful from that standpoint.
    The 75 to sometimes 100 hours a month that these airframes 
are flying in very harsh conditions is a testimony, first and 
foremost, to the crews that fly them and the crews that 
maintain them; but also to the testimony to the support 
structure that is in place to get them ready to go to be 
deployed overseas, to maintain them while they are there, and 
then to reset those airframes when they come back so they are 
ready to go again.
    Mr. Frelinghuysen. What is the combat tour duration for the 
aviation brigades?
    General Davis. Right now, sir, just based on the OPTEMPO 
that you alluded to, and with six brigades going in, the Active 
component is at about a 1-year to 1.2-year dwell right now. We 
are on the cusp in terms of the numbers of brigades we have 
with the operational tempo and the number of brigades that we 
have committed to the warfight right now.
    Mr. Frelinghuysen. So they are getting the dwell time back 
home. What is the dwell time back home, on the average?
    General Davis. 1.2 for the Active components, sir, and 
then--1.2 years for the Active component units, and then 4 
years for the Reserve component.
    Mr. Frelinghuysen. Could you describe for the Committee the 
process and timeline for returning Army Aviation assets from 
the combat theaters to home stations or to the depot 
maintenance locations for reset? What is the process?
    General Crosby. General Thompson mentioned a moment ago 
about the sustainment structure that we put in place. One of 
the things that we have done with my counterpart in the Army 
Materiel Command, Commander, General Myles, is we send a team 
over there before the brigade comes home, and we look at their 
aircraft, go through and plan the scope of the reset that we 
will do upon their return.

             SPECIAL TECHNICAL INSPECTION AND REPAIR (STIR)

    Mr. Frelinghuysen. And much of it, obviously, being really 
beat up as well as it has been maintained, a lot of it is----
    General Crosby. Yes, sir. One of the things I wanted to add 
to what General Thompson said is that the OPTEMPO that we are 
flying is such a credit to our soldiers and the fact that they 
are able to maintain those aircraft at those three to six times 
the normal OPTEMPO rate. Now, yes, there is some credit to this 
Committee, to everyone for resourcing them, providing them the 
additional parts and things they need to do that.
    Mr. Frelinghuysen. We credit your mechanics keeping those 
aircraft----
    General Crosby. Those soldiers are doing just an 
unbelievable job to do that. We look at them, and yes, sir, 
some of them do what we call stay behind. They may stay for two 
rotations if they are in really good shape. And that decision 
is a joint decision that General Davis' team makes, based upon 
our input back to them, and what the resourcing and the dwell 
times need to be for the aircraft.
    But we look at them from a reset. There is a scope, what we 
call a technical bulletin, that we go through. And it was based 
upon the Special Technical Inspection and Repair (STIR) program 
that we did from the original Desert Shield and Desert Storm 
when we came home. And we called it STIR back them. Now we call 
it reset. And we go through each of those aircraft and we 
identify them.
    General Thompson. STIR is just a technical inspection. The 
technical bulletin is just the checklist of things that you 
would do on any piece of equipment. But in this case, it is the 
aviation systems. You just go right down the list and you check 
everything from the top of the helicopter all the way down. You 
make a determination on what it needs in order to put it back 
into full operational condition.
    General Crosby. And the scope, the reason I brought that up 
is the scope of that is adaptable to the situation and the 
theater that they are in. We look at them. That is why we do 
that prelook. We adapt that scope of the reset. And then there 
is a target timeline that we have to do and run each of these 
aircraft through the reset inspection that we do. That is all 
going on while the unit is preparing, they are having their 
dwell time back home back with their families. We take those 
aircraft. Our goal is to only take those aircraft from a unit 
one time to do any new mods to the aircraft before they go back 
and to do the reset at once.
    We are not there. I will tell you we are not there 100 
percent because things change so fast. But our objective is one 
touch from that unit, to take it away from that unit so that 
they have it the rest of the time to focus on their training to 
go back.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.
    Mr. Boyd. Mr. Bishop.

                           MEDICAL EVACUATION

    Mr. Bishop. I am interested in the Medevac capabilities. In 
January of this year in testimony before the House Armed 
Services Committee, Secretary of Defense Gates addressed the 
difference in Medevac response times for Iraq and Afghanistan. 
He noted the goal in Iraq was to have a wounded soldier to the 
hospital within an hour. In Afghanistan, he noted that the 
times were closer to 2 hours. And of course the Secretary 
directed increasing the number of Medevac helicopters or 
medical professionals assigned to Afghanistan.
    What are the factors that cause Medevac--I guess it is 
obvious; it takes significantly longer in Afghanistan than 
Iraq. I guess it is terrain and mountainous and infrastructure, 
or lack of infrastructure.
    But what are the--what additional Medevac assets, both 
medical facilities and aircraft, that have actually arrived in 
Afghanistan, and what additional assets are on the way? And are 
there remaining shortages with Medevac aircraft, air crews, and 
forward surgical teams in Afghanistan? And what is the 
evacuation time today in Afghanistan as compared to what it was 
back in January? And are there any significant limitations for 
our helicopters in Afghanistan? And how does that impact your 
utilization of the Air Force Medevac teams to supplement what 
the Army has had?
    General Davis. Congressman, if I could, you are absolutely 
right; there is a difference with both theaters with respect to 
the terrain, the geography, the positioning of the assets. And 
the Secretary, as well as the leadership for all the services, 
were very concerned. We try to codify as a standard, not a 
goal, to get a wounded soldier, sailor, airman, marine, or a 
coalition force or contractor from point of injury back to 
medical care within 60 minutes. And so the goal of the 
Secretary was again to, as you alluded to, sir, was to get 
parity between the theaters. There were different planning 
times that both theaters were using.
    We have currently put a strategy in place to address that, 
a bridging strategy, and then a strategy which will get 
resources in Afghanistan, which will achieve parity. Currently, 
the average time for evacuation of a soldier, sailor, airman, 
marine in Iraq is 44 minutes. And currently in Afghanistan it 
is 71 minutes. And that is primarily related to two regions, 
Regional Commands East and South right now, where we have the 
propensity of our forces.
    The strategy that was put in place was to accelerate 
capability into Afghanistan, and do that as quickly as we 
could, knowing that the 82nd Aviation Brigade, which I 
mentioned will become the second brigade in Afghanistan, brings 
additional Medevac capability with it, a company of 12 
aircraft.
    And so right now what we have done within theater is re-
missioned the aircraft from the Air Force, the Combat Search 
and Rescue aircraft, HH-60s, to conduct a medical evacuation 
mission. There are two additional forward surgical teams, which 
gives the medical capability on the ground that they need that 
have been resourced by both the Army and the Navy. They will 
re-mission Navy Medevac aircraft as well that are currently 
resident in Kuwait. They are going to add two more aircraft, 
and then they are going to re-mission aircraft. And that is to 
take effect this month.
    And so what we will have in May, sir, is when the 82nd 
Aviation Brigade gets in there, they estimated and have 
projected that they will achieve the 60-minute standard for 
evacuation with the additional Medevac company that comes in 
with the 82nd and with the additional re-missioning and forward 
surgical teams.
    Mr. Bishop. Is that going to be accomplished? And I want to 
congratulate you for moving from 120 minutes to 71 minutes in 3 
months. That is great. And it serves our wounded warriors very 
well.
    Is the increase in times a direct function of the 
additional assets, or is it a function of the assets plus 
prepositioning of assets in particular locations around 
Afghanistan closer to the fight? What is accounting for that 
drop.
    General Davis. Yes, sir, it will be additional assets, 
which will allow them to have more locations where they can put 
assets. And again, as we see additional troop increases in 
Regional Command South, that is where that additional aviation 
brigade will go in as well. But it is a combination of 
increased assets as well as certainly working the tactics, 
techniques, and procedures, and the procedural issues from the 
time that a mission actually occurs and the process that the 
request has to go through. And they are going to do that not 
with just U.S. forces, but with our NATO forces that are there 
as well. So it is a combination of those things, sir.
    Mr. Bishop. What about additional hospitals, medical 
facilities? Are you putting in additional medical facilities 
also?
    General Thompson. Yes, sir. It is not just the aviation 
assets. Because what you heard General Davis indicate is the 
increased Medevac company from the Army and the additional Air 
Force search-and-rescue aircraft and re-missioning of those and 
the Navy assets. But also it is the additional forward surgical 
teams, which is the top-level surgical care.
    As they looked at the positioning of those teams in 
theater, there has already been an additional Army surgical 
team put in theater. On its way is an additional second Army 
surgical team and a Navy surgical team. So it is putting the 
medical assets where they are needed in theater, and then 
working the combination of where the medical assets are, and 
then where the Medevac assets are in order to get the wounded 
service members and contractors back to the surgical care as 
quickly as possible.
    Mr. Bishop. Thank you very much. And I appreciate your 
quick response in improving that response time. Thank you, Mr. 
Chairman.
    Mr. Boyd. Thank you, Mr. Bishop. Mr. Tiahrt.

                          AERIAL COMMON SENSOR

    Mr. Tiahrt. Thank you, Mr. Chairman. Welcome, gentlemen. 
Thank you for your service to the country. I appreciate it very 
much.
    General Thompson, in your written testimony you talked 
about the ACS, Aerial Common Sensor program, and you say that 
is it is awaiting Defense Acquisition Executive approval. What 
does that mean? What is the tent pole here on ACS?
    General Thompson. Sir, on Aerial Common Sensor, the 
competitive acquisition strategy to take the mission equipment 
package and mount it on an airframe is going to be done through 
a technology development phase. All of the documentation 
necessary to make that decision have been laid out. I expect in 
the next week to 10 days Mr. Young, the Defense Acquisition 
Executive, will be able to take final action on approving that 
acquisition strategy so that we can go out and begin the 
competitive process with the industry out there.
    Mr. Tiahrt. Isn't the electronics pretty well determined? I 
mean, isn't it already palletized?
    General Thompson. It is. The mission packages are pretty 
well known. It is the integration of those mission packages 
onto a different airframe.
    Mr. Tiahrt. In the first go-round, the airframe could not 
handle the heat and weight as I recall.
    General Thompson. That is correct.
    Mr. Tiahrt. And we have not come up with an alternate for 
the airframe? Because you mentioned--one thing I am a little--
you mentioned the Unmanned Aerial Systems in the next 
paragraph, under the same heading, almost as if you could 
substitute the mission for a UAV or UAS. And I think that your 
package is too big to put on any single UAS. And I think having 
the personnel on board with all the equipment and integration 
is pretty important, as I understand.
    General Thompson. Yes, sir. You are exactly right. And I 
will talk for just a minute, and then I will let General Davis 
add to that. But it is the manned and unmanned teaming as we 
described it. It is the combination of the Unmanned Aerial 
Systems with the sensors that are appropriately on there, and 
then the manned systems.
    Today it is Guardrail Common Sensor and Airborne 
Reconnaissance low-ARL and some other systems that have been 
bought, in particular for use inside of Iraq. But it is the 
combination of the manned and unmanned teaming. As much as 
possible, we like to use common sensor packages that we can 
mount on both unmanned systems and a manned system. But the 
operators on the Aerial Common Sensor program allow us to take 
that sensor information and to process this and to get it 
quickly to the operational commanders on the ground who can use 
that.
    Mr. Tiahrt. Excuse me for interrupting, General, because I 
have limited time. I do not know what, when we say we are 
awaiting, is there a schedule for Mr. Young to rule on this, or 
is it just still in limbo?
    General Thompson. No, sir, there is a schedule, and it is 
tied to the final deliberations on submission of the fiscal 
year 2010 budget.
    Mr. Tiahrt. Okay. So it is tied to the budget.
    General Thompson. It is in its final stages right now. Then 
that will trigger his ability to be able to sign the document 
that allows us to go forward.

                        LIGHT UTILITY HELICOPTER

    Mr. Tiahrt. All right. The other question I had was in 
relationship to the Light Utility Helicopter. You mentioned in 
your statement here that the schedule is to begin in April to 
transition some of this work from Germany to Columbus, 
Georgia--Mississippi. Columbus, Mississippi, I am sorry.
    When you say the schedule is to begin, what does ``begin'' 
mean? Does that mean they are going to have a ground breaking, 
or are they going to transition manufacturing to an existing 
facility that has been certified by the FAA?
    General Crosby. I will take that one, sir. Most of the 
assembly today is done at that plant in Columbus, Mississippi. 
The date that you mention that you talk about will be the first 
one that is started and finished in that facility.
    Some of it today, just in schedule as the program was laid 
out, was still assembled or built in Germany and shipped to the 
facility in Columbus for final assembly. The date that you 
mentioned, I believe it is this summer, April, that first 
aircraft will go through the entire assembly, from the first 
rivet all the way to delivery, at that Columbus facility. All 
American.
    Mr. Tiahrt. The 65 percent goal that you mentioned is that 
dollar amount, or is that work content?
    General Crosby. Sir, I believe that is work content.
    Mr. Tiahrt. Because I want to remind you that when we have 
a Buy American provision, we think of American jobs not just in 
tech orders and spares and logistics support and warehousing 
and inventory and training, we are thinking about manufacturing 
content. And I have a real concern with the company that is 
doing this, because just recently there was an--ICE, 
Incorporated, won a lawsuit against EADS over the A-400 on an 
avionics package. During the bidding process, they asked for 
technical data and for financial--you know, how much it is 
going to cost. And then once they received that and 
successfully won a package, then they pull that content back to 
Germany and hold onto it. And they take the technical data and 
give it to a European supplier. In this case, it was a French 
supplier. And our courts ruled in favor of them. And I do not 
know what the settlement is going to be yet, but it is a loss 
of intellectual property. And I think we are seeing it in the 
Light Utility Helicopter, as well with the airframe.
    They took work content packages, technical data, pricing 
data from Spirit AeroSystems, and then they pulled it back to 
Europe, and they are making the airframe in Germany now, which 
is what that was for. And they are using the manufacturing plan 
and the technical data and the cost package for their German 
company, and it is a subsidized process.
    So Buy American provision to us means work content, it does 
not mean dollar value. I want to make that clear. So I am glad 
you are using work content, because that is the intent I think 
that we have. But I am very concerned about the loss of 
intellectual property, where in the bidding process what they 
demand from their subs is something they can take right over to 
their manufacturers in Europe and put it into a manufacturing 
process. And our tax dollars end up creating a stronger economy 
in France and Germany than it does in America.
    And right now, every one of us in this room represents 
people who are laid off because of our economy going south. And 
we want to get those jobs back. But we can't if we allow 
intellectual property--so please guard intellectual property in 
the way you write your RFPs and set your contracts.
    General Thompson. Yes, sir.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Boyd. Thank you, Mr. Tiahrt. Ms. Kaptur.

                          PERSONNEL IN THEATER

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen, 
and thank you for your service to our country. I thank you for 
your testimony.
    I just reflect that it seems to be more equipment-oriented 
rather than what I would call mission-oriented. And I want to 
get into mission a little bit if I could. Would you please tell 
me from Army Air how many personnel are currently assigned in 
the Iraqi theater versus the Afghani theater? Approximately.
    General Davis. I am sorry, ma'am, I do not have the exact 
number. But typically in the brigade in Afghanistan, it is 
going to be roughly about 2,500 to 3,000. And then four times 
that amount in Iraq. So roughly 10,000. I apologize, ma'am. I 
will get the exact number and I will bring that back.
    [The information follows:]

    The United States Army Human Resources Command (HRC) receives a 
monthly roster, by Social Security Numer, of deployed Active Duty 
personnel receiving Hostile Fire Pay. This information is gathered from 
Defense Finance and Accounting Service (DFAS) and Deployed Theater 
Accountability System (DTAS). It includes all Active Duty personnel in 
the Iraqi and Afghanistan theaters. The Reserve Component (RC) 
information has been collected from both the ``Stress on the Force Data 
Set'' and the Total Army Personnel Data Base-Reserve (TAPDB-R). The 
Reserve Component (RC) information is broken down into two categories. 
The first category contains the numbers for Deployed Individual Ready 
Reserves (IRR) and Individual Mobilization Augmentee (IMA) Soldiers. 
The second category contains the numbers for Mobilized Individual Ready 
Reserves (IRR) and Individual Mobilization Augmentee (IMA) Soldiers. 
Enclosed below is the information for all Aviators (15 series (Military 
Occupational Specialty) MOSs and 67J (MEDEVAC Pilot) MOS) that are 
currently deployed or mobilized, whether they are on Joint Manning 
Document (JMD), Worldwide Individual Augmentee System (WIAS), etc. or 
in an Aviation Brigade.
    As of 8 April 2009, there are a total of 1099 warrant officers, 670 
commissioned officers, and 4071 enlisted Soldiers deployed in both 
theaters. The numbers for Active Duty personnel in each theater are as 
follows: 318 warrant officers in OEF, 781 in OIF, 191 commissioned 
officers in Operation Enduring Freedom (OEF), 479 in Operation Iraqi 
Freedom (OIF), 1109 enlisted Soldiers in OEF, and 2962 in OIF.
    The following information for Reserve Component (RC) personnel is 
as of 8 May 2009. There are a total of 8 deployed warrant officers (2 
in OEF and 6 in OIF); 6 deployed commissioned officers (2 in OEF and 4 
in OIF); 30 deployed enlisted personnel (4 in OEF and 26 in OIF); 44 
mobilized warrant officers (23 in OEF and 21 in OIF); 108 mobilized 
commissioned officers (72 in OEF and 36 in OIF); and 113 mobilized 
enlisted personnel (14 in OEF and 99 in OIF).

----------------------------------------------------------------------------------------------------------------
                                                 WO1        CW2        CW3        CW4        CW5        Total
----------------------------------------------------------------------------------------------------------------
OEF.........................................          7        166         87         44         14          318
OIF.........................................         21        448        183        103         26          781
                                             -------------------------------------------------------------------
    Total...................................         28        614        270        147         40         1099
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                 1LT        CPT        MAJ        LTC        COL        Total
----------------------------------------------------------------------------------------------------------------
OEF.........................................         26         98         41         16         10          191
OIF.........................................         56        257        101         50         15          479
                                             -------------------------------------------------------------------
    Total...................................         82        355        142         66         25          670
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                           E01    E02    E03    E04    E05    E06    E07    E08    E09    Total
----------------------------------------------------------------------------------------------------------------
OEF.....................................      1     14    126    457    253    149     74     31      4     1109
OIF.....................................     10     50    266   1347    666    335    213     70      5     2962
                                         -----------------------------------------------------------------------
    Total...............................     11     64    392   1804    919    484    287    101      9     4071
----------------------------------------------------------------------------------------------------------------

                    deployed (irr and ima soldiers)

----------------------------------------------------------------------------------------------------------------
                                                                   W01     CW2     CW3     CW4     CW5    Total
----------------------------------------------------------------------------------------------------------------
OEF............................................................       0       1       0       0       1        2
OIF............................................................       0       3       3       0       0        6
                                                                ------------------------------------------------
    Total......................................................       0       4       3       0       1        8
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                   1LT     CPT     MAJ     LTC     COL    Total
----------------------------------------------------------------------------------------------------------------
OEF............................................................       0       1       0       0       1        2
OIF............................................................       0       0       1       2       1        4
                                                                ------------------------------------------------
    Total......................................................       0       1       1       2       2        6
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                           E01    E02    E03    E04    E05    E06    E07    E08    E09    Total
----------------------------------------------------------------------------------------------------------------
OEF.....................................      0      0      0      3      1      0      0      0      0        4
OIF.....................................      0      0      3     13      7      1      1      0      1       26
                                         -----------------------------------------------------------------------
    Total...............................      0      0      3     16      8      1      1      0      1       30
----------------------------------------------------------------------------------------------------------------
Source: TAPDB-R and ``Stress To Force Data Set''.

                    mobilized (irr and ima soldiers)

----------------------------------------------------------------------------------------------------------------
                                                                   WO1     CW2     CW3     CW4     CW5    Total
----------------------------------------------------------------------------------------------------------------
OEF............................................................       0       2       2      16       3       23
OIF............................................................       0       5       9       7       0       21
                                                                ------------------------------------------------
    Total......................................................       0       7      11      23       3       44
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                   1LT     CPT     MAJ     LTC     COL    Total
----------------------------------------------------------------------------------------------------------------
OEF............................................................       1       1      21      34      15       72
OIF............................................................       0       4      22       9       1       36
                                                                ------------------------------------------------
    Total......................................................       1       5      43      43      16      108
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                           E01    E02    E03    E04    E05    E06    E07    E08    E09    Total
----------------------------------------------------------------------------------------------------------------
OEF.....................................      0      0      1      3      2      0      3      4      1       14
OIF.....................................      0      4     16     52     23      1      2      0      1       99
                                         -----------------------------------------------------------------------
    Total...............................      0      4     17     55     25      1      5      4      2      113
----------------------------------------------------------------------------------------------------------------
Source: TAPDB-R.

    General Thompson. What he is giving you, ma'am, is the 
number of soldiers typically assigned to an aviation brigade, 
and then the number of aviation brigades in theater. It is 
2,500 and roughly 10,000.

                        BASES AND STAGING AREAS

    Ms. Kaptur. All right. That is very helpful information. At 
how many separate bases or staging areas is your equipment and 
your personnel staged in both the Iraqi theater and the Afghani 
theater? And that can go outside the boundaries of the country. 
But at how many separate bases or staging areas is your 
equipment and your personnel placed in each of those theaters, 
again trying get a sense of the mission versus just equipment?
    General Davis. In Afghanistan there is typically one major 
staging for the aviation brigade itself. And then it will be 
split out into battalion-size task forces. So probably another 
three or four different locations for the aviation in 
Afghanistan. In Iraq, There are four major areas there. And 
they have also got their assets split out. I do not know 
exactly how many bases.
    Ms. Kaptur. Those are all in each of those countries, 
inside the countries?
    General Davis. Yes.
    Ms. Kaptur. All right. Thank you.
    General Thompson. And ma'am, it is really dictated by the 
operational conditions on the ground. So it is always a balance 
between the operational commander needing attack assets or lift 
assets or Medevac assets in a certain amount of time.
    The other part of the balance is the centralization and the 
emphasis that we put on the maintenance of the aircraft and the 
supply and the maintenance systems. It is always that tension 
that dictates the positioning.
    The thing that always wins the day is where the operational 
commander needs assets so they can be responsive to his mission 
requirements. Then we figure out where the logistical 
positioning is. But there is that balance that goes on all the 
time that is really driven by the operational commander on the 
ground.

                            VULNERABILITIES

    Ms. Kaptur. In looking at both Iraq and the Afghani 
theaters, what do you consider your greatest vulnerabilities in 
each of those theaters today?
    General Thompson. I guess I would answer this in a general 
way. There are the very harsh conditions driven by, the weather 
and the sand and the terrain that put the wear and tear on the 
aircraft. From the standpoint of what causes aircraft to be hit 
and shot down, it is small arms fire, in some cases RPGs. The 
exact details of how we lose aircraft overseas, because we have 
lost 162 aircraft.
    Ms. Kaptur. How many again, General?
    General Thompson. 162 since the beginning of combat 
operations in Iraq and Afghanistan.
    Ms. Kaptur. How many? I didn't hear.
    General Thompson. 162.
    Ms. Kaptur. 162. Mostly in Iraq?
    General Thompson. Mostly in Iraq so far, because that is 
where the bulk of the aviation assets have been since we 
started Operation Iraqi Freedom. But the exact details of what 
causes us to lose aircraft are something that we can talk 
about, but I would not want to talk about that in this hearing. 
I would want to talk about that in a classified hearing or a 
classified discussion.

                              SKY WARRIOR

    Ms. Kaptur. How important is the Sky Warrior Unmanned 
Aircraft System to your operations in Afghanistan?
    General Davis. Ma'am, it is very important. I mean it is 
integrated in both theaters, certainly at the theater level and 
also at the division level in the case of Afghanistan. So it is 
a great capability. There are two variants, early variants of 
the Sky Warrior Extended Range/Multipurpose that are in 
Afghanistan and Iraq right now. So there are 13 total aircraft, 
but it is very, very important to the integration of the 
reconnaissance, surveillance, and target acquisition mission 
that the theater performs.
    Ms. Kaptur. Excuse me, General, 13 between both theaters?
    General Davis. That is correct.
    Ms. Kaptur. All right. How many do you have in Iraq?
    General Davis. We have ten air vehicles in Iraq and three 
in Afghanistan.
    Ms. Kaptur. How many of those have been destroyed in combat 
operations to date? And while you are looking for that, could I 
ask you, are the Sky Warriors that are based in Iraq and 
Afghanistan flown by Army personnel or by contractors?
    General Davis. A combination of contractor and Army 
personnel.
    Ms. Kaptur. Which contractors? What firms?
    General Davis. General Atomics is the prime contractor.
    Ms. Kaptur. What Tomics?
    General Davis. General Atomics, a-t-o-m-i-c-s.
    General Crosby. They are the OEM, original equipment 
manufacturer, for the system. We sub to them. It is what 
General Davis is talking about GOCO; it is government owned, 
contractor operated, in those two locations. We are actively 
training our soldiers to take over that mission.
    Ms. Kaptur. I was going to ask you whether the UAV 
operators are pilots.
    General Crosby. They are not. They are sergeants for the 
Army.
    General Davis. We are training the first of the enlisted 
operators for the first variant or the preproduction ER/MP 
right now at El Mirage, California. But they are enlisted 
operators of those air vehicles.
    Ms. Kaptur. I think my time has probably expired. Do you 
anticipate replacing the contracted personnel, then, with 
enlisted personnel?
    General Davis. Over time, yes, ma'am, we sure do.
    Ms. Kaptur. Over how much time?
    General Davis. Ma'am, I do not have an exact timeline, but 
again, we are on the leading edge of training the enlisted 
operators for those right now.
    General Crosby. We are putting in fielding the quick 
reaction capability over there, the first one due to arrive 
this summer. And it will be soldiers. As you know, ma'am, the 
UAS, that is a new area for us. And we are learning and 
developing tactics, techniques, and procedures on how these 
things are engaging. And we are learning so much: what affects 
the structure, the quantity, the number of systems that need to 
be fielded, where we put them, where we station them to provide 
that soldier the information on the battlefield.
    Those three units that General Davis talked about are 
giving us that direct feedback. Even though they are contractor 
operated, we are getting that feedback from the soldier for the 
future. And that guides us how we will build and construct the 
other systems. So it is a learn as we go here. But what we do 
know is it is a great asset to put in the hands of our 
soldiers.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Boyd. Thank you, Ms. Kaptur. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Have questions been 
asked on the Joint Cargo Aircraft?
    Mr. Boyd. No.

                          JOINT CARGO AIRCRAFT

    Mr. Visclosky. Okay. Gentlemen, how many of the Joint Cargo 
Aircraft does the Army plan to buy? And do you know what the 
Air Force number is?
    General Davis. The total requirement, sir, is 78; 54 for 
the Army right now, and 24 for the Air Force. I do not know the 
Air Force acquisition strategy right now for the Joint Cargo 
Aircraft. But our number is 54.
    Mr. Visclosky. Do you know, is there an interrelationship? 
If the Army ends up buying more, would the Air Force buy less 
or vice versa?
    General Crosby. I think that is left to be determined.
    Mr. Visclosky. Do you have any communication going on with 
the Air Force to----
    General Crosby. Yes, sir. And there is another one that is 
thrown into that; the Special Operations community is also now 
coming on line. So those are all yet to be determined. The 
validated requirement we have in the Army is, as General Davis 
said, for 78. How that need is met in the mix between the Army 
and the Air Force is to be determined. I think the QDR is going 
to address part of that.
    General Thompson. Now, just a correction. The total 
validated requirement is 75 right now, 54 of those for the Army 
and the others for the Air Force. What General Crosby is 
alluding to, the Special Operations community is looking at 
that aircraft and the potential use of that aircraft for their 
missions. So that number may adjust a little bit from the 
requirements perspective. But right now, our plan is to procure 
54 for dedicated Army use. The first two have been delivered.
    Mr. Visclosky. Twenty-one would be Air Force. And 
potentially, if Special Operations get involved, the total 
number of 75 could potentially go higher.
    General Thompson. It could, sir. The 21 for the Air Force--
because the Air Force on fixed wing assets flies the Special 
Operations missions with their units--so some of those 21 could 
be re-missioned from the delivery of time-sensitive, mission-
critical cargo, which is the requirement, they could be re-
missioned to Special Operations needs. But that has not been 
firmly determined yet from the requirements process.
    Mr. Visclosky. And are these planes being assembled at this 
time? Have you had any deliveries yet?
    General Crosby. Yes, sir. We have had two delivered. In 
fact, I am being beckoned to come speak at the graduation of 
the first pilots and crew members next week to take over those 
two aircraft. We have, I think, 11 on contract currently. But 
at this point, only two have been delivered.
    Mr. Visclosky. And where does the assembly take place? 
Where does the integration of military hardware package take 
place?
    General Crosby. Today everything is done by Alenia in 
Italy.
    Mr. Visclosky. And that is an Italian corporation as well?
    General Crosby. Yes, sir. Partnered through L3 here in the 
United States. As planned in the overall strategy, the 
groundbreaking ceremony for the new facility in Jacksonville, 
Florida is set for the 24th of April, which I will attend. And 
then I believe the first deliveries from that facility are in 
fiscal year 2013.
    Mr. Visclosky. And how long will the purchase of these 
craft extend out to? What would be your plan at this point in 
time?
    General Thompson. Sir, the Army is funded through fiscal 
year 2013 for the 54 aircraft.
    Mr. Visclosky. Why some assembly in Italy, why the rest in 
Jacksonville?
    General Thompson. To bring the capability on shore. When we 
did the competitive award of the contract, they won the 
competitive award. But part of the competitive award was to do 
the mission assembly in the United States. That is going on in 
Waco, Texas right now. Then as General Crosby alluded to, 
building the production facility in Jacksonville, Florida. We 
would build the back end of the 54 aircraft, the bulk of them, 
here in the United States.
    Mr. Visclosky. Just out of curiosity, it is an Italian 
corporation. Did American manufacturers bid on it and they did 
not win a contract?
    General Crosby. The contract is an American corporation. 
They are partnered with L3. L3 is the prime.
    Mr. Visclosky. Is the prime?
    General Crosby. Yes, sir.
    Mr. Visclosky. But the assembly is taking place in Italy?
    General Crosby. Initially, yes, sir. Very similar to what 
happened with the Light Utility Helicopter. That is being 
transitioned to the United States, in accordance with the plan. 
They will build a facility in Jacksonville. First orders in 
fiscal year 2010, I believe, and delivered thereafter.
    Mr. Visclosky. With all the aircraft manufacturing, I am 
just curious at this point--forget the aircraft. With all the 
aircraft that have been produced in the United States, we are 
here in 2007, 2008, 2009, and there are at least a couple of 
aircraft where the initial assembly and production are taking 
place overseas because they have won a contract, they have an 
expertise. What is happening here? What has happened? What is 
happening?
    General Thompson. Well, sir, the first thing we do is we 
put out a competitive procurement. So in this particular case, 
other companies bid on this aircraft. But through the 
competitive source selection process they were not the winners. 
It was L3, teamed with Alenia, that won the Joint Cargo 
Aircraft competition.
    Mr. Visclosky. I am not criticizing the process.
    General Thompson. Right.
    Mr. Visclosky. I am saying how has this happened that at 
least in a couple of aircraft enumerated here, Mr. Tiahrt had a 
series of questions about intellectual property, that all this 
is going offshore? Although, albeit it is coming back, but it 
started offshore. How have we found ourselves in this spot as 
an industrial base? I am asking an industrial base question. 
Any----
    General Thompson. I think----
    Mr. Visclosky. It leaves me speechless, too, I got to tell 
you.
    General Thompson. Part of it is the whole globalization of 
industry. In this particular case they won a fair and open 
competition. We are trying to get as much of that work content 
brought back in the United States. We gave the 65 percent 
numbers for the LUH program. We are bringing the assembly of 
the Joint Cargo Aircraft on shore and building a facility in 
Jacksonville, Florida. But, if you look in any of the defense 
industries today, most them are teamed with global firms; most 
of those global firms in Europe.
    Mr. Visclosky. Is part of that to make sure they can 
compete in other countries as well then?
    General Thompson. I am sorry?
    Mr. Visclosky. Is that to assist them in their competition 
in other countries, do you think, or is it a lack of expertise? 
From an industrial base standpoint. Forget the contract, forget 
the cargo aircraft.
    General Crosby. For this one, Alenia plans to come here. 
And in all of their future sales of this aircraft, they plan 
sales worldwide would be for those delivered from Jacksonville. 
So the American workers are going to get the benefit of doing 
this and providing this, and hopefully the suppliers within our 
country to support that. Again, as you say, this is much bigger 
an industrial base issue. But we are keeping our technology, 
our folks in this country, working to do that.
    Now, both of these systems, when we talk about intellectual 
properties, both of these systems are, if you will, off the 
shelf, already designed, existing systems out there. And that 
was one of the things that made them attractive in their cost, 
and why, frankly, that they won these competitive contracts, 
because they already were in existence. So we are not losing 
the technological edge to develop something that is not out 
there and stimulating our technology base. These were systems 
that are already in existence.
    Mr. Visclosky. Okay. Gentlemen, thank you. Thank you, Mr. 
Chairman.
    Mr. Boyd. Thank you, Mr. Visclosky. Mr. Frelinghuysen.

                        UNMANNED AERIAL SYSTEMS

    Mr. Frelinghuysen. I sort of want to get back, if I could, 
to some of the unmanned aerial programs. You have got the Sky 
Warrior, you have got the Shadow, you have got the Raven, you 
have got some tied to the FCS, the Maverick, and you have got 
something called the Fire Scout. And then the Air Force has its 
aviation assets.
    Can you talk a little bit about airspace coordination? 
There is a lot of stuff up there. I just sort of--can you make 
some general comments? And as we shift to Afghanistan, which 
has been, as we said, sort of asset bereft until recently, what 
is the likely picture going to look like over there in terms of 
unmanned assets?

                         AIRSPACE COORDINATION

    General Davis. Yes, sir. Just to talk to airspace, in 
general, sir, I mean the airspace coordination is going quite 
well, actually. There are a lot of assets that occupy the 
airspace, both as the Air Force would term, above a 
coordinating altitude and below that, at more of a tactical 
level at the lower altitudes. And so you have the small-sized 
aircraft, the Raven that you mentioned, that not just the Army 
is using.
    Mr. Frelinghuysen. I want you in a few minutes to tell the 
me the story of Raven, how well it has been utilized. Give me 
the overview.
    General Davis. So the small aircraft like the Raven, the 
hand-held piece; and then at the brigade level, sir, of course 
we have the Shadow aircraft, which you had mentioned, a little 
larger aircraft. And then certainly at the higher levels where 
you have the Cessna 172-sized aircraft for the Air Force's 
Predator and the Army's Extended Range/Multipurpose, but those 
procedures are worked, again, between the services. We have 
elements that are located in our combat aviation brigade that 
work those procedures.
    Mr. Frelinghuysen. So you have people manning these 
systems. As you have said to Ms. Kaptur, some are contractors, 
some are NCOs.
    General Davis. Yes, sir.
    Mr. Frelinghuysen. The Air Force has, you know, Creech and 
their pilots who operate.
    General Davis. They do, sir. They are operating from a 
remote location. As you know, of course, they have assets 
physically in theater, though.
    Mr. Frelinghuysen. Some of these assets are physically in--
--
    General Davis. They do, sir, for the take-off and landing 
piece, and they hand over the control of the air vehicle back 
to Creech Air Force Base and/or Nellis Air Force Base for 
those. But again, sir, in general the airspace procedures are 
working very well in, as you alluded to, crowded airspace.
    Mr. Frelinghuysen. Are things complicated in a country like 
Afghanistan just because of the nature of the topography? 
Beside, obviously, you know, climatic and weather and----
    General Davis. It is complicated by that, sir. But having 
said that, again as you alluded to, it is a larger area, and 
you actually have less assets there in terms of numbers.
    Mr. Frelinghuysen. But a likelihood of more assets.
    General Davis. We do. With the aviation brigade that is 
coming in in the May time frame, there will be more rotary wing 
assets and some additional Unmanned Aircraft Systems as well, 
yes, sir.

                         FUTURE COMBAT SYSTEMS

    Mr. Frelinghuysen. I am a supporter of the Future Combat 
Systems, so I do not ask this question in any but a positive 
sense. I want to see it come to life. I want to see it fully 
developed. The systems we have out there now, some of which I 
mentioned, how many are compatible with, should we say, the 
Future Combat Systems?
    General Crosby. I can take that, sir. There are two--if I 
could. I know you are asking about all of them. But I will take 
just a second to try and summarize quickly what all we have.
    Mr. Frelinghuysen. I like the notion that whatever we are 
doing now, you know, in Iraq and Afghanistan--go ahead, please.
    General Crosby. Yes, sir. The Raven is the small UAV. The 
Shadow is the next one up the line, which is operated by 
soldiers. Both operated by soldiers. Next up is the Warrior 
that we talked about. Then there are the two that are in the 
FCS bundle, if you will, the Class I and the Class IV.
    Mr. Frelinghuysen. Some of those systems have been 
deployed; is that right?
    General Crosby. Correct, sir. The Class I is the MAV, Micro 
Air Vehicle.
    Mr. Frelinghuysen. That is the Maverick?
    General Crosby. It is. They call it the MAV, Micro Air 
Vehicle. It has been deployed in an pre-production 
configuration, again to give us that feedback in learning, and 
is supposed to be part of the spin-out.
    Mr. Frelinghuysen. It has been deployed in Iraq, I 
understand.
    General Crosby. Yes, sir.
    Mr. Frelinghuysen. Eighteen systems according to----
    General Crosby. There are actually 16 deployed of the 18 
that we have. The other two will have the actual gimbal and 
will have the tactical data link that will give it the 
interoperability that it is supposed to have with the FCS 
systems. All the other systems are not currently today 
compatible directly with the FCS, except that they will use the 
one system ground control station. And the digital data link, 
once employed, will give them the ability to share that data 
with the FCS network.
    Mr. Frelinghuysen. But you are desirous of Future Combat 
Systems as a system of systems.
    General Crosby. Absolutely, sir.
    Mr. Frelinghuysen. So there would be, obviously, a push 
towards compatibility.
    General Crosby. Correct, sir. I will not tell you they are 
all resourced today. We are looking at them. OSD has been very 
active in having us look at the joint arena across the 
platforms and being able to focus. Our goal is to go through 
one common ground control station, which will then allow us to 
share the data across the different platforms.
    One of the big successes we have had in the Army is called 
the One System Ground Control Station and the One System Remote 
Video Terminal, which is out there. We fielded thousands of 
them, that the soldiers are getting these feeds directly in 
their hands, real time.

                                 RAVEN

    Mr. Frelinghuysen. With the Chairman's indulgence, would 
you describe the Raven?
    General Crosby. The Raven is the small man-pack 
transportable UAS. Operates off a battery. It has got a small 
EOI sensor. It is man-packed.
    General Thompson. Small electro-optic/infrared sensor.
    General Crosby. I am sorry. I forget these acronyms. The 
Army acquisition objective is 2,182, and the procurement 
objective is 2,096. Today we have 1,318 of those systems. And 
when I say systems, we talk about Ground Control Station, Air 
Vehicle, all of that as a system. They are fielded to date. And 
of that, with the small UAV, we have 1,059 systems. As I said, 
291 of those systems are deployed.
    General Davis. Sir, roughly 800 air vehicles are between 
Iraq and Afghanistan. And again, they are invaluable.
    Mr. Frelinghuysen. Are they equally successful in both?
    General Davis. They are, sir. They are invaluable to our 
brigade combat teams, particularly at the platoon or company 
battalion level, at the lowest level, where our ground forces 
are reliant on having some eyes that they can get on for their 
missions and their targets. So they are invaluable.
    General Crosby. We in Aviation manage them, but those 
systems, the small UAV are in the hands of the infantrymen.
    Mr. Frelinghuysen. Literally.
    General Crosby. Yes, sir.
    Mr. Frelinghuysen. That is great.
    General Thompson. If I can give just sort of some 
perspective here, the Raven is the small UAV that is at the 
platoon and the company level. That is why there are more of 
them. The Shadow, pretty much at the battalion, sometimes at 
the brigade level. The Warrior and the ER/MP, which is the 
follow-on to the Warrior, at the division or more at the 
theater level.
    So small to large; lower-level tactical units to the 
larger-level tactical units, all of those UAVs and the two that 
are part of the FCS program, the Micro Air Vehicle, which looks 
like a flying ball, and the Class IV UAV, which is a 
helicopter-like unmanned aerial vehicle, those two are part of 
the FCS program.
    The early preproduction models of the smaller one are being 
used in Iraq today. The intent with the FCS program is to 
integrate and be able to use all of the assets that are out 
there, not just the ones that are being developed as part of 
the FCS program, those two UAVs, but all of the assets that are 
out there today, Ravens, Shadows, ER/MP, to be able to 
integrate and operate and get the sensor information off of all 
those platforms, bring it into the network, and feed that to 
where it needs to be for the operational commander on the 
ground, all the way down to the company level or even below.
    Mr. Frelinghuysen. I am glad to hear it. Thank you, Mr. 
Chairman.
    Mr. Boyd. Thank you, Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. I am done, Mr. Chairman.
    Mr. Boyd. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. On the ACS again, in 
your testimony you talk about awaiting Defense Acquisition 
Executive approval to release the technology development 
request for proposal. And the source selection will result in 
the award of two competing technical development contracts, 
which will be preliminary designed and prototyping efforts.
    Mr. Tiahrt. Now, these are the--are these two integration 
packages? Because we talked earlier about some of the pallets 
are complete, or I think they are--if I understand correctly, 
they are pretty much complete. So is the technical development 
just the integration package?
    General Thompson. Yes, sir. The challenge on the Aerial 
Common Sensor program is to integrate what is mostly the 
existing sensor packages onto a different airframe.
    Mr. Tiahrt. Are these sensor packages going to be GFE or 
are they included in the technical development?
    General Crosby. I believe the acquisition strategy supports 
the sensors being developed independently of the airframe. And 
then, as General Thompson said, the challenge will be 
integration of all of those systems. I am not sure, because I 
don't manage that program, whether the sensors are GFE or not. 
But I will take that for the record.
    [The information follows:]

    The sensors integrated onto the Aerial Common Sensor (ACS) will be 
competitively procured and selected by the respective contractor teams 
during the Technology Development phase. The Government does plan to 
provide the following subsystems to each contractor team as Government 
Furnished Equpment (GFE): Multi-Role Tactical Common Data Link (MR-
TCDL); Distributive Common Ground Station--Army (DCGS-A) software; and 
the Communications High-Accuracy Location System (CHALS) precision 
geolocation system. Providing these subsystems to the vendors will 
reduce integration risks and shorten system acquisition time.

    Mr. Tiahrt. What about the airframe? Is it going to be GFE? 
You are not developing an airframe. You are going to take an 
existing aircraft. Have you already selected the aircraft?
    General Crosby. We have not, sir.
    General Thompson. We have not selected the aircraft.
    Mr. Tiahrt. Is that up to the integrator, to select the 
package it will be carried on?
    General Thompson. The intent would be for the two that we 
take into the technology development phase and then pick one of 
those to go into the systems development, would be to 
competitively award to an integrator to bring those sensor 
packages onto an airframe. And that is the source selection.
    Mr. Tiahrt. These technology development packages are 
absent of the system integration and the airframe? Is it just 
the pallets that we are still working on here? I am just trying 
to figure out where this is in the process.
    General Crosby. Sir, I believe that the challenge and what 
will be done during that technology development phase, as you 
say, those sensors themselves are in existence. But what we 
have not done is put them all on a single platform, as you 
alluded to earlier. Therein lies the challenge of being able to 
manage with a man in the loop or a woman in the loop, in the 
back, managing all that aspect.
    The centrifusion is the challenge of integrating all of 
those capabilities. We have got sensors out there that, as you 
say, could be GFE. But the integration of all those sensors 
will be the challenge.
    General Thompson. Part of the acquisition strategy is you 
have two get manned capabilities today, the Guardrail Common 
Sensor and the Airborne Reconnaissance Low-ARL-program. Those 
are two fixed-wing manned ISR assets today. A lot of the sensor 
packages and those will be brought over and integrated into the 
new platform, plus as we upgrade those and put other 
capabilities on there.
    So the intent, Congressman Tiahrt, is to leverage all of 
the existing center packages and drive towards commonality as 
much as possible, and mount those onto a new airframe, because 
the current airframes on the Guardrail and ARL have got a lot 
of wear and tear and a lot of age on there, so it is to upgrade 
that capability. Then to right size the ISR capability from the 
standpoint of how many platforms we have got out there.
    Mr. Tiahrt. So the integrator, though, will make some of 
these decisions on which technical packages to include--or you 
are combining certain packages already that have been selected, 
you just--are you upgrading those individual packages, like 
what is on Guardrail versus----
    General Thompson. Yes, sir, we are. From a requirements 
perspective, the government will decide what packages it wants 
integrated and then work with whatever the industry team is to 
do the technical work, to make sure that happens onto the 
airframe.
    Mr. Tiahrt. And you won't be selecting an aircraft; it will 
be up to the integrator? Or will the Army select an airframe?
    General Thompson. Well, the multiple industry competitors 
that compete for this will propose an airframe and we will 
decide what is the best one based on the source selection 
criteria, again, mapping back to the requirements. We take the 
requirements; we write into contract language what we would 
like to buy; and then we do a competitive process and evaluate 
the multiple competitors, two or more against those 
requirements; and then pick the best one based on a best 
guidance position.
    Mr. Tiahrt. Will you consider leasing airframes? Or will 
you want to purchase them?
    General Thompson. Currently, the acquisition strategy is 
not to lease airframes, it is to purchase airframes.
    Mr. Tiahrt. It is to buy them. All right. Thank you, Mr. 
Chairman.

                            CH-47 HELICOPTER

    Mr. Boyd. Thank you Mr. Tiahrt.
    General, I have three questions I want to ask regarding 
issues I don't think have been covered. I want to thank the 
members, first of all, for the very good questions.
    But my first one has to do--and if you will give us sort of 
an overview of the use of the CH-47 and its role in our mission 
and where we are going as it relates to Future Combat Systems 
and the Heavy Lift project that you may have on the drawing 
board. That is question number one.
    The other is that you made reference to--well, let's do 
them one at a time. I will just do the Chinook first. Explain 
to the committee what the CH-47 is and how it is used in the 
mission.
    General Davis. Yes, sir. The 47--and again, we have got our 
first F models that are in theater now. But it is performing 
extraordinarily well. Sir, a medium-lift aircraft--I mean, the 
testimony from the commanders on the ground--and I would cite 
the former commander of the 101st Aviation Brigade in 
Afghanistan--he claimed it was the center of gravity for his 
force on the ground. Not just the aviation, but certainly in 
support of ground combat operations in terms of its flexibility 
and versatility and what it can lift, how much it can lift; its 
ability to operate at high altitudes in terms of those types of 
very important missions that it does. And particularly the F 
model, which is just a fantastic capability that they have 
right now. So they are reliant on this airframe in Afghanistan.
    Certainly, Congressman Boyd, as you have alluded to, the 
fielding of Joint Cargo Aircraft would perhaps take pressure 
off of our rotary wing fleet that we have that are doing many 
of the mission-critical, time-sensitive missions for resupply 
operations, that type of thing.
    Mr. Boyd. But you don't see it totally replacing that?
    General Davis. No, sir, not at all.

                             AIRFRAME LIFE

    Mr. Boyd. So basically for the committee, the CH-47 is an 
in-theater transport, used to transport men, equipment, 
supplies, whatever, even sometimes weapon systems.
    Okay. The second question has to do with a comment I read, 
General Thompson, in your prepared statement. And that has to 
do with the airframe life of the Army aviation assets in the 
theater that we are working in now, primarily Iraq and other 
parts of the Middle East.
    Ms. Kaptur actually alluded to this issue, and you briefly 
touched on it. But I think in that statement you made some 
reference to the fact of the diminished airframe life of the 
aviation assets and what that may mean for us in the future. 
Can you expound on that?
    General Thompson. Well, from a general sense, the reference 
in the statement, for the record, is about the Apache airframe 
life, 10,000 hours. As we bring an aircraft back to reset it or 
to do a more significant upgrade, we are always looking at how 
many hours are left on that airframe. Then we make a decision 
to take that airframe down and either completely replace the 
airframe or to do all of the structural modifications 
necessary, so when we put that aircraft back together again, it 
can fly for another 10,000 hours. We do that on all of our 
platforms.
    The one we are looking at in particular is the opportunity 
with the Apache Block III upgrade, which of those airframes do 
we need within zero time, if you will, so that we get the full 
operational life back, because it is very expensive to take an 
aircraft apart, as you can imagine, and put it back together 
again. When you do that, you want to do it in the smartest way 
possible.
    Mr. Boyd. But the point here is that it is operating in the 
Middle East theater that is much tougher than, say, Southeast 
Asia, for example, and would diminish the life of that 
airframe?
    General Crosby. What we have found thus far, sir, is that 
the environment of the dust and the sand, it does indeed wear 
on your components; primarily your drive train components, your 
rotor blades, your transmissions. All of those rotating 
components. It is like a sand blaster. We have minimized that 
through particle separators and we have adapted to those things 
as best we can. So the wear is primarily on the dynamic 
components more than the airframe.
    The concern I have as the airframe guy is looking at that 
life. We are their own condition aircraft. They are based on 
how well and in what kind of environment, how much weight you 
put on them. If you fly a Chinook at 50,000 pounds all the 
time, it is obviously going to wear out faster than the one 
that flew at 30,000 pounds for most of its life. So we have to 
plan for that.
    My concerns are we are flying at that OPTEMPO four or five 
times the normal rate. Are we using them up faster? We are 
minimizing that through the reset program through the funding 
we have been getting to do D-to-D recaps, as we call 
recapitalization of the airframe, that General Thompson alluded 
to, down at our depots. We are minimizing that.
    But the continued use of those aircraft, yes, sir, it is 
burning them up faster, and we are spending a lot of time being 
proactive trying to manage the life limits on that aircraft.
    Mr. Boyd. So the airframe issue has more to do with the 
OPTEMPO than the environment is what I heard you say?
    General Crosby. Yes. Yes, sir.
    General Thompson. That is a fair take-away point.

                    ARMED RECONNAISSANCE HELICOPTER

    Mr. Boyd. The last question I have has to do with ARH. And 
can you, General Thompson, give us--or one of you give us a 
general overview of what happened and what we might be doing to 
mitigate that situation in terms of assets?
    General Thompson. The ARH program, there was a Nunn-McCurdy 
process that we went through and the Defense Acquisition 
Executive decided not to recertify that program. It was driven 
in large measure because of a 42 percent increase in the 
expected cost of that helicopter over what we had put into the 
acquisition baseline at the time.
    We have got the existing Kiowa Warrior fleet out there 
today. What the Army has done is gone back and reevaluated the 
requirements--and we submit the 2010 budget and we have talked 
to that Committee and to the other committees and the staffers 
on the Hill--is to reinvest the money into making the Kiowa 
Warrior fleet safe and flyable for the near term because we 
need to do that.
    We have got 338 of those aircraft today that we are going 
to continue to be flying. A lot of those are in theater as well 
as probably the most used from a standpoint of density of 
aircraft in the theater. We have got to continue to maintain 
the Kiowa aircraft fleet. We will reinvest some money to do 
that with the support of the Committee. Then we will go through 
as we update the requirement, and the plan would be to look at 
a competitive procurement for replacement one day for the Kiowa 
Warrior fleet. But in the meantime, I think you will see us 
come back and lay out what we need to do to maintain the fleet 
that is out there today.
    That is not dissimilar to what we have done and when we 
canceled the Commanche and we talk about reinvesting those 
dollars. The Chinooks, the Blackhawks, the Apaches, even though 
these airframes were first produced, in many cases many years 
ago, it is the recapitalization programs and the upgrade 
programs that we put them through, these are safe and flyable 
aircraft. And we will do the same thing for the Kiowa fleet 
until we eventually replace it.
    Mr. Boyd. Yes, Mr. Frelinghuysen.

                         KIOWA WARRIOR UPGRADES

    Mr. Frelinghuysen. If the Chairman will yield, where do we 
stand relative to the upgrades?
    General Thompson. On which aircraft, the Kiowa?
    Mr. Frelinghuysen. The Kiowa.
    General Thompson. We have 52 or 54 aircraft left to go that 
need to be brought to the system enhancement package 
capability, and then the entire fleet. Then what we are looking 
at right now is what else do we need to do to extend the 
service life of those aircraft? We have labeled the program 
2020 to get those aircraft to 2020 and beyond. We do that to 
the entire fleet. We have looked at the necessary enhancements 
that we need to do to that fleet from the standpoint of 
avionics, the sensor package, any structural modifications that 
we need to do.
    Mr. Frelinghuysen. So we are making some progress?
    General Thompson. Yes, sir. We are. We definitely are. We 
have got all of the planning done to be able to execute that 
program.
    Mr. Frelinghuysen. And when we get them back online with 
all the avionics and things that we need to upgrade them, how 
long do you anticipate they will be able to fly? Which gets to, 
obviously, the bigger issue the Chairman raises which is, if we 
didn't go ahead with the other contract, what is there in the 
future that might replace them?
    General Crosby. Sir--as General Thompson said, we are 
calling this--Life Support 2020. And those are just a--for lack 
of a better term--a bucket of mods that we need to do to 
address obsolescence and those immediate things that we have, I 
would say, accepted risk on while we were focussing on the ARH. 
Now that the ARH has been delayed, or the pursuance of that ARH 
capability has been delayed, as we relook it there are things 
that need to be done and we have put those into this bucket of 
Life Support 2020. We start now and we would apply all of them 
and finish the entire fleet of all of those mods by fiscal year 
2015. But, please, that is not a service life extension 
program.
    Mr. Frelinghuysen. How long, to answer my question, will 
they be able to fly with all those upgrades? That sort of begs 
the question as to what we are looking at in terms of--towards 
a replacement.
    General Crosby. I understand. We believe that will carry us 
through the 2020 time frame, dealing with the obsolescence. In 
the meantime, the Army at that time, to determine the scope of 
what we do, either buying a new capability or continuing to 
upgrade this capability, they will do the analysis to determine 
what scope has to be done. These are the things we said needed 
to immediately be done to carry us through that 2020 time 
frame.
    General Thompson. I think the way I would describe it, 
Congressman Frelinghuysen, is we think we understand what we 
need to do to keep those aircraft safe and flyable until 2020. 
At that point in time, we need to begin to replace the Kiowa 
aircraft, or you would have to do a more significant upgrade if 
you did not replace it with a new aircraft. That decision point 
is not yet there. That is part of the requirements process.
    So we think we have got it scoped out, of what we need to 
do to keep them until 2020. Then beyond that, it is either buy 
new or upgrade the existing fleet beyond what we have already 
scoped out.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Boyd. Thank you. On that note, General, can you tell us 
how many OH-58s you are short?
    General Davis. Sir, we have a 368 aircraft requirement and 
we are short 30. So we have 338 right now. So we do have a 
strategy as well that is pending the final piece of the funding 
for conversion of OH-58 A's to C's--AC's to D's in order to get 
us back to our requirement.
    Mr. Boyd. Okay.
    General Thompson. The Alpha and Charlie OH-58 aircraft are 
the older versions, and there are still some left, primarily in 
the National Guard. There is roughly 120 or so of those 
aircraft. So to get from where we are with the inventory of 338 
Kiowas to the desired objective to have 368, which gives you 
enough to put in all of the formations that fly the Kiowas, we 
would have to convert roughly 30 of those Alpha and Charlies to 
the Delta model Kiowa. We have done the engineering analysis, 
we are beginning to do the engineering analysis to make that 
happen, and that would be subject to the approval of this 
committee and the other committees in the Congress. But that 
would be the plan that we would bring forward.
    Mr. Boyd. Okay, gentlemen. Thank you very much.
    General Thompson, General Crosby and General Davis, I very 
much appreciate your forthcoming testimony and answers to the 
questions.
    And I want to also thank the members for your indulgence 
and participation. And let me close by thanking our wonderful 
staff, Paul Terry, for helping us put on a productive hearing. 
And this Committee hearing is adjourned.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                       UH-60 Blackhawk Helicopter

    Question. The UH-60 Blackhawk is a four-bladed, twin-engine, medium 
lift utility helicopter. Its missions include: air assault, general 
support, MEDEVAC, command and control, and special operations. Cruising 
speed is 152 knots. The Army's total requirement for UH-60s is nearly 
2,000 aircraft.
    What has been the performance record of the Blackhawk helicopter in 
Iraq and Afghanistan? What capability shortcomings have been identified 
in Iraq and Afghanistan?
    Answer. The performance of the Blackhawk aircraft in Overseas 
Contingency Operations (OCO) has been exceptional. As of 15 April, 224 
aircraft were deployed in support of Operation Iraqi Freedom (OIF) and 
another 53 aircraft were in Afghanistan supporting Operation Enduring 
Freedom (OEF). The Blackhawk is a utility aircraft being used in air 
assault, general support, command and control, and aeromedical 
evacuation (MEDEVAC) roles. The UH-60, in its MEDEVAC role has saved 
countless lives due to its ability to get combat casualties to primary 
medical facilities within the ``golden hour.'' The UH-60 MEDEVAC has 
been enhanced with a Forward Looking Infrared Radar (FLIR), hoist 
system, and modern medical interior to assist in casualty extraction 
and treatment.
    Since February 2003, over 757,339 combat flight hours have been 
flown by Blackhawks in Iraq. 121,346 combat flight hours have been 
flown in Afghanistan. The operational temp in both areas is about three 
times the operational tempo of peace time units or approximately 50 
hours/month. While the operational tempo has been high, UH-60 mission 
capability rates regularly exceed 80-85% on average. However, we should 
not lose sight of some of the reasons why we are seeing these 
successes, and how quickly it can change based on funding.
    Supplemental funding provides critical enablers to support this 
high operational tempo and the required readiness to meet missions. 
Some of these enablers include:
    <bullet> Higher Repair parts stockage levels, visibility over 
requirements, and express shipments preclude deployed aircraft being 
down for part (NMCS) for any length of time.
    <bullet> Extensive Mission Equipment Packages (MEP) required by 
HQDA are installed on deploying aircraft to provide enhanced aircraft/
aircrew survivability in combat operations, improved communications and 
situational awareness, and improved aircraft performance. MEPs also 
help negate the detrimental effects on aircraft and components from 
operations in the harsh desert environment.
    <bullet> Substantial contractor support in theater provides 24 hr 
scheduled/unscheduled maintenance support to units.
    <bullet> Additional aircraft modifications such as Sponson mounted 
Forward Looking Infrared (FLIR) for MEDEVAC and Satellite 
Communications, are installed to meet commanders Operational Needs 
Statements (ONS).
    <bullet> Installation of Digital Source Collectors to monitor and 
provide real-time information on the health and condition of aircraft 
systems to support the Conditioned Based Maintenance (CBM) concept.
    <bullet> Aviation Reset's extensive Special Technical Inspection 
and Repair (STIR) program provides fully mission capable aircraft back 
to deployed units in the shortest time possible.
    The UH-60 Blackhawk is performing exceptionally well in OEF and 
OIF. Specific shortcomings due to special mission requirement are 
addressed through the Operational Needs Statement (ONS) process.
    Question. Do any units in the Army, active or reserve component, 
have older model Blackhawks that are considered non-deployable for 
combat?
    Answer. No. But this is dependent on where the aircraft are 
deploying to. If the aircraft are deploying to Operation Iraqi Freedom 
or Operation Enduring Freedom there is a prescribed mission equipment 
list these aircraft must have installed before deployment; we call this 
program PRESET. There is a number of aircraft within the UH-60 fleet 
that have not been deployed to combat operations in this theater and we 
would not deploy until PRESET was performed on the aircraft. But, these 
aircraft are deployable to other contingencies and deployability would 
be evaluated based on the mission equipment list for the deployment.

                     Light Utility Helicopter (LUH)

    Question. The Army is procuring 322 commercial, off-the-self light 
utility helicopters to replace aging OH-58 and UH-1 utility 
helicopters. The new aircraft has been designated the UH-72A Lakota. 
The Army National Guard will receive 200 of the aircraft out of the 
total of 322.
    What are the different models or configurations of the Light 
Utility Helicopter?
    Answer. There are two basic configurations of the UH-72A Lakota. 
There is a utility version that can carry two pilots, one crewman, and 
five passengers. There is also a Medical Evacuation (MEDEVAC) 
configuration that has two pilots, three crew seats and room for two 
NATO standard litters. The MEDEVAC configuration also has a hoist A VIP 
transport configuration has also been introduced that has six club 
seats and may carry two pilots, one crewman and five passengers. There 
are various configurations being introduced for the Combat Training 
Center (CTC) and Army National Guard (ARNG) missions. The CTC will be 
equipped with the necessary equipment to conduct Opposing Force (OPFOR) 
and Controller missions, such as additional radios, sensors and 
datalink capability. The ARNG Security and Support (S&S) will have an 
electro optical sensor, situational awareness equipment and a 
searchlight. These aircraft will begin to be either retrofitted or 
produced in FY10.
    Question. How many Light Utility Helicopters have been delivered to 
the Army?
    Answer. 63 UH-72A aircraft have been delivered as of 24 April, 
2009. 30 have been fielded to the Active Army and 32 to the Army 
National Guard (ARNG). The remaining aircraft will be fielded to the 
ARNG the first week of May 2009. Four more aircraft will be delivered 
by May 1, 2009.
    Question. Where and to which units have the helicopters been 
delivered? What are the missions?
    Answer. The Active Army has received 30 UH-72A deployed as follows:
    <bullet> National Training Center, FT Irwin, CA:
     6 UH-72A for MEDEVAC mission.
     10 for General Support missions.
    <bullet> Joint Readiness Training Center, FT Polk, LA: 10 UH-72A 
for General Support missions.
    <bullet> Training and Readiness Doctrine Command (TRADOC), FT 
Eustis, VA: 2 UH-72A for VIP transport missions.
    <bullet> United States Military Academy (USMA), West Point, NY: 2 
UH-72A for general support missions.
    The ARNG has received 33 UH-72A deployed as follows:
    <bullet> Louisiana ARNG: 4 UH-72A at Pineville for S&S Missions.
    <bullet> Mississippi ARNG: 4 UH-72A at Tupelo for S&S Missions.
    <bullet> Florida ARNG: 4 UH-72A at Jacksonville for S&S Missions.
    <bullet> North Carolina ARNG: 4 UH-72A at Morrisville for S&S 
Missions.
    <bullet> Texas ARNG:
     2 UH-72A at Austin for S&S Missions.
     1 UH-72A at Austin for S&S Missions. (to be delivered May 2009)*
    <bullet> DC ARNG: 6 UH-72A at Ft. Belvoir, VA for MEDEVAC Missions.
    <bullet> Vermont ARNG: 2 UH-72A at Burlington for MEDEVAC Missions.
    <bullet> Pennsylvania ARNG: 6 UH-72A at Ft. Indiantown Gap for 
training missions.
    Question. How has the LUH program performed in terms of cost and 
schedule?
    Answer. The LUH program has consistently been on schedule and at 
cost. In the FY09 budget, the U.S. Army and Department of Defense 
accelerated the program by increasing production in FY10-14. With the 
Congressional Add to the program in FY09 of 5 aircraft, a total of 97 
aircraft were added in the Program Objective Memorandum (POM) for FY09-
14. This will lead to completion of the program with the last fielding 
in FY15 instead of FY17.
    Question. Is the transfer of assembly to the United States required 
by the contract?
    Answer. Increasing U.S. content is a part of the contractor's 
production duplication plan; however, there are no contractual 
restrictions on U.S. contents in the contract between EADS-NA and the 
U.S. Government relative to the LUH. EADS-NA has an internal goal of 65 
percent domestic content, which involves continued utilization of 
existing U.S. suppliers, transfer of assembly/production for some 
existing non U.S. suppliers to the U.S., and evaluation of potential 
new suppliers in the U.S. The contractor, EADS-NA has maintained course 
on their proposed 3-phase, event-driven production duplication plan. 
The first phase, the Light Assembly Line (LAL) phase, consists of 
reassembly of a full UH-72A kit in Columbus, MS. This includes 
installation of rotor blades, tailboom, and landing gear; customization 
(paint, avionics, and optional equipment); aircraft flight test; and 
delivery to the U.S. Army. The second phase, the Full Assembly Line 
phase, consists of assembly of a semi-equipped UH-72A kit in Columbus, 
MS. In addition to the LAL functions, this phase includes installation 
of engines, blades, main gear box, tailboom, landing gear, doors, 
communication/navigation equipment, and seats. The final phase, the 
Production Line phase, consists of the full build up of UH-72A aircraft 
in Columbus, MS. To date, 57 aircraft have been produced in the LAL 
phase, eight have been produced in the Full Assembly Line phase, and 
two have been produced in the Production Line phase. Production under 
the first phase will be complete in May 2009, and the second phase now 
accounts for 80 percent of the aircraft in production. The production 
will be completely transitioned to the U.S. by the end of 2010.
    Question. What is the prescribed readiness rate for the LUH, and 
what is the reported readiness rate?
    Answer. The LUH contract requires an 80 percent Operational 
Availability for the Active Army units per month. The Army National 
Guard units perform their own field maintenance and the metric for the 
contractor is based on parts fill rate. The UH-72A fleet has averaged 
over 90 percent availability for the life of the program.

                        AH-64 Apache Helicopter

    Question. The Longbow Apache is the Army's current model heavy 
attack helicopter, capable of armed reconnaissance, close combat, 
mobile strike, and vertical maneuver in day or night and adverse 
weather conditions. The Apache is a twin-engine, four-bladed, tandem 
seat aircraft. The AH-64 Longbow Block III has a 30mm cannon, 2.75 inch 
rockets, Hellfire missiles and modernized pilot night vision and sensor 
equipment.
    Please explain for the Committee the upgrades and advantages of the 
latest model AH-64.
    Answer. The current Longbow Capabilities Production Document (CPD) 
states; ``ensure Apache will meet the Army's attack helicopter 
requirements within the Future Modular Force through 2025.'' Further, 
the CPD identifies known capability gaps within the current Apache 
fleet.
    Apache Block III is a remanufacture program of the older, less 
capable, versions of the current Apache Attack Helicopter. The effort 
will address obsolescence issues, key operations and support drivers, 
and add capabilities ensuring the aircraft are viable combat 
multipliers through 2025 within the Army's Future Modular Force. The 
cornerstone to the Block III program is the remanufacture of older 
Apaches while integrating technologically current upgrades into a 
proven weapon system platform. Consequently, Block III is primarily an 
integration effort and not new technology development. Block III will 
address current system shortfalls by integrating:
    <bullet> Unmanned Aircraft System (UAS) Control Capability
    <bullet> Improved Situational Awareness Capabilities
    <bullet> Upgraded Communications Suite (obsolescence)
    <bullet> Improved Drive and Propulsion Systems (operations and 
support)
    <bullet> Improved Targeting Capabilities (obsolescence)
    <bullet> Increased Computer Processing Capability and Speed 
(obsolescence)
    <bullet> Improved Navigation System (obsolescence)
    <bullet> Integrated System Diagnostics Improving Overall
    <bullet> Maintainability (operations and support)
    Question. What is the current inventory of Apaches, how many have 
been lost in combat operations, how many replacements have been funded 
and how many of the replacements have been delivered?
    Answer. The current Apache fleet inventory is 699. There are 154 
AH-64 As and 545 AH-64Ds. There have been 51 operational losses (20 A 
models and 31 D models.) All 51 operational losses are funded, with 23 
deliveries to date. Deliveries for remaining 28 aircraft are scheduled 
through fiscal year 2011.
    Question. Some early models of the AH-64, all fielded in Army 
National Guard units, are considered non-deployable. Why is that?
    Answer. The Army made the decision in 2006 that the Army would no 
longer deploy AH-64A Apache helicopters to OEF/OIF. This policy is 
based on the increased sophistication of the threat in the contemporary 
operating environment and the resultant survivability equipment 
required, as well as the need for increased detection and targeting 
capability that the AH-64A does not possess.
    Deployment of AH-64A battalions will require mission equipment 
package and performance enhancements to address the shortcomings that 
led to their restriction. The resultant AH-64A+ would be equipped with 
the Modernized Target Acquisition and Designation Sight (MTADS), Common 
Mission Warning System (CMWS), Aircraft Survivability Product 
Improvement (ASPI), and 701D engines. The AH-64 Program Manager's most 
optimistic estimate on the initial operating capability of an A+ 
battalion is 2nd Qtr FY12 with a trained battalion deploying in FY13. 
This is slower than current timelines to deploy remanufactured AH-64 
Longbow battalions.
    The estimated total cost per AH-64A+ battalion is $158M. This is 
roughly half the cost of converting an AH-64 battalion to AH-64D but 
provides less capability and will not fulfill the Army's commitment to 
modernize the National Guard's Aviation fleet.
    Maintaining an AH-64A+ fleet in the Army creates significant 
training and sustainment challenges and costs. TRADOC no longer 
qualifies AH-64A aviators in flight school. AH-64A pilots are Longbow 
qualified at Fort Rucker and then attend the AH-64A ``dumb down'' 
course at the Western Army NG Aviation Training Site (WAATS). AH-64A 
sustainment costs are higher than AH-64D and increase the logistics 
tails in theater. There is no replacement source for future AH-64A 
losses.
    Question. The Committee understands that the AH-64A aircraft that 
were considered nondeployable were to have been replaced by the new 
production Armed Reconnaissance Helicopter; however, the Armed 
Reconnaissance Helicopter program has been terminated with cost and 
schedule problems. What is the Army's plan to upgrade the AH-64As in 
order to make them deployable? Are the upgrades funded?
    Answer. The Army Strategy is to upgrade the four remaining AH-64A 
battalions in the National Guard to AH-64D battalions through a 
combination of Remanufacture (REMAN) and cascade from the Active 
Component. This strategy is supportable (POM neutral) through a 
reprogramming of ARH funding. The Army anticipates completing the 
modernization of the National Guard AH-64A battalions no later than 
FY14.

                 Armed Reconnaissance Helicopter (ARH)

    Question. The Armed Reconnaissance Helicopter program was designed 
to serve as a replacement and capability upgrade to the Vietnam era OH-
58 series helicopter. The ARH program had advanced to the production 
phase in 2008 and 2009. The Army had planned to procure 512 of the 
aircraft with total program cost of $5.9 billion. Funding appropriated 
for Aircraft Procurement, Army for fiscal year 2009 included $242 
million for aircraft production. However, in October 2008 following a 
Nunn-McCurdy review of cost and schedule breaches, the program was 
decertified.
    The ARH was to be a modified off-the-shelf aircraft. What caused 
the schedule slip and cost growth?
    Answer. The ARH program was originally based on modified commercial 
off-the-shelf and the integration of non-developmental items. The 
schedule slip is mainly attributed to two areas:
    1. While in the System Development and Demonstration (SDD) phase 
the time frame to design, integrate, and build prototype aircraft was 
underestimated and added several months to first flights of each of the 
four prototype aircraft.
    2. Some of the components chosen (i.e. sensor and engine), while 
based on a fielded variant, had considerable development and testing 
yet to be done. The engine proved successful and had very little 
schedule impact on the program. The Bright Star II sensor, on the other 
hand, had several technical issues that were not easily overcome and in 
turn became the most critical schedule and cost driver of the program.
    Cost growth occurred in both the development and production 
estimates. The SDD contract cost growth was mainly driven by the issues 
above and due to the need to resource other activities required in the 
weapon systems specification and contract statement of work that were 
underestimated by the prime contractor. The SDD cost growth and 
contract/technical issues were accounted for and resourced in the 
restructured SDD contract modification accomplished in April 2008.
    The Nunn-McCurdy ``critical'' unit cost breach included SDD cost 
increases but was primarily driven by significant increases to the 
production cost estimates which came to light with preliminary 
contractor estimates for the first 10 Low Rate Initial Production 
(LRIP) aircraft. Production estimate increases were due to significant 
increases to labor hour estimates, labor rates, and airframe material 
estimates.
    Question. What is the current status of the ARH program?
    Answer. To support the potential procurement effort, the Army is 
conducting a bottom up review of the Armed Reconnaissance Capability 
requirements to include a thorough assessment of the specific 
requirements identified for the previous Armed Reconnaissance 
Helicopter program as well as initiating a formal analysis of 
alternatives. The analysis will cover the entire spectrum of options, 
from the potential use of Unmanned Aerial Vehicles, the use of a 
Manned/Unmanned aircraft mix, to the procurement of a new manned 
platform. Army and DoD remain committed to the requirement for a manned 
armed reconnaissance helicopter capability to replace the aging Kiowa 
Warrior and the need to deliver the capability to our Soldiers in a 
responsible and timely manner.
    Question. Does the Army still have a valid requirement for a new, 
modem armed reconnaissance helicopter?
    Answer. The Army has an enduring Joint Requirements Oversight 
Council (JROC) approved requirement for a light, manned, armed 
reconnaissance helicopter. The termination of the ARH program (due to 
cost overruns) as a result of the Nunn-McCurdy process did not in any 
way decrease the Army's continuing need for an armed scout helicopter. 
The Army is initiating an analysis of alternatives to determine the 
best way to meet the armed scout requirement including a detailed 
analysis of manned-unmanned teaming.

                       Joint Cargo Aircraft (JAC)

    Question. The Joint Cargo Aircraft (or C-27J) is a medium sized, 
multi-purpose cargo aircraft that supports a full range of sustainment 
missions. It is planned for purchase by both the Army and Air Force. In 
the Army it replaces multiple older platform including the C-12 and C-
23. The C27-J is produced by Alenia Aeronautical and L-3 
Communications.
    Why does the Army need its own fleet of fixed wing aircraft as 
opposed to requesting Air Force support?
    Answer. Direct Support fixed wing airlift assets give the tactical 
commander assets he can plan on with certainty. All the Services 
recognize this need and currently have some internal aircraft 
capability for Direct Support fixed wing airlift. The cost to the 
warfighter of not having fixed wing aircraft in Direct Support would be 
the loss of control for the tactical commander to meet the immediate 
requirements of the ever-changing battlefield. Tactical commanders 
would lose flexibility to meet their unit's needs in fluid situations. 
Enemy actions, weather and terrain can quickly change the situation. 
The Air Force is structured and employed to support efficient bulk 
transport of supplies and personnel. Air Force intra-theater airlift in 
General Support enables the push of bulk supplies and personnel across 
the battlefield. Centralized control of General Support assets allows 
the JFC to weigh his priorities across the Joint Operating Area. Fixed 
wing aircraft in Direct Support of Army forces provide the tactical 
commander the required flexibility to meet his unit's immediate needs 
in dynamic situations, thus enhancing the commander's freedom to 
maneuver advantageously against the enemy.
    Question. The Committee understands that Alenia and L-3 may team 
with Boeing for final assembly operations in the U.S. What is the 
status of the teaming agreement and what will be the impact on aircraft 
production if a teaming arrangement is not reached?
    Answer. L-3 and Boeing have not entered into a teaming arrangement 
and continued efforts to established a teaming arrangement do no exist 
to our knowledge. No aircraft production issues exist due to the lack 
of a teaming arrangement. Alenia is continuing the planning for a U.S. 
based final assembly operation.
    Question. Is the program on track for full rate production?
    Answer. Yes, the program's parameters of cost, schedule, and 
performance are on track to support a Full Rate Production decision 
planned in Calendar Year 2010.

               Joint Future Theater Lift/Joint Heavy Lift

    Question. The Committed understands that the Joint Vertical Lift 
Task Force is developing requirements to meet Army and Navy/Marine 
Corps needs for a heavy lift transport rotorcraft. Concurrently the Air 
Force and Army are studying Joint Future Theater Lift which may be a 
heavy lift rotor craft to enable vertical maneuver.
    The Army and Navy are collaborating in the Joint Vertical Aircraft 
Task Force; and the Air Force and Army are proceeding with the joint 
Future Theater Lift Program. This sounds like a duplication of effort. 
What is the status of these two Joint Heavy Lift programs?
    Answer. The Joint Vertical Aircraft Task Force (JVATF) is an Office 
of the Secretary of Defense sponsored task force that was a follow-on 
to the Non-Fixed Wing Aviation study. The JVATF has been dormant for 
more than a year but had a goal of developing a systems roadmap for the 
Department of Defense (DoD) vertical aircraft fleet. That activity has 
been overcome by the ongoing DoD Future Vertical Lift (FVL) activity 
that was initiated by the Secretary of Defense in response to a 
specific congressional request. The FVL, and the JVATF before it, is 
addressing the complete spectrum of vertical lift systems. `Heavy' is 
just one aspect of their interest area. FVL is a strategic planning 
activity to define a future systems roadmap. Individual systems will be 
identified in the resulting plan, but each system will then have to 
proceed with developing its own requirement and program of record 
through the normal Joint Capabilities Integration and Development 
System (JCIDS) and the Planning, Programming, Budgeting, and Execution 
System process.
    The Joint Future Theater Lift (JFTL) is a joint activity of all the 
services and SOCOM, not just the Army and Air Force. JFTL is a specific 
joint requirement description in the JCIDS process for a heavy lift 
transport that will support mounted vertical maneuver of medium weight 
forces, sustainment to the point of need, and theater distribution. The 
Initial Capabilities Document (ICD) is in joint staffing now and will 
be reviewed/approved by the Joint Requirements Oversight Council (JROC) 
in June/July 2009.
    Question. Is the Joint Heavy Lift program still joint, or are Army, 
Air Force and Navy/Marine Corps all going in separate directions?
    Answer. Joint Heavy Lift (JHL), which is an Office of the Secretary 
of Defense, Acquisition, Technology & Logistics (OSD (AT&L)) directed 
Joint Concept Refinement activity, has merged its requirement set into 
the broader Joint Future Theater Lift (JFTL) Initial Capabilities 
Document (ICD). JHL now represents the Vertical Take Off and Landing 
(VTOL) candidate for filling the JFTL requirement. JHL is still fully 
joint, with representatives from the Army, Navy/Marines, Air Force, 
Special Operations Command, Defense Advanced Research Projects Agency, 
Office of the Secretary of Defense, and National Aeronautics and Space 
Administration actively contributing to the aircraft designs and 
technology investigations.
    Question. Will the Joint Heavy Lift aircraft replace the CH-47 
Chinook series of aircraft?
    Answer. The Joint Future Theater Lift (JFTL) requirement represents 
mission sets that more closely encompass those of the current C-130 
aircraft than of any existing rotorcraft. JFTL is broadly viewed within 
the Department of Defense as the eventual replacement for the C-130 
aircraft. Joint Heavy Lift (JHL), as the Vertical Take Off and Landing 
(VTOL) candidate for the JFTL, is significantly larger than either the 
CH-47 or CH-53K helicopters and is intended to operate over 
dramatically longer range and with twice the payload of existing 
rotorcraft systems. If JHL is fully developed and procured, there will 
be an assessment of how it will influence the entire lift fleet mix. 
There is the probability that it will affect the number of smaller 
rotorcraft lift systems needed, but it does not replicate or replace 
the mission sets of either the CH-47 nor CH-53 tactical rotorcraft.
    Question. What unique airlift capability will the JHL program 
provide for the Army?
    Answer. The complete Capabilities Based Assessment conducted during 
the JHL Concept Refinement activity, concluded that there are six high 
risk capability gaps that could only be fully satisfied with a Vertical 
Take Off and Landing (VTOL) capability. JHL, if chosen to fill the JFTL 
requirement, will provide the capability to maneuver by air, medium 
weight and lighter mounted as well as dismounted forces and to sustain 
those forces as they maneuver on the ground. This is a fundamentally 
new and significantly greater force capability than the U.S. has ever 
had. The exact payload weights and ranges will be determined during 
completion of the Capabilities Development Document but the Initial 
Capabilities Document identifies combinations of payload weights from 
20 to 36 tons and ranges from 250nm to over a 1000nm, depending upon 
environmental and takeoff and landing conditions. JHL's VTOL capability 
provides the potential to operate to and from future sea based 
platforms, offering greater force projection and sustainment 
opportunities in access denied environments.
    Question. Will the JHL program provide a theater airlift capability 
for the Army's Future Combat Systems?
    Answer. Yes. The JFTL Initial Capabilities Document contains the 
requirement to maneuver medium weight forces. Designs for JHL, the 
Vertical Take Off and Landing candidate for JFTL, have accounted for 
the dimensions and maneuver weights of existing and developing medium 
weight forces, including the Future Combat Systems (FCS) family of 
vehicles. JHL cargo bay designs accommodate the Stryker, Mine Resistant 
Ambush Protected Category I/II, FCS, U.S. Marine Corps Service Life 
Extension Program Light Armored Vehicle, two International Organization 
for Standardization containers, seven 463L pallets, and a plethora of 
other vehicle and cargo loads.

               Sky Warrior Unmanned Aircraft System (UAS)

    Question. Warrior Unmanned Aerial Vehicles are serving in an ever 
expanding role in U.S. Army combat operations. Requests for support 
regularly exceed assets available. Warrior aircraft provide 
reconnaissance, target designation and direct attack capabilities. The 
Sky Warrior is a follow on to the Predator/Warrior Alpha.
    How many Warrior/Sky Warrior UAVs are deployed in Iraq and in 
Afghanistan?
    Answer. Iraq has three Warrior Alpha systems (eight Aircraft each) 
and one Warrior Block 0 System (two Aircraft). Afghanistan has one 
Warrior Alpha system (three Aircraft).
    Question. How many have been destroyed in combat operations and 
how?
    Answer. Two Warrior Alpha UAS aircraft were destroyed in 
Afghanistan. One aircraft was lost due to unknown causes and one was 
lost after losing the beyond line of site link and impacted a mountain 
at a very high altitude. One ERMP Block 0 aircraft in Iraq crashed and 
was destroyed due to contractor operator error. None of these losses 
were associated with takeoff/landing or enemy activity.
    Question. Are the Unmanned Aerial Vehicle operators based in the 
war Theaters, or are they located in the U.S.? Does the Warrior/Sky 
Warrior have an automatic take off and landing capability?
    Answer. All operators are located in theater. Warrior Block 1, 
Extended Range Multi-Purpose has an Automatic Takeoff and Landing 
System. Warrior A and Warrior Block 0 have air vehicle operators that 
perform takeoff and landing operations.
    Question. The Army is in the process of surging a Quick Reaction 
Capability of Sky Warrior Block I UASs to the war zones.
    a. Please explain for the Committee what equipment comprises the 
Quick Reaction Capability and the time line for providing the 
additional capability in theater.
    b. What are the improvements found in the Block I version of the 
Sky Warrior?
    Answer. The Quick Reaction Capability (QRC) consists of two 
Platoons of equipment, one deploying this summer and the second 
deploying next summer. Each platoon will include four Aircraft, two 
Army One System Ground Control Stations, 17 Soldiers and civilian 
contractors for logistics support and operational augmentation. The QRC 
Block 1 aircraft will have the Automatic Take Off and Landing System 
(ATLS), but as a risk mitigation to this new system and the Army will 
also deploy a proprietary General Atomics shelter that can be used by 
contractor personnel to manually land the aircraft in the event of an 
ATLS failure.
    The Block I version has significant improvements over the Warrior 
Alpha. We move from a proprietary Ground Control Station and command 
link to the Army One System Ground Control Station and add an Automatic 
Take Off and Landing System to reduce the training requirements. The 
Block I is a larger aircraft with redundant flight controls, a heavy 
fuel engine, longer endurance, the Starlite Radar, communications relay 
and the ability to carry four Hellfire missiles.
    Question. Is Sky Warrior compatible with Army Future Combat Systems 
(FCS)?
    Answer. The Extended Range Multi-Purpose will be compatible with 
FCS; however specific inter-relationships and compatibility will be 
further examined in the 2012-2017 Program Objective Memorandum period.

                  Shadow Unmanned Aerial System (UAS)

    Question. The Shadow UAS provides reconnaissance, target 
acquisition and force protection for the Army Brigade Combat Team. A 
Shadow System consists of four aircraft; two ground control stations 
and various support trucks. Shadow platoons are found at Army brigade 
level. Shadow has a range of 125 kilometers based on line of sight 
communications and endurance of six hours.
    What is the inventory objective and on hand status for Shadow 
systems?
    Answer. The Army Procurement Objective is 102 systems. 63 systems 
are fielded, each with four Air Vehicles.
    Question. How many Shadow aircraft have been lost in Iraq and what 
is the current shortage?
    Answer. 112 air vehicles have been lost, listed as Beyond Economic 
Recovery during Overseas Contingency Operations. None confirmed as 
combat loss, but characterized as accidents (either material failure or 
human error). There have been additional incidents, but the Air 
Vehicles (AVs) were able to be repaired, either on site or at the depot 
in Hunt Valley, MD, and returned back to service. Funding is provided 
for three replacement AVs per year. Shortages do not exist; adequate 
replacements are on-hand at the Forward Repair Activity located at LSA 
Anaconda, Iraq.
    Question. Will data from Shadow be compatible with Army Future 
Combat Systems (FCS)?
    Answer. Shadow will not be part of the System of Systems Common 
Operating Environment or Battle Command System enabled on the air 
vehicle because of Size, Weight and Power constraints. However, the 
Universal Ground Control Station will be interoperable with FCS. Joint 
Tactical Radio System is an objective capability.
    Question. Are Shadow systems equally suitable for operations in 
Iraq and Afghanistan?
    Answer. The terrain in Iraq has fewer mountains and less severe 
winter weather conditions than Afghanistan. All aviation operations in 
Afghanistan are impacted by the terrain, high altitudes and winter 
weather conditions. The high mountains restrict Line of Sight control 
and create wind and visibility conditions that impact all operations. 
However, the Shadow UAS is capable of operation in the vast majority of 
the areas in Afghanistan where operations are conducted.

                   Raven Unmanned Aerial System (UAS)

    Question. The Raven Unmanned Aerial System is man-packed and hand-
launched. It weighs about four pounds and has flight endurance of 80 
minutes. A Raven System has three aircraft, a ground station day and 
night cameras and a laser designator.
    Does the Raven provide both still pictures and video?
    Answer. Yes, in addition to display of live mission video, the 
Raven (RQ-11B) captures both still frame pictures and video. The still 
frame images are captured in the National Imagery Transmission Format 
(NITF) standard. The images are initially stored on the Raven system 
hub and may be downloaded to the Raven's associated laptop computer as 
either NITF or JPEG images. Still images stored on the hub may be 
viewed on the Raven hand controller. Video is captured and stored in 
real time on the Raven's laptop in MPEG 2 format. Telemetry from the 
flight is embedded in the video and may be extracted during video 
playback on the laptop using Raven's AV Screener software. The Raven 
system laptop is currently a Panasonic CF-19 Toughbook. U.S. Government 
Falcon View software with additional software applications related to 
Raven provides the interface and functionality for imagery archiving 
and playback on the system laptop computer.
    Question. Ravens operate at low altitudes, literally right in the 
ground fight. Are Ravens often shot down?
    Answer. No. There is anecdotal evidence of insurgents engaging 
Ravens with small arms fire, but no verifiable incidents of successful 
shoot downs.
    Question. Can radio frequency clutter cause control of the Raven to 
be lost? Then what happens?
    Answer. Yes, electromagnetic interference from sources operating in 
frequency ranges near the Raven uplink frequency or at high power 
levels may interfere with the Raven data link. If the uplink frequency 
from the Raven ground control station to the aircraft is interrupted 
for a duration of three continuous seconds, one of three actions will 
occur: the aircraft will enter a Rally mode and land at a preselected 
landing point, finish the programmed flight and proceed to a 
preselected landing point, or may land immediately. Any one of the 
three options may be selected by the operator during mission planning. 
Loss of the video and telemetry downlink is independent of the uplink 
loss and does not prompt loss of link procedure. Strict frequency 
management procedures and mission planning will reduce the potential 
for loss of link. A ``lock-on'' process was added to Full-Rate 
Production systems in 2007 that links a specific ground station to a 
specific aircraft to preclude inadvertent interference from other 
ground stations near the aircraft. The Raven system will undergo 
product enhancement beginning in Fiscal Year 2009 to convert to a 
digital data link.
    Question. How well does the Raven perform in windy conditions?
    Answer. Raven technical manuals specify that the system should 
normally operate in wind conditions of 20 knots (23 miles per hour) or 
less. The Raven aircraft can cruise at 26 knots (30 miles per hour) and 
dash at speeds up to 45.7 knots (52.6 miles per hour). Operators will 
assess the wind conditions during mission planning and, in coordination 
with commanders, compare the mission priorities to the risks. The 
flight duration of the aircraft will limit operational ranges in windy 
conditions. Winds will impact either the flight to the objective or the 
return leg. Additional power may be consumed when flying against strong 
winds. Wind conditions will have an impact on the ability to maintain 
stable imagery on a specific target. Electronic Pan, Tilt and Zoom was 
integrated in 2006 and greatly enhanced the stability of the imagery in 
windy conditions.
    Question. How many Ravens have been lost in combat operations?
    Answer. There has only been one reported loss of a Raven aircraft 
due to hostile fire, having been directly observed by friendly forces. 
Other aircraft have been lost due to fly-aways in which the aircraft 
did not return to the recovery site. Determination of the reason for 
any uncommanded fly-away, or other loss in which the aircraft was not 
recovered, is not technically possible. Since the beginning of combat 
operations, 110 Raven aircraft have been reported lost and unrecovered 
in Operation Iraqi Freedom and none have been reported lost in 
Operation Enduring Freedom.
    Question. What is the basis of issue for Raven UAS?
    Answer. Raven systems are currently authorized in both active and 
reserve component units. The Army Acquisition Objective is 2,182 
Systems and the Army Procurement Objective is resource constrained to 
2,096 Systems. The bulk of Raven systems are fielded to Brigade Combat 
Teams. Heavy Brigade Combat Teams and Infantry Brigade Combat Teams are 
each authorized 15 Raven systems. Stryker Brigade Combat Teams are 
authorized 17 Raven systems. The current U.S. Army Basis of Issue Plan 
was approved May 18, 2008. The plan approves fielding to Brigade Combat 
Teams, Battlefield Surveillance Brigades (4 each), Fires Brigades (7 
each), Pathfinder Companies in Combat Aviation Brigades (4 each), 
Engineer Sapper Companies in Maneuver Enhancement Brigades (3 each), 
Military Police Companies in Maneuver Enhancement Brigades (2 each), 
and Sustainment Brigades (1 each). Additionally, within Special Forces 
units, Ravens are authorized in Ranger Battalions (4 each), Ranger 
Regiment Special Troops Battalion (4 each), Special Forces Groups (2 
each), Special Forces Battalions (2 each), and Special Forces Companies 
(2 each). Training assets are authorized at the US Army Infantry Center 
and School (17 systems), the Special Warfare Center and School (18 
systems), and the US Army Armor Center and School (4 systems).
    Question. Is the Raven system equally useful in Iraq and 
Afghanistan?
    Answer. Yes. The original Raven fielding was to Operation Enduring 
Freedom in 2003 with the early version known as Raven A. If operations 
will be at a sustained high altitude, an alternate propeller is 
available to enhance performance at those altitudes.

          Future Combat Systems Class I Unmanned Aerial System

    Question. The Future Combat Systems Class I Unmanned Aerial System 
is also known as the Micro Air Vehicle, or Maverick. The Maverick 
provides a network capable situational awareness capability down to 
platoon level. It has the ability to hover and stare at military 
operations on rural and urban terrain. The vehicle weighs about 41 
pounds and has vertical take-off and landing capability.
    What has been the feedback from Soldiers who have used the Class I 
UAS, either in training or in combat?
    Answer. Soldiers are positive about the capabilities of the Class I 
UAS because it has provided a very effective capability to the platoon 
and company levels to perform reconnaissance and surveillance missions 
in environments (such as urban and complex terrain) that are not 
conducive to larger UAS platforms. The Class I UAS provides unique 
capabilities to the small unit in current operations. Positive feedback 
has also been provided on how easy the Class I Block 0 is to assemble, 
deploy for flight, and maintain.
    Soldiers say, ``. . . provides significant military utility to the 
lowest echelon, . . . very easy to operate, . . . operating in 
conjunction with the Stryker the gMAV significantly contributed to 
maintaining persistent surveillance, . . . the IR Sensor pinpointed the 
enemy even after the sun went down. We could have really used this in 
Iraq, . . . the UAV helped us identify a breech during the exercise, . 
. . if this had been a real combat situation, it would have saved 
lives, . . . gMAV would have saved lives in Iraq because we could have 
seen over walls. It would have protected our resupply squad, . . . the 
Class I increases efficiency and decreases risk.''
    Lessons learned from operational and experimental assessments are 
being used today in the acceleration of the Class I Block 0 UAS to the 
Army Evaluation Task Force and also in the development of the Class I 
UAS threshold platform.
    Question. What near-term improvements are planned for the Class I 
UAS based on test flights and Soldier feedback?
    Answer. Each generation of the basic system has improved 
capabilities that make it distinct from the previous generation. The 
Future Combat Systems (FCS) Class I Block 0 UAS is based on the 
gasoline Micro Air Vehicle (gMAV) platform, which originated as a 
Defense Advanced Research Projects Agency Advanced Concept Technology 
Demonstration in 2002.
    For the Class I Block 0 platform (part of the FCS Spin-Out Early 
Infantry Brigade Combat Team), there are several improvements planned 
as a result of the FCS Preliminary Limited User Test in fiscal year 
2008 (FY08). These include a gimbaled Electro-Optical (EO) Sensor, a 
gimbaled Infrared (IR) Sensor, an electric fueler, an improved Operator 
Control Unit, an improved Engine Control Unit, addition of Digital and 
Command and Control video, and addition of Direct Data Link integration 
(in 2010).
    For the Class I Threshold platform scheduled for FY13, these are 
the planned improvements. A 10 Horsepower (hp) heavy fuel engine, a 
combined EO/IR/Laser Designator/Laser Range Finder payload, integration 
of the Small Form Factor-D and Soldier Radio Waveform 1.1 c, addition 
of Radio Crypto Keying, an electric fueler, and an electric starter.

         Future Combat Systems Class IV Unmanned Aerial System

    Question. The FCS Class IV UAV or Fire Scout, is a small unmanned 
helicopter that provides brigade level reconnaissance, surveillance, 
and target acquisition; target designation; communications relay; 
Nuclear detection; mine detection; signals intelligence and persistent 
stare.
    How many Fire Scouts does the Army plan to buy and how many has the 
Army taken delivery of so far?
    Answer. A total of 504 air vehicles are planned to meet current 
Army requirements for fielding, training, and spares. The Army has 
purchased eight airframes, through the Navy Vertical Take-off and 
Landing Unmanned Aerial Vehicle Firescout contract, for System 
Development.
    Question. What is the Army doing with the Fire Scouts that have 
been delivered? Are any of the Army's Fire Scouts in use in Iraq or 
Afghanistan?
    Answer. Eight prototype Class IV UAS are on contract to support 
Integrated Qualification Tests and Limited User Tests beginning with 
first flight in April 2011. To date, none of the eight prototypes have 
been fully assembled because key sub-systems needed to make the 
aircraft flyable are still in development and have yet to be delivered 
for integration. Seven of eight airframes have completed Phase I 
assembly with airframe #8 due to complete in May 2009. Phase II 
integration (installation of unique mission equipment, payloads, and 
data links) is scheduled to begin with unit A1 in March 2010, as the 
unique hardware and software are delivered, and conclude in June 2011 
with Unit A8.
    The Army has not deployed any Class IV Unmanned Aerial System to 
Iraq or Afghanistan.
    Question. Is the Fire Scout capable of assisting in the counter 
Improvised Explosive Device (IED) effort?
    Answer. Once the Class IV UAS has completed the system development 
effort and passed all testing, it is envisioned that the capabilities 
offered by the Class IV UAS would assist in detecting some IEDs. The 
Class IV UAS is capable of supporting a wide variety of modular mission 
payloads, including Signal Intelligence payloads and optical payloads 
designed for the counter IED mission. The baseline payload for the 
Class IV UAS is the Airborne Standoff Minefield Detection System 
Electro-Optical (EO), Infrared (IR), Laser Designator, and Counter Mine 
sensor. Though not specifically designed for IED detection, the multi-
spectral imager on this sensor provides the ability to detect 
minefields and other small targets, as well as excellent counter-
camouflage capabilities in varied backgrounds, vegetation, and thermal 
and lighting conditions, which exceeds the capabilities of most other 
EO/IR sensors.
    Question. Will the Fire Scout be part of technology Spin-Out One to 
infantry units of the Army?
    Answer. The Class IV UAS has been approved as part of the Threshold 
spin-Out fielding beginning in FY 13. The Army continues to work on the 
specifics of the required capabilities, organizational design, cost, 
schedule, and performance to meet this proposal.

    [Clerk's note.-- End of questions submitted by Mr. Murtha.]
                                          Wednesday, April 1, 2009.

                         SHIPBUILDING PROGRAMS

                               WITNESSES

VICE ADMIRAL BERNARD J. McCULLOUGH, DEPUTY CHIEF OF NAVAL OPERATIONS 
    FOR INTEGRATION OF CAPABILITIES AND RESOURCES
ALLISON STILLER, DEPUTY ASSISTANT SECRETARY OF THE NAVY (SHIP PROGRAMS)

                     Opening Remarks of Mr. Murtha

    Mr. Murtha. The committee will come to order.
    Today we will hold an open hearing on the state of the Navy 
shipbuilding program, which would be nowhere if it weren't for 
this committee. I mean, 2 years ago, you requested four ships 
and we ended up with seven or eight. Last year, I don't 
remember what you requested, but we added at least one. And 
this year I know you don't know where you are at this point, 
but if we are going to get to 313, we can't get it to 313--and 
that is a figure you use--unless we build at least 10 per year. 
Of course, what you say is, every year, we are going to do it 
next year; and, next year, you say, we are going to do it next 
year. So I am looking forward to hearing from you.
    We have 283 ships, you said earlier, right now. So we look 
forward to hearing both you distinguished guests testifying.
    And I recognize Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much; and I join 
you in welcoming the distinguished witnesses this morning.
    I don't have a major opening statement other than to say 
the same thing that the chairman did. I remember the days we 
were headed for a 600-ship Navy. Obviously, we didn't get 
there; and the chairman is concerned about how we get to where 
the Navy wants to be now.
    I recognize that the newer ships that we are building are 
more efficient and you can do more with a ship than you could 
with the one that was built 50 years ago, but we are here to 
help maintain a very strong Navy and the ability to protect the 
United States anywhere in the world that we need to protect.
    So thanks for being here. We look forward to your 
testimony, and don't be bashful. Tell us what your problems are 
and what your goals are.
    Mr. Murtha. If you will summarize your statements, without 
objection, we will put your full statements in the record.
    Mr. Murtha. Ms. Secretary.

                    Summary Statement of Ms. Stiller

    Ms. Stiller. Mr. Chairman, Representative Young, and 
distinguished members of the subcommittee, it is a privilege 
for Vice Admiral McCullough and I to appear before you today to 
discuss Navy shipbuilding.
    The Department remains committed to achieving an affordable 
fleet and, during this past year, we have created and 
implemented a new policy on acquisition governance. This new 
governance process' requires involvement by senior Navy 
officials and reviews at specified points throughout a major 
acquisition program's life cycle. These reviews evaluate 
program cost drivers, monitor program health, evaluate risk and 
ensure adequate staffing. As these reviews are accomplished, 
lessons learned about the governance process as well as 
systemic program issues, are being addressed.
    In an effort to address cost estimates, we have 
reinvigorated the independent Navy Center for Cost Analysis and 
established a new, highly focused cost estimating tiger team. 
In shipbuilding, we are ensuring that new ship designs are 
adequately mature before entering ship production. With our 
shipbuilding contracts, we are implementing cost reduction 
initiatives, affordability programs, reuse of existing designs, 
and incentives of selected capital improvement projects, 
otherwise known as Capital Expenditures (CAPEX).
    When programs are mature, we are exploring block buys and 
multiyear procurements. Open architecture both for hardware and 
software promises to be a powerful cost avoidance tool as well.
    The Department recognizes that our in-house acquisition 
workforce has atrophied during the last decade. During this 
time, the Department has become increasingly reliant upon 
contractors to support management and oversight. We have 
outsourced work better accomplished in house and we are now 
working to grow that talent within the Navy. Some growth will 
be funded by reallocating resources from outsourced work.
    We have been hiring approximately 400 interns per year and, 
with a new acquisition workforce development fund established 
in fiscal year 2009, we will hire an additional hundred interns 
and 150 journeymen this year.
    A year of policy changes and acquisition was paralleled by 
positive activity in ship acquisition. We commissioned nine 
ships during 2009 and signed contracts for our future fleet. 
The Navy awarded a contract for Gerald R. Ford, the lead ship 
of the CVN-78 class. The ship design is over 80 percent 
complete and a thorough production readiness review has been 
conducted.
    An eight-ship multiyear procurement contract was signed in 
December for the continuation of Virginia class builds. The 
contract achieves the cost reduction goal of $2 billion per 
boat in fiscal year 2005 dollars, starting with the 2012 boats.
    We also awarded detailed design and construction contracts 
for DDGs 1000 and 1001. DDG-1000 fabrication commenced in 
February of this year, with over 85 percent of the design 
complete prior to the start of construction. LCS-3 was awarded 
last week and negotiations continue for LCS-4.
    The fiscal year 2010 bids are in process as well. A 
contract for up to 10 Joint High-Speed Vessels was awarded in 
2008 and design efforts are ongoing.
    The Navy has also awarded the preliminary design work for 
the Mobile Landing Platform, a key component of the Maritime 
Preposition Force Future and DDG-51 restart advance procurement 
is also in process.
    The Navy has come through many difficulties associated with 
lead ships and sustained production is proceeding. We are 
addressing issues with the acquisition workforce. We have 
instituted the acquisition governance process to facilitate 
continual requirements in acquisition communication.
    We are committed to meeting the force structure required to 
meet the maritime strategy. Thank you again for your continued 
support of Navy shipbuilding.

                 Summary Remarks of Admiral McCullough

    Admiral McCullough. Thank you, sir.
    Mr. Chairman, Representative Young, and distinguished 
members of the subcommittee, I am honored to appear before you 
this morning with Ms. Stiller to discuss Navy shipbuilding.
    Before I begin, I would like to mention that, in addition 
to our role in sea power, the Navy currently has about 14,000 
Sailors serving on the ground in the CENTCOM area of 
responsibility, specifically Iraq and Afghanistan. They serve 
in traditional roles with the Marine Corps, but also in land 
service combat support and combat service support missions to 
support the joint commander in the Army. We provide these 
Sailors, in addition to fulfilling our commitments to the 
country and our allies, to provide persistent forward presence 
and incredible combat power in support of the Maritime 
Strategy.
    Today we have a balanced fleet capable of meeting most 
Combatant Commander demands from persistent presence to 
counter-piracy, to ballistic missile defense. However, as we 
look ahead in the balance of capability and capacity, we see 
emerging warfighting requirements in open ocean Submarine 
Warfare, Anti-Ship Cruise Missile, and Theater Ballistic 
Missile Defense.
    Gaps in these warfare areas pose risks to our forces. State 
and nonstate actors who, in the past, have only posed limited 
threats in the littoral are expanding their reach beyond their 
shores with improved warfighting capabilities.
    A number of countries, who historically have only possessed 
regional military capabilities, are investing in their Navy to 
extend their reach and influence as they compete in global 
markets. Our Navy will need to outpace other navies' 
capabilities as they extend their reach. The Navy must be able 
to assure access in underdeveloped theaters. We also have 
routinely had access to forward staging bases in the past. This 
may not always be the case in the future.
    In order to align our surface combatant and investment 
strategy to meet the evolving warfighting gaps, the Navy plans 
to truncate the DDG-1000 program and reopen the DDG-51 
production line, as I testified to Congress last summer. This 
plan best aligns our surface combatant and investment strategy 
to meet Navy and combatant and commander warfighting needs.
    The reason for the change to the Navy's DDG plan is to 
prioritize relevant combat capability. Modernizing the Fleet's 
cruisers and destroyers and executing an affordable 
shipbuilding plan are crucial to sustaining and constructing a 
313-ship Navy with the capacity and capability to meet our 
country's global maritime needs.
    The Navy must have the right capacity to meet combatant and 
Commander warfighting requirements and remain a global 
deterrent. Combatant Commanders continue to request more ships 
and increased presence to expand cooperation with new partners 
in Africa, the Black Sea, the Baltic region, and the Indian 
Ocean. This is in addition to the President's requirement to 
maintain our relationships with current allies and partners. 
Therefore, the Navy must increase capacity to meet Combatant 
Commander demands today for ballistic missile defense, theater 
security cooperation, and steady state security posture, 
simultaneously developing our fleet to meet future demands.
    While the Navy can always be present persistently in areas 
of our choosing, we lack the capacity to be persistently 
present globally. This creates a presence deficit, if you will, 
where we are unable to meet Combatant Commander requirements. 
Africa Command capacity demands will not mitigate the growing 
European Command requirement, and Southern Command has 
consistently required more presence that largely goes unfilled.
    The Navy remains committed to procuring 55 Littoral Combat 
Ships. The LCS program will deliver capabilities to close 
validated warfighting gaps. LCS inherent speed, agility, 
shallow draft, payload capacity, and reconfigurable mission 
spaces provides an ideal platform for conducting additional 
missions in support of the maritime strategy to include 
irregular warfare maritime security operations such as counter-
piracy operations.
    The Navy remains committed to an 11 carrier force for the 
long term, which is necessary to ensure that we can respond to 
national crises within the currently prescribed time frames. 
Our carrier force provides the Nation the unique ability to 
overcome political and geographic barriers to access for all 
missions and project power ashore without the need for host 
nation ports and airfields.
    The Ohio class ballistic missile submarine, originally 
designed for a 30-year service life, will start retiring in 
2027 after over 40 years of service life. The Navy commenced an 
analysis of alternatives in fiscal year 2008 for a replacement 
ballistic missile submarine. Early research and development 
will set the stage for the first ship to begin construction in 
fiscal year 2019.
    The Virginia class submarine is a multi-mission platform 
that fulfills full spectrum requirements. Virginia was designed 
to dominate the undersea domain in the littorals as well as the 
open ocean in today's challenging international environment and 
is replacing our aging 688 class submarines. Now in its tenth 
year of construction, the Virginia program is demonstrating 
that this critical capability can be delivered affordably and 
on time.
    The Commandant of the Marine Corps has determined that a 
minimum of 33 assault echelon amphibious ships is necessary to 
support their lift requirements. Specifically, he requested a 
force of 11 aviation-capable ships, 11 LPD 17s, and 11 LSDs. 
The Chief of Naval Operations supports the Commandant's 
determination.
    The Navy must maintain its carrier, submarine and 
amphibious force. In addition, we need to increase our surface 
combatant capacity through increased destroyer procurement and 
LCS to meet Combatant Commander demands today for missile 
defense, theater security cooperation and a steady state 
security posture.
    I thank you for this opportunity to discuss the Navy 
shipbuilding program and your support of our Navy. I look 
forward to answering your questions.
    Thank you very much, Mr. Chairman.
    [The joint statement of Admiral McCullough and Ms. Stiller 
follows:]
[GRAPHIC] [TIFF OMITTED] T6285B.001

[GRAPHIC] [TIFF OMITTED] T6285B.002

[GRAPHIC] [TIFF OMITTED] T6285B.003

[GRAPHIC] [TIFF OMITTED] T6285B.004

[GRAPHIC] [TIFF OMITTED] T6285B.005

[GRAPHIC] [TIFF OMITTED] T6285B.006

[GRAPHIC] [TIFF OMITTED] T6285B.007

[GRAPHIC] [TIFF OMITTED] T6285B.008

[GRAPHIC] [TIFF OMITTED] T6285B.009

[GRAPHIC] [TIFF OMITTED] T6285B.010

                         ACQUISITION WORKFORCE

    Mr. Murtha. Ms. Secretary, you talk about interns. Define 
what you mean by interns.
    Ms. Stiller. Yes, sir. It is an entry-level position where 
we bring people into the acquisition community train them. We 
get them exposure to different programs and disciplines like 
contracting, budgeting, program management. They serve as a 
junior employee in the organization, and we grow them into 
acquisition professionals.
    Mr. Murtha. So these are young engineers just out of 
college or--and they have to go through a certain qualification 
before they can become acquisition experts or you don't have 
the spaces or what? Why would you just not hire them--why do 
you call them interns?
    Ms. Stiller. Because, in order to be a qualified 
acquisition professional, there is training that you have to go 
through. Some of the interns are right out of college, but they 
can be midcareer folks that decide they want a job change. For 
entry into the acquisition corps, there are core courses they 
have to take. We work with them to make sure they are getting 
those courses and that they are mentored by folks who have been 
around for a while conducting the knowledge transfer so we have 
a really good, solid basis for them to start their career.
    Mr. Murtha. I like what you are saying. Because this 
subcommittee has been in the forefront trying to make sure that 
there is some stability in the shipbuilding industry. And 
acquisition has been a big part of it. It sounds like you are 
talking about more maturity, more people involved in 
shipbuilding; and it sounds like you will stabilize it at some 
point. And the LCSs will be a big part of it, it sounds like.

               ELECTRO-MAGNETIC AIRCRAFT LAUNCHING SYSTEM

    Now, a couple of other questions. On the launching system 
on the carrier, is that going to slow down the carrier, the new 
launching system?
    Ms. Stiller. We are still analyzing EMALS, the 
electromagnetic launching system that you mentioned. We do not 
see that it will have an impact on the actual schedule of the 
carrier at this point in time.
    Mr. Murtha. I keep hearing rumors that they are studying 
the alternative, going back to steam. Is that accurate?
    Ms. Stiller. Yes, sir. We are looking at all options.
    There has been cost growth to the EMALS system. We are 
looking at the total cost, both acquisition and life cycle, for 
EMALS and steam. We are looking at schedule and what does that 
do if we went back to steam on CVN-78. We are in the process of 
getting information from industry so that we can make an 
informed decision. We have had independent technical 
authorities look at it within the Department.
    Mr. Murtha. You reduced personnel and maintenance by 39 
people. Are you to the point where the cost growth overcomes 
the savings in personnel?
    Admiral McCullough. Mr. Chairman, we have looked at that. 
And right now, both due to the reduction in personnel required 
to man a launching system, the increased operational 
availability and the reliability of the EMAL system, there are 
still life-cycle savings over what we would have if you went 
back to steam catapults.
    Mr. Murtha. The Secretary said earlier that, unless these 
systems were mature, we weren't getting involved in them. This 
is a pretty big part of, obviously, the carrier. Was it not 
mature when you started--I thought this had been used over and 
over again. I thought we had some stability by going to this 
EMAL system.
    Ms. Stiller. Yes, sir, there is a development effort that 
had to start and is still continuing to get EMALS to apply to 
the aircraft carrier. The technology itself is not new, but it 
is the application in the aircraft carrier.
    There is a lot of rigor we want to go through for component 
testing so we understand the liability of the components as 
well as system testing. We are in the component testing phase 
right now. We have seen minor issues in testing which we have 
been able to resolve. But there is some concurrency with the 
schedules and that is one of the things we want to evaluate 
going forward. Is the development schedule still ongoing? How 
do we mitigate the risk to the carrier schedule so that that 
doesn't change, we don't see an impact to the carrier schedule.
    Mr. Murtha. What will it do to the cost of the system if 
you had to switch to steam?
    Ms. Stiller. I don't have that information yet. We are 
waiting on a cost estimate from Northrop Grumman Shipbuilding, 
Newport News.
    Mr. Murtha. What does it look like at this point? Are you 
going to go with the EMALS or are you going to go with the 
steam?
    Admiral McCullough. Right now, Mr. Chairman, the plan is to 
go to with EMALS or to continue with electromagnetic aircraft 
launching system. That is going to be briefed to the CNO and 
the Acting Secretary here in the next week to 10 days.
    We need EMALS technology to support higher energy launches 
of our aircraft. As we look at what we have been doing in Iraq 
and Afghanistan, specifically going into Afghanistan, we have 
had to up the number, if you will, of high energy launches we 
are executing to support sending Super Hornets into 
Afghanistan. That creates excessive wear not only on the 
aircraft but also on the energy absorption system on the front 
end of the ship known as the water brakes that catch the launch 
cylinder spears.
    EMALS will give us a steady acceleration across the launch 
of the aircraft down the catapult track and has much less 
impact on both the airplane and the ship when you have the EMAL 
system on the ship. It also gives us much greater energy 
capacity for the high energy launches; or if you are using the 
standard load configuration on the aircraft, it requires 
significantly less wind over deck on the aircraft carrier. With 
the reduced requirements for wind over deck, it gives you 
greater operational flexibility in the carrier operating areas 
when you lay them down in an operational theater. So the Navy 
needs the EMALS capabilities as we move forward with our next-
generation aircraft carrier and aircraft.
    Mr. Murtha. Is this just a computer design at this point or 
is this being built?
    Ms. Stiller. No, sir. The components are built and in 
testing. We are working to get the land-based facility at 
Lakehurst. There is an installation ongoing there right now.
    So, no, sir, there are components to this. This is not a 
design.
    Mr. Murtha. So it would be extremely expensive if we 
switched back to steam, spending all this money on EMALS at 
this point?
    Ms. Stiller. Again, sir, I am waiting for the estimate from 
Newport News, what that would do to the cost and schedule. I 
just don't have that information yet.
    Mr. Murtha. Mr. Young.

                         USS HARTFORD COLLISION

    Mr. Young. Mr. Chairman, thank you very much.
    I want to talk about the LCS program, but, before that, I 
would like for you to tell us what we haven't read in the 
newspapers about the collision between the submarine and the 
ship.
    Admiral McCullough. Congressman, the investigation is 
ongoing in that collision. So I would really be remiss to 
discuss what is going on in an internal investigation in a 
Fleet Commander's area of responsibility.
    It was an unfortunate incident. We are extremely pleased 
that none of the Sailors were badly injured and that both ships 
were able to make port in Bahrain under their own power. The 
damage assessment for both the submarine and the LPD are 
currently ongoing in Al Manamah, Bahrain.
    Mr. Young. Does it appear that the submarine is fixable? I 
understand it had more damage than the ship?
    Admiral McCullough. The preliminary reports that I have 
read from the Naval Sea Systems Command indicate that the 
submarine is repairable, yes, sir.

                          LITTORAL COMBAT SHIP

    Mr. Young. Okay. The LCS program, which has run into some 
problems--you have just awarded the contract for LCS-3, but you 
had cancelled LCS-3 and -4 before because of the experience 
with LCS-1 and LCS-2. Where are we headed? I understand the 
importance of this new type of ship; and I tell you, Vern 
Clark, when he was CNO, spent a lot of time educating me on the 
importance of LCS. But are we ever going to build 55 of them?
    Ms. Stiller. Yes, sir. That is the requirement at the 
moment--55, and we are still planning to.
    Just to give you a sense of where we are today on LCS, LCS-
1 is delivered. She is in an availability in Norfolk and will 
wrap up early next week. She will go to her acceptance trials 
at the end of the month. We are very pleased with how LCS-1 is 
proceeding.
    LCS-2 is in construction. The General Dynamics GD-Austal 
team that is down in Mobile and we expect that ship will 
deliver this summer.
    We had a significant event last week. We had main 
propulsion diesel light off on the ship. So the construction is 
proceeding well.
    So we are much further along with those ships than we were 
when we had awarded LCSs 3 and 4 last time. We have got one 
ship delivered and one very close to delivery. As I said, we 
have awarded the LCS-3 to the Lockheed Martin team and we are 
still in negotiations with General Dynamics.
    But I feel very comfortable. Those fiscal year 2009 awards 
are tied to the fiscal year 2010 ships. We are awaiting the 
bids on the fiscal year 2010 ships as well.
    Mr. Young. What is the contract cost for the new LCS-3 as 
compared to the original LCS-3?
    Ms. Stiller. Sir, the fiscal year 2009, the LCS-3 award, 
the fiscal year 2010 ships are tied to that. We are still in a 
competitive environment. We have not made public that award 
amount. But I am happy to provide that to you but not in an 
open hearing.
    Mr. Young. Okay. I understand that. Can you tell us if it 
is more or less or the same?
    Ms. Stiller. Yes, sir, it is less. We took a long time here 
in negotiating these two '09 ships, because we are really 
focused on affordability, and we have been working closely with 
the industry folks to figure out how we are driving costs. We 
work with the requirements community as well on how we can 
drive costs out of these ships. We are on the path to getting 
affordable LCSs as we go forward, and I think you will see from 
our 2009 awards that we are on that path.
    Mr. Young. LCS-1 and 2, 3 and 4 are different designs, is 
that not correct? I mean, they are not identical ships?
    Ms. Stiller. They are two different designs, yes, sir, that 
meet the same requirements list. But, yes, LCSs 1 and 3 at this 
point are one design and LCS-2, and when we award 4, will be of 
a similar design.
    We have tried very hard to make sure there is not a lot of 
change between those ships. Obviously, as we learn things in 
tests and trials that we have to fix, we will want to make sure 
those get on the following ships. But these ships should look 
very similar if they are built of that same design.
    Mr. Young. But we are not far enough into the program to 
know whether one design is superior to the other or more cost-
effective?
    Admiral McCullough. That is correct, sir; and we still 
intend to compare the ships from both an operational assessment 
and acquisition cost perspective and a total-life-cycle cost 
perspective to see if we should down select the one particular 
design.
    Mr. Young. I understand that the military requirements and 
the Navy's requirements are considerably different than a 
commercial ship. But in a commercial world a contract is pretty 
much--a design is agreed upon, all these things are done before 
the contract is let and the construction begins. I understand 
that the Navy has different missions, and the mission changes 
from time to time. So you can't really do that. But are we--
will the new acquisition process help us get a little more for 
the dollar?
    Ms. Stiller. Yes, sir. One of the things that we have 
really been taking a hard look at and a hard line on is the 
percent complete in design before we ever start production. For 
example, DDG-1000, the design is over 85 percent complete 
before we agree to start fabrication on the lead ship. The same 
thing with CVN-78. It is in the 80-85 percent range of 
completion of design before we start construction on that ship. 
We did not do that on LCSs. We learned that lesson again, and I 
would tell you that we are very focused on making sure that the 
design is of adequate completion before we start construction.
    Mr. Young. Well, thank you very much for the information on 
the LCS.
    I am sure other members will want to talk about DDG-1000 
and maybe even ask about DDX, but, Mr. Chairman, I know I have 
used my time, so I yield back. Thank you very much.
    Mr. Murtha. We appreciate the pressure you put on to get 
the price down. Because when you originally came to the 
committee, all of us knew--I knew in particular--it wasn't 
going to come in at the initial cost. So I appreciate you 
learned a lesson. And we helped by pressuring the companies and 
saying to them, we are not going to pay that kind of price, so 
let's get this down. When I went to both places I told them 
that. So I appreciate what you have done.
    Ms. Kaptur.

                     LEASING OF FOREIGN BUILT SHIPS

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome. Great to have you.
    I am going to go back, Secretary Stiller, to a question I 
asked you last year about leasing of foreign-built ships. As I 
recall the answer last year, there was this schedule that there 
was a declining path of foreign-leased ships. Could you please 
tell me--you said last year that the committee--that the Navy 
had leased 17 foreign-built U.S.-flagged vessels at that point. 
Could you please tell us how many foreign-built ships are 
currently being leased?
    Ms. Stiller. Yes, ma'am, 14. Back in 2002, we were at 22; 
last year, as I testified, we were at 17, and today we are at 
14.
    Ms. Kaptur. What path are you on for the future?
    Ms. Stiller. We continually review the requirements for 
what constitutes a long-term lease. In fact, in my written 
testimony I mentioned there were 28 in long-term charters. 
Since the written testimony, I am down to 26. We bought three 
leases out, and then we added one because it was a 6-month 
option. We are committed to try and drive that out.
    The complicating factor is there are not a lot of U.S.-
built commercial vessels out there to meet our needs. We do end 
up having to look at foreign-built ships. Now they have to be 
U.S. flagged, and they have to be U.S. crewed. We have been 
diligently working at this to try to get the number down, and I 
am happy to say we got it down this year.

                     CONSTRUCTION OF SMALL VESSELS

    Ms. Kaptur. All right. That is a very good report.
    And how do small shipyards compete for Navy contracts?
    Ms. Stiller. If it is a small vessel, we put out a request 
for a proposal and anybody that wants to compete is certainly 
welcome to compete. We do have a lot of smaller shipyards 
participating in ship acquisition.
    Ms. Kaptur. Do you ever do briefings for those smaller 
competitors around the country?
    Ms. Stiller. It depends on the country. We have had 
industry days where we welcome them to come in and hear what 
our requirements are, and they can ask questions if they think 
something is going to be a cost driver to us. It is good for us 
to hear that up front so we don't make a mistake going in.
    Ms. Kaptur. If you have anything planned--obviously, I am 
up there on the Great Lakes. If there is anything you have 
planned that would permit greater information to be shared with 
shipyards up on the Lakes, we would appreciate that. If you 
could give us a contact that might know a lot about what is 
going on in the Department, I would certainly appreciate that 
very, very much.

                      SHIPBUILDING INDUSTRIAL BASE

    What would happen if Congress were to prohibit the Navy's 
ability to enter into leases on foreign-built ships?
    Ms. Stiller. I will get you a detailed answer on that, but 
I will give you my initial impressions.
    Like I said, there are very few U.S.-built commercial ships 
anymore. It would be very costly for the Department because we 
would likely be forced into building these ships to meet our 
requirements; and my concern would be the warship procurements 
that we need to do, as opposed to these ships that are truly 
for specified periods of time, would the Department have to pay 
for those ships?
    Ms. Kaptur. Well, you have referenced the fact that, in the 
commercial sector, the number of ships being constructed in 
this country has gone down and we know that our shipbuilding 
industrial base is really limited now to about six companies. 
And contractors have stated that increased volume, of course, 
would help stabilize the industrial base.
    What do you see as a possibility for us restoring our 
shipbuilding industrial capacity? Can it be done through 
componentry? I know in the automotive industry there are twice 
as many people employed in the parts plants as the assembly 
plants, and I am just curious in terms of shipbuilding whether 
the same rule applies and whether by saving the componentry we 
could ultimately save the ability to make the larger vessels. 
How do we really solve the problem of retaining that industrial 
capacity for ships in our country?
    Ms. Stiller. You make a very good point. There are 
suppliers, obviously, for our ships and so we have to manage 
that part of the industrial base as well. I will give you an 
example. For submarines, over 80 percent of the suppliers are 
sole source to us now because of the low rates.
    Mr. Murtha. Say that again.
    Ms. Stiller. Over 80 percent of the submarine suppliers are 
sole source. Because we got down to such low levels of 
procurement. We have to watch that industrial base very 
carefully.
    For example, on the DDG-51, restarting the program, we 
asked for a significant amount of advanced procurement for that 
restart ship because we know that there are some vendors out 
there that the last time we bought components from them was 
fiscal year 2002. We know we need to help them restart their 
line so they can get the components going. We have done a very 
thorough scrub of that. So we do monitor our second-tier 
suppliers that are supplying to the shipyards very carefully.
    Ms. Kaptur. Is there a summary that you have of what you 
view as the ingredients for our shipbuilding capacity?
    Ms. Stiller. I would say our shipyards have had varying 
levels of success in getting into the commercial side of the 
House. There is a law. The Jones Act requires that ships be 
procured in a U.S. yard if you are going to do trade between a 
U.S. port and another U.S. port. There aren't a lot of Jones 
Act ships built in recent past, although there are some right 
now. It just depends on the shipyard. They will tell you that 
the skill sets to build a commercial ship are very different 
from a warship and it is hard to translate. It is hard to tell 
a nuclear welder you don't have to be to that level of standard 
to build a commercial ship.
    Ms. Kaptur. I know my time is close to expiring, if not 
expired. Let me just ask you, could you provide the committee 
with your best summary of what you view is the essential 
ingredients for our defense shipbuilding industrial capacity? 
What are the ingredients of that?
    Ms. Stiller. Yes, ma'am. I will be happy to provide that.
    Ms. Kaptur. Okay. Thank you.
    [The information follows:]

    The Department believes that stability in the shipbuilding program 
is a key ingredient in sustaining a cost effective and capable capacity 
in the shipbuilding industry. Toward that end, the Department of the 
Navy will continue to work with the Congress to ensure a stable 
shipbuilding strategy that is aligned with the FY 2010 President's 
Budget.
    The acquisition and requirements communities have developed an 
affordable long term shipbuilding plan that provides the foundation for 
stability and capacity in the industrial base. The goal is to provide a 
stable long-term shipbuilding plan that reduces industrial base 
volatility and allows the industry to better match investments to meet 
Navy capabilities.
    The Navy works with its industry partners to consider several 
factors to control costs and improve stability: (1) level loading 
shipyards to sustain employment levels and skill retention, and 
stabilize workloads through work share opportunities and regional 
outsourcing; (2) greater use of contract incentives, such as multi-year 
procurement, fixed price contracts and increased competition; (3) 
reducing ship types, maximizing reuse of ship designs and common 
components, and implementing open architecture; (4) maturing ship 
designs prior to start of construction; and (5) emphasizing design for 
affordability in both initial design and follow-on ships. The Navy is 
also working with industry to identify capital investment strategies 
which will have cross program benefits.

    Mr. Murtha. Mr. Frelinghuysen.

                         SUBMARINE PROCUREMENT

    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    I would like to talk about those, Ms. Stiller, what you 
characterize as the low levels of procurement for subs. 
Generally speaking, on the submarine fleet--and, Admiral, you 
mentioned it--the Chinese seem to be--at least there is 
evidence that they are working on a 200 sub fleet. The Iranians 
have some sort of a sub which would I think alarm most of us. 
The Indians I understand are purchasing some subs from Russia. 
I assume Russia is not standing still.
    I know this committee is keenly interested in this issue. 
And we have been--we are procuring--correct me if I am wrong--
two Virginia class subs a year; and you have got, I think from 
your testimony, six under way. Is that correct?
    Admiral McCullough. Yes, sir. I believe the number is six 
that have been commissioned.
    Mr. Frelinghuysen. Could you comment on whether this is 
going to meet our needs, given, let us say, what our potential 
adversaries are doing in terms of----
    Admiral McCullough. Yes, sir. I can talk to that.
    You bring up a point about Chinese submarines. The Chinese 
are building submarines today. They have approximately----
    Mr. Frelinghuysen. Are their subs nuclear and diesel?
    Admiral McCullough. They are both, sir. The ones we worry 
about, obviously, are the high-end, very quiet, diesel--
electric submarines. They are exceptionally hard to find. The 
Chinese have a variety of submarines, from those that are 
extremely loud acoustically to those that are not; and they are 
increasing the proficiency of their crews based on some things 
that we have seen. So that is of concern to us. Our force 
structure analysis says we need 48 nuclear-powered attack 
submarines.
    Mr. Frelinghuysen. Our attack submarines today are Virginia 
and Los Angeles?
    Admiral McCullough. Correct, sir. And there are a couple of 
variants to Los Angeles. There are 688s, and then there are 
improved 688s. So there are our submarines today. And then we 
have the three SeaWolfs, one of which is a special projects 
boat.
    So we have defined a requirement of 48 submarines. In about 
the 2027 time frame--and I might be off one year one way or the 
other--we go down to about 41 submarines.
    Mr. Frelinghuysen. So there is a retirement process? Have 
some of the Los Angeles class subs been retired?
    Admiral McCullough. Yes, sir, that is correct.
    Mr. Frelinghuysen. Between now and 2027, how many of those 
subs will be retired?
    Admiral McCullough. I will have to get you that number, 
sir. I don't have that in front of me. And I will gladly----
    [The information follows:]

    Between now and the end of FY 2027 we plan to retire all but six of 
our current Los Angeles class submarines, or a total of 39 retirements.

    Mr. Frelinghuysen. We are extending the life of some of 
those?
    Admiral McCullough. We have looked at extending a certain 
number of submarines to help mitigate the aspects of that delta 
that I spoke of, and it fills in the gap somewhat. Beyond that, 
we have recently completed a study with Naval Reactors that 
looked at extending, I believe, about 16 more Los Angeles class 
submarines, and it is based on fuel consumption and projected 
fuel consumption. And that would mitigate the gap I think by an 
additional two, if we extend it an additional 16 submarines. 
There is obviously----
    Mr. Frelinghuysen. When it is all said and done, today we 
have 53.
    Admiral McCullough. Yes, sir, that is correct.
    Mr. Frelinghuysen. Fifty-three. How many subs would we 
have, let us say, 5 or 10 years from now? I know the capacity 
of the Virginia class is pretty incredible, but that doesn't 
necessarily get us where we need to go.
    Ms. Stiller. One of the things we have done on the 
acquisition side, we accelerated when we went to two submarines 
a year and that is part of this multiyear procurement? We are 
buying----
    Mr. Murtha. You said ``we''. This committee?
    Ms. Stiller. Yes, sir.
    Admiral McCullough. We asked for it, and you increased it, 
sir.
    Ms. Stiller. Two a year in 2011. So we have tried to 
mitigate that from the acquisition side as well.
    Mr. Frelinghuysen. The notion that our adversaries are 
willing to confront us anywhere in the world--obviously, we 
need more surface ships. But the notion that somehow we would 
be outflanked by--some people sort of demean what the Chinese 
might be coming up with in terms of their subs, but I don't 
think we ought to underestimate their capability.
    What about the issue of the converted trident? Is there 
some activity going on there? Those are the huge subs?
    Admiral McCullough. Yes, sir.
    Mr. Frelinghuysen. What is going on there? And does that 
give us some more legroom?
    Admiral McCullough. We converted four of the Ohio class 
submarines into nuclear-power guided missile submarines. OHIO 
is one of those boats. She recently completed her maiden 
deployment as an SSGN, and it was a highly successful 
deployment. We are currently evaluating how those submarines 
contribute to the overall submarine force to determine if we 
should recapitalize those boats when they go out of service.
    Mr. Frelinghuysen. So you are taking a look at that?
    Admiral McCullough. Yes, sir, we are.
    You asked me how many submarines we will have. We don't go 
below 48 submarines until 2021. And then it decreases to about 
41 in 2027, as I said, and then the ramp starts back up, and 
then we go over 48 submarines again in 2024.
    Some things we have done to mitigate that are to accelerate 
or decrease the production time on the Virginia class 
submarines, and it started out at about 84 months. It is down 
to about 66 months now. As I said, we retained some of the Los 
Angeles class submarines that we were going to decommission, 
and we have looked at increasing deployments from 6 to 7 months 
to try to mitigate this gap. As was mentioned, with the help of 
the committee, we did add the second Virginia class submarine 
in at 2011; and we hadn't planned to do that until 2012. So 
that also gave us some partial mitigation in the submarine gap.
    We take very seriously the submarine threat posed by 
potential adversaries globally. We monitor their activities on 
a daily basis. So we have many programs, not only nuclear-
powered submarines but things associated with surface ships and 
distributed arrays and airplanes to try to address that threat.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I was with--and he didn't ask me to ask these questions--
with Admiral Donald over the weekend under the ice, and I can't 
tell you--if any of you have an opportunity obviously to be on 
a sub. But that particular ice exercise, you can't help be 
impressed by the dedication of those men on those subs. My God, 
they work so closely together and with remarkable spirit. It is 
a special breed of people.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Moran.
    Admiral McCullough. Thank you for saying that, Congressman.

                    HOMEPORTING OF AIRCRAFT CARRIERS

    Mr. Moran. Thanks, Mr. Chairman.
    The former Secretary of the Navy facilitated the decision 
to move an aircraft carrier from Norfolk down to Mayport. But 
the justification for that relocation is awfully spotty; and 
the military construction, just to enable it to happen, will 
cost over $1 billion, just to prepare the port. It seems like a 
questionable expenditure when the subcommittee's concern has 
been the shipbuilding shortfall and the unfunded requirements 
that exceed $500 million.
    People are going to characterize this as a turf battle 
between States and so on, but I think it really affects more 
the ability of our shipbuilding resources to be used most 
efficiently and effectively. What is the latest status of this 
issue and how can you justify spending that kind of money when 
we have the demand that we do for additional ships?
    Either one of you can answer. I think the Admiral should 
proceed, initially.
    Admiral McCullough. Yes, sir. Thanks for that question.
    The Navy thinks it is very important to have a second 
nuclear-powered carrier base or capacity on the east coast. On 
the west coast, currently, we have Bremerton and San Diego; and 
each of those facilities has the associated nuclear maintenance 
infrastructure to perform at least I level maintenance, i.e. 
intermediate-level maintenance on the aircraft carrier.
    On the east coast, we have one facility in Norfolk, 
Virginia. The building yards in Norfolk Naval Shipyard and the 
repair capacity are all located within about an 11 nautical 
mile radius from pier 12--or pier 14, I think we call it now--
where we dock the aircraft carriers. So we deem it necessary to 
have an alternate capacity on the east coast should anything 
happen to preclude getting an aircraft carrier into its own 
port on return from deployment, or should anything happen to 
the port and we had the carrier force base continue to all be 
based in Norfolk.
    We have looked at this from a multitude of ways. If you 
look at the carriers typically that we don't have in long-term 
maintenance or deployed, the ready response force if you will, 
on the east coast there is about 2\1/2\ to 3 aircraft carriers 
at the pier in Norfolk on any given day. If you blocked the 
exit or entrance to that harbor for any reason whatsoever, that 
would tie up 100 percent of the ready carrier reserve force 
that we have available on the east coast.
    If a carrier was returning from deployment and scheduled to 
go into its maintenance availability upon return from 
deployment and was precluded from getting into its own port in 
Norfolk and you don't have the alternate carrier capacity on 
the east coast, the carrier would be forced to go to the west 
coast for maintenance.
    Carriers are not PANAMAX, as you well know, Congressman. So 
it would have to go around South America to get to a 
maintenance base on the west coast.
    Mr. Moran. Admiral, has that ever happened?
    Admiral McCullough. No, sir, it has never happened. The 
last major hurricane I believe that went into Norfolk and 
significantly altered the bottom was in about 1803 when 
Willoughby Spit was formed.
    Mr. Moran. 1803 was the last time----
    Admiral McCullough. The last significant hurricane that 
altered the configuration.
    That said, there are--as you know, the Thimble Shoals 
channel is about 15 nautical miles long, and it is the only way 
in and out of Norfolk for an aircraft carrier. There are two 
single-point failures on that channel, the Hampton Roads Bridge 
Tunnel and the Chesapeake Bay Bridge Tunnel. So I would tell 
you it is prudent operationally to have a second carrier base 
with its maintenance facility or second carrier capacity with 
maintenance capacity on the east coast.
    Mr. Moran. Well, you have been well briefed certainly, but 
I could tell you that there are many responsible people in the 
Navy who felt that building this kind of redundant port was an 
unnecessary use of scarce money and that have told me 
privately--that is why I can't reveal their names publicly--
that this was under political pressure from the last White 
House. The naming of the ship and the political benefit seemed 
to outweigh the use of scarce resources.
    Admiral McCullough. Sir, I would tell you I was a Strike 
Group Commander for both Kennedy Carrier Strike Group and 
Enterprise Carrier Strike Group and that was stationed in 
Mayport. Mayport has historically had a carrier base there, a 
conventional carrier as an alternate carrier base on the east 
coast; and only as we have downsized our carrier force have we 
stationed all the aircraft carriers on the east coast in 
Norfolk.
    I would tell you again that I think--and I haven't been 
well briefed. I have looked at this, and I have operated these 
types of capabilities, and I think it is in the Navy's best 
interest and in the Nation's best interest to have an alternate 
carrier capacity on the east coast. And the most available port 
to put that in today is in Mayport, and that is where the Navy 
thinks it should be.
    Mr. Moran. Just a comment. There are a lot of things that 
would be nice to do if we had sufficient resources; and 
building more ships for a port that is not currently being used 
is redundant, is a questionable use of resources.
    But I have taken up my time. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Kingston.

                     COAST GUARD SHIPS AND MISSIONS

    Mr. Kingston. Thank you, Mr. Chairman.
    Madam Secretary, do you know if the Coast Guard uses any 
foreign-built ships?
    Ms. Stiller. I don't know that. I can find that out and get 
that for you.
    Mr. Kingston. I just wondered.
    [The information follows:]

    No, the United States Coast Guard does not own or operate foreign 
built boats or ships. They have used foreign patrol boat designs for 
manufacturing in the United States. They have used only three European 
designs in the CG, for the 87/110/154. The 87, CPB and the 154, 
Sentinel Class Patrol Boat are Dutch (DAMEN) and the 110, WPB was 
British (VT Shipbuilding). It is also important to note that while they 
used the parent craft approach, the designs all required enhancements 
to meet CG requirements, which means that the Detailed Design for each 
of those three ships was completed in the United States.

    Mr. Kingston. And, also, do you have any overlap 
historically with Coast Guard roles and Navy roles closer to 
shore? As your fleet has gone down, has Coast Guard filled in 
any gaps closer to home, particularly in the Caribbean?
    Admiral McCullough. I mean, the Coast Guard has a mission 
set, sir, in the Caribbean that the Navy doesn't necessarily 
have; and, as you well know, under their title in the U.S. 
Federal code, they can execute law enforcement missions where 
the Navy cannot.
    The Coast Guard has augmented Navy forces in defense of the 
oil platforms in the Northern Arabian Gulf, both Al Basra oil 
terminal and Khawr al Amaya terminal. And they have augmented 
our forces there with cutters, and we are most grateful for 
that augmentation because it would tie up more of our assets to 
do that.
    We assist the Coast Guard or operate in conjunction with 
the Coast Guard in counternarcotics operations in the 
Caribbean. Admiral Stavridis asks for ships routinely not only 
for theater security cooperation in his AO but to help in the 
counternarcotics mission. We would like to be able to provide 
more ships to assist in that mission, but, as I said in my oral 
testimony, because of the current number of ships we have and 
the demands by all of the Combatant Commanders, we are 
routinely unable to fill the level of commitment that Admiral 
Stavridis requests.
    Mr. Kingston. Is there anything specific that this 
committee could be of assistance with in terms of that gap?
    Admiral McCullough. Sir, as has been mentioned many times, 
the minimum number of ships the Navy needs that we believe to 
fulfill the maritime strategy is 313 ships.
    Mr. Kingston. I am speaking specifically where Navy meets 
Coast Guard on the small overlap that you have.
    Admiral McCullough. We have a very good relationship with 
the Coast Guard. We have what we call warfighter talks, which 
are really operational discussions between the two services and 
work to best leverage our procurement programs off of each 
other. The Navy provides the combat systems to Coast Guard 
ships under Navy-type, Navy-owned systems. So our combat 
systems and communications capability are compatible with the 
Coast Guard. I don't think there is anything specifically that 
the committee could help with in that regard, but I will look 
at it, and I will provide you feedback, sir.

                      SHIP DESIGN INDUSTRIAL BASE

    Mr. Kingston. I think we would all be willing, and I think 
that would increase the political constituency on the Hill, to 
help get more ships out there.
    Madam Secretary, as the chairman has stated, I am one of 
the committee members and I think all of us are very interested 
in this internship program that you have and I applaud you for 
that. But I am also wondering, beyond procurement, what about 
design? For example, we hear quite often that America has 
fallen behind in engineers, particularly as compared to China, 
which, as Mr. Frelinghuysen has mentioned, appears to be 
ramping up their sea presence all over that area. And then 
there will be other challenges from other countries.
    But we hear that India graduates something like 260,000 
engineers a year, China 450,000, America about 60,000. But we 
also know the definition of engineers is different country to 
country. I know in New York there is the Webb Institute, and I 
assume 100 percent of their graduates go working for the Navy 
in terms of ship designing, but I know that is only about 100 
graduates of a class a year. I know it is very small. Are you 
concerned about the number of engineers that we are getting out 
there in terms of the ability?
    And then, aside from the Webb Institute, what other leading 
colleges or universities are helpful on this? And does the lack 
of an NROTC program hurt you or help you? In terms of big 
picture, is that a concern that you have?
    Ms. Stiller. No, sir. I would say that we have been 
actively recruiting to bring engineers into our naval design 
areas both on the ship side as well as the air side.
    As I mentioned in my oral statement, we have atrophied over 
time the number of government workforce people we had in house. 
We are reversing that trend. We are bringing folks in.
    Likewise, the acquisition intern program that I mentioned, 
we have engineering interns as well within our systems 
commands. In fact, I know that the Naval Sea Systems Command is 
having a job fair next week in this area to attract engineers 
as well as contract types and budget folks. And what is 
interesting, I think, and is attractive to a young engineer is 
the responsibility and the fun work you get to do when you are 
working in ship design or weapon system design. They are really 
fun careers to get into. We have had really good success in 
bringing people.
    Mr. Kingston. So you don't think we are losing any design 
or engineering know-how and there are plenty of smart kids that 
want to take that on?
    Ms. Stiller. I would say yes. Although you did mention the 
Webb Institute, which is a wonderful university that provides 
us wonderful engineering talent. Over the years, the number of 
naval architecture degrees that one can get in this country has 
gone down. I believe Michigan is still available, MIT and Webb 
and the Naval Academy.
    Yes, sir, that has been an area, but there are certainly 
mechanical engineering and electrical engineering across this 
country that can provide us with really talented folks.

                         SOLE SOURCE SUPPLIERS

    Mr. Kingston. I wanted to ask you one other question, Mr. 
Chairman, if I have time.
    Ms. Kaptur had asked about the sub suppliers, and you said 
80 percent of the suppliers of the submarine force are sole 
source suppliers. Does that worry you in terms of being too 
reliant on too few industries? And, also, it would appear to me 
that, over time, if I know I am a sole source supplier, that my 
prices aren't going to be very elastic.
    Ms. Stiller. Yes, sir. That is an area that we watch very, 
very closely.
    In the case of submarines, because we got down to such low 
levels of procurement--and, in fact, we had a hiatus for a few 
years back in the late 1980s and early 1990s when we weren't 
buying submarines, and we had to watch that industrial base 
very carefully. We do have to watch to make sure that they are 
going to be available.
    As we ramp up over time, there may be an opportunity to 
bring second sources of supply in; and we will look at that 
very carefully.
    We have sole source issues as well on the surface side. It 
is not as dramatic because a component across a destroyer may 
apply to an aircraft carrier. So we have to just watch those as 
well. But we carefully manage it. We watch when folks merge. If 
we have mergers and acquisitions, we look at those very 
carefully, too, to see what that does to us from a competitive 
perspective.
    Mr. Kingston. Thank you.
    Thank you, Mr. Chairman.

                         SUPPLEMENTAL SCHEDULE

    Mr. Murtha. Most of the members are here. Let me announce 
the schedule for the supplemental.
    We expect to get the details on the supplemental next 
Thursday. We think by May 5th, we hope, we will be on the 
floor. Of course, you can work your way back to full committee 
on the 30th.
    The Defense Subcommittee hearing with General Petraeus, 
that is on the supplemental. We hope to have it done by Labor 
Day. Whether it will get done, I don't know. But we are trying.
    Now the main bill we hope to finish July 30th for House 
consideration. It is about the same schedule as last year. And 
it is a very ambitious schedule, but we stuck to it last year 
and got it done.
    So it gives you an idea of the work we have got to do. We 
have several hearings. We have had 20 some already. We had 
several hearings before, and we have some major programs where 
we don't know where they are. We will get some details or 
something.
    On the base bill, we think we will get the information--May 
the 4th, the information on details on the main bill.
    Okay. All right. Mr. Bishop.

                      SHIPBUILDING BEST PRACTICES

    Mr. Bishop. Thank you very much, Mr. Chairman; and thank 
you for your testimony today.
    Mr. Frelinghuysen and Mr. Kingston referenced the rising 
threats that we have sea-wise from China, India, Russia, and 
Iran. And from what I have been hearing over the past couple of 
years on the subcommittee, our capacity is becoming less robust 
and more sedentary in terms of our capacity to do what needs to 
be done Navy-wise and to have the kinds of ships that we need 
that the Secretary has indicated is necessary.
    With that background, I wonder about our shipbuilding best 
practices. The GAO released a draft report that said that the 
Navy shipbuilding practices, in comparison to the commercial 
shipbuilding practices, is an interesting comparison in 
contrast and indicates that when commercial shipbuilders get 
ready to build a ship, the builder and the buyer agree on all 
aspects of the ship--the price, the schedule, and performance 
parameters--before the contract is signed.
    It also says in this report that before construction begins 
that the shipbuilders complete the key design phases that 
correspond with the three-dimensional product model. It says 
that key technologies are already known and that the final 
information on the systems that are going to be installed are 
required to allow the design work to finish prior to the 
beginning of construction.
    Mr. Bishop. And then once construction begins, in the 
commercial sector, they very seldom allow change orders. Now, 
we have been told that the Navy has learned this lesson, these 
lessons, over and over and over again, yet seem to not have 
changed your way of doing business. Do you envision 
incorporating these best practices into the Navy shipbuilding 
program, and when?
    Ms. Stiller. Yes, sir. I believe we have incorporated a 
number of those already into our practice. I mentioned in my 
oral statement we have an acquisition governance process that 
we have put into place over the last year, and that covers 
beyond shipbuilding.
    But to give you a sense of a shipbuilding program, as the 
requirements are defined, we have a conversation between the 
requirements community and the acquisition community on what 
are the cost drivers going to be? What can we see up front that 
is going to drive costs? And then we can have the debate does 
that requirement need to hold?
    We continue to have those discussions throughout the 
program's life cycle. Before we decide to release a request for 
proposal, we are going to look at the proposal together and 
make sure we are asking exactly what we want to buy, and that 
we are promoting competition where we can.
    As for the design piece of it, as you know, a lead ship's 
detail, design and construction funding is provided in a single 
year. Advance procurement is provided ahead of time mainly for 
components. What we have been doing, what we have instituted, 
and I will say, with the exception of LCS, what we have 
instituted and will continue to institute is: until a design is 
adequately mature, we are not going to authorize going into 
production of the ships. I think we are embracing the 
commercial model there.
    With respect to change orders, there is policy that has 
been given to ship program managers. It was issued originally 
in 2001 and reiterated in 2006, that tells a program manager 
there are only five categories of change that he can authorize. 
These are safety; if something is not available anymore, 
obsolescence; if you found something in test and trials; there 
is a contract defect; or there are statutory things passed on 
to him after the contract has been awarded. That has been 
remarkably successful. For example, in Virginia Class, we 
budgeted about 5 percent for the lead submarine, and we spent 
less than 4 percent in change orders on that submarine.
    Mr. Bishop. Let me just ask you in that regard, you always 
historically have built in 5 percent for change orders, and 
that has been historic.
    Ms. Stiller. Yes, sir.
    Mr. Bishop. And last year you said that you were going to 
institute these procedures to reduce it, but you are still 
projecting 5 percent for change orders.
    Ms. Stiller. Well, I would tell you in the follow-up, 
Virginia, right now we are in the 2 percent or lower range. I 
think that is quite remarkable.
    Mr. Bishop. But you are budgeting for 5 percent.
    Ms. Stiller. Yes, sir, because we have to budget for things 
like obsolete equipment or a safety item, or if something comes 
up statutorily later, like an environmental issue that we have 
to go address, we have to go address that with the change order 
money. It is not unusual.
    I would tell you on the commercial side they do allow 
change. It is small. But for a warship, we need to also keep 
pace with the threat. If there is a requirement change later on 
or something we need to go and enhance, we have to have the 
ability to do that.
    Mr. Bishop. I am concerned, as Mr. Kingston is concerned, 
with the capacity. You seem to be comfortable with the fact 
that we have enough engineers, and your internship program is, 
you think, very promising in terms of developing contract 
people to do the estimates and engineers to do the design. But 
I am not as comfortable as you are. I am concerned.
    I am very concerned that with the astronomical number of 
engineers that China and India are developing compared to the 
United States, that our capacity is falling way behind. And 
unless we double our efforts, accelerate our efforts, we will 
remain behind, and not only in that particular capacity, but 
also in the best practices, because clearly, you know, we have 
suffered in best practices. And the Navy is not getting 
equipment that it says it needs in a timely fashion. And as Ms. 
Kaptur referenced, our industrial base is slipping. We have got 
sole-source contracts. And even I am concerned, as Mr. Moran 
discussed it with the Admiral, the fact that we have only one 
maintenance port on the east coast. That is frightening to me. 
I mean, who knows what this new Chinese Navy could do in terms 
of some kind of terrorist attack that could tie up that port? 
So I am very concerned about our capacity to defend ourselves 
and to maintain the mobility of our naval fleet.
    Mr. Murtha. Ms. Granger.

                          LITTORAL COMBAT SHIP

    Ms. Granger. Thank you.
    I want to return just a minute to the LCS. And we know 
where the 1 and 2 are. And 3, the contract has been awarded. 
What do you see as the delivery date for 3? And then what are 
you anticipating for delivery for 4?
    Ms. Stiller. Ma'am, I will get you the exact delivery date 
in the contract. I cannot remember it. They are notionally a 
32- to 36-month build cycle.
    [The information follows:]

    LCS-3 (Fort Worth) was awarded to Lockheed Martin on March 23, 
2009. LCS-4 (Coronado) was awarded to General Dynamics on May 1, 2009. 
Both ships are expected to deliver in FY 2012.

    Ms. Granger. Approximately.
    Ms. Stiller. About 3 years from now is the delivery plan 
for LCS-3. And once we sign the contract for 4, it would be 
about 36-months until delivery.
    Ms. Granger. And then on the acquisition strategy that you 
discussed before that you are in the process of, whether you 
will down select, that will occur as this is going?
    Ms. Stiller. We do not anticipate, for the fiscal year 2009 
and 2010 ships, that we will make a down select. That will be a 
decision made further out. Right now the way the contract is 
structured, there are two ships in 2009 and three in 2010. That 
is what we have asked for bids for. Presumably there will be 
one winner that will have three, and the other will have two in 
those two fiscal years. That is the construct we see right now.
    Ms. Granger. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hinchey.

                          GENEAL SHIPBUILDING

    Mr. Hinchey. Thank you, Mr. Chairman. Thank you very much 
for this very interesting conversation.
    With regard to the engineering circumstances here and in 
other countries, my impression was--and maybe this is not the 
same anymore--that the engineering requirements for engineering 
graduates in terms of education and other qualifications in 
places like China and India were substantially lower than they 
are here. Do you know about that?
    Ms. Stiller. I am not aware of that, sir, but that could be 
the case.
    Mr. Hinchey. I think that is something that is quite 
interesting in terms of the engineering abilities of graduates 
here as opposed to engineering graduates in some other 
countries. Nevertheless, it is an interesting kind of issue.
    The importance about the work of the construction of 
military vessels, of course, is fundamentally about the 
national security of the country. But also in the context 
particularly the circumstances with which we are dealing with 
now, it has some impact on the economic circumstances, job 
creation and job maintenance. So I am wondering a little bit 
more, with some more clarity than at least what I understood, 
about the leasing and manufacturing of military vessels in 
other parts of the country. The leasing is now down to what, 20 
did you say?
    Ms. Stiller. We currently have 26 ships under lease. Of 
those, 14 are foreign built.
    Mr. Hinchey. And that leasing is going to continue to 
decline?
    Ms. Stiller. That is our goal. We work with Military 
Sealift Command and U.S. Transportation Command to say, what do 
you really need to transport by sea? How much of that has to be 
on leased vessels versus ships that we own? So there is a 
constant dialogue.
    Mr. Hinchey. Is there manufacturing of naval vessels that 
goes on currently in other parts of the world?
    Ms. Stiller. Not for U.S. Navy, no, sir. All of our 
construction is done in the U.S.
    Mr. Hinchey. Okay. Good.
    The LCS that was just talked about, I understand that 
Lockheed Martin has been having apparently more success in 
developing their element of the contract than other 
corporations. Is that true?
    Ms. Stiller. I would tell you that in the case of LCS, 
Lockheed Martin delivered the lead ship. They won the first of 
the two. So they are a bit ahead from General Dynamics. I would 
not tell you that they are doing any better or any worse than 
each other. They have totally different designed ships. LCS-2 
is just behind LCS-1 because it was awarded a year later.
    Mr. Hinchey. So these are two different vessels that are 
being----
    Ms. Stiller. Yes, sir. Two different vessels that meet the 
same set of requirements.
    Mr. Hinchey. What is the difference in the vessels?
    Ms. Stiller. LCS-1 is a monohull steel ship. LCS-2 is a 
trimaran aluminum ship.
    Admiral McCullough. Just for comparison, the beam on LCS-2 
is about 103 feet, 7 inches, or 4 inches. On LCS-1 it is on the 
order of 58 or 60 feet. The displacement of both vessels is 
relatively the same, on the order of 2,900 tons. The crewing 
for--core crew for an LCS is 40 folks, with 15 to run the 
mission module and 20 to run the aviation deck. So the crew 
totals 75.
    Mr. Hinchey. I am asked what do you mean by displacement?
    Admiral McCullough. It is the amount of water the ship 
displaces in tons to float. So people equate it to weight. It 
is not really the weight, but it is how much water the ship 
pushes out to float.

                       GUIDED MISSILE DESTROYERS

    Mr. Hinchey. Okay. Thanks very much.
    I just wanted to ask a question about the destroyer issue, 
DDG-51 and the 1000. The more sophisticated destroyer 
apparently, the 1000, is something that is in a new element of 
development now?
    Ms. Stiller. DDG-1000 has been a program of record for 
about 10 years now. We did engineering development models for 
DDG-1000 to prove out technology that we felt was high risk. We 
have come through all the testing, with the exception of the 
volume search radar and the testing that is to go on that we 
will complete by the end of this calendar year. We started 
fabrication. We have completed 85 percent of the design for 
DDG-1000, and started fabrication of the lead ship in February.
    For the differences in the missions, I will defer to 
Admiral McCullough.
    Admiral McCullough. DDG-1000 was designed to operate in the 
littoral. It has a relatively low-radar cross-section and other 
signature-reduction capabilities. It has 80 missile cells in 
it. And we are doing some work to modify the missiles so they 
can communicate with the ship, and some modifications to the 
ship so it can communicate with the missiles to give it a 
limited area anti-air warfare capability. It has no ballistic 
missile defense capability as currently built.
    The DDG-51s that we will restart, hopefully, have ballistic 
missile defense capability in stride, so they can shoot the SM-
3 missiles that we have demonstrated both against targets, and 
then last summer against an aberrant satellite. It has anti-air 
warfare capability, it is less stealthy, and it has better 
open-ocean anti-submarine warfare capability.
    DDG-1000 is a great program. It is performing to schedule 
and cost, and it is going to deliver the capability that we 
asked for at the time we developed the ship. That said, the 
world has changed. We need a different capability set.
    Mr. Hinchey. No question.
    How many military personnel are normally on the DDG-1000?
    Admiral McCullough. The DDG-1000's core crew is about 120 
folks.
    Mr. Hinchey. Thanks very much.
    Mr. Murtha. Ms. Kilpatrick.

                            SHIP ACQUISITION

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, Admiral. Recently I traveled to Washington 
State with Chairman Dicks and had an opportunity to actually 
get on the aircraft carrier USS ABRAHAM LINCOLN as they were 
commissioning it and celebrating his 200th. Quite an 
experience. My father is a World War II Navy man, so I have 
heard of them all my life, and I finally set foot on one. It 
was an awesome experience. We also visited I think it was the 
USS NEW HAMPSHIRE was a Trident submarine, and actually saw the 
weapons, which was also something.
    I am concerned, too, as some of the talk has been this 
morning, and thank you for your service and your intelligence 
on your area that you do. If our colleagues could hear some of 
what you say, they would not attack our budget so much, but 
they do. It is a lack of not knowing, really. I know you have 
quadrennials coming up. I understand with our allies, Canada, 
U.S., Australia, there is a quarterly meeting somewhere here in 
the U.S. this spring. When and where is that?
    Ms. Stiller. That meeting is between me and my counterparts 
from those countries to talk about acquisition issues. They are 
coming in the first week of May, and we are going to talk about 
general acquisition issues. We have been talking about what 
their plans are for buying, when are they buying their 
submarines and their destroyers, and when are we buying ours, 
to see if we are going to put a demand signal out to the 
worldwide supplier base.
    Ms. Kilpatrick. Are those meetings in Washington?
    Ms. Stiller. This particular one will be in Washington, 
yes, ma'am.
    Ms. Kilpatrick. And we did have five shipbuilding 
companies; now we have two. Is that a result of our not moving 
forward as a result of our needs? What is that?
    Ms. Stiller. We still have the six shipbuilding sites, but 
you are right, they are owned by two corporations now. And that 
has been over the last 10 years, where we have seen mergers and 
consolidations across the defense industrial base. But, yes, we 
do have two corporations that own the six sites where the 
majority of our large warships are built.

                      AMPHIBIOUS LIFT REQUIREMENTS

    Ms. Kilpatrick. Admiral, with that said, and also this 
morning I understand the brigade requires 38, and we have 33--
it is in my notes somewhere--I want to say partners on a 
brigade. I know we are operating under the requirement. You 
must feel it is enough. We have less ships than we need. Our 
adversaries not yet, but maybe in this world, Canada--excuse 
me, not Canada, that is my neighbor--China, India, have more 
engineers. Should we be worried? And you always say you build 
to the right ends and all that, but talk to me for real.
    Admiral McCullough. I think you are talking about 
amphibious lift when you talk about 38 ships.
    Ms. Kilpatrick. That is it. Is it comparable to brigades?
    Admiral McCullough. Yes, ma'am. The 38 ships is necessary, 
given an operational availability of about .885, to give us 34 
available ships to lift the assault echelon of two Marine 
Expeditionary Brigades. We have taken some risk in that with 
the agreement to build 33 ships--the 11 aviation capable, the 
11 LPD and the 11 LSDs--that give us about 30 operationally 
available. That means that when we look at the assault echelon, 
some combat service and combat service support equipment will 
be required to be delivered in a follow-on echelon, but we 
think that is acceptable risk.
    The Marine Corps fights as a Marine Expeditionary Force, 
which is three Marine Expeditionary Brigades. So once the 
invasion commences, you need an additional Marine Expeditionary 
Brigade as a follow-on echelon. But the Commandant of the 
Marine Corps and the Chief of Naval Operations have agreed to 
the 33 number as an acceptable level of risk to conduct a joint 
forcible entry operation.
    Ms. Kilpatrick. So you have asked your superiors. They have 
all said that that is enough; you all feel that we meet our 
needs in that regard.
    Admiral McCullough. Yes, ma'am, that is correct.
    Ms. Kilpatrick. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rothman.
    Mr. Rothman. No, thank you.

                       DDG-51 ADVANCE PROCUREMENT

    Mr. Murtha. I just want a couple of points of 
clarification. On the 51, we put $200 million towards advance 
procurements. Is that money obligated, or are you just looking 
at it, or what are you doing?
    Ms. Stiller. Sir, we have obligated a portion of that 
money, and we have plans to obligate the rest of it as we go 
through the next calendar year. We are trying to buy when we 
need the components.

                          LITTORAL COMBAT SHIP

    Mr. Murtha. And the LCS, clarify for me what happens here. 
We are going to buy 55 of them at least. That is what you 
project. Do we buy half and half? Do we buy one that is 
cheaper? What is the projection here?
    Admiral McCullough. We are still doing an assessment, Mr. 
Chairman. I mean, just from touring both the ships, I will tell 
you that LCS-1 will probably launch and recover remotely-
operated vehicles better than LCS-2, and that is just from 
looking at it. The aviation capability, due to the beam on LCS-
2, will probably be looked at more favorably just because of 
the sheer size of it. And so what we really have to do is 
operate both of the ships, see how they perform to see if we--
and then look at acquisition cost and life cycle costs to see 
if we should down select the one or we should build 27, 
essentially, of each type. And we will be working through that 
over the next couple years as we get these two ships in the 
water and get them to sea and operate them.
    Mr. Murtha. I was just out to--and I know this is not your 
field, but we talked earlier about PTSD, and this committee 
added $900 million for PTSD. And I was just out to Bethesda, 
and they have a new wing. And they do not have as many 
casualties that have just come in, but they have a lot of 
people who are coming back with that. One was a blinded 
captain, West Point graduate, who was coming back because he 
had to take the titanium cap off his head. Another one had all 
kinds of pain for 2 years.
    So the money is filtering out finally, as it does, except 
we have made some big decisions. We have been right, for 
instance, on the past sealift ships, roll-on/roll-off ships. I 
can remember them. The Navy fought it because they were Army 
ships, and the Navy did not want to pay for them. And then the 
Assistant Secretary came before the committee and said, and we 
did this and we did that. I said, no, no, wait a minute, hold 
up here.
    But at any rate, we want to work with you, and the reason 
it is so important we get as many facts as we can. And I know 
you are limited because you do not know exactly what you are 
going to have. This subcommittee has operated in a bipartisan 
manner, as you know, with Bill Young, Jerry Lewis continually. 
So we continue to hopefully be able to do that. But we need to 
know from you. And I appreciate your testimony. And one of the 
staff said, we built 2,700 Liberty ships in World War II. Well, 
we are lucky to build--what are we going to build this year, 
10? If we help you, you will build 10, right?
    Admiral McCullough. I would love to have 10 ships in 10 
months, Mr. Chairman.
    Mr. Murtha. Mr. Frelinghuysen.

                             NUCLEAR POWER

    Mr. Frelinghuysen. Just one other question. When we talk 
about the nuclear Navy, obviously we are talking about our sub 
fleet, and we are talking about our carriers. You know, there 
is talk of other surface ships being nuclear powered. Could you 
make just a few comments on that? I think this is a legitimate 
question.
    Admiral McCullough. National Defense Authorization Act of 
2008 directed that surface combatants or ships that function 
with carrier striking groups or striking forces in the Navy be 
nuclear powered unless the Secretary of Defense testified 
before Congress that it was not in the best interests of the 
country to do so. So as we go through the design of the follow-
on cruiser, we are looking at nuclear power as an alternative 
for that ship. It adds up-front acquisition costs. It gives 
operational flexibility.
    I am a surface nuke, and I have served in aircraft carriers 
and in nuclear-powered cruisers when we used to have those. I 
would tell you that from an economic standpoint, it starts to 
make sense when the energy demand on the ship requires an 
energy density that you would see if you had a ship service 
distribution load of about 78 megawatts. And as we go through 
the requirements for cruisers, if you believe you need a very 
high-sensitivity, large phased-array radar, we could see the 
power requirements pointing us in that direction if that is the 
path that the AOA dictates, sir.
    Mr. Frelinghuysen. The military is the largest consumer of 
fuel in the world, and I do think it is worthy, if we are 
taking a look at the future, nuclear-powered surface ships. I 
am glad you are doing it. I think it is certainly entirely 
reasonable. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Thank you very much.
    The Committee adjourns until 10:00 a.m. tomorrow.
    Admiral McCullough. Thank you, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Boyd and the 
answers thereto follow:]

                       Littoral Combat Ship (LCS)

    Question. I understand that the LCS mine warfare systems being 
developed are overweight. What is the Navy doing to address those 
problems so that the LCS can have this critical capability? Will this 
require additional funds?
    Response. The LCS Seaframes are required to carry a Mission Package 
(MP) payload. The minimum Mission Package payload weight that the LCS 
seaframe must accommodate is specified at 180 metric tons (MT) and the 
maximum objective payload weight is specified at 210MT. This has 
imposed a maximum limit on embarkable MP weight of 180MT, until the 
ships are deemed capable to carry more. This MP weight includes the 
mission modules, crew detachments, aircraft, ordnance and all offboard 
vehicle fuel.
    As planned, early Mine Countermeasures (MCM) MPs will not have the 
full complement of Spiral Alpha capability Mission Systems and support 
equipment but will add MCM systems incrementally as they complete 
development. These Mission Packages are within the ship's payload 
weight requirements and will not exceed the 180MT weight limit.
    The Spiral Alpha MCM MPs will have a full complement of mission 
systems and support equipment. Spiral Alpha MCM MPs initially had an 
estimated weight that was 16MT over the weight limit. The LCS Mission 
Modules program office (PMS 420) has made significant progress in 
reducing the weight of the Spiral Alpha MCM MP. The excess weight has 
been reduced to about 5.1MT. Current work is estimated to reduce Spiral 
Alpha MCM MP weight by an additional 7.5MT, bringing the MP within the 
allowable weight limit. The activity to reduce the weight, currently 
projected for future packages, includes restowing equipment and systems 
to improve the weight efficiency of containers and stowage systems. 
This also includes investigations of alternate lightweight materials 
(aluminum and composites) and improved designs with more efficient 
structure to hold equipment.
    The MCM MP components that provide the mission performance are not 
required to be changed for the purpose of reducing weight, but as 
prototype and engineering development systems are matured for serial 
production, there may be opportunities to achieve further weight 
reductions. PMS 420 will work with partner mission system providers to 
maintain a weight saving focus.
    At this time, no additional funds are required.
    Question. Why is every ship in the Navy not equipped with 
Degaussing capability?
    Response. Ships are equipped with degaussing systems based on 
policy (OPNAVINST S8950.2) and requirements analysis. All surface 
combatants, except the aluminum hull LCS variant, amphibious ships and 
aircraft carriers have degaussing systems. Some non-combatant ships 
under the responsibility of the Military Sealift Command also have 
degaussing systems (e.g. T-AKE).
    Question. Is the Navy still committed to the LCS program from a 
requirements standpoint?
    Response. Yes. The Littoral Combat Ship (LCS) remains a program of 
critical importance to Navy, and continues to be monitored closely. LCS 
fills compelling and consistent warfighting capability gaps in littoral 
mine countermeasures, surface warfare, and anti-submarine warfare. The 
requirement to gain, sustain, and exploit littoral maritime superiority 
to ensure access and enhance the success of future joint operations 
remains unchanged. The 55-ship LCS program is an essential component of 
the long range shipbuilding program and achieving the Navy force 
structure objective of at least 313 ships.

    [Clerk's note.--End of questions submitted by Mr. Boyd. 
Questions submitted by Mr. Murtha and the questions thereto 
follow:]

                       Littoral Combat Ship (LCS)

    Question. The Navy's Littoral Combat Ship (LCS) is envisioned as a 
55 ship class that will conduct multiple missions in the littorals. 
When complete, this ship class will represent nearly 20 percent of the 
313 ship fleet. The ships have been troubled since the program's 
inception, due to cost growth and technical issues. The contract for 
the third ship was awarded last week to Lockheed Martin. Contract 
negotiations for the fourth ship (which will be built by General 
Dynamics in Mobile, Alabama) are ongoing.
    Secretary Stiller, the Navy has accepted delivery of the first LCS 
variant built by Lockheed Martin, but is still waiting on delivery of 
the second LCS variant built by General Dynamics. What is your estimate 
of when this ship will complete sea trials and be delivered to the 
Navy? What has been the biggest cause of delay for this ship?
    Response. INDEPENDENCE is 88% complete and is expected to deliver 
in 2009, with Builder's Trials and Acceptance Trials to complete prior 
to ship delivery.
    Root causes for continued schedule extensions and cost growth are 
varied. Some are well publicized, with little room for recovery and 
continue to impact the program:
          <bullet> Unrealistic Estimates for Material and Labor
          <bullet> Concurrency of Design and Construction
                  <bullet> Naval Vessel Rules
                  <bullet> Inadequate Production Plan at the Start of 
                Construction
          <bullet> Insufficient Modular Construction and Pre-outfitting
          <bullet> Delays to First Article Testing with Subcontractors
    Other root causes were correctable and action plans were developed 
and executed to stem the negative program impacts:
          <bullet> Under-staffed Government Program Management/
        Supervisor of Shipbuilding
                  <bullet> Slow Recognition of Cost and Schedule Growth
          <bullet> Over-emphasis on Schedule
                  <bullet> Compounded by a lack of Advanced Procurement
    In response, the Navy and Industry team have bolstered the 
waterfront organizations with key and experienced shipbuilders and 
developed leading performance indicators that highlight problem areas. 
Through daily assessments, weekly analysis of key metrics on production 
and test progress, and monthly progress and cost reviews, the Navy and 
Industry team managers identify variances quickly and ensure that 
corrective actions are implemented and effective. Cost and schedule 
performance has improved.
    In this latter stage of ship production and testing of a new 
design, root causes tend to lie in technical problems encountered on a 
daily basis and in this case are compounded by immature shipbuilder 
processes to solve the issues in support of scheduled work activity. 
Delays associated with technical issues, combined with the low levels 
of pre-outfitting at the module stage prior to launch, drive rework, 
out-of-sequence work, and inefficiency.
    Question. Secretary Stiller, the Committee understands that the 
Navy has awarded a contract to Lockheed Martin for construction of the 
third LCS. When do you anticipate the Navy will award the contract to 
General Dynamics for the fourth LCS?
    Response. General Dynamics--Bath Iron Works (BTW) was awarded a 
contract on May 1, 2009, for LCS FY09 Flight 0+ ship construction, 
class design services, configuration management services, additional 
crew and shore support, special studies and post delivery support. This 
award represents Phase I of a competitive two-phased acquisition 
approach to procure FY09/FY10 LCS, with Phase II including potential 
award of up to three (3) additional LCS Flight 0+ Class ships.
    Question. Secretary Stiller, the LCS program will be subject to a 
$460 million cost cap starting in fiscal year 2010. Do you envision 
being able to award the fiscal year 2010 ships at a value that will 
meet the requirements of the cost cap or will the Navy have to ask for 
some relief?
    Response. Navy is actively engaged with industry to implement cost 
reductions with the intent to procure the FY10 ships within the $460M 
cost cap. Legislative relief may be required regarding the LCS cost-cap 
until manufacturing efficiencies can be achieved.
    The Navy has formalized a LCS program affordability and cost 
reduction effort. This effort primarily targets cost drivers in 
shipbuilder design, Navy specifications, and program management costs. 
Cost reduction opportunities that have potential to impact Warfighting 
requirements are evaluated by OPNAV.
    Question. Admiral McCullough, do you envision the Navy down 
selecting to a single variant of LCS or do you believe both variants 
will continue to be constructed to fill out the ship class? When will 
an acquisition strategy be finalized?
    Response. A draft acquisition strategy for FY 2011 and out-year 
ships is under review within the Department of the Navy. It is 
anticipated that starting in FY 2011, the Navy will lay the foundation 
for a bridge to Multi-Year Procurement (MYP) of LCSs by exploring a 
block buy or a contract with options to leverage economic ordering and 
provide stability for shipyard workload and planning. The strategy will 
address methods to utilize competition to improve affordability through 
efficient production rates, facilities and process improvements, 
advanced procurement to take advantage of Economic Order Quantity (EOQ) 
buys, system commonality, and an evaluation of Government versus 
Contractor furnished material in the combat systems and communication 
suites and decision points for potential capability upgrades. This 
draft strategy will be briefed to the new USD (AT&L) for review and 
approval.
    The updated acquisition strategy will also incorporate the results 
of operational test and evaluation, Fleet feedback on ship performance 
and shipbuilder cost performance. The Navy intends to proceed with both 
variants of the LCS for now and plans to use competition as a tool to 
drive costs lower. During this period, the Navy is investigating 
commonality opportunities. If the Navy decides to select only one sea 
frame for Flight 1 construction, it will continue to use competition to 
obtain best pricing.

                   DDG-1000 Guided Missile Destroyer

    Question. Last year, the DDG-1000 Zumwalt Class guided missile 
destroyer finalized contracts for the two lead ships of the class. The 
two shipyards that will construct the ships are Bath Iron Works in 
Maine (General Dynamics) and Ingalls Shipbuilding in Mississippi 
(Northrop Grumman). The contracts were awarded with 55 percent of the 
final design complete. Approval was recently granted to Bath Iron Works 
to begin fabrication of the first ship.
    Secretary Stiller, although the Navy has signed the construction 
contracts for the first two ships of the DDG-1000 class, in reality 
those contracts only account for about half the cost of the ship. The 
remainder will be consumed by government furnished equipment which 
depends largely on the development of several new technologies that 
will be introduced on the DDG-100 platform. Are you comfortable that 
the development of these technologies is sufficiently mature; that they 
will not hold up construction or contribute to cost growth?
    Response. Yes. Maturity of the key DDG-1000 developmental systems 
began in the Technology Demonstration Phase with the successful 
development and test of ten Engineering Development Models. Subsequent 
to a program level Critical Design Review in September 2005, a 
Milestone B Technology Readiness Assessment (TRA) was conducted by an 
independent panel chaired by the Chief of Naval Research (CNR). A 
subsequent TRA review is conducted annually, and after each software 
release.
    The DDG-1000 Zumwalt Class Destroyer Total Ship System (TSS) 
Production Readiness Review (PRR) was successfully conducted on October 
28, 2008. As a lead up to the review, all of individual systems went 
through production readiness reviews and the TSS PRR assessed the 
collective production readiness of the entire system to proceed into 
production. The results of the review were documented in a Report to 
Congress.
    All technologies will achieve the Technology Readiness Level (TRL) 
of 6 (system demonstration in a relevant environment) or better by ship 
installation. The Total Ship Computing Environment (TSCE) will achieve 
TRL 6 upon completion of the Software Release 5 System Acceptance Test 
and Software Certification Panel in FY10.
    Question. Secretary Stiller, how confident are you in the ability 
of the DDG-1000 contractors to deliver these two new lead ships for the 
contracted price when fabrication of the first ship began before the 
final design was compete? How much of the design is now complete?
    Response. The detail design of the ship was, in fact, more complete 
than any previous surface combatant built to date. Before any 
construction zone on the ship starts production, the detail design for 
that particular zone is fully completed. At the start of construction 
in February 2009, over 80% of the detail design was complete. Over 85% 
of the detail design is now complete. 2D extracted drawings (shop floor 
production drawings) have been issued for 20% of the ship.
    Contractor cost and schedule performance for the DDG-1000 program, 
as measured by the Earned Value Management System (EVMS) are very good 
high performance indices, low variances, and stable trends on all 
contracts. Contracts are currently executing near target for both cost 
and schedule. Following a successful Total Ship System Production 
Readiness Review was conducted October 2008, SECNAV submitted a report 
to Congress certifying readiness to start production in February 2009.
    Question. Secretary Stiller, when do you expect fabrication of the 
second ship to begin?
    Response. DDG-1001 was anticipated to start fabrication at Northrop 
Grumman Shipbuilding (NGSB) during Fall 2009. A new start fab date will 
be determined during contract negotiations between General Dynamics 
Bath Iron Works (BIW) and NGSB for the proposed workload swap of DDG-
1000 and DDG-51 construction. The plan aligns construction 
responsibilities for FY09 and prior DDG-1000 Class ships and selected 
DDG-51 Class ships between BIW and NGSB through the order of the next 
three planned DDG-51s to ensure shipyard workload stability at both 
yards, leverage learning, stabilize and minimize cost risk for the DDG-
1000 program, efficiently re-start DDG-51 construction, facilitate 
performance improvement opportunities at both shipyards, and maintain 
two sources of supply for future Navy surface combatant shipbuilding 
programs.
    This plan is in keeping with Secretary Gates' statement during 
April 6, 2009 press conference where he stated that the Department's 
FY10 plans depend on being able to work out contracts to allow the Navy 
to efficiently build all three DDG-1000 class ships at BIW in Maine and 
to smoothly restart the DDG-51 class construction at NGSB Ingalls 
shipyard in Mississippi.
    Question. Secretary Stiller, what is the status of the third DDG-
1000? Has the Navy started contract negotiations? When do you expect 
the contract for construction of the third ship to award?
    Response. DDG-1002 has been partially funded by Congress and the 
balance of funding was requested in the President's FY10 budget. The 
Navy, with General Dynamics Bath Iron Works (BIW), and NGSB have 
reached an agreement for workload swap of DDG-1000 and DDG-51 
construction. DDG-1001 was anticipated to start fabrication at Northrop 
Grumman Shipbuilding (NGSB) during Fall 2009. A new start fab date will 
be determined during contract negotiations. Similarly, the contract 
award for DDG-1002 is part of those ongoing negotiations.
    The plan aligns construction responsibilities for FY09 and prior 
DDG-1000 Class ships and selected DDG-51 Class ships between BIW and 
NGSB through the order of the next three planned DDG-51s in order to 
ensure shipyard workload stability at both yards, leverage learning, 
stabilize and minimize cost risk for the DDG-1000 program, efficiently 
re-start DDG-51 construction, facilitate performance improvement 
opportunities at both shipyards, and maintain two sources of supply for 
future Navy surface combatant shipbuilding programs.
    This plan is in keeping with Secretary Gates' statement during 
April 6, 2009 press conference where he stated that the Department's 
FY10 plans depend on being able to work out contracts to allow the Navy 
to efficiently build all three DDG-1000 class ships at BIW in Maine and 
to smoothly restart the DDG-51 class construction at NGSB Ingalls 
shipyard in Mississippi.
    Question. The number of required DDG-1000 ships has recently 
fluctuated between two, three, and seven. How many DDG-1000 ships is 
the Navy planning to buy?
    Response. Navy is building three DDG-1000 ships. The first two 
ships were appropriated in FY 2007, and split funded in FY 2007 and FY 
2008. The third ship was appropriated in FY 2009. The FY 2010 
President's Budget Submittal requests the second installment of split 
funding for the balance of the third DDG-1000.
    Question. With all of the money invested in development of the 
technologies for the DDG-1000 program, it seems wasteful to not 
construct more than three ships of the class. Can the DDG-1000 
technologies be used on other platforms?
    Response. DDG-1000 technologies can be used on other platforms. The 
10 critical technology advancements associated with DDG-1000 are:
          <bullet> Infrared Mockups (IR)
          <bullet> Integrated Deckhouse and Apertures (IDHA)
          <bullet> Dual Band Radar (DBR)
          <bullet> Integrated Power System (IPS)
          <bullet> Autonomic Fire Suppression System (AFSS)
          <bullet> Total Ship Computing Environment (TSCE)
          <bullet> Advanced Gun System (AGS)

  <bullet> PERIPHERAL VERTICAL LAUNCH SYSTEM (PVLS)/ADVANCED VLS

          <bullet> Integrated Undersea Warfare (IUSW)

  <bullet> HULL FORM SCALE MODEL

    Eight of the ten critical technologies listed above could have 
application to future combatants. The AGS is being considered in the 
Joint Fires Analysis of Alternatives. The DBR will be installed in CVN 
78.
    In addition, technologies such as AFSS and TSCE will have utility 
for incorporation in future surface ship and carrier designs. Navy has 
learned a great deal from DDG-1000 research and development and will 
continue to insert proven technologies in future ship designs wherever 
appropriate.

                        DDG-51 Destroyer Program

    Question. The Navy is completing construction of the initial 62 
ships in the DDG-51 program. Last year, the Committee provided $200 
million to the Navy to re-start the DDG-51 production line and continue 
DDG-51 procurement.
    Secretary Stiller, what is the status of the DDG-51 funding that 
the Committee provided to the Navy last year to assist in re-starting 
the DDG-51 production line?
    Response. Congress appropriated $200M of FY09 Advanced Procurement 
(AP) funding to preserve the option to restart the DDG-51 class 
program. The Navy has obligated $10.9M of FY09 AP, and plans to 
obligate the remaining $188.7M in June 2009. In addition, the Navy 
plans to reprogram an additional $128.6M in AP to procure long lead 
items including Main Reduction Gears and Class Standard Equipment.
    To date, for the DDG-51 re-start, the Navy has obligated $10.9M for 
the following:
          <bullet> $5.0M for shipbuilder Advance Planning
          <bullet> $1.6M for Identify Friend or Foe (IFF) (OE-120A 
        Antenna)
          <bullet> $3.3M for Exterior Communications High Frequency 
        Radio Group (EXCOMM HFRG)
          <bullet> $1.0M for TOMAHAWK
    Question. Secretary Stiller, since the Committe provided the 
initial funding for continuing DDG-51 production, do you have a good 
estimate for the total cost of re-starting DDG-51 production?
    Response. The cost to restart DDG-51 production includes increases 
in basic construction and Government Furnished Equipment. The basic 
construction restart costs include the loss of learning associated with 
a production gap, and cost for new suppliers associated with purchase 
specification material primarily driven by Main Reduction Gear. The GFE 
restart costs include production start up, obsolescence, and vendor 
requalification's. The table below summaries the production restart 
issues associated with basic construction and GFE vendors.

 
------------------------------------------------------------------------
       Production restart               Vendor               Issue
------------------------------------------------------------------------
Shipbuilder (Purchase             Various...........  New suppliers,
 Specification Material).                              production line
                                                       restart.
Main Reduction Gears............  Philadelphia Gear.  Production line
                                                       restart.
AEGIS Fire Control System         General Dynamics..  Production line
 Director/Controller (MK 82/                           restart.
 MK200).
MK 41 Vertical Launch System      Lockheed Martin...  Restart of
 (VLS).                                                production line
                                                       for mechanical
                                                       equipment.
MK 45 Gun Weapon System.........  BAE Systems &       Restart production
                                   McNally             line for
                                   Industries.         weathershields,
                                                       loader drums, and
                                                       ammunition
                                                       hoists.
Surface Bessel Torpedo Tubes      BAE Systems.......  Restart production
 (SVTT).                                               line.
SPS-67 Surface Search Radar       DRS & EDO/AIL.....  Production line
 System.                                               restart and new
                                                       contracts
                                                       required for
                                                       below deck
                                                       equipment and
                                                       antennas.
Tactical Tomahawk Weapon Control  Lockheed Martin...  Production line
 System (TTWCS).                                       closed. Requires
                                                       new competitive
                                                       award.
------------------------------------------------------------------------

    The costs to restart DDG-51 production will be determined upon the 
conclusion of negotiations for a detail design and construction 
contract for DDG-113 and fellow ships. The completion of those 
negotiations is subject to negotiations that would shift DDG workload 
between General Dynamics--Bath Iron Works (BIW) and Northrop Grumman 
Shipbuilding (NGSB).
    This plan is in keeping with Secretary Gates' statement during 
April 6, 2009 press conference where he stated that the Department's FY 
2010 plans depend on being able to work out contracts to allow Navy to 
efficiently build all three DDG-1000 class ships at BIW in Maine and to 
smoothly restart the DDG-51 class construction at NGSB Ingalls shipyard 
in Mississippi.
    Question. Secretary Stiller, what is your estimate for how much the 
next DDG-51 ship would cost, considering the fact that there has been a 
break in production?
    Response. The total estimate for the next DDG (DDG-113) is $2.24 
billion and is reflected in the FY 2010 President's Budget. This 
estimate includes associated production and start up costs, and 
reflects Navy transfer/reprogramming of $129 million SCN, currently in 
process.
    Question. Admiral McCullough, has the Navy finalized its strategy 
for how many ``cookie cutter'' DDG-51s it plans to procure? Is the Navy 
planning on moving to upgraded DDG-51 ships once the production line 
becomes active again? What type of upgrades will be placed on the 
ships?
    Response. The DDG-51 class of destroyer has been built with the 
incorporation of improvements into the design of the class that have 
resulted in three different groups or ``Flights'' within the class. 
These groups are Flight I, Flight II, and Flight IIA. The Flight IIA 
ships incorporate a helicopter hangar, for example, while the previous 
flights do not. The FY10 budget request includes the restart of the 
DDG-51 class with the procurement of one ship. With the re-start of the 
DDG-51 production line, greater commonality with the last ships 
produced will reduce redesign costs and aid in mitigating re-start 
costs. Currently, upgrades are only being considered to enhance 
Integrated Air and Missile Defense (IAMD) and Anti-Submarine Warfare.

                        Future Surface Combatant

    Question. In the wake of last year's announcement by the Navy to 
curtail the DDG-1000 procurement at three ships and restart DDG-51 
production, the media has reported that a ship called the ``future 
surface combatant'' has entered the Navy budget. There has been little 
definition regarding this program.
    Secretary Stiller, the media has reported the Navy is considering 
funding a platform called the ``future surface combatant'' in future 
years. Can you briefly explain the concept behind this ship?
    Response. The Navy is building three DDG-1000's and the FY 2010 
President's budget request includes the re-start of the DDG-51 class 
with the procurement of one ship in FY10. The Navy plans to continue to 
modernize and build guided missile destroyers with the best available 
Integrated Air and Missile Defense (IAMD) capability. The technologies 
that are in the DDG-1000 and the DDG-51 classes will help us inform and 
better approach future combatant designs. The Department of Defense's 
Quadrennial Defense Review will drive the Future Years Defense Program 
and the Annual Long-range Plan for Construction of Naval Vessels which 
are currently pre-decisional and planned to be discussed upon release 
of PB11.
    Question. Secretary Stiller, do you envision this platform as a 
hybrid between the DDG-1000 and DDG-51 programs?
    Response. The Navy is planning on building more guided missile 
destroyers that will be capable of supporting the best available 
Integrated Air and Missile Defense (IAMD) and ASW capabilities. The 
Navy is considering options to equip DDG-51 ships with advanced radar 
with increased capability against advanced air and ballistic missile 
threats. Concepts under consideration include changes to the DDG-51's 
engineering plant and hull required to support this advanced radar. The 
Navy is also considering how to leverage technology inherent in DDG-
1000. The technologies that are in the DDG-1000 and improvements to the 
DDG-51 class will help us inform and better approach future combatant 
designs. The Department of Defense's Quadrennial Defense Review will 
drive the Navy Future Years Defense Plan and the Annual Long-range Plan 
for Construction of Naval Vessels which is being developed now for 
submission with the President's FY11 Budget Submission.
    Question. Secretary Stiller, what is the basis of cost for the 
future surface combatant?
    Response. In April 2009, the Navy announced that it arrived at a 
plan that most affordably meets the requirements for Navy surface 
combatants, commences the transition to improved missile defense 
capability in new construction, and provides significant stability for 
the industrial base.
    The basis of cost for the future surface combatant has not yet been 
determined, pending a decision on the capabilities that will be added 
to future guided missile destroyers for improved Integrated Air and 
Missile Defense.
    USD AT&L directed a baseline study that will compare capabilities, 
cost and technical feasibility of a range of radar systems for DDGs. 
This study will be completed in time to inform the President's Budget 
for 2011.
    Question. Admiral McCullough, what requirement is the future 
surface combatant expected to fill?
    Response. When the Navy submitted the plan to truncate DDG-1000 at 
three ships and re-start the DDG-51 line to the Office of the Secretary 
of Defense, we called all the ships in the re-start profile DDG-51s. 
The plan was to restart the DDG 51 line in FY 2010, and study what 
future capability to put in the ships from FY 2012 and out before we 
made a decision on what those ships were going to be.
    The re-start of the DDG-51 line will fill increasing Combatant 
Commander demand for Integrated Air and Missile Defense (IAMD) 
capability and capacity. Navy plans to continue to modernize and build 
guided missile destroyers with the best available IAMD capability to 
incrementally fill the Joint Requirements Oversight Council (JROC) 
approved IAMD capability gaps identified in the Maritime Air and 
Missile Defense of the Joint Force (MAMDJF) Initial Capability Document 
(ICD). The plan includes the introduction of advanced radar which will 
have increased capability over the current SPY-1 radar. This will 
enable Navy to better address IAMD capability gaps well into the 21st 
Century.

           Surface Combatant Open Architecture Combat Systems

    Question. The combat system of the Virginia Class submarine has 
been extremely successful in that it is built on open architecture 
concepts that can be quickly upgraded to take advantage of technology 
advancement as the ship ages. The Navy calls this concept ``Acoustic 
Rapid COTS (commercial-off-the-shelf) Insertion (ARCI)''. This 
philosophy has several advantages including cost, capability, and ease 
of modernizing.
    Secretary Stiller, the combat system of the Virginia Class 
submarine program has been successful largely due to the concept of 
Acoustic Rapid COTS Insertion. Does the Navy have a similar open 
architecture concept for the combat systems on surface combatants?
    Response. The Surface Navy does have an open architecture strategy 
similar to the Acoustic Rapid COTS Insertion (ARCI). The Surface Navy 
is modernizing the in-service Fleet while developing the componentized 
combat system through incorporation of Advanced Capability Builds 
(ACB)/Technology Insertion (TI). Similar to the submarine ARCI 
approach, the Surface Navy modernization efforts uses commercial 
computer hardware refreshed on a defined TI cycle while the ACB 
software upgrade introduces maintenance updates and new war fighting 
capability improvements to pace the threat.
    The National Defense Authorization Act for Fiscal Year 2008, Report 
110-77 of June 5, 2007, Committee on Armed Services, United States 
Senate, Page 272-273 requires quarterly reporting of the Navy's 
approach to developing open architecture concepts for surface combat 
systems. The sixth report was signed and provided to the appropriate 
Senate offices on May 11, 2009.
    The Navy accomplished two significant Open Architecture milestones: 
the fielding of the Ship Self Defense System (SSDS) OA with USS NIMITZ 
(CVN 68) in October 2008 and the modernization of an Aegis combat 
system on USS BUNKER HILL (CG 52), in February 2009. The NIMITZ's 
installation extends openness by implementing an open-standard 
middleware, and adds Information Assurance controls. After a successful 
electronics light-off in October 2008, NIMITZ completed Combat Systems 
Ships Qualification Trials (CSSQT) in February 2009. SSDS MK2 fulfills 
combat management functions across multiple ship types with existing 
combat system elements while providing added flexibility to accommodate 
future changes through a modular design approach. The BUNKER HILL 
achieved successful combat systems light-off with a decoupled (hardware 
from software) Combat Management System (CMS) and is currently 
conducting its CSSQT.
    The Surface Navy will continue to modularize and componentize its 
combat systems software as it transitions to an objective architecture-
based combat system with a government-defined architecture and 
government validated interfaces. The ACB process allows capability 
development to proceed without impacting ship schedules until the 
capability is sufficiently mature for transition to Fleet use in a 
methodical integration, test, certification, and fielding approach. The 
plan is to install ACB software builds every two years and hardware TIs 
every four years. By 2016, all 22 CGs will modernized using OA 
principles and 62 DDGs will modernized by 2025.
    Question. Secretary Stiller, the Navy's largest surface combatant 
ship class today is the DDG-51 class which is currently operating the 
AEGIS combat system which is proprietary to the contractor. Does the 
Navy plan on backfitting the DDG-51 class with a non-proprietary open 
architecture combat system?
    Response. Aegis Advanced Capability Build FY12 (ACB-12) and 
Technology Insertion FY12 (TI-12) will be executed as part of the Aegis 
Modernization program and initially targets the oldest DDG-51 Class 
ships with modernization availabilities beginning in FY12. ACB-12/TI-12 
is the first step in providing the entire DDG-51 Class with a non-
proprietary open architecture combat system. In addition, ACB-12 will 
be introduced on DDG-113 in forward fit to ensure all backfit and new 
construction ships are aligned.
    ACB-12/TI-12 will provide enhanced warfighting improvements 
including Air Defense and Undersea Warfare (USW) capabilities. 
Significant capabilities include the integration of Naval Integrated 
Fire Control--Counter Air (WC-CA), Standard Missile-6 (SM-6), AN/
SQQ89A(V)15 USW Suite, Joint Track Management (JTM) Alignment, Common 
Display System (CDS), Common Processor System (CPS), Aegis Ballistic 
Missile Defense (BMD) and the Multi-Mission Signal Processor (MMSP). In 
addition, the open architecture AN/SQQ-89A(V)15 Under Sea Warfare (USW) 
Suite is already being installed on the DDG-51 Flight IIA ships.
    Follow-on ACBs, starting with ACB-14, will be developed on a two-
year cycle and TIs on a four-year cycle. These follow-on ACBs will 
provide additional warfighting capability and enable us to achieve a 
fully non-proprietary open architecture combat system for the DDG-51 
Class. By 2025, all 62 DDG-51 class will be modernized using OA 
principles.

                        Next Generation Cruiser

    Question. The National Defense Authorization Act contained a 
provision that requires all new ship classes of submarines, aircraft 
carriers and cruisers be nuclear powered. The first opportunity to 
apply this direction will be on the next generation cruiser program, 
currently designated CG(X). The outyear budget submitted with the 
fiscal year 2029 request showed the first ship of the CG(X) class will 
be procured in fiscal year 2011, however since no nuclear components 
for that ship have been procured and the design effort is very 
immature, it is highly unlikely that this ship will begin procurement 
in fiscal year 2011.
    Admiral McCullough, in your opinion, when will the next generation 
cruiser, the CG(X), begin procurement?
    Response. Secretary Gates announced on 06 April 2009 that ``we will 
delay the Navy CG(X) Next Generation Cruiser program to revisit both 
the requirements and acquisition strategy.'' The results of the Navy's 
Analysis of Alternatives (AoA) for the Maritime Air and Missile Defense 
of Joint Forces (MAMDJF) capability are currently within the Navy 
staffing process.
    Question. Admiral McCullough, I am sure you are aware of the 
Authorization language directing nuclear propulsion for future ships. 
As a nuclear trained officer, what are the advantages and disadvantages 
of using nuclear propulsion for the CG(X) class of ships?
    Response. The advantages and disadvantages of nuclear power are 
discussed in the Report to Congress on Alternative Propulsion Methods 
for Surface Combatants and Amphibious Warfare Ships.
    Nuclear propulsion offers both operational advantages and cost 
advantages for the surface combatants. As noted in the Report to 
Congress, nuclear propulsion provides the ability to operate at high 
power for sustained periods of time which would provide better surge to 
theater and time on station compared to its fossil fueled counterparts. 
In addition, nuclear propulsion may reduce ship vulnerability because 
of its markedly reduced tether to the logistics chain as well as its 
ability to conduct high speed maneuvers without regard for propulsion 
fuel capacities. For the Ballistic Missile Defense mission, nuclear 
propulsion provides sufficient energy to maintain high power radar 
demands for extended periods of time.
    The main disadvantage of nuclear propulsion is acquisition and 
disposal costs are higher than fossil fuel variants. The higher 
acquisition cost is due to the need to procure the nuclear reactor core 
upfront which provides the energy requirements for the 35 year life of 
the ship. This cost, known as the nuclear premium, is mitigated when 
compared to fossil fuel variants when life cycle costs, such as 
expected increases in fossil fuel costs, are realized over the life of 
the ship and the class.
    Question. Secretary Stiller, if the Navy makes the decision to 
utilize nuclear propulsion for this ship class, when is the earliest 
that the ship could be procured?
    Response. If CG(X) is determined to be nuclear powered, the Navy 
plans to leverage the CVN-78 Propulsion Plant design for a nuclear 
version of CG(X) due to the investment and resulting capabilities and 
maturity of that propulsion plant. Funding would be needed 
approximately 4 years prior to ship construction to support long-lead 
time reactor components and minor redesign. The Air and Missile Defense 
Radar (AMDR) development schedule and technology maturation directly 
impacts the ship design and procurement schedules. Historically, a new 
radar design requires 8-9 years, and a ship design (with leveraging of 
major components such as the propulsion plant) requires 5-7 years. 
Current acquisition requirements indicate critical technologies must 
achieve a technology readiness level (TRL) of 6 (System/subsystem model 
or prototype demonstration in a relevant environment) prior to 
procurement (i.e., MS-B). The AMDR TRL level is approx level 4/5 and 
would require approximately 6-7 years to support ship procurement. Ship 
design efforts supporting ship procurement should mature sufficiently 
within the radar maturity schedule.
    Question. Admiral McCullough, the Navy has operated nuclear powered 
cruisers in the past. Can you explain the difference, if any, in the 
concept of operations between these previous nuclear powered cruisers 
and the future cruisers?
    Response. The concept of operations for CG(X) is under development 
and will not be completed until after a Navy preferred alternative is 
decided. That said, Navy surface combatants, past and present, nuclear 
or conventional, are multi-mission platforms that can operate with a 
Carrier Strike Group, Surface Action Group, Amphibious Ready Group, or 
independently. From a warfighting aspect, if CG(X) is nuclear powered, 
I anticipate that the primary difference in its operating concept 
compared to past nuclear cruisers will be based on its advanced 
Integrated Air and Missile Defense Capability.
    Over 40 years of experience and operations, in addition to major 
technological advances, have improved performance and reduced life 
cycle and acquisition costs of naval nuclear propulsion plants. 
Compared to the earlier classes of nuclear surface combatants, a modern 
nuclear cruiser would have more power, fewer people, and require less 
maintenance.

                        CVN-78 Aircraft Carrier

    The newest aircraft carrier will implement several new technologies 
(launching system, enhanced flight deck, ordnance handling systems, 
etc.) and have a brand new nuclear propulsion plant. With the ship just 
having started construction and already bumping up against the cost cap 
imposed by the Armed Services Committee, it is highly likely that this 
ship will experience some sort of cost growth.
    Secretary Stiller, the Committee understands that the 
Electromagnetic Aircraft Launching System (EMALS) contract is 
overrunning and initial estimates show $250 million growth from the 
fiscal year 2008 estimate. This is more than double the cost of $225 
million used as the original estimate for this system. What is the 
current status of the EMALS program and do you concur with the 
magnitude of this cost increase? What impact will this growth have on 
the EMALS schedule with respect to delivery of the system to the 
carrier for installation?
    Response. EMALS is currently in the System Design and Development 
(SDD) and procurement of long lead time shipset production components 
has begun. The SDD phase currently extends through 4th qtr FY11. Near 
term events such as successful completion of High Cycle Test (HCT) 
Phase I, positive progress on High Cycle Test (HCT) Phase II and Highly 
Accelerated Life Testing (HALT), as well as start of commissioning 
testing for System Functional Demonstration (SFD), are expected to 
validate the system design and enable smooth transition into 
production. Production Readiness Reviews (PRRs) are being conducted in 
3rd qtr FY09 to support release of EMALS subsystem components for 
production. Baseline drawing packages are projected to complete by end 
of FY09.
    As with any developmental system, the initial test and integration 
of the EMALS technology had some schedule and cost risk. Delays that 
resulted in concurrency in SDD and production have resulted in 
additional risk. Through a very detailed review process, the Navy has 
identified the EMALS technical, cost and schedule risks, developed 
mitigation strategies, and is executing the approved program baseline. 
The Navy has, however requested budget adjustments through the PB 10 
development process to further mitigate risk. Further actions will 
likely be needed in the outyears to ensure this program provides the 
needed capability consistent with the ship's construction schedule. The 
results of upcoming testing will be used to determine the final shipset 
production costs. The current EMALS SDD and production planning efforts 
support the scheduled delivery date for CVN-78.
    Question. Secretary Stiller, at what point does the Navy need to 
decide to continue with the EMALS effort or revert to a steam catapult 
system for the CVN-78 program? How likely is it that the Navy will walk 
away from EMALS and return to a steam catapult for CVN-78? What will 
the cost be to incorporate the use of a steam catapult into the design 
of the ship?
    Response. Senior Navy leadership recently concluded a detailed 
assessment of the viability of both EMALS and steam catapults on the 
CVN-78 Class and determined that EMALS would continue as the CVN-78 
Class aircraft launching system. The current EMALS System Development 
and Demonstration (SDD) phase and production schedules continue to 
support the CVN-78 construction schedule; however, due to the overlap 
of system level testing and shipset production hardware procurement 
decision, cost and schedule risks exist. The management focus, review 
processes and oversight that the Navy has employed continue to mitigate 
these risks. While steam catapults were deemed at the conclusion of the 
assessment to be a technically viable alternative to EMALS, reverting 
to steam would have incurred a 12-18 month delay in CVN-78 ship 
delivery, along with associated costs for redesign and delay. Any 
decision made now or in the future to revert to steam would 
significantly increase the cost and schedule impact to CVN-78 ship 
design and construction.
    Question. Secretary Stiller, is the CVN-78 program experiencing 
problems with any of the other new technologies being introduced on 
this ship?
    Response. The development of key CVN-78 technologies continues to 
progress at a rate consistent with that needed to support the ship 
construction schedule. The Major critical technologies/capabilities 
maturing for integration into lead ship include: Electromagnetic 
Aircraft Launch System (EMALS), Advanced Arresting Gear (AAG), Dual 
Band Radar (DBR), Joint Precision Aircraft Landing System (JPALS), 
Evolved Sea Sparrow Missile (ESSM) P3I Data link, Improved 
Survivability, Enhanced Flight Deck, and Improved Weapon and Material 
Handling. To provide additional technical oversight in this area, OSD 
established a CVN 21 Program Critical Technologies Integrated Product 
Team (IPT) that monitors the maturation of those new technologies 
identified as critical to the successful execution of the program. In 
April 2007, this IPT completed a Technology Readiness Level (TRL) 
Assessment that validated the maturation plans of each critical 
technology. Since that time, all critical developmental systems, with 
the exception of the AAG, ESSM P3I Data link, and DBR, have achieved 
TRL 6 maturity, in that a system model or prototype has been 
demonstrated in a relevant environment. Each of the remaining four 
technologies is being tracked by the IPT and is projected to be on 
track to accomplish the testing requirement to achieve TRL 6 by FY 
2011, well in advance of their construction need dates. The IPT is 
chartered to meet semi-annually until all critical technologies have 
achieved this readiness level. Additionally, ship construction efforts 
have started well with activities being on or ahead of schedule.
    Question. Secretary Stiller, with the budget for the new aircraft 
carrier already bumping up against the cost cap, and with the trouble 
the Navy has historically had in estimating ship costs (especially lead 
ship costs), how confident are you that the new carrier will deliver 
within the cost cap?
    Response. The President's Budget for Fiscal Year 2010 reflects an 
end cost of $10,846M for CVN-78 which is $581M below the 
congressionally mandated cost cap for CVN-78. As the lead ship of the 
next carrier class ships, there are inherent cost risks to the program. 
However, the program is executing to the approved acquisition program 
baseline. The Navy is employing considerable management attention and 
oversight to ensure the new carrier performs within the budget 
allocations and congressional cost cap. The Navy will continue to track 
program cost relative to the cost cap and adhere to the reporting 
requirement as outlined in Section 122 of the 2007 National Defense 
Authorization Act (NDAA).

                    Virginia Class Submarine Program

    Question. Last year, the Navy signed a multi-year procurement 
contract for the procurement of eight submarines over the time period 
from fiscal year 2009 through fiscal year 2013. The Navy is set to 
begin procurement of two Virginia Class submarines per year in fiscal 
year 2011. The Committee was instrumental in the Navy accelerating the 
two ships per year procurement as a result of adding advance 
procurement funding above the budget request for the program in the 
fiscal year 2008 bill.
    Secretary Stiller, is the Virginia class submarine program ready to 
move to the procurement of two submarines per year beginning in fiscal 
year 2011?
    Response. Yes. The Navy and the shipbuilders have been planning to 
increase production to two submarines per year starting in fiscal year 
2011. Therefore, most of the infrastructure is already in place to 
support two per year production. Furthermore, the Block II and Block 
III multi-year procurement contracts allowed shipbuilders to level 
workload and procure material in Economic Order Quantity, providing 
stability to the shipbuilding industrial base and supporting the 
transition to an increased production rate. In addition, the National 
Defense Authorization Act for Fiscal Year 2009 provided the Navy with 
the authority and funding ($79 million) for advance procurement and 
construction activities to provide a more efficient ramp-up to two 
submarines per year.
    Question. Secretary Stiller, are both contractors positioned to 
ramp up production efforts to the point that two submarines per year 
can be built without impacting delivery schedules?
    Response. Yes, both shipyards are positioned to ramp up production 
to build two submarines per year without adversely impacting delivery 
schedules. The Block III contract includes an incentive for investment 
in construction facilities and fixtures required at the shipbuilders in 
support of two per year production similar to the incentive, known as 
CAPEX, in the Block II contract. Additionally, the shipbuilders have 
put together comprehensive hiring and manning plans to ensure that they 
have enough qualified tradespeople and engineers to support the 
production increase.
    As a result of these efforts and the continued push to reduce 
overall cost and schedule, both shipyards are meeting and exceeding 
delivery schedule goals. Block II ships are currently projected to 
deliver 7 to 12 months ahead of contract delivery dates, and the 
shipbuilders are targeting a 60-month build span for Block III ships--
better than the contracted 66-month build span.
    Question. Secretary Stiller, the cost goal of the Navy prior to 
moving to two submarines per year was $2 billion each (expressed in 
fiscal year 2005 dollars). Now that you have achieved this goal, is the 
program continuing with cost reduction measures?
    Response. Yes. The Navy achieved the CNO goal for reducing 
procurement cost through a combination of multi-year procurement 
contracts, construction performance, and design for cost reduction. 
These strategies will continue to be used in the future to reduce ship 
procurement costs, and the Navy will apply these same principles to 
reduce the lifecycle cost of VIRGINIA Class, through Reduction of Total 
Ownership Cost (RTOC). Reduction in Total Ownership Cost will expand 
the Design for Cost Reduction methodology by including construction, 
operation & support (O&S) and other lifecycle costs.

                    LPD-17 Amphibious Transport Dock

    Question. To reach a fleet size of 313 ships, ten LPD-17 San 
Antonio Class amphibious transport dock ships are required. The 
Congress appropriated funds for the tenth ship of this class last year. 
However, there has been talk of the Marine Corps desiring an eleventh 
LPD-17 class ship to better satisfy amphibious requirements.
    Admiral McCullough, the 30 year shipbuilding plan states that the 
Navy requires ten LPD-17 class ships to reach its stated fleet size of 
313 ships. However, there has been discussion of the Marines requiring 
an additional LPD-17 ship to satisfy amphibious requirements. Has the 
Navy been in active discussions with the Marine Corps to determine how 
many LPD-17 ships are really required?
    Response. The President's Budget for FY 2010 includes $185 million 
of Advance Procurement for an 11th LPD. The Navy is in constant 
communication with the Marine Corps to determine how many LPD-17 ships 
are required. On a broader scale, the Quadrennial Defense Review is 
looking to determine the amphibious force structure required for our 
National Defense Strategy.
    Question. Secretary Stiller, the first three LPD-17 class ships 
experienced some well-publicized construction problems that delayed 
delivery and increased the cost. A partial explanation for these 
problems is hurricane-related, but the contractor and Navy also share a 
good portion of the blame. In your opinion, are the quality problems 
with the LPD-17 class program behind us? If so, what evidence can you 
point to that makes you think this? If not, what steps is the Navy 
taking to incentivize the contractor to deliver a higher quality ship?
    Response. Similar to other shipbuilding programs, the LPD-17 class 
continues to improve and mature as lessons learned on early ships are 
rolled into follow-on ships and each successive hull completes the 
building process. The level of completeness and quality continues to 
improve with each ship delivery; and the build plans for follow-ships 
are becoming more stable. LPD-19 was more complete at delivery than 
LPD-18; LPD-20 was more complete than LPD-19; and future LPDs will 
continue this trend.
    All four commissioned ships of the LPD-17 class, as well as the 
ships currently under construction, have been thoroughly inspected by 
the Navy; and corrective actions have been taken, as necessary. Each 
ship has received fewer trial cards than its predecessor indicating 
lessons learned are being incorporated. NGSB has changed the leadership 
of their Quality Assurance Department and has instituted a number of 
process improvement teams to improve their system design 
specifications/standards, craft training programs, and Quality 
Assurance program to ensure the remaining ships of the class are 
delivered at the highest quality.
    Question. Secretary Stiller, what is the status of contract 
negotiations for the tenth LPD-17 ship? When do you expect this 
contract to award? Do you expect to award this contract as a fixed 
price contract?
    Response. $10M of long lead time material has been put under 
contract to date. The Navy is working closely with Northrop Grumman 
Ship Building (NGSB) to determine when additional material, including 
raw materials, can be bought in support of the ship construction 
schedule in order to best leverage the LPD-17 class vendor base and 
ship's material requirements. The follow-on long lead time material 
list with procurement need dates has been received and a contract 
modification is being negotiated between NGSB and the Navy. Once under 
contract, long lead time material will be purchased throughout FY09 in 
accordance with the program material ordering schedule. The full 
Request for Proposal for the design and construction of LPD-26 was 
issued in May 09 with a fixed price incentive contract award targeted 
for first quarter of FY10.

                             313 Ship Fleet

    Question. The Navy has reported the size of the fleet required to 
satisfy the Nation's maritime security requirements at 313 ships. The 
Chief of Naval Operations, Admiral Gary Roughead, has validated this 
number and has gone so far to say it is a floor, implying the fleet 
size should even be larger. Assigning a nominal 30 year life to a ship 
means that ten ships per year would need to be produced to reach and 
maintain a fleet size of 300. Over the last ten years, the requested 
ship quantities have averaged less than 7 ships per year. The last time 
the Navy built at least 9 ships was in 1992 when 11 ships were 
constructed. Building 7 ships per year (assuming the same 30-35 year 
ship life) will sustain a fleet size of 210 to 245 ships.
    Admiral McCullough, with the low shipbuilding rate that the Navy 
has requested in the recent past, how do you envision reaching and 
maintaining a fleet of 313 ships?
    Response. In keeping with the Secretary of Defense's April 2009 
budget statement, the Navy is reviewing many of its recapitalization 
programs and its force structure requirements to ensure that the 313 
force still represents an alignment between the Navy and the 
expectations for future force capability. As a result of the ongoing 
QDR and changes in defense priorities, there is a possibility that 
there will be some changes in the overall total number of ships 
required by the Navy and the mix of ships within that total. It would 
be premature to speculate on what the final force required by these 
reviews will be.
    Therefore, as part of President's Budget 2010, the Navy is 
exploring approaches whose objective is to stabilize the shipbuilding 
investment accounts and provide a predictable and reliable demand 
signal with respect to requirements to the industrial base while these 
fundamental force structure requirements reviews occur.
    The National Security Strategy and Quadrennial Defense Reviews, 
currently in progress, will determine the shape of the Navy's future. 
While the demands placed on the Navy for forces by the Combatant 
Commanders and by our presence, Security Cooperation and Humanitarian 
Assistance missions continue to be significant; we have been largely 
able to meet these demands with the force we have in commission today. 
The 313 force construct is both a total inventory of ships and a 
specific mix of ships in that total and is focused on the threats that 
were envisioned for the 2020 timeframe.
    Since completing the Force Structure Assessment that led to the 313 
requirement, myriad changes have been realized in the strategic 
security environment around the globe. There has been a burgeoning 
proliferation of advanced cruise missiles, submarine technology is 
getting ever more difficult to counter and ballistic missile 
capabilities are becoming more precise and lethal. All of these 
challenges have required the Navy to reassess its force structure and 
mission capabilities. It is in this sense that the CNO stated 313 was a 
floor vice a ceiling in his previous testimony.
    Question. Admiral McCullough, the Chief of Naval Operations has 
stated that a Fleet size 313 ships is really a floor, implying that the 
true requirement is somewhat larger. Do you have a sense for how large 
a fleet the CNO thinks the Navy requires? Do you have a sense of 
whether the Navy will make any type of formal change in the fiscal year 
2010 request to the stated objective of 313 ships in an effort to reach 
whatever quantity the CNO deems more appropriate?
    Response. The National Security Strategy and Quadrennial Defense 
Reviews, currently in progress, will determine the shape of the Navy's 
future. While the demands placed on the Navy for forces by the 
Combatant Commanders and by our presence, Security Cooperation and 
Humanitarian Assistance missions continue to be significant; we have 
been largely able to meet these demands with the force we have in 
commission today. The 313 force construct is both a total inventory of 
ships and a specific mix of ships in that total and is focused on the 
threats that were envisioned for the 2020 timeframe.
    Since completing the Force Structure Assessment that led to the 313 
requirement, myriad changes have been realized in the strategic 
security environment around the globe. There has been a burgeoning 
proliferation of advanced cruise missiles, submarine technology is 
getting ever more difficult to counter and ballistic missile 
capabilities are becoming more precise and lethal. All of these 
challenges have required the Navy to reassess its force structure and 
mission capabilities. It is in this sense that the CNO stated 313 was a 
floor vice a ceiling in his previous testimony.

                     Leasing of Foreign-Built Ships

    Question. By statute, the Navy is permitted to lease foreign-built 
ships to augment its sealift capability. These leases are limited to 
five years. Essentially the Navy enters into these leases on a 
recurring basis which individually meet the intent of the leasing 
restrictions, but when considered cumulatively would violate the spirit 
and intent of the 1990 Budget Enforcement Act, since the ships end up 
being leased in excess of five years, spread over different leasing 
arrangements.
    Secretary Stiller, last year you told the Committee that the Navy 
leased 17 foreign built, U.S. flagged vessels. How many foreign built 
ships are currently being leased?
    Response. MSC currently has 26 ocean-going, U.S.-flag vessels under 
time charter for periods exceeding six months. Of those 26 vessels, 14 
are foreign-built. Since 2002, the number of U.S-flag, foreign-built 
ships under charter has declined from 22 to 14. All of these vessels 
are crewed by U.S. citizen mariners.
    Question. Secretary Stiller, what is the Navy's plan for reducing 
the number of foreign-built ships that are leased?
    Response. Since 2002, the number of U.S-flag, foreign-built ships 
under charter has declined from 22 to 14. Furthermore, the number of 
chartered vessels that are foreign-built is projected to decrease in 
the near future--from 14 in FY09 to 10 in FY14 and then remain stable, 
representing approximately 9% of the total ships under MSC operation.
    The Navy and USMC worked together to reduce the amount of foreign-
built ships on long-term lease in the Maritime Prepositioning Force 
restructuring. In this restructuring, five foreign-built ships have 
been replaced by three U.S.-built Large Medium Speed Roll-On/Roll-Off 
Ships (LMSRs), one U.S.-built T-5 tanker, and a self-sustaining 
containership which will be chartered. Since there are insufficient 
numbers of self-sustaining U.S.-built containerships, it is expected 
that only a foreign-built ship will meet this requirement.
    Two of the long-term foreign-built vessels have been the HSV SWIFT 
and the HSV WESTPAC EXPRESS. These HSVs provided valuable experience 
before DoD invested in the Joint High Speed Vessel (JHSV) program. As 
the JHSV production line starts delivering in 2012, these foreign-built 
HSV leases will be terminated as they are replaced by JHSVs.
    Of the remaining foreign-built charters, only 6 have been on 
charter for more than five years and 4 of those have been to support 
Army and Air Force afloat prepositioning requirements. If these 
Services could establish a firm requirement and commit to funding the 
charters for a sufficient period of time, then it would be possible to 
construct ships in the United States to meet those requirements. 
However, the Navy would need a commitment of at least 10-15 years if 
the ships were built from a cold production line because of building 
time and lease duration required to support commercial financing. This 
is far longer than the Army and Airforce have been willing to commit to 
a requirement. History has shown that the number and types of ships 
required to meet the Army and Airforce needs has changed within a 10-
year period. However, if there were a hot production line of ships 
being built for the Jones Act trade similar to those needed to meet 
their requirements, then a shorter commitment (5-7) years would be 
required and might be achievable. This was the case when MSC chartered 
two T-5 tanker replacements for a five-year period on behalf of Defense 
Energy Support Center. Taking advantage of an ongoing production line 
also would allow for efficient production and reduce the costs for both 
the Navy and the U.S. shipping companies in the Jones Act trade. A 
larger production line will also ensure replacement parts are 
available, since the original equipment manufacturers (OEM) will be 
more inclined to build/carry spares for multiple ships versus a one 
ship production line.
    Navy will continue dialogue with the U.S. maritime industry on the 
size and capabilities of containerships to meet potential charter 
requirements. Navy has been pursuing the National Defense Features 
program to partner with the American shipping companies so that their 
future U.S.-built ships have military utility and/or the Navy can build 
ships on the same hull with the required features.
    Question. Admiral McCullough, what would be the impact to the 
Navy's mission if the Congress were to prohibit the Navy's ability to 
enter into these leases on foreign-built ships?
    Response. Restricting the Navy's ability to charter foreign-built 
ships would cause certain DOD sealift requirements to be unmet because 
of the unavailability of suitable U.S.-built ships to meet short-term 
and emergent sealift missions.
    MSC's ability to meet DOD sealift transportation and other 
requirements would be severely impaired due to the lack of U.S.-built 
ships in commercial service and available for DOD charter. Such 
restrictions would likely force a greater use of MSC's Surge Fleet and 
MARAD's Ready Reserve Force ships, missed commitments, and potentially 
significantly higher costs.
    In addition, the requirement to charter only U.S.-built ships would 
impact the Navy's ability to rapidly experiment with new technologies--
e.g. High Speed Vessels--before deciding whether to embark on a capital 
investment and shipbuilding program.
    The Department of Defense charters, vice owns, ships to respond 
efficiently when a military requirement is immediate, subject to 
change, or of uncertain duration. Ships are initially contracted for a 
lease of 12 months or less, often with options to extend use up to 59 
months total to provide flexibility. Currently, there are 26 ocean-
going vessels under time-charter for periods that fall in the mid (less 
than 5 years) to long-term category; 14 of these are U.S.-flagged 
foreign-built ships. Of the 14, three have been chartered since the 
1980s, as authorized by law, but will be terminated in July 2009.
    Since 2002, the number of foreign-built ships under charter has 
declined from 22 to 14. Despite the fact that few commercial ships with 
military utility have been constructed in United States shipyards in 
the past 25+ years. When a foreign-built ship is used for these 
charters, the ship is required to be converted to U.S.-flag, and crewed 
by United States citizen mariners prior to the beginning of the 
charter. Conversion work must be accomplished in a United States 
shipyard.

                           Common Hull Forms

    Question. The Navy and industry have stated for several years that 
reducing the number of ship hull forms would help stabilize the 
shipbuilding program and have the added benefit of reducing cost. 
Candidate programs for using an existing hull form would be the Command 
Ship and Hospital Ship programs. Additionally, all amphibious ship 
types could theoretically utilize the LPD-17 hull design.
    Secretary Stiller, the Committee understands there are several 
programs that could benefit from using an existing hull design. Could 
you outline the benefits of using a common hull form in the Navy's 
shipbuilding program?
    Response. There are several motivations that drive us to common 
hull forms (and other common design elements) whenever possible in 
shipbuilding programs. First, in the design stage, the use of an 
existing hull form and the corresponding parts of the product model 
removes hull design work-hours from the project scope. This could save 
not only cost but also program lead time. Subsequently, in production, 
the use of a common hull form has productivity advantages resulting 
from both facilities and labor considerations. In terms of facilities, 
continuing with the same hull design allows the shipyard to make 
additional use of infrastructure and tooling already in place. For 
example, certain material flow arrangements and fabrication set-ups can 
be left as is, thereby avoiding change-overs to suit a new design with 
a different interim product stream. On the labor side, the use of an 
existing hull form design enables repeated use of certain existing work 
packages and exploits pre-existing learning efficiencies; the degree of 
re-set of the learning curve is lessened as some interim products are 
familiar. The reduction in these physical and human resource 
discontinuities could result in a smoother and more predictable 
production process.
    The repeat use of common hull forms has been adopted in the past. 
For example, the DD-963 hull form was used for the DD-993 and CG-47 
classes. The ability of a given, currently-in-production hull form to 
be adapted for use in a new shipbuilding program depends on the degree 
to which the hull design parameters (configuration, displacement, 
design speed, seakeeping characteristics, structure, subdivision, etc.) 
are able to support the capabilities of the new program (payload weight 
and volume, mobility, port access, electrical power generation and 
distribution, information infrastructure, signatures, etc.). When the 
match is close enough, there is a potentially viable case for the 
common hull approach.
    Question. Secretary Stiller, what are some of the candidate 
programs that could benefit from this concept?
    Response. The Navy is proposing that variants which leverage 
existing production lines be explored. LCC(R) will replace the afloat 
command and control capability provided by the current LCC class. The 
AoA is exploring T-AKE and LPD-17 as common hull ship variants.
    The potential requirement for a LSD/LPD(X) is being explored 
through an ongoing Capability Based Assessment and will examine the 
opportunity for common hull re-use. The next generation surface 
combatant could potentially use either the DDG-51 or DDG-1000 hull 
form.
    Question. Admiral McCullough, why does the Navy not make using an 
existing hull form a requirement of the analysis of alternatives for 
these programs instead of just paying lip service to the concept?
    Response. The Navy's long range vision reduces the types and models 
of ships, maximizes the reuse of ship designs and components, and 
implements open architecture for software and hardware systems and 
mission systems modularity. Specifically, the Navy is proposing that 
variants which leverage existing production lines be explored.
    The potential requirement for a LSD/LPD(X) is being explored 
through an ongoing Capability Based Assessment and will examine the 
opportunity for common hull re-use. While we are committed to maximum 
re-use of the hull forms, there are limits to which this principle can 
be effectively applied. Since the missions for which future ships are 
designed will necessarily determine the size, shape and capabilities 
required by future hulls, we cannot commit to a specific hull for a 
specific ship until we know what needs to be accomplished in these 
missions and capabilities. Even if we do not reuse a hull form, it is 
still possible to standardize the common internal components. We are 
working to reduce the various numbers and types of valves, pump and 
motor components and systems internal to our ships so that we can 
realize the benefits of economic order quantity and supply chain 
efficiencies in the future.
    Ultimately, the Navy's shipbuilding plan recognizes the need for 
careful management of requirements and aggressive cost control measures 
that include:
    --Evaluating each ship class and identifying cost reduction 
opportunities while balancing warfighting requirements, cost and 
industrial base realities.
    --Emphasizing repeat builds of ships.

                      Shipbuilding Best Practices

    Question. The Government Accountability Office (GAO) has released a 
draft report comparing commercial shipbuilding best practices to Navy 
shipbuilding practices. The GAO reports that the biggest difference 
between the two is that commercial shipbuilders and buyers do not move 
forward with a construction contract until a full understanding of the 
effort required to design and construct the ship is reached which 
enables the shipbuilder to sign a contract that fixes the price, 
delivery date, and ship performance parameters.
    Secretary Stiller, the Government Accountability Office has 
released a draft report that compares the Navy's shipbuilding practices 
to the commercial shipbuilding sector. Essentially, the report states 
that the commercial shipbuilder and buyer agree on all aspects of the 
ship (price, schedule, and performance parameters) before a contract is 
signed. Do you agree that this practice would lead to a more stable and 
less risky shipbuilding program?
    Answer. The Federal Acquisition Regulations applicable in Navy 
shipbuilding limit the extent and effectiveness of pre-contract 
communications and resulting risk reduction before contract award. 
While much has been done to improve the FAR with regard to pre-contract 
communications with industry, Navy practices simply do not approach the 
level of communication and risk reduction that exists in the private 
sector prior to contract signing.
    To illustrate, a commercial owner will typically engage multiple 
shipbuilders in independent, detailed discussions regarding budgetary 
constraints and requirements trade-offs, before requirements are 
solidified and in advance of entering into a contract; in that way, a 
commercial owner can explore the most affordable solutions, exploit 
different shipbuilder capabilities, and effectively pre-select a 
shipbuilder while both parties are assured that major design and 
construction risks have been identified and removed prior to entering a 
contract.
    In a sole source situation, the Navy does use methods such as Alpha 
Contracting which emphasizes conducting actions concurrently and 
cooperatively, with a close relationship between an integrated 
Government team and contractor team. Under Alpha contracting, the 
Government and contractor personnel work hand-in-hand to define scope 
and cost as opposed to the traditional bargaining approach, while also 
eliminating contractor questions or concerns. Similarly, as the 
contractors complete development of portions of their technical and 
cost proposals, an integrated Government team, including 
representatives of the program office, the contracting office, and the 
contract administration office, may review the proposal and attempt to 
resolve issues the team identifies. When the completed proposals are 
then formally submitted to the contracting officer, much if not all of 
it may have already been negotiated.
    Managing, mitigating and retiring major risk items prior to 
contract award for detail ship design and construction is always a 
goal. The difference between commercial and Navy practices may be in 
the assessment of that risk, including the Navy shipbuilder's ability 
to understand how accepting that risk will influence cost and schedule 
performance.
    Question. Secretary Stiller, the report further states that before 
construction begins, commercial shipbuilders complete key design phases 
that correspond with the completion of a three dimensional product 
model. Is the design process associated with the DDG-1000 program and 
the new aircraft carrier an attempt to mimic this practice?
    Answer. The completion of Design Phases and 3D Product Models 
before construction begins on a given construction zone of a ship is a 
practice that is common across both commercial and military 
shipbuilding.
    Question. Secretary Stiller, the report also states that key 
technologies are known, and final information on the systems that will 
be installed on the ship is required, to allow this design work to 
finish prior to construction. Additionally, once construction begins in 
the commercial sector, no change orders are typically allowed. Although 
the Navy has learned these lessons time and again, why is it that you 
cannot abide by these practices?
    Answer. SECNAV is required to certify to Congress that the 
program's readiness to commence construction after completion of a 
production readiness review. At the Production Readiness Review, the 
Navy reviews the technical soundness of the production design, 
construction approach, and the associated resource plan. Once approval 
is granted by SECNAV, the start of construction can commence. The Navy 
subsequently monitors contract performance and quality to assure that 
the shipbuilder meets stipulated contract terms (performance, quality, 
etc.) and that the products meet the Navy's technical requirements. In 
October 2008, SECNAVINST 5000.2D institutionalized the Two-Pass, Six-
Gate DON Requirements and Acquisition Governance process that ensures 
the various stakeholders from the resources, requirements and 
acquisition communities address and revisit at defined intervals; 
technical maturity, affordability and program health of each of the 
Department's major defense acquisition programs. The Navy will continue 
to focus on affordability of programs by ensuring designs are mature 
prior to the start of construction and emphasizing design for 
affordability concepts in both initial design and follow-on 
procurement.
    In 2001, the Assistant Secretary of the Navy instituted a 
shipbuilding cost growth configuration control policy intended to 
minimize contract change orders. Program change order budgets were 
reserved for safety, contractual defects, unavailable contractor 
furnished equipment, testing and trial deficiencies, and statutory and 
regulatory changes accompanied by funding. A Program Manager cannot 
approve any change that does not fall into one of the five categories.
    Question. Secretary Stiller, do you envision incorporating any of 
these commercial practices [from the GAO report on commercial 
shipbuilding best practices] into the Navy shipbuilding program?
    Response. The Navy acknowledges the GAO's efforts to identify 
commercial shipbuilding best practices and is reviewing its 
recommendations. In general, when attributes or missions of our ships 
are commercial in nature, the recommended best practices have been and 
will be applied, as appropriate. Further, as recommended by the GAO, 
the Navy acknowledges and concurs with having a significant level of 
design completion before initiating construction, and having critical 
technologies successfully prototyped and demonstrated prior to 
implementation in the design. In addition, the Department routinely 
works with shipbuilders to discuss technical requirements and 
specifications, and cost savings opportunities and trade-offs.
    The Navy leverages commercial practices on ship acquisitions that 
are based on commercial design such as the T-AKE and the JHSV programs. 
In the case of the later T-AKEs, the Navy was the beneficiary from 
General Dynamics NASSCO partnership with the Daewoo Ship Engineering 
Company (DSEC), a wholly owned subsidiary of Daewoo Shipbuilding and 
Marine Engineering of Okpo, Korea. DSEC is producing designs and 
providing other services for NASSCO in its efforts to deliver on the $1 
billion contract from U.S. Shipping Partners L.P. for construction of 
double hulled product tankers for use along the U.S. coasts. NASSCO has 
taken the benchmarking recommendations and is investing in their 
facility and implementing process improvements which has resulted in 
production efficiencies to the T-AKE class. The T-AKEs are delivering 
ahead of the contract schedule and within the target cost. JHSV, a 
competitive award to AUSTAL, USA, is based on a parent commercial 
design, the Hawaiian Super Ferry. JHSV is leveraging commercial best 
practices.

                       Shipbuilding Change Orders

    Question. The Navy has long been guilty of ordering changes to 
their ships after the design and construction contracts were awarded. 
While some of these changes are safety related and certainly required, 
a lot of them are discretionary in nature. These changes contribute to 
cost growth on the ship due to the disruption and delays that they tend 
to cause. The shipbuilders have stated on numerous occasions that these 
change orders are a major contributor to cost growth. Last year, 
Secretary Stiller testified that the Navy was instituting procedures to 
get the discretionary portion of the change orders under control.
    Secretary Stiller, the Navy has historically been guilty of 
directing change orders to the shipbuilders after the design and 
construction contracts were awarded. There is no doubt that this 
practice results in higher costs. Last year you stated to this 
Committee that you had instituted procedures to ensure that only 
necessary changes were being made, and removing the discretionary 
changes. Have you seen a decrease in the number (and associated cost) 
of discretionary change orders?
    Response. In 2001, the Assistant Secretary of the Navy instituted a 
shipbuilding cost growth configuration control policy intended to 
minimize contract change orders. Change order budgets would only be 
reserved for safety, contractual defects, unavailable contractor 
furnished equipment, testing and trial deficiencies, and statutory and 
regulatory changes accompanied by funding. The memo directed further 
that program managers may not approve change proposals outside of these 
categories which increase acquisition cost. In October 2008, SECNAVINST 
5000.2D institutionalized the Two-Pass, Six-Gate DON Requirements and 
Acquisition Governance process that ensures the various stakeholders 
from the resources, requirements and acquisition communities address 
and revisit at defined intervals; technical maturity, affordability and 
program health of each of the Department's major defense acquisition 
programs. The Navy will continue to focus on affordability of programs 
by ensuring designs are mature prior to the start of construction and 
emphasizing design for affordability concepts in both initial design 
and follow-on procurement. The procedures and processes currently in 
place will ensure that the Navy remains vigilant on minimizing contract 
change orders. Further, ship programs such as the LPD-17 and VA Class 
have demonstrated a reduction in change orders at delivery as compared 
to what was budgeted and an overall downward trend on the follow ships 
of the class.
    Question. Secretary Stiller, if change orders are in fact on the 
decline, why do the Navy budgets continue to contain the same amount of 
funding for change orders (five percent of the basic construction 
contract cost) as has been historically provided for the change order 
effort?
    Response. In 2001, the Assistant Secretary of the Navy instituted a 
shipbuilding cost growth configuration control policy intended to 
minimize contract change orders. Change order budgets were reserved for 
safety, contractual defects, unavailable contractor furnished 
equipment, testing and trial deficiencies, and statutory and regulatory 
changes accompanied by funding. Change order budgets are dependent on 
the level of technical risk for a particular acquisition strategy. 
Programs that are considered clean sheet designs would inherently have 
more risk than ship program which leverages a common hull design. In 
the meantime, the Navy continues to focus on affordability of programs 
by ensuring designs are mature prior to the start of construction and 
emphasizing design for affordability concepts in both initial design 
and follow-on procurement. The procedures and processes currently in 
place will ensure that the Navy remains vigilant on minimizing contract 
change orders. Ship programs such as the LPD-17 and VA Class have 
demonstrated a reduction in change orders at delivery as compared to 
what was budgeted and an overall downward trend on the follow ships of 
the class.

                      Shipbuilding Industrial Base

    Question. The shipbuilding industrial base in the United States has 
shrunk considerably in recent years, largely due to the reduction in 
the number of Navy ships being constructed. The industrial base 
essentially consists of six shipyards (three owned by General Dynamics 
and three owned by Northrop Grumman) that build the great majority of 
the fleet. There is no question that the low rate of ship construction 
has contributed to the higher cost of ships. The shipbuilders have said 
on numerous occasions that a higher volume of ships would go a long way 
towards stabilizing the industrial base and reducing cost.
    Secretary Stiller, your shipbuilding contractors have stated 
frequently that increased volume would help stabilize the industrial 
base and control costs. Yet the Navy continues to build ships at 
historically low levels. Do you agree that this low building rate is 
causing problems for the industrial base?
    Response. The Department recognizes that low levels of shipbuilding 
activity introduce challenges and inefficiencies at the shipyard. The 
Navy has developed a long term shipbuilding procurement plan that 
provides the foundation for future planning within the shipbuilding 
industry. The Navy continues to work with Congress to enact this 
strategy and where appropriate, has proposed multi-year procurements 
which provide further stability and result in cost savings. Reducing 
volatility, through multi-year procurements and a stable shipbuilding 
procurement profile, enables industry leaders to make informed 
decisions regarding current operations, employment, infrastructure, and 
future capital investments. The Navy continues to work with 
shipbuilders to strive for level loading of facilities and 
facilitization to improve efficiency. The Department believes that 
future stability in the shipbuilding program is a cornerstone in 
sustaining a cost effective and affordable future maritime capability 
supporting the National Security Strategy. Toward that end, the 
Department of the Navy will continue to work with the Congress to 
ensure a stable shipbuilding strategy that is aligned with the FY 2010 
President's Budget.
    Question. From the customer viewpoint, is the state of the 
industrial base affecting the quality of the ships that are being 
delivered to the Navy?
    Response. The Department recognizes that low levels of shipbuilding 
activity introduce challenges and inefficiencies at shipyards. The Navy 
has developed a long term shipbuilding procurement plan that provides 
the foundation for future planning within the shipbuilding industry. 
The Navy continues to work with Congress to enact this strategy and 
where appropriate, have proposed multi-year procurements which provide 
further stability and result in cost savings. Reducing volatility, 
through multi-year procurements and a stable shipbuilding procurement 
profile, enables industry leaders to make informed decisions regarding 
current operations, employment, infrastructure, and future capital 
investments.
    Further, ensuring quality processes are instituted is a top concern 
of Navy leadership. The Secretary of the Navy commissioned a Navy 
Advisory Panel to perform an independent evaluation of the culture of 
quality in the Department of the Navy (DON). The evaluation is to 
provide the Secretary with recommendations to improve policies, design 
standards, contractual requirements, performance benchmarks, industry 
practices, and oversight that define and govern the effective delivery 
of quality product, platforms, and system to the war fighter.
    Question. Admiral McCullough, a dismissive answer is to say that 
the Navy needs to buy additional ships. Since you are in charge of all 
the Navy's resources, you realize it is not an easily solved problem. 
What do you see as a possible solution for restoring and stabilizing 
the shipbuilding industrial base?
    Response. The Department recognizes that low levels of shipbuilding 
activity introduce challenges and inefficiencies at the shipyards. The 
Navy's acquisition and requirements community has developed a long term 
shipbuilding procurement plan that provides the foundation for future 
planning within the shipbuilding industry. The Navy continues to work 
with Congress to enact this strategy and where appropriate, has 
proposed multi-year procurements which provide further stability and 
result in cost savings. Reducing volatility, through multi-year 
procurements and a stable shipbuilding procurement profile, enables 
industry leaders to make informed decisions regarding current 
operations, employment, infrastructure, and future capital investments.

                      Shipbuilding Cost Estimates

    Question. Although the Department of Defense is required by statute 
to conduct an independent cost estimate on major acquisition programs, 
these programs can be funded to lower confidence levels of the 
estimates, presumably to fit more program within a given year's 
request. Recent examples of programs that have not been funded to the 
full Independent Cost Estimate include the DDG-1000 program, the Joint 
Strike Fighter, the Advanced Extremely High Frequency Satellite 
program, the CVN-21 aircraft carrier, and the VH-71 Presidential 
Helicopter. When the inevitable cost growth is realized, it creates 
ripples throughout the Department as funding is shifted to pay for the 
growth. Funding these major acquisition programs to their full cost 
estimate from their inception would go a long way towards creating 
stability in the budget.
    Secretary Stiller, by statute major acquisition programs are 
required to have an independent cost estimate conducted as part of the 
acquisition process. However, there is no statute that directs the Navy 
to actually fund to that independent estimate. In fact, several 
programs are not funded to this estimate, but to a lower confidence 
estimate. What factors are considered in funding a program to a lower 
confidence level than that provided by the independent cost estimate?
    Response. The Navy uses quantitative cost risk analysis techniques, 
such as Monte Carlo simulations, in developing risk based cost 
estimates to assist in formulating the shipbuilding budget. Risk 
analysis is performed for each ship. This includes the use of risk 
parameters for areas of historical shipbuilding cost growth such as 
labor, contractor furnished material, Government Furnished Material, 
economic/market conditions (shipyard labor and overhead rates, 
inflation), unique programmatic or technical conditions, and potential 
schedule issues. However, this is one of several tools and 
considerations that are used to create the PB 10 shipbuilding budget. 
The Navy is required to address full funding at MS A and prior to the 
technology design phase. At MS A, an independent cost estimate is 
developed and the CAIG performs an assessment. During the technology 
development phase there is still opportunity to trade off cost versus 
requirements before the Acquisition Program Baseline is established. 
Program initiation for ships occurs at MS B and the CAIG performs an 
independent cost estimate at that time. The Milestone Decision 
Authority typically directs the service to fund to a specific estimate. 
Confidence level is only one factor considered in budgeting. Program 
maturity, program complexity, and program risk are also factors in the 
budgeting process.
    Question. Secretary Stiller, in shipbuilding more than in any other 
area, do you not find the disruption caused by faulty estimates in your 
budgets to be much more severe than funding the major acquisition 
programs correctly in the first place?
    Response. The quality of a cost estimate and the corresponding 
budgeted amount are the key to success in a program. The Navy is 
assessing cost estimating techniques and tools across product lines to 
ensure improvement in our cost estimating ability. As programs mature 
through the acquisition process, the Cost Analysis Improvement Group 
(CAIG) within OSD will help to refine the program's cost estimate. The 
Milestone Decision Authority, informed by the Navy and CAIG estimates, 
will determine the estimate for the program.
    Question. Secretary Stiller, the Navy and Air Force acquisition 
deputies testified last week regarding combat aircraft acquisition. 
They stated that they had a policy of funding programs to the eighty 
percent confidence level, implying that programs were funded to a level 
beyond the CAIG estimate. Since the majority of shipbuilding programs 
are major acquisition programs, could you provide a list of ship 
programs that are funded to a level greater than the CAIG estimate?
    Response. At Milestone A (MS A), the Navy develops an independent 
cost estimate and the CAIG assesses it. During the technology 
development phase which occurs between MS A and MS B, cost-requirement 
trade-off opportunities are considered. At MS B, the CAIG develops an 
independent cost estimate for the program. The Milestone Decision 
Authority determines which estimate to adopt for the program.
    Today, the only shipbuilding program funded to a level greater than 
the CAIG estimate is the Joint High Speed Vessel (JHSV) program. The 
Milestone Decision Authority approved funding to the service's cost 
position, which is higher than the CAIG estimate, during the November 
2008 MS B decision meeting.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                           Thursday, April 2, 2009.

                         MISSILE DEFENSE AGENCY

                                WITNESS

LIEUTENANT GENERAL PATRICK J. O'REILLY, DIRECTOR

                              Introduction

    Mr. Dicks. The Committee will come to order.
    Mr. Young.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Dicks. All those in favor of the motion, signify by 
saying aye.
    Opposed?
    The motion carries. The Committee will come to order.
    Today, the Defense Appropriations Subcommittee will focus 
its attention on missile defense systems. We welcome Lieutenant 
General Patrick O'Reilly, Director of the Missile Defense 
Agency.
    I want to call on Mr. Young.
    Mr. Young. Mr. Chairman, I want to join you in welcoming 
General O'Reilly for a very, very important matter that we are 
going to discuss today, and I am going to put my opening 
statement in the record.
    General, you might be interested in knowing we have a 
schedule of votes that is probably going to interrupt a lot of 
our hearing today.
    Mr. Dicks. We want to get started, and why don't you go 
ahead with your statement. We want to hear your statement, and 
we want you to proceed as you need to.
    General O'Reilly. Thank you, sir.
    Good morning, Mr. Chairman, distinguished members of the 
committee, it is an honor and a greatly appreciated opportunity 
to testify before you today on the Department of Defense's 
missile defense program.
    During fiscal year 2008 and fiscal year 2009 to date, the 
Missile Defense Agency achieved many accomplishments, including 
the execution of a successful Aegis Standard Missile-3 Block IA 
and Standard Missile-2 Block IV interceptor salvo flight tests, 
the delivery of 30 additional SM-3 Block IA interceptors, 
including four deliveries to the country of Japan, a Ground-
based Midcourse Defense intercept test utilizing the entire 
sensor and command and control suite deployed in the Pacific; 
emplacement of two and refurbishment of two additional Ground-
based interceptors at Fort Greely, Alaska; the deployment of 
AN/TPY-2 radar to Israel; the execution of an experiment 
involving the closest data collection to date of a boosting 
missile from satellite on orbit; the safe destruction of a 
malfunctioning U.S. satellite; repeated demonstration of the 
atmospheric laser beam compensation during Airborne Laser 
flights; delivery of the first Terminal High Altitude Area 
Defense, or THAAD, unit for testing. We have had three THAAD 
intercept flights, including a recent salvo launch of two THAAD 
interceptors.
    However, we also face challenges, including 8 of 22 flight 
test delays in 2008; four target failures out of 18 launches; 
one interceptor failure; a cost growth of $264 million. We have 
had significant production time lost due to quality problems in 
our factories, over 50 days in GMD, over 40 days of lost 
production on the STSS program and over 20 days----
    Mr. Dicks. Would you suspend? Are we supposed to have 
phones out of the room--turned off.
    Okay, you may proceed.
    General O'Reilly. But we have lost a significant amount of 
time due to quality programs. We have had a replanning of $252 
million in costs and 25 weeks of schedule delays due to 
unanticipated operational deployments of our developmental 
systems.
    In response to those challenges, we have worked with our 6 
stakeholders and leadership to enhance the management 
oversight, strengthen our relationship with the warfighting 
community and improve our acquisition, execution and test 
planning of the Ballistic Missile Defense, or BMDS, System.
    We have initiated four areas of improvement. First, we have 
adopted a series of initiatives to improve acquisition and 
oversight of contracts we will award over the next 18 months, 
which is the majority of our contracts.
    Second, we are institutionalizing Missile Defense Agency 
and service roles and responsibilities for the element systems 
of the BMDS.
    Third, we have recently initiated a systematic review of 
BMDS test planning, in partnership with the Army, Navy and Air 
Force operational test agencies, with the support of the 
Director of Operational Test and Evaluation.
    And, finally, we continue to enhance our regional defenses 
against short-, medium-, and intermediate-range ballistic 
missiles, while maintaining our midcourse defense against 
intercontinental ballistic missiles, while ensuring we are 
prepared to leverage the tremendous advantage of emerging 
technologies to more economically intercept threat missiles of 
all ranges in their ascent phase.
    Meanwhile, the proliferation of ballistic missiles of all 
ranges continue. I defer to the Intelligence Community for 
their detailed estimates, but current trends indicate that the 
7 proliferation of ballistic missile systems using advanced 
liquid- or solid-propellant propulsion technologies are 
becoming more mobile, survivable, reliable, accurate and 
capable of striking targets over longer distances.
    Iran has grown its short-range and medium-range missile 
inventories, and with its recent successful launch of the Safir 
Space Launch Vehicle on 2 February 2009, Iran has demonstrated 
their intercontinental ballistic missile class technologies.
    Meanwhile, North Korea deploys No Dong ballistic missiles 
capable of reaching Japan and South Korea and U.S. bases 
throughout the region, and has announced its intent to launch 
its own space vehicle as early as tomorrow night.
    Likewise, Syria continues to field updated short-range 
missile ballistic systems and acquire Scud-related equipment 
and materials from North Korea and Iran.
    In sum, there has been an increase of over 1,100 additional 
ballistic missiles in the past 5 years, bringing the total 
number of ballistic missiles outside of the United
    States, Russia or China to over 5,600.
    With your permission, I would like to submit the remainder 
of my remarks and written testimony and look forward to 
answering your questions.
    [The statement of General O'Reilly follows:]
    [GRAPHIC] [TIFF OMITTED] T6285B.011
    
    [GRAPHIC] [TIFF OMITTED] T6285B.012
    
    [GRAPHIC] [TIFF OMITTED] T6285B.013
    
    [GRAPHIC] [TIFF OMITTED] T6285B.014
    
    [GRAPHIC] [TIFF OMITTED] T6285B.015
    
    [GRAPHIC] [TIFF OMITTED] T6285B.016
    
    [GRAPHIC] [TIFF OMITTED] T6285B.017
    
    [GRAPHIC] [TIFF OMITTED] T6285B.018
    
    [GRAPHIC] [TIFF OMITTED] T6285B.019
    
    [GRAPHIC] [TIFF OMITTED] T6285B.020
    
    [GRAPHIC] [TIFF OMITTED] T6285B.021
    
    [GRAPHIC] [TIFF OMITTED] T6285B.022
    
    [GRAPHIC] [TIFF OMITTED] T6285B.023
    
    [GRAPHIC] [TIFF OMITTED] T6285B.024
    
    [GRAPHIC] [TIFF OMITTED] T6285B.025
    
    [GRAPHIC] [TIFF OMITTED] T6285B.026
    
    [GRAPHIC] [TIFF OMITTED] T6285B.027
    
    [GRAPHIC] [TIFF OMITTED] T6285B.028
    
    [GRAPHIC] [TIFF OMITTED] T6285B.029
    
    [GRAPHIC] [TIFF OMITTED] T6285B.030
    
    [GRAPHIC] [TIFF OMITTED] T6285B.031
    
    [GRAPHIC] [TIFF OMITTED] T6285B.032
    
    [GRAPHIC] [TIFF OMITTED] T6285B.033
    
    [GRAPHIC] [TIFF OMITTED] T6285B.034
    
    [GRAPHIC] [TIFF OMITTED] T6285B.035
    
    [GRAPHIC] [TIFF OMITTED] T6285B.036
    
    [GRAPHIC] [TIFF OMITTED] T6285B.037
    
    [GRAPHIC] [TIFF OMITTED] T6285B.038
    
    [GRAPHIC] [TIFF OMITTED] T6285B.039
    
    [GRAPHIC] [TIFF OMITTED] T6285B.040
    
    [GRAPHIC] [TIFF OMITTED] T6285B.041
    
    [GRAPHIC] [TIFF OMITTED] T6285B.042
    
    [GRAPHIC] [TIFF OMITTED] T6285B.043
    
    [GRAPHIC] [TIFF OMITTED] T6285B.044
    
    [GRAPHIC] [TIFF OMITTED] T6285B.045
    
    [GRAPHIC] [TIFF OMITTED] T6285B.046
    
    [GRAPHIC] [TIFF OMITTED] T6285B.047
    
    [GRAPHIC] [TIFF OMITTED] T6285B.048
    
    [GRAPHIC] [TIFF OMITTED] T6285B.049
    
    [GRAPHIC] [TIFF OMITTED] T6285B.050
    
    [GRAPHIC] [TIFF OMITTED] T6285B.051
    
    [GRAPHIC] [TIFF OMITTED] T6285B.052
    
    [GRAPHIC] [TIFF OMITTED] T6285B.053
    
    [GRAPHIC] [TIFF OMITTED] T6285B.054
    
    [GRAPHIC] [TIFF OMITTED] T6285B.055
    
    [GRAPHIC] [TIFF OMITTED] T6285B.056
    
                               NK LAUNCH

    Mr. Dicks. Without objection, your complete statement will 
be placed in the record.
    How is the Agency supporting the response to the pending 
North Korean missile launch?
    General O'Reilly. Sir, first of all, I can respond to that 
from an acquisition developer perspective, since we developed 
the system that will be used. The actual deployment tactics are 
developed by PACOM, STRATCOM and NORTHCOM. ------.
    Mr. Dicks. One of the articles says that they might, parts 
of the missile, one would drop on one side of Japan and the 
other would drop on the other side of Japan. Can you explain 
that?
    General O'Reilly. Yes, sir.
    Mr. Dicks. Would that be a space launch?
    General O'Reilly. Either one, either space launch or ICBM. 
It is a three-stage missile, and the first stage would fall in 
the Sea of Japan, the second stage would most likely fall in 
the Sea of Japan, but the upper stage would fall on the other 
side of Japan, east of Japan.
    We have three Aegis ships on station, two in the Sea of 
Japan and one east of Japan for that reason, so that we can get 
an early assessment.
    Mr. Dicks. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    General, at what point would the United States make a 
determination to intercept this vehicle?
    General O'Reilly. Sir, if it is an ICBM, the Secretary of 
Defense has that authority to release the weapon, the weapons 
up at Fort Greely, Alaska, or at Vandenberg Air Force Base. --
----.
    They have a command and control system for their ballistic 
missile defense that is integrated with ours.
    So not only are we aware of what they do, we actually share 
data between both of our systems and we have a forward-based 
radar, similar to the one we just placed in Israel, in Shiriki, 
Japan. The Japanese have access to that data. So we do share 
data, and our command and control is integrated.
    Mr. Young. So despite some of their pretty definite 
statements about how they would react, you don't think--they 
are not going to be trigger happy, they will coordinate and do 
whatever is agreeable to the U.S.?
    General O'Reilly. Sir, our discussions in the past have 
been around policies of self-defense. So the way our missile 
defense systems--and they use ours, and we work with them on 
theirs--our missile defense systems operate based on defended 
areas. ------.
    Mr. Young. Well, just one last comment, as the technology 
grows from countries that are not particularly friends of ours, 
I think it establishes over and over again the importance of 
our own missile defense capability.
    Thank you very much for keeping us as robust as you can.
    Mr. Chairman.
    Mr. Dicks. Mr. Moran.

                           IRANIAN CAPABILITY

    Mr. Moran. Thank you, Mr. Chairman. Let's bring up the 
other hot topic at this point you are on--and it is actual 
capability of militarizing their nuclear capability--and get 
your latest assessment of the timing and our capability of 
defending and the extent to which the location of missile 
defense batteries in Eastern Europe affects our defense posture 
vis-a-vis Iran.
    General O'Reilly. Sir, in terms of--I can't speak, I am not 
a subject matter expert in the area of their payloads, their 
nuclear capability that they are working on; but I can talk 
about their delivery system, the missile delivery systems. ----
--.

                          PROTECTION OF EUROPE

    Getting back to protecting Europe, though, these missile 
systems, as I said, they can hit southern Europe, the Shahab-3, 
they can hit Turkey, they can hit Greece, they can hit southern 
Italy. ------.
    From a long-range threat, if they are beyond 2,000 
kilometers, at that point, you need our long-range system 
today, which would be the GMD program. And we have proposed 10 
in the country of Poland, northern Poland; and it also would be 
with a--it needs a fire-control radar, and that would be the 
one we would propose for the Czech Republic.
    Short of that, we don't have capability to protect against 
a long-range threat today in Europe.
    Mr. Moran. But since the only real threat of all of those 
that you mentioned, if there was only a minimum level--you can 
assume we have a minimum level of intellect on the part of the 
Iranians--it would be the Iranian threat to Israel, not to 
Europe or anyplace else, and Iran far more than Syria.

               PROTECTION OF ISRAEL FROM IRANIAN MISSILES

    Could you just address briefly--you don't have to be as 
comprehensive, although it was very informative, the response 
to my first question. But we have been funding Arrow missile 
defense system, and we have our own missile defense systems 
that would work in collaboration with Israel's.
    Could you just address our ability to thwart any 
possibility of a missile attack from Iran to Israel, since that 
is the only real threat that you mentioned in your list?
    General O'Reilly. Yes, sir. I would defer to Admiral Blair 
and the Director of National Intelligence. ------.
    Mr. Moran. Are we in progress of funding that program?
    General O'Reilly. Sir, last year 30 million was 
appropriated for the Arrow-3 program. We have reviewed that 
with them last year. Based on their data, that is the most 
economic solution for the state of Israel. We have not had the 
opportunity to do an independent assessment.
    Previous developments have cost twice their initial 
assessment and the original Arrow cost twice of what they are 
said it would take. So we have some concern with the cost 
estimate.
    However, my main concern about that system is, it is a very 
technically complex design, more complex than we have ever--
more complex than we have ever attempted in our developments. 
Our estimates and independent estimates I have asked for 
indicate that it would be available 5 years or more later than 
what they say it would be. They are on a very fast track. I do 
not believe it is a credible schedule.
    And so what we have discussed with the Israelis is to give 
them capabilities sooner while they continue to develop.
    But to directly answer your question, sir. Yes, we are 
committed to fund the Arrow-3. However, I would recommend that 
we have a program agreement ahead of time to protect U.S. 
intellectual property rights and use rights for the results of 
that program.
    Mr. Dicks. The gentleman's time----
    Mr. Moran. That was very informative. Thank you, General.
    Mr. Dicks. Mr. Frelinghuysen.

                         CHINESE MISSILE THREAT

    Mr. Frelinghuysen. Thank you very much.
    General, I made note of your comment relative to the North 
Koreans and the Iranians that what they are working on, and you 
said it, reflects a very sophisticated design. There is sort of 
a view out there in the public that what we are sort of dealing 
with here is a backward people, and what they are working on is 
crude and would be unlikely to represent a threat.
    I think you are sort of giving us a little bit of a wake-up 
call that, indeed, they are working on some fairly 
sophisticated devices.
    I would like to turn my question to stories that are 
circulating in the media that China is working to modify their 
land-based DF-21 ballistic missiles for use against our carrier 
assets. I am sure you have seen some of those articles. It was 
quite alarming.
    Tell me if I am correct: The idea is to have a satellite or 
over-the-horizon radar, or maybe a UAV, guide these heavy 
missiles towards a carrier battle group at a very high speed.
    And from the article, and let me quote, because the missile 
employs a complex guidance system, low-radar signature and 
maneuverability that makes its flight path unpredictable, the 
odds that it can evade tracking systems to reach its target are 
increased. It is estimated the missile can travel at Mach 10 
and reach the maximum range of 2,000 kilometers in less than 12 
minutes.
    That is pretty scary, you know. Can you comment on that. --
----.
    General O'Reilly. Thank you, sir. It is actually more 
scarier than that.
    Mr. Dicks. Would the gentleman yield for just a second.
    Mr. Frelinghuysen. Please, Mr. Chairman.

                       DEFENSE OF MARITIME FLEET

    Mr. Dicks. Well, the defense would be--Aegis would be only 
defense? Or is there no defense?
    General O'Reilly. Sir, what we would propose----
    Mr. Frelinghuysen. There is a view that there is no 
defense. ------.
    Mr. Frelinghuysen. Wow.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.
    Good to see you again. Thank you, General. Thank you, 
Chairman.

                      GROUND/BOOST PHASE INTERCEPT

    What would a defensive system that would either get the 
missile on the ground or in the boost phase, what would it look 
like?
    General O'Reilly. There are actually multiple architectures 
that could do that. The first thing you have to do is see these 
missiles soon, as soon as they have been launched, the earlier 
the better.
    It just so happens, last Thursday, we had the first time 
where we used the Predator, working with the Navy--we had two 
Predators off of Los Angeles. And we had a test of an intercept 
of a Lance missile using Aegis, but the Predators were out 
there, and they actually watched the missiles being launched, 
which is the first demonstration that UAVs actually can be used 
in a missile defense mode.
    Mr. Rothman. But what would our kill vehicle be?
    General O'Reilly. ------.
    Mr. Rothman. And when do you expect that to be ready?
    General O'Reilly. We will flight test it next week, as a 
fully configured airborne laser. It flew last year and had 
great success with the three lower-level lasers.
    Mr. Rothman. The Chinese, if you know, General, are they up 
to our level of progress on lasers?
    General O'Reilly. ------.
    Mr. Rothman. And the North Koreans, to get back to them, my 
guess is that we could take out those rockets on the pad. We 
certainly had enough notice, we watched them be carried up to 
the pad and sit there and be fueled, that--unless you tell me 
we don't have that capability.
    Do we have the capability to take them out on the pad now?
    General O'Reilly. Sir, I am not the subject matter expert 
for ground attacks, honestly, for the forward offensive 
operations.
    But what we currently have right now is a choice. When you 
know that an ICBM is being stacked and you can observe it, it 
is either preemption, as you are questioning, sir, or it is 
retaliation after a launch has occurred.
    We are trying to offer a third----

                             NK MISSLE TEST

    Mr. Rothman. No, I agree. I just want to get a couple more 
questions before my time--what do you speculate or know to be 
the North Koreans' intention in this flight and why have they 
given us advance notice?
    General O'Reilly. Sir, they are behaving as if it is 
required because of a space treaty. If you are going to launch, 
you are required--by a certain point of time you are required 
to notify of a peaceful launch--and especially booster drop 
zones for warnings to mariners or aircraft; and that is 
international convention. So they are following international 
convention.
    However, U.N. Security Council Resolution 1718, prevents 
them from participating in this type of activity. So even 
though they are doing it, it is in violation of a U.N. Security 
Council resolution.
    Also, the South Koreans have publicly announced that they 
are working with putting a satellite into orbit with the 
Russians. And the Russians offer that service; they have been 
doing it for decades, putting others--and so it might be that 
they, in fact, are trying to compete with South Korea in this 
area.
    But what we have noticed about the North Koreans is not so 
much that they are going to have the capability to attack the 
United States, or that would be rational for them; it is their 
arms sales, and they do make a significant amount of profit by 
selling these weapons around the world.
    Mr. Rothman. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Dicks. The gentleman's time has expired.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.

                     WORLD BALLISTIC MISSILE THREAT

    General O'Reilly, you said earlier, I think, that outside 
of China and Russia there are 5,600 ballistic missiles?
    General O'Reilly. Outside of United States, China and 
Russia, yes, sir, today.
    Mr. Tiahrt. We had heard 3,000 before, but I think 5,600 
really emphasizes the risk that is involved here.
    Now, I think--Iran, have they put a satellite in orbit yet 
or are they attempting to do that?
    General O'Reilly. Sir, they did, on the 2nd of February.
    Mr. Tiahrt. And China--or excuse me, North Korea is 
attempting to put a satellite into orbit now, they say?
    General O'Reilly. That is their claim, yes, sir.
    Mr. Tiahrt. So if you can put a satellite into space, how 
much more difficult is it to put a warhead at a certain point 
on the ground?
    General O'Reilly. Sir, the only other technology you need 
is reentry technology. And Iran has demonstrated, and North 
Korea, that they have perfected that ability, to withstand the 
reentry.
    Mr. Tiahrt. They have the algorithms, and so that 
capability is there?
    General O'Reilly. Their technical capability is there. They 
have shown on every--the most difficult in all of it is 
staging, and they have shown they can do controlled staging 
now.
    Mr. Tiahrt. ------.
    General O'Reilly. Sir, the issue with missile defense is 
that each of our missile systems has been developed against a 
particular class of target, because each of these targets has 
different physics characteristics.
    So we have--PAC-3 that works very good in the atmosphere 
against not only ballistic missiles, but also against cruise 
missiles. The THAAD and Aegis are best for 1,000- to 3,000-
kilometer threats. And beyond that it is GMD.
    However, boost-phase intercept or early-ascent intercept, 
as I was referring to before, it doesn't matter which class, it 
is most versatile because it would destroy the target, no 
matter what its range was.

                   DEFENSE AGAINST MULTIPLE LAUNCHES

    Mr. Tiahrt. So you think the ABL is the most versatile?
    General O'Reilly. It can handle the largest raid size.
    And I apologize, sir, I have not talked about raid size. 
That is another issue. We have talked about certain threats. 
But when you get into raid size, countries have shown they have 
practiced launching 8 or 10 at a time.
    Mr. Tiahrt. Multiple launches?
    General O'Reilly. Multiple launches simultaneously, and ABL 
would be in the best position to take on multiple launch.
    Mr. Tiahrt. Is our test program--you just pointed out an 
individual launch versus a multiple launch. Is our test program 
for the ABL including this more versatile capability, or are we 
just focused on a single launch so far in our test 
requirements?
    General O'Reilly. Sir, we have set up knowledge points that 
are technical milestones. The first technical milestone is 
against the single launch.
    However, we are going through a replan of our test program, 
and that is one of the capabilities we need to demonstrate with 
the ABL a multiple launch scenario. We have done it now with 
the Aegis program, two different types of Aegis missiles. We 
have launched two interceptors against one target with Aegis.
    So in all of our missile programs, we are planning for 
multiple intercepts in the future.
    Mr. Tiahrt. Is it in the current plan for ABL to test 
against multiple targets?
    General O'Reilly. Sir, our planning up till now is just the 
first intercept, and we haven't developed--we are developing 
now the plans that----

                              ABL TESTING

    Mr. Tiahrt. So, if I understand this right, we know we 
have--Iran and North Korea have done multiple launches, and so 
we know what the threat is. And you have explained how they can 
bring munitions up, and China can do that, as well. But our 
test program is only against an individual target.
    Do you think we should have a more robust, test program for 
the ABL than what we currently have authorized and funded?
    General O'Reilly. Yes, sir. We are planning--as we speak, 
we are working with the operational test agencies, AFOTEC (Air 
Force Operational Test and Evaluation Center) for the Air Force 
and the Director of Operational Test A and Evaluation, and the 
Army and Navy, in order to develop that very test plan that you 
are talking about.
    We expect to deliver this plan in May, and it will be a 
comprehensive plan for all of our systems, including ABL.
    Mr. Tiahrt. But it hasn't been authorized yet?
    General O'Reilly. We have not requested that level of 
funding for multiple intercepts.
    Mr. Tiahrt. But the threat is real?
    General O'Reilly. The threat is real, yes, sir. And that is 
being taken into consideration with this test plan.
    Mr. Dicks. The gentleman's time has expired.
    Mr. Bishop--now, we are going to keep this going because we 
are going to have a motion to recommit at some point. So we 
will have another 15 to 20 minutes.
    Mr. Kingston. One vote, Mr. Chairman?
    Mr. Dicks. A whole series of votes, but I think we should 
try to keep this going. People who can go up, go up and vote 
and come back, and then we will keep moving through this.
    Mr. Bishop.

                   NK AND IRANIAN MISSILE TECHNOLOGY

    Mr. Bishop. General, I have served on the Intelligence 
Committee and actually traveled to North Korea toward the end 
of the Clinton administration and engaged in talks with the 
high-level North Korean leaders with regard to their missile 
systems and the sale of arms to Iran and Syria and some other 
places where they were selling them.
    And, basically, their position was that they weren't able 
to feed their people because they just couldn't provide 
adequate food, and so they had to raise funds in the best way 
that they could. And the only thing they had to export was 
missile systems, and that is what they are doing, because they 
were proud and they wanted to be self-sufficient.
    Self-reliance is their motto. And they didn't really care 
who they sold them to; they just needed to get revenue to take 
care of their people. And if we wanted to buy their missiles, 
they would sell them to us instead of selling them to the 
Iranians.
    But I noticed in your testimony that the Iranians basically 
have performed the same kinds of tests that the North Koreans 
are performing.

                     WORLD BALLISTIC MISSILE THREAT

    General O'Reilly. ------.
    And as these missile systems proliferate, there are over 20 
countries beyond just Iran and North Korea now that have them, 
but they are the major suppliers.
    Mr. Bishop. That is in the 5,600 that you referred to?
    General O'Reilly. Yes, sir.
    Mr. Bishop. Who are they?
    General O'Reilly. I can provide that for the record the 
number, the names of all the countries. But Libya is another 
one, for example, Syria, Pakistan, Vietnam. These are all 
countries, and there are over 20--I believe it is 23 today--
outside of the United States, Russia and China.
    So it does stress our systems, sir, and the quantities, 
when you look at raid sizes, even if we have a Patriot system 
at a location, the number of launchers today is over 500. So 
5,600 missiles, but there are over 500 launchers. ------.

                    COST OF MISSILE DEFENSE SYSTEMS

    So it is not only stressing, sir, in terms of the sheer 
inventory, but also, even if we have missile defenses in a 
location, we need to have enough capability to take on a large 
raid size.
    Mr. Bishop. Is that a function of resources on your part, 
to be able to develop that as well as the time that it will 
take to develop it?
    Do you have the fiscal resources? Do you have the human 
resources with the technical skills to do that at a rate that 
would be necessary for us to be adequately protected?
    General O'Reilly. Sir, today, we do not have the the 
capability to counter all of the threats I mentioned, so it 
does take diplomacy, nonproliferation and other aspects of it.
    But to directly answer your question, this is part of my 
input into the new administration, and it is under 
consideration now on the budget next year. And those decisions 
have not been completed yet, but they are being taken into 
consideration by the administration on what it would take, over 
what period of time. ------.
    Mr. Bishop. How much does that cost?
    General O'Reilly. A THAAD missile is $10 million apiece, 
approximately, and an Aegis is approximately the same. But, 
sir, that is what is being taken into account as we speak.

                  HUMAN RESOURCES FOR MISSILE DEFENSE

    Mr. Bishop. What about the human resources? Do we have the 
scientists, the engineers, the people, the HUMINT personnel 
that will have to develop that architecture? Do we have those 
people in place?
    General O'Reilly. Sir, I believe we have it in place, but 
it is very stressing. One of the benefits of the Missile 
Defense Agency, frankly, is that the national level of 
resources in science and engineering who must all be U.S. 
citizens to work on this for classification reasons.
    I spend a lot of time in the schools today for this very 
reason. With respect to U.S. engineering students, I have been 
at Auburn, Tuskegee, Alabama A&M, Georgia Tech and others. We 
are looking in the South because the BRAC is moving a lot of 
jobs to the South.
    But, sir, I am very concerned about this. And I do spend 
time in schools talking to deans of engineering for this very 
reason. We need to husband what capabilities we have today, and 
central development is about the best way to do it.
    Mr. Dicks. The gentleman's time has expired.
    Mr. Kingston.
    Mr. Kingston. Mr. Chairman, Ms. Granger was here first, Mr. 
Chairman.
    Mr. Dicks. All right. We will go right to Ms. Granger.
    Ms. Granger. Thank you.
    I want to return to Mr. Moran's questions concerning the 
Israeli development of the Arrow-3 missile, and you talked 
about your concerns. What I understood was, the proposed cost, 
Israel's projected cost, timeframe, I want to know if you would 
expand on that. And also the idea of using the ground-based SM-
3 requirements at the time, could you address that?
    General O'Reilly. Thank you, ma'am.
    The design concept that the Israelis are proposing for the 
Arrow-3 takes all of the most sophisticated technical aspects 
of our current interceptor system and goes beyond that. THAAD, 
for example, was a 9-year development.
    They are proposing to do it in 3, so even at the very high 
level, you can see they are proposing extremely rapid 
development of this that we have never been able to do, and 
with more sophisticated technology. I have asked MIT Lincoln 
Labs and Johns Hopkins APL to do independent assessments, and 
they have had the same results, they concurred that this is a 
very high-risk schedule. The concern is, there is need today or 
soon to have an upper-tier capability.
    We have an existing missile, the Aegis missile system, that 
is proven on board ships. But we actually test our standard 
missiles (SM-3) on the land anyway. So it is not a very high 
risk to deploy them, to develop land-based launchers for this.
    We are continuing to do a concept development of this land 
based SM-3, to be used for the Israelis, if they need this 
capability sooner, which we believe they will; also there are 
significant applications for the United States and remote sites 
such as Guam, Shemya, Alaska, Thule, Greenland and so forth 
where this would give you that capability also.
    U.S. STRATCOM has asked me, independent of the Israelis, to 
look at the land-based SM-3 application, and we are doing that 
now, ma'am.
    Ms. Granger. Thank you.
    I yield back my time.
    Mr. Dicks. Mr. Hinchey.

                         ISRAEL MISSILE DEFENSE

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    General, thank you for all of this information. It is 
really very fascinating, and it makes it a lot clearer to us 
the kinds of things we have to do in order to strengthen our 
security here and the security of our naval operations and 
other places around the world.
    I am wondering if you can tell us what the missile 
capability of Israel is right now.
    General O'Reilly. ------.

                       ALLIED MISSILE CAPABILITY

    Mr. Hinchey. What is their capability for missile action, 
not just defense, but for launching missiles?
    General O'Reilly. Sir, I know they have the Jericho and 
other systems, but I am not a subject matter expert on that.
    Mr. Hinchey. Why is that?
    General O'Reilly. Because they are not in our threat list, 
and we don't study them, honestly, sir, as far as how to 
counter----
    Mr. Hinchey. Who does study them?
    General O'Reilly. The Intel Community can provide that in 
detail, sir.
    Mr. Hinchey. But you don't have the ability to tell us what 
their----
    General O'Reilly. No, sir. I have not studied their 
offensive capability for the purpose that we are focused on, 
defensive capabilities in MDA.
    Mr. Hinchey. What about the missile capability of some 
European countries, France, say, for example?
    General O'Reilly. Missile defense capability, sir----
    Mr. Hinchey. Not missile defense capability but missile 
launching capability.
    General O'Reilly. Against our allies, sir, we have not 
studied their capability.
    Mr. Hinchey. Not studied them. Why is that?
    General O'Reilly. Again, sir, we are focused against near-
term threats, and our allies are not near-term threats, sir. 
But I will tell you that----

                       ALLIED MISSILE CAPABILITY

    Mr. Hinchey. I can't help but be amused by that. I mean, it 
just is amazing.
    Mr. Dicks. But the Intelligence Community does look at this 
very seriously.
    General O'Reilly. Yes, sir.
    Mr. Dicks. This is kind of a division of responsibility.
    Mr. Hinchey. I understand that, and that is a question that 
we can ask them. But this is a situation that ought to be----
    Mr. Rothman. Will the gentleman yield?
    Mr. Hinchey. It ought to be of equal concern, you know, to 
you, I would think.
    Mr. Rothman. Will the gentleman yield for one question? Do 
we have the missile defense scenario----
    Mr. Hinchey. Yes, I will yield.
    Mr. Rothman. Thank you, Maurice.
    A missile defense scenario against Great Britain?
    General O'Reilly. No.
    Mr. Rothman. Thank you.
    Mr. Dicks. The gentleman's time has expired. I don't want 
the gentleman to miss this vote.
    You haven't voted yet, have you?
    Mr. Hinchey. No, I have not.
    Mr. Dicks. I would love for you to go vote and come back.
    Mr. Kingston.

            DEFENSE OF U.S. AGAINST BALLISTIC MISSILE THREAT

    Mr. Kingston. Thank you, Mr. Chairman.
    General, I think you have covered this in bits and pieces, 
but I just wanted to get this in, so I apologize if you have to 
repeat yourself. But if a ballistic missile was launched 
towards the United States, what system do we have to defend 
ourselves? And what is the probability of success? ------.
    Mr. Kingston. But we don't have that on China.
    General O'Reilly. Sir, we are not aimed at China.

                       EVOLVING THREAT TECHNOLOGY

    Mr. Kingston. I think a major takeaway, though, here is 
that in the world of technology, evolving almost on a daily 
basis, that we absolutely have to stay in the game and that, if 
we are safe, say, today, April 2009, April 2010 could be a 
totally different scenario because of the technology that is 
changing. Is that accurate? ------.
    Mr. Kingston. Do I have time for another question, Mr. 
Chairman?
    Mr. Dicks. Yes, one quick one.

                     WHAT PRIORITY MISSILE DEFENSE

    Mr. Kingston. Let me ask you a philosophical question. I am 
not necessarily in this school of thought, but in terms of 
global warming, I have great respect for those who believe in 
it because, if global warming is true, then it is maybe the 
only issue that is out there, because it is certainly a threat 
to everything.
    So just sort of using that analogy, in terms of this 
missile race, if it is accurately called that, that we are in, 
what kind of priority should Members of Congress and this 
committee, particularly, consider it? The top number-one 
priority, even before the economy? Or is it just something we 
need to be aware of and support?
    General O'Reilly. Sir, I would believe terrorism is the 
concern, and the use of missiles as part of a terrorist act is 
a very high probability. Whether a nation-state would strike us 
I believe is a much lower probability.
    The concern with the proliferation is actually the security 
of all of these systems out there. How many people does it 
take? It takes a squad of less than 20 people to launch one of 
these--so extremist parts of organizations or militaries or 
failed states could launch these system.
    So, to fully answer your question, sir, I talked about the 
long-range threats; we are also responsible for short-range 
threats. When we test THAAD, for example, we always test it on 
a barge off of Kauai to simulate a launch, an asymmetric-type 
attack where a small group off a container ship or something 
could launch a Scud or a shorter-range system, a more available 
system, towards the United States.
    We do not have a defense in place today against that. We 
have been developing the architectures. This committee has 
funded our studies for that.
    Mr. Kingston. Well, let me just get a one-word answer. On a 
scale of one to 10--unlike global warming, which we can discuss 
publicly, this is a classified briefing, and so much of this 
information is classified, and we can't discuss it in the 
ordinary public forum--but where should this be rated in terms 
of--right now, polls show over and over again the economy is 
the number-one issue. Where should this be, in your world, from 
your point of view?
    General O'Reilly. Sir, from my point of view----
    Mr. Kingston. On a scale of one to 10.
    General O'Reilly. The odds, over the next decade, that our 
deployed forces or a U.S. area of interest is going to be 
vulnerable to an attack by ballistic missiles is extremely 
high. But that is my point of view from what I see. I am not an 
intel person, sir.
    Mr. Dicks. The gentleman's time has expired.
    Now, this is what we are going to try to do here. We have 
two votes coming right up and then a motion to recommit. So 
let's go up, all of us, and we will come back with Ms. 
Kilpatrick. We will make this vote and the next vote and then 
come back, because we are going to have a motion to recommit, 
and that will take 25 minutes, and we can pretty much wrap this 
up. Okay?
    [Recess.]
    Mr. Dicks. The committee will come back to order.
    Ms. Kilpatrick, we recognize you, for 5 minutes.

                       NORTH KOREA MISSILE LAUNCH

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, General. How are you?
    I have a few things, I think. North Korea is where I want 
to go first. ------.
    General O'Reilly. ------.
    That is what I am used to seeing. However, if you had a 
globe and you launched it over the Pole, I would have to get 
back to you, ma'am, if it could actually hit Israel, but it 
would hit a large part of----
    [The information follows:]

    Based upon the intelligence assessed range of the North Korean TD-2 
2-Stage and 3-Stage variants, the TD-2 could reach Israel and either 
portions or all of Europe depending on the threat variant.

    Mr. Kilpatrick. South America, U.S. and other territory.
    You also said earlier, or they said in this testimony, the 
private, confidential testimony, that they are prepared to 
shoot down any U.S. reconnaissance asset interfering with the 
launch.
    Two things--the launch is permissible or meets a standard 
in the international realm, but I think you also said in the 
U.N. treaty it is against the law, it is in violation.
    General O'Reilly. Yes.
    Ms. Kilpatrick. Two things, then. Will the U.N., if 
anything, take action, number one?
    And if they are bold enough to say North Korea will shoot 
down any U.S. reconnaissance--and the back of my mind is 
ringing Iran and others--they feel like they have the 
capability, the permission, and the know-how to do just that, 
don't they? ------.
    Ms. Kilpatrick. Oh, that is China. Okay. That is a good 
thing. I have been wrestling with that.
    Are we ready to, as they said, shoot down any North Korea 
missile that comes our way and South America's way and anything 
in this part of the hemisphere?
    General O'Reilly. The actual answer to that, ma'am, is the 
way the system is set up, our ground-based midcourse defense 
and our ballistic missile defense system, is the system--we 
define the defended area, and our defended area is the United 
States. If there is an object coming into that defended area, 
regardless of what it is, we will shoot at it. That gives us 
defense against something coming in.
    If it is outside our defended area, like Mexico or some 
other place, we will not engage it. The system only engages----
    Ms. Kilpatrick. If it is coming towards us.
    General O'Reilly [continuing]. If it is coming towards us.
    Ms. Kilpatrick. But will you have to hit it over South 
America or in airspace? I mean, do you know that? Can the 
technology tell you how precisely where to hit it to avoid the 
other countries?
    General O'Reilly. Yes, ma'am. Yes, we do know what the 
debris damage would be. Two things; one is that, when you 
intercept a missile like that, the debris goes in the direction 
of the original missile, where it was heading. It just falls 
about 10 percent short. So if it was heading towards Seattle 
and we intercepted it, the debris would fall in the ocean short 
of----
    Ms. Kilpatrick. Don't use Seattle----
    General O'Reilly. Probably a very bad choice of----
    Ms. Kilpatrick. Right, bad choice.
    General O'Reilly. So, Portland.
    Ms. Kilpatrick. Anywhere in the U.S.
    General O'Reilly. Yes, ma'am. In the case of North Korea, 
our intercept zones are over the Pacific Ocean. But, again, if 
it was going into an area outside the defended area of the 
United States, we would not engage it. The system watches it, 
but it doesn't engage.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Thank you, General.

                            ABL/KEI PROGRAMS

    Mr. Dicks. Thank you.
    What specific criteria--affordability, operational, 
effectiveness, et cetera--will the Department use to make the 
down-select decision between ABL and KEI? And why don't you 
tell us a little bit about the KEI program?
    General O'Reilly. Sir, the strategy is that, after we have 
met successful technical milestones for both programs, there 
would be an evaluation of the most advantageous program to 
proceed with. However, unfortunately, for the KEI program, 
there are some early milestones that still have not been 
achieved, and ABL is closing in on its final milestone, which 
would be a shoot-down. So, between the two programs, they are 
several years apart in maturity, at this point.
    KEI, over the past year, has suffered--as I was saying in 
my opening remarks, it is one of the programs that I am 
concerned about with quality control. When they were testing 
their first and second stage on the ground, their booster, 
they, in fact, had failures, where the rocket motors themselves 
burst under pressure, which we then had to go back. We have 
repaired it, we have determined what the failure was, the 
defect, and we have now successfully tested it. However, then 
we had problems with their thrust vector controller that 
controls the nozzle at the end of the KEI booster. We have had 
a series of failures there. And in our most recent test, new 
failure mechanisms also emerged.
    So we are still struggling with the very first milestone, 
which would be a launch of the KEI without an intercept or a 
kill vehicle on the front end. So, from a maturity point of 
view, ABL is several years ahead of KEI.
    Mr. Dicks. ------.
    General O'Reilly. ------.
    However, when we looked at the program, we found that we 
were testing this high-powered laser against some 
instrumentation missiles; yet we weren't going forward and 
shooting a target, even though we were paying for everything 
except a target, leading up--these were several tests that lead 
up to a final shoot-down.
    So what we are looking at doing, what I would like to do, 
is to fly targets even on those earlier tests, so that, in 
fact, we can learn even more. If we are not successful on 
shooting down, we gain more data from that. So what I have 
introduced is a minimum of two more targets on earlier tests 
that were going to lead up to the previous target. ------.
    Mr. Dicks. We are still not sure about the budget, though, 
for 2010?
    General O'Reilly. As for 2010, sir, most of the activities 
I have just described are in 2009.
    Mr. Dicks. So, really, it is going to be, in some ways, how 
well this thing does on these tests that will kind of determine 
the future of this program.
    General O'Reilly. Yes, sir.
    Mr. Dicks. All right.
    Ms. Kaptur.

                        EUROPEAN MISSILE DEFENSE

    Ms. Kaptur. Thank you, Mr. Chairman.
    And, General, we apologize for all these votes. You can 
tell we don't control the schedule here.
    My questions largely concern the European missile defense 
system and the status of various agreements.
    And one of my first questions really is, why was the 
decision made to move forward on a bilateral, rather than a 
multilateral, NATO-based set of decisions, for Poland and 
Czechoslovakia relating to missile defense?
    General O'Reilly. Ma'am, there are two answers there. One 
is that we do have a NATO missile defense activity that has 
been going on for over a decade. In two particular areas, the 
command and control system, the air command and control system, 
the U.S. has had a representative on that program to build a 
command and control system for anti-aircraft, but also it works 
with missile defense. So we have been doing that for over 10 
years.
    Second of all, they have the Active Layered Theatre Missile 
Defense Program, which is also underway--it is at least 5 years 
old. I would have to get the exact data on when it started. 
However, the deputy program manager of that NATO program works 
for me, is a member of the Missile Defense Agency. We fully 
support those activities. Those activities are aimed at NATO 
command and control over different assets and to study 
different missile defense the architectures, to select the best 
one.
    Also, the Committee of North Atlantic Armaments Directors, 
the CNAD part of NATO, has been doing studies at the direction 
of the NATO ministers to study missile defense architectures 
and determine their feasibility. And the different study 
panels--there are several which my personnel not only 
participate on but actually lead the panels.
    So we are very engaged with working with NATO. Our entire 
system is designed with NATO protocols from the ground up so 
that we can interface effectively. We use the NATO standards, 
so we can work directly with NATO.
    In the area of the Czech Republic and Poland, many of the 
weapons systems that NATO has today were done just that way. 
The countries will come forth and contribute what technologies 
and what capabilities they have. That is a fairly standard way 
to contribute military capability to NATO.
    So this was more of a standard path that we were using 
where we were going to--the previous administration's proposal, 
was that the countries involved in the upper-tier defense of 
NATO would be the United States; Denmark, which works with us 
on the radar up in Thule, Greenland; and the U.K. currently are 
all involved. And they have the Fylingdales radar in the U.K., 
which is a missile defense. And then the Poles and the Czechs 
were offering their land and their security and the 
contributions they were making.
    And so we would contribute the upper tier. But that is an 
incomplete defense system. You still need a lower-tier system, 
which the other programs I was telling you about are looking 
at. So this was a contribution to NATO, but it does need other 
contributions from other countries to make it whole.
    Ms. Kaptur. Well, several of our European allies have 
expressed concern about the way the decisions and negotiations 
were conducted with Poland and the Czech Republic, as not 
having gone through NATO. Are you saying that the decisions 
relating to placement and so forth came through NATO?
    General O'Reilly. No, ma'am, they did not. But it is 
similar to the MEADS program and some of the other programs we 
have with other countries. They also did not come through NATO?
    Ms. Kaptur. Do you think this could potentially be a point 
of conjecture within the alliance, a divisive point within the 
alliance?
    General O'Reilly. Ma'am, last year at the Bucharest summit 
in April, all 26 countries announced support for the U.S.-
proposed upper-tier system. So we have not seen that it is 
divisive. I have been at NATO many times and talked to the 
Secretary-General, and he has said the opposite, that it is a 
unifying--because the threat is to all the countries, and it is 
a unifying issue.
    Ms. Kaptur. Well, there is conjecture within both Poland, 
for sure, and I can't speak as much for the Czech Republic, on 
this whole system right now. And public opinion is shifting 
within the nations themselves.
    My question is, what formal requirements does NATO have for 
missile defense in Europe? And is it true that the U.S. 
taxpayers are going to, if it happens, foot the entire bill for 
this?
    General O'Reilly. Ma'am, from the point of the view on the 
U.S. taxpayers, it has been our proposal to--we would not pay 
for all of it. There is a substantial operations and support 
cost that the host nations have agreed to--the security of the 
systems, the land itself, and so forth. There is a lot in those 
agreements, that they contribute.
    One aspect of this, though, is the fact that the current 
proposal for the ground-based interceptors in Poland, provide a 
substantial coverage of the United States also. So there is a 
benefit directly to our defense by having it there, and that is 
part of the justification for why the U.S. would pay a large 
part of that, the majority of it. One, we have the technology, 
but, two, it is directly beneficial to the United States.
    What you would like to do for a launch from Iran would be 
to have an early intercept attempt and, if it is not 
successful, then use our system in Alaska for a second attempt. 
So this gives us a very good first shot at anything coming out 
of Iran, which was the threat they were concerned about.
    Mr. Dicks. Would you yield on that point?
    Ms. Kaptur. I would be pleased to.
    Mr. Dicks. There are some people who don't agree with that, 
right? Aren't there some people who say we picked the wrong 
missile for a defensive missile for Poland?
    General O'Reilly. ------.
    The concern there was, when IDA did an independent 
assessment, what would it cost for 30 years of defending 
Europe, using Aegis ships the cost is $28 billion or greater. 
From the proposed Polish and Czech land-based system, it would 
be $14 billion. So, from a cost point of view, it is 
substantially less expensive to have this fixed site. However, 
there are other alternatives we have seen, including a land-
based SM-3.
    Ms. Kaptur. I just wanted to say, with the politics in that 
region, this issue is--the Czech Parliament hasn't been able to 
clear it now, as I understand it, and there is changing public 
opinion in Poland. We have the issue with Russian relations and 
a new administration trying to embrace that whole situation 
there.
    I just want to be clear. What has NATO agreed to with 
regard to missile defense in Europe? And what formal 
requirements does NATO have--formal, underline ``formal''--for 
missile defense in Europe?
    General O'Reilly. Formally, ma'am, in their joint statement 
last year at the Bucharest summit, they stated they recognized 
there is a missile defense threat, which is part of a 
requirement. They also stated that they recognize the benefits 
from a U.S. system to counter that threat.
    They also established, to your point, studies to report at 
this summit, which is meeting as we speak, to look at what the 
formal requirements are for lower-tier capability that has to 
go underneath the system that we were proposing.
    So, to answer your question, they have acknowledged the 
threat in a formal way, and they have also formally studied or 
are formally studying what the requirements should be. They 
have established that the command and control for a missile 
defense system in NATO--this is a formal requirement--needs to 
be in place by 2012 so we have a design. And then they have a 
second command and control phase to look at a more advanced 
command and control for upper-tier systems, which is still 
under study at this time. And I have personnel on those 
panels----
    Ms. Kaptur. General, to what do you attribute the declining 
popularity of this within the Eastern European community?
    General O'Reilly. Ma'am, I can't directly account for that. 
I acknowledge I have spent a lot of time there personally 
addressing with mayors and their members of parliament and 
such, and there is a substantial opposition to that. And my 
direct contacts have been at the government level.
    But we are restricted from using any funding until those 
matters or at least the ratifications are complete. Our latest 
understanding is that the Czech Government has deferred the 
vote in the lower parliament. Their upper parliament has 
approved going forward with the radar in the Czech Republic. 
They have deferred the vote in the lower house until after 
their elections in the fall. So this will be a substantial 
delay to the current plans, as a minimum.
    Ms. Kaptur. I would just state, in closing, that I would 
hate to see where technology led the way versus geostrategic 
interests. And I hope that our State Department, I am sure with 
our Ambassadors and so forth, will help us to iron this out. I 
just think it is very sensitive.
    And I thank you very much, General.
    Mr. Dicks. The time has expired.
    Ms. Granger.
    Ms. Granger. I don't have any questions.
    Mr. Dicks. Mr. Kingston.

                      LTG O'REILLY'S MAJOR POINTS

    Mr. Kingston. Thank you, Mr. Chairman.
    General, in a few hours we will all be voting on a budget, 
and it will be, I don't know, a thousand pages; I am not even 
sure how long. But most of us will get 30 seconds to explain 
why we voted ``yes'' or ``no,'' maybe 2 minutes if we are 
lucky, and we will have three points that we can make in 
support or against the budget.
    What are your three points that you can walk away from here 
with?
    General O'Reilly. Sir, number one is the threat is growing, 
and the approach to the threat needs to be a multidimensional 
use of our power. As you were saying, ma'am, it is a 
combination of diplomacy, policy, and the technology that I 
bring forward.
    And the third point is, we need to invest in staying in 
front of the type of threats we have heard about this morning. 
The reason we have capability today was research and 
development work occurring 10 or 15 years ago. And there is a 
need for us to have the alternatives so an administration has 
various options in how to react to these different types of 
situations.
    Mr. Kingston. What is that investment level, the dollar 
amount?
    General O'Reilly. Sir, my budget in fiscal year 2009 was 
$9.3 billion. The budget in 2010 is under deliberation at this 
time.
    Mr. Kingston. What do you hope it will be?
    General O'Reilly. You know, sir, to be straightforward----
    Mr. Kingston. You didn't get your four stars by speaking 
needlessly, did you?
    General O'Reilly. No, no. To be honest, this administration 
has asked me very pointed, very good questions along the lines 
of which we have discussed this morning. Specifically--and so, 
from that, it depends on the policy that you are going to move 
forward with. ------.
    Mr. Kingston. You know, this is a numbers and a dollars 
committee. And it would be useful to us, as this process goes, 
if you circled back and say, ``okay, it was $9.3 billion last 
year; the proposal is $11 billion, whatever, we are 
comfortable,'' and maybe communicate that beyond the chairman 
and ranking member so the rest of us know, if that is possible, 
when the time is appropriate.
    The other thing, getting back to Ms. Kaptur's and your 
description of multidimensional defense, it would be nice to 
know, also, is there an appropriate ramp-up or adjustment in 
the diplomacy--do you talk to the State Department, for 
example, and are they comfortable? Because if you are going 
around talking to European NATO mayors and allies and so forth 
and we are losing ground on the need for this for them, maybe 
the State Department budget has to reflect that we have to do a 
better job. And so it would be nice to know that, on the three 
levels, that there was consideration with the others.
    General O'Reilly. Sir, thank you for bringing up that 
point. I work very closely with the State Department, both 
under the past administration and the current administration.
    Our activities in the Missile Defense Agency are 
technological only, but when I talk to those mayors and so 
forth, there is always an Ambassador right next to me, and I am 
under his guidance, or an Under Secretary of State.
    So we have had in the previous administration and we 
continue to have in this administration very close coordination 
on this, so that it is, in fact, the U.S. Government and not 
just one agency within the government that is interfacing with 
our allies on the international scene.
    Mr. Dicks. The gentleman's time has expired.
    Mr. Rothman.

                     FUNDING ISRAEL MISSILE DEFENSE

    Mr. Rothman. Thank you, Mr. Chairman.
    General, in the 2009 fiscal year budget, this committee, as 
you indicated earlier, appropriated $30 million for the Arrow-
3. And I understand that you are working to enter into an 
agreement with the Israelis, among other things, to protect 
U.S. intellectual property rights to whatever is developed in 
that program.
    I know it takes two to tango, meaning the level of 
cooperation you get from the other side is important, but do 
you have any notion as to when you think that agreement will be 
completed so that the money can be appropriated, as was the 
intention of our committee?
    General O'Reilly. Sir, I was in Israel 5 weeks ago to begin 
that negotiation, but I couldn't move forward in good-faith 
negotiation without knowing what the budget and the policy of 
the new administration was. They are formulating it now. I am 
prepared and I have notified as recently as yesterday the 
Israelis that we want to begin this work as soon as possible.
    Typically, after I have negotiated with my counterpart, at 
that point it typically takes about 4 months of review and 
approval above my level with the Secretary of Defense and the 
interagencies, State Department and so forth. So that is the 
timeline I am looking at, sir, about 4 months after we have 
come to an agreement.
    We believe we are very close. We have had a lot of 
preliminary discussion.
    Mr. Rothman. So that 4-month clock has not yet started?
    General O'Reilly. It has not yet started. And, sir, it is 
not unprecedented. We just signed one about a month ago.
    Mr. Rothman. Right. And it won't start until two things 
happen: you come to an agreement on terms, and you know what 
this administration's predilections are with regards----
    General O'Reilly. Well, I need approval, sir, up to the 
Secretary of Defense level.
    Mr. Rothman. Well, didn't they already approve the $30 
million?
    General O'Reilly. Yes, sir, but what they are approving is 
the terms of the agreement. Not are we going to do it or not, 
it is the actual terms of the agreement that are in place.
    Mr. Rothman. So maybe I misunderstood you. I thought you 
saying that you were looking to the next budget to give you an 
indication of how this administration feels about the Arrow-3 
and our missile system before you could engage completely in 
those negotiations.
    General O'Reilly. Sir, our program agreements contain an 
entire funding line, and I don't have insight into what those 
out-years would be, so that we can come to an agreement of--and 
that is what we have always done with other programs.
    Mr. Rothman. So you are waiting for the budget, then.
    General O'Reilly. Yes, sir.
    Mr. Rothman. But this is a 1-year budget, right?
    General O'Reilly. There is also a POM--associate with it, a 
5-year Program Objective Memorandum that goes with that.
    Mr. Rothman. And when is that POM due, General?
    General O'Reilly. The actual delivery date of the POM, I 
would have to----
    Mr. Rothman. Approximately----
    General O'Reilly. It is within the budget or----
    Mr. Rothman. Before June?
    General O'Reilly [continuing]. Inside the Pentagon 
processes. But, yes, sir, it is typically done by this time. 
And, again, it is being delayed because of the budget delay.
    Mr. Rothman. So you should know what the 5-year plan is by 
June and hopefully finish your negotiations by then. And then 4 
months after that, there should be an appropriation.
    General O'Reilly. Sir, that is a typical timeline. Unless 
there is something unusual, that is what we have done.
    Mr. Rothman. Thank you, General.
    Ms. Kaptur [presiding]. I thank the gentleman.
    Ms. Granger, do you have any questions at this point?
    Ms. Granger yields at this point. You have no questions?
    All right, then Ms. Kilpatrick.
    Ms. Kilpatrick. I will pass.
    Mr. Kaptur. You will pass.
    Mr. Kingston. I have one quick one.
    Ms. Kaptur. Yes, Mr. Kingston.
    Mr. Kingston. Madam Chair, thank you.
    General, a minute ago, Mr. Bishop and I were talking to you 
about communicating this, and you spoke of an unclassified 
article. I just wanted to let the committee know that there is 
a good takeaway here on things that we can talk about that are 
unclassified that would help educate our constituents on the 
importance of this----
    Mr. Bishop. And our colleagues.
    Ms. Kilpatrick. And committee members.
    Mr. Kingston. Absolutely. And it might be something that 
we, as a committee, might want to send out to the 435 Members 
and sign it on a bipartisan basis and say, ``Just to remind you 
that this is out there.'' Because I am just very concerned 
about the education level, both internally and externally.
    Ms. Kilpatrick. Which one was that?
    Mr. Kingston. The General mentioned an article. He doesn't 
have it with him, but he is going to get it to us.
    General O'Reilly. Yes, ma'am. We have a booklet for this 
very reason, when I talk publicly, and to be able to address 
your point, sir. It is about 20 pages, and it describes the 
threat in an unclassified fashion to the greatest extent we 
can, and it has been approved by all of the Intel Community 
approvals needed. In fact, I use it at universities when I 
visit schools--Georgia Tech has it, Tuskegee has it. So it was 
produced in November. We can submit it for the record, sir, to 
the committee----
    [The information follows:]

    Unclassified and approved for public release copy of ``MDA Foreign 
Ballistic Missile Capabilities'', dtd. April 2009 will be hand carried 
for submission.

    Mr. Dicks [presiding]. We would like to have that.
    General O'Reilly. And I can provide the electrons for that. 
But it does describe the threat very comprehensively, in an 
unclassified fashion, but it does make the points to a great 
extent what we have discussed here today.
    Mr. Bishop. Can you just give it to the members also?
    Mr. Dicks. Yes, we have a lot of new members----
    General O'Reilly. Yes, sir. We will make it available.

                  MISSILE TESTING STRATEGY AND TARGETS

    Mr. Dicks. The Department has spent billions on anti-
defense missile systems, and there have been questions about 
testing and delayed tests. You mentioned some of this in your 
opening statement. You also talked about the targets. You have 
had a problem with targets.
    Why don't you tell us generally what your strategy is on 
testing?
    General O'Reilly. Sir, for testing, this system is 
obviously extremely complex, and to test the full system at any 
one time literally would take more than the national range 
assets that we have in our Nation. A test can stretch easily 
from Colorado to Alaska to the Marshall Islands off of 
Australia. And we have done a lot of testing up till now that 
is short-range. The type of capability that we have talked 
about this morning requires these long-range tests.
    So I offered to the director of operational test and 
evaluation and each of the three services, their test 
organizations, to work collaboratively with them, starting last 
November, on reassessing the testing of the ballistic missile 
defense program, including short-range, long-range, and 
integrated, including our target needs and so forth.
    We are aimed at doing two things: One, determining what 
information do we need to validate our models in simulation so 
we have confidence in them. Because, obviously, with these big 
tests, they cost as much as a quarter of a billion a test and 
about 40 minutes to execute. So that is a very expensive way to 
go.
    So we want to be very careful and come to an agreement, 
which we have today, over what data we need. There are 95 
variables that we all agree with, including Dr. McQueary, the 
director of operational test and evaluation.
    Today, we now that we know the data we need, we are 
determining what test scenarios need to execute. We are 
completing that work this month. Once we have determined that, 
the final stage is to determine what resources do we need in 
order to execute that test program.
    My predecessors, in the approach over the last few years 
for the Missile Defense Agency, is to plan testing 2 years at a 
time. That leaves you at a disadvantage. With a very 
comprehensive test program like I just described, you really 
need to lay out 5, 6 years' worth of testing. So that is what I 
propose to do with Dr. McQueary at the end of May and lay out 
the plans and requirements.
    In the area of targets, we spend a tremendous amount of 
time, money, and resources on targets, and we do have a lot of 
failure. This is part of the reason we do use actual targets--
we use a lot of actual targets that we buy off the arms market 
that are the actual missiles that we are concerned about, and 
they sometimes have failures.
    But there has been a disturbing rate of failures in the 
development of our newest class of targets. The production 
qualification of that target is 2 years late, and it is 
extensively overrun. It is an ICBM-class target, intermediate-
range and ICBM class. It will fly for the first time this 
summer, and it will have a second flight in the fall.
    At this point in time, I have made the decision that the 
development costs and the productivity of the contractor has 
had such concerns that I have gone to industry and asked them, 
what could you offer as an alternative? The period for that 
closes at the end of the week, then I will have that input. And 
we have finished the market survey, and this summer we will 
make a determination of whether or not we are going to compete 
this target program and give it to another contractor.
    That is my position, my intent, at this time, sir, to look 
at a better way to acquire targets more effectively and also 
buy them in large quantities, which are much cheaper than the 
way we are doing now, where we are buying them one at a time.

              MISSILE DEFENSE FORCE STRUCTURE REQUIREMENTS

    Mr. Bishop. Mr. Chairman.
    Mr. Dicks. I am going to do one more question here, and 
then I will come to you, Mr. Bishop.
    What effort has the Department undertaken to assess missile 
defense force structure requirements?
    General O'Reilly. Sir, we have entered into a very 
effective program with the Strategic Command, STRATCOM, as the 
lead, representing all the co-coms and the three services, in 
order to determine a prioritized capabilities list, is the 
title of it. It is a list produced every 2 years, and it says 
this is their prioritized missile defense capabilities which 
they believe they need.
    They submit it to a new board that was started last year 
that is chaired by the Under Secretary of Defense for 
Acquisition, but it has representation of all of the Under 
Secretaries of Defense and the State Department, the co-com 
commanders, and the Joint Chiefs. In that process, they approve 
this prioritized capabilities list.
    The Missile Defense Agency responds back to what we believe 
we can achieve from an affordability and from a technology 
point of view. The they produce a final report to us, which is 
the basis of our budget submissions and our POMs. We have just 
received one about a month ago, and we are using that input in 
the budget deliberations today.
    Mr. Dicks. Okay, good.
    Mr. Bishop.

                        ACQUIRING THREAT TARGETS

    Mr. Bishop. ------.
    General O'Reilly. Yes, sir. ------.
    But some of our failures--if we buy a Scud, it is a very, 
very robust Scud; never had a failure on that. It is when they 
try to take these missiles and they try to extend the range of 
them or they do something to affect the design, they get into 
trouble sometimes. ------.
    Mr. Bishop. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. One final thing. In this discussion we had 
previously about force structure, are the combatant commanders 
brought into this?
    General O'Reilly. Yes, sir. They work--as a continual 
process, STRATCOM has the lead, but all the combatant 
commanders are represented.
    Mr. Dicks. Okay, good. This committee will adjourn and 
reconvene at 2:00 p.m. today for an unclassified briefing on 
BlackBerry security issues.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                       European Sites and Threats

    Question. Iran does not currently have the capability to reach the 
United States with a ballistic missile, although they continue to show 
interest in acquiring longer-range missiles. On the other hand, North 
Korea is developing a long-range missile (i.e., the Taepo-Dong II) that 
has the potential to reach the United States. Although North Korea's 
July 2006 flight test of the Taepo-Dong II failed, it is reasonable to 
believe that North Korea may plan tests in the future and could 
successfully test that missile.
    What's the rationale for deploying our limited GBI interceptor 
inventory against a potential long-range threat (i.e., Iran) at the 
expense of the current and growing threat from North Korea?
    Answer. A total of 30 GBIs will be emplaced at FGA and Vandenberg, 
where they will be in a position to defend the United States against 
both the North Korean and Iranian ICBM threats. Ft. Greely, Alaska, was 
selected as a location for the primary GMD missile field for its 
ability to protect the U.S. from ICBMs launched from North Korea and 
Iran due to the velocity and timelines for GBIs to intercept ICBMs from 
either launch point prior to their entering U.S. airspace.
    Question. Do you believe you will have sufficient numbers of 
missile defense assets to defend our deployed forces and allies in the 
CENTCOM AOR against the current Iranian missile threat?
    Answer. ------.
    Question. Do we have the capability to support Aegis BMD operations 
in the CENTCOM AOR?
    Answer. ------.

                U.S. Providing for the Defense of Europe

    Question. Based on the current plan, it seems that the U.S. 
taxpayers will be picking up the costs of defending Europe from 
ballistic missile threats.
    Have you discussed this issue with the Europeans?
    Answer. The U.S. has proposed to contribute to the defense of 
Europe and provide redundant coverage of the Eastern U.S. by providing 
most of the funding for the upper tier European Missile Defense. The 
U.S. would not benefit from redundant U.S. coverage without the 
contribution of land and Host Nation support of Poland, the Czech 
Republic and Denmark (allowing the use of the Upgraded Early Warning 
Radar (UEWR) at Thule, Greenland) as well as use and operation of the 
UEWR by the British Royal Air Force located at Fylingdales, UK. 
Finally, the U.S. has proposed only to contribute to the upper tier of 
Europe's defense. We are proposing other NATO nations contribute to the 
lower tier missile defense of Europe and our deployed forces in that 
theater.
    Question. If so, what type of contribution are they likely to make?
    Answer. The United Kingdom is contributing by hosting a U.S. 
Upgraded EWR (UEWR) at Fylingdales. Likewise, Denmark is contributing 
by hosting a UEWR (U.S. BMDS asset) in Thule, Greenland. NATO nations 
may elect to contribute lower tier missile defense systems to be 
integrated through the Active Layer Theater Ballistic Missile Defense 
(ALTBMD) program. Currently these systems are for the protection of 
deployed forces; however, at the Strasbourg/Kehl Summit in April 2009, 
Heads of State and Government tasked NATO to ``identify and undertake 
the policy, military and technical work related to a possible expanded 
role of the ALTBMD program beyond the protection of deployed forces to 
include territorial missile defense''.
    Question. Are any European nations planning on procuring missile 
defense assets?
    Answer. Some European nations (Germany, Netherlands, Greece) have 
or are procuring Patriot systems. France is procuring a lower tier 
missile defense system, SAMP-T and Italy and Germany are procuring 
MEADS. The Netherlands is investigating the feasibility of putting 
missile defense capability on their destroyers and have committed FMS 
funding for this effort. Other nations like Germany, Denmark, France, 
Italy, Spain, and the United Kingdom have invested in new air defense 
frigates/destroyers which may have the potential for being upgraded to 
an LRST capability in the future.
    Question. What has NATO agreed to do with regard to missile defense 
in Europe?
    Answer. The United Kingdom is contributing by hosting a U.S. 
Upgraded EWR (UEWR) at Fylingdales. Likewise, Denmark is contributing 
by hosting a UEWR (U.S. BMDS asset) in Thule, Greenland. NATO nations 
may elect to contribute lower tier missile defense systems to be 
integrated through the Active Layer Theater Ballistic Missile Defense 
(ALTBMD) program. Currently these systems are for the protection of 
deployed forces; however, at the Strasbourg/Kehl Summit in April 2009, 
Heads of State and Government tasked NATO to ``identify and undertake 
the policy, military and technical work related to a possible expanded 
role of the ALTBMD program beyond the protection of deployed forces to 
include territorial missile defense''.
    Question. What infrastructure or other support for U.S. troops and 
our allies has been requested to be funded within the Services' 
budgets? When?
    Answer. As the lead service for the European Interceptor Site, the 
Army developed requirements for garrison facilities in Poland. The Army 
budget for the European Interceptor Site will be $35M/year of O&S. 
Service O&S funding will begin 3 years after construction starts.
    The Air Force has lead service responsibility for the European 
Midcourse Radar Site. Air Force will be meeting with the U.S. Army 
Corps of Engineers (USACE) Europe District in June 2009 to discuss 
requirements for Air Force facilities in the Czech Republic. The Air 
Force budget for the European Midcourse Radar will be $3M/year of O&S. 
Service O&S funding will begin 2 years after construction starts.
    The mission facilities in the Missile Defense Agency (MDA) MILCON 
requests include the interceptor field, radar facility, power plants, 
communications facilities, and associated mission and mission support 
facilities and infrastructure. None of the MDA funding is programmed 
for service or garrison support infrastructure. However, the MDA has 
incorporated the Army and the Air Force in its requirements 
development, planning and design activities with the USACE to ensure 
that the Services are able to beneficially leverage and interface to 
the facilities and infrastructure that the MDA builds.

              European Site and Polish and Czech Relations

    Question. Originally there was strong public support in Poland and 
the Czech Republic for deploying U.S. missile defense capabilities in 
their respective territories. However, over the past several months, 
public support for the potential deployment has decreased.
    What have been the key reasons contributing to the change in public 
opinion in Poland or the Czech Republic?
    Answer. Public support for Missile Defense in the Czech Republic 
has traditionally been more tenuous than in Poland, where public 
support remains stronger. In both the Czech Republic and Poland, there 
are deeply held historical concerns about foreign troop presence on 
foreign soil which contributes to public concerns about the planned 
Missile Defense capabilities. However, as the recent fall of the Czech 
Republic government has shown, political trends in Prague are fluid and 
it is difficult to understand the trends of public support for Missile 
Defense.
    Question. Have the different political parties in Poland or the 
Czech Republic had an influence over the negotiations?
    Answer. During the negotiations on missile defense basing 
agreements and supplemental Status of Forces Agreements, both the 
Polish and Czech negotiating teams took the views of the major 
political parties into consideration in order to ensure the final 
documents would be acceptable to their parliaments.
    Question. What impact will this have on the U.S. decision to move 
forward?
    Answer. The FY09 Authorization and Appropriation law restricts the 
construction of the U.S. missile defense sites in Poland and the Czech 
Republic until their parliaments ratify their respective Ballistic 
Missile Defense Agreements and associated Status of Forces Agreements 
(SOFA). Thus the political support for the missile defense sites is 
critical to the deployment of the current missile defense proposal for 
Europe.
    Question. What impact do the local entities have over the 
negotiations (i.e. mayors and local political leaders).
    Answer. U.S. negotiating teams have dealt with or are dealing 
directly with the Czech and Polish federal governments. At the same 
time, U.S. officials and teams have met with, briefed, and taken 
questions from local officials in both potential host nations. 
Finalization of the Implementing Agreements in both countries will be 
influenced by the local governments.
    Question. What effect does the Czech Parliamentary vote have on 
U.S. relations?
    Answer. The U.S. and the Czech Republic will continue to enjoy good 
relations on a broad range of topics regardless of the outcome of the 
vote on U.S. BMD deployments.

                Use of THAAD and AEGIS To Defend Europe

    One of the key rationales for deploying a GMD site in Europe is to 
protect our forward deployed radars in Europe. That said, if Iran 
decided to attack our European radars they would use medium and 
intermediate-range missiles, the type of missiles that THAAD and the 
SM-3 are designed to counter.
    Question. Why can't we use THAAD and the SM-3 missile to protect 
Europe, especially the radars, from medium and intermediate range 
missile threats?
    Answer. ------.
    Question. The US is currently co-developing a system with Japan 
that would protect most European population centers from medium and 
intermediate range missile threats. Why do we need a duplicative 
missile defense system?
    Answer. ------.
    Question. What are the implications for the Navy's or the Army's 
force structure requirements if an SM-3 or THAAD alternative were to be 
pursued in Europe?
    Answer. ------.

           Incrementally Funding MDA Programs With R&D Funds

    Question. MDA has approval to acquire assets with research and 
development (R&D) funds, which allows MDA to incrementally fund 
procurements. This is unlike any other program at DOD. The Department 
is conducting a review of the way the Agency does business.
    Has it been determined whether incremental funding will result in a 
short term reduction in costs for MDA programs? Future years?
    Answer. In the PB10 budget request, MDA is using Procurement 
funding for the THAAD batteries and SM-3 Block I interceptors in 
accordance with Sec. 233 of the FY08 National Defense Authorization Act 
and the Agency stopped the practice of incrementally funding 
procurement.
    Question. How is this type of budgeting beneficial to the 
Department?
    Answer. In the PB10 budget request, MDA is using Procurement 
funding for the THAAD batteries and SM-3 Block I interceptors in 
accordance with Sec. 233 of the FY08 National Defense Authorization Act 
and the Agency stopped the practice of incrementally funding 
procurement.
    Question. Has MDA determined when the Agency's programs should 
transition from research and development to the operation and 
maintenance and procurement accounts?
    Answer. In accordance with Section 233 of the FY08 National Defense 
Authorization Act, MDA has made the transition to Procurement funding 
and is now using Procurement appropriations for THAAD batteries and 
interceptors, AN/TPY-2 radars and Aegis SM-3 Block I interceptors. The 
transition to operation and maintenance accounts begins with the THAAD 
program in FY12.

                         GMD Flight Test Delays

    Question. GMD has planned many flight tests in fiscal years 2009 
and 2010. Many previous tests have been delayed or cancelled.
     What happens that would drive a delay in the test program?
    Answer. (1) BMDS complexity and capability development time. In 
order to maximize the contribution of every ground and flight test to 
the assessment of the BMDS at the system level, each test is highly 
integrated, tightly coupled, multi-element, and multi-Service. This 
complexity has increased the time it takes to develop both the systems 
under test (sensors, interceptors and fire control) and to integrate 
all elements and test capability into a realistic test provides data 
required to validate models and simulations and assess performance. 
Development delays of individual elements can affect the readiness to 
test and their integration with other elements.
    (2) Test preparation time. Test case/scenario development is a 
process that includes the build up, integration and pre-mission testing 
of the specific capabilities to be tested. Test preparation time 
includes requirements management and test objectives flow down, test 
case/scenario development, integration of test configuration into the 
test ranges (lab and field) and analysis in preparation for test. 
Should element or component development software or hardware delay 
occur, this may result in re-work or test reconfiguration and may 
require additional analysis.
    (3) Test target availability. It takes between 24 and 36 months to 
produce an operationally realistic target for GMD flight testing. Any 
problems encountered during build-up and test can equate to a test 
delay.
    (4) Competition for shared test and operational assets. BMDS flight 
tests often use already fielded operational assets, and the shared use 
of operational assets as test assets can cause test schedule 
perturbations based on warfighter operational priorities. Range 
conflicts and real-world events can perturb the test schedule on a 
weekly basis, generating a nearly constant level of re-scheduling and 
deconfliction which adds to the complexity of MDA's test program 
management. Warfighter requests to meet emerging real world 
contingencies can impact asset availability to support tests. Recent 
requests required assets to model system behavior in response to 
potential rogue nation launches, as well as exercises to examine system 
behavior against potential near-term threats.
    (5) National test range infrastructure capacity. There are multiple 
acquisition programs within and outside of the MDA competing to utilize 
the limited capacity of our national test range infrastructure. The 
major range and test facilities base activities, such as the Ronald 
Reagan Ballistic Missile Defense Test Site, the 30th Space Wing at 
Vandenberg Air Force Base, the Pacific Missile Range Facility, and 
numerous others, all use the same launch services, test instrumentation 
collection platforms, and test control centers. MDA must compete with 
other Air Force, Navy, DoD, NASA, and commercial space customers for 
dedicated range time. Scheduling of test resources and perturbations in 
any acquisition program using common range services can contribute to 
delays through the rescheduling across all programs.
    (6) Ground-Based Interceptor (GBI) readiness for test. The GBI has 
incurred development and manufacturing quality issues resulting in 
delays in recent flight tests.
    Question. Can you explain primary reasons behind the rescheduling 
of tests?
    Answer. As discussed in the previous response, there are a number 
of factors that can contribute to rescheduling BMDS flight tests: (1) 
BMDS complexity and capability development time, (2) test preparation 
time including requirements management and test objectives flow down, 
test case/scenario development, integration of test configuration into 
the test ranges (lab and field) and analysis in preparation for test, 
(3) test target availability, (4) competition between shared 
operational and test assets, (5) available capacity across the national 
test range infrastructure given multiple competing acquisition programs 
within and outside of the MDA, and (6) Ground-Based Interceptor (GBI) 
readiness for test.
    Recent GMD flight test rescheduling is attributed to development 
and manufacturing quality issues with the GBI and test target 
availability.
    Specifically, telemetry component problems in the GBI's 
Exoatmospheric Kill Vehicle (EKV), discovered prior to FTG-04, were due 
to manufacturing quality issues in a critical flight test component 
needed for flight testing. Theses issues delayed and subsequently led 
to FTG-04 being restructured as FTX-03. Because these manufacturing 
quality issues affected a critical non-tactical flight test component 
in all GBIs, the next planned test in the series, FTG-05, was delayed 
one quarter until a qualified replacement telemetry component became 
available. FTG-05 was conducted on December 5, 2008 and resulted in a 
successful intercept.
    The FTX-03 and FTG-05 flight tests, with STARS/GROW targets, both 
experienced failures with the deployment of the target countermeasures. 
GMD's next flight test, FTG-06, previously scheduled for the second 
quarter of fiscal year 2009, was to use a Launch Vehicle-2 (LV-2), a 
new class of target, because the inventory of the STARS/GROW targets 
was exhausted. Test objectives for this engagement, with the required 
target scene including countermeasures, necessitated additional time 
needed to conduct detailed analyses causing the FTG-06 flight test to 
be rescheduled for the fourth quarter of fiscal year 2009.
    Question. What issues remain to be resolved?
    Answer. While unforeseen issues may arise, GMD initiated a 10-point 
Mission Assurance Improvement Plan (MAIP) in early May 2008 in response 
to interceptor supplier quality issues experienced on the GMD Program, 
primarily the quality issues discovered prior to FTG-04. The GMD 
Program identified the need to implement additional product acceptance 
control processes. The following points address key areas where the GMD 
program is instituting corrective actions or where it expects 
opportunities for improvement:
    (1) GMD now has a back-up GBI for every flight test.
    (2) GMD has conducted a quality stand down across the GMD program 
supply base. A second quality stand down was completed to share 
progress and provide feedback on inputs from suppliers, and supplier 
actions were taken on recommendations. Another GMD program quality 
stand-down is planned for May 2009 to provide status of actions and 
quality improvements.
    (3) The GMD program has instituted more comprehensive product and 
process change control, providing more robust review of impacts of 
supplier changes.
    (4) GMD has conducted detailed Mission Assurance Product & Process 
Reviews (MAPPRs) at critical suppliers currently in manufacturing. The 
GMD program is in the process of performing follow-on MAPPRs where 
required and will also conduct MAPPRs for other suppliers pending 
manufacturing restart at those suppliers.
    (5) GMD has reviewed and verified training and certification of the 
manufacturing workforce.
    (6) The GMD program has implemented Quality Product and Process 
Verification (QPPV) to enhance the standard supplier product acceptance 
process. QPPV adds additional criteria and requirements, as well as 
random process audits, to the hardware acceptance review process.
    (7) GMD has implemented a proactive Issue Identification Program 
which empowers over 3000 Prime Contractor employees, most 
subcontractors, and several critical suppliers to identify issues and 
halt work if quality or safety issues require immediate attention. The 
GMD Program Office and the Prime Contractor are also investigating and 
pursuing opportunities to incentivize supplier quality. The Prime 
contractor and subcontractors have also developed and provided employee 
awards for quality performance.
    (8) The GMD program is pursuing full MDA Assurance Provisions (MAP) 
and MDA Parts, Materials, and Processes Assurance Plan (PMAP) 
compliance through the development of Mission Assurance Implementation 
Plans (MAIPs) and PMAP Implementation Plans for all critical suppliers 
under the GMD Core Completion Contract (CCC).
    (9) GMD is implementing a hardware/software pedigree review process 
as part of Ship Readiness Review and Hardware Acceptance Reviews. 
Pedigree reviews have been completed for FTG-05, operationally 
configured GBIs, and is in progress for FTG-06.
    (10) The GMD program conducted hardware pedigree inspections of 
``In Stock'' product at suppliers where product is currently out of 
production.
    (11) GMD is conducting a baseline review across the interceptor 
supply chain of product acceptance and screening. The GMD Prime 
Contractor and Aerospace Corporation are currently reviewing the 
initial engineering assessment results prior to submission to the 
Government for review.
    Question. How will this impact the current test plan for GMD?
    Answer. The GMD test plan is under review as part of the ongoing 
BMDS comprehensive test program review. Since early 2009, MDA has been 
working on a systematic review of BMDS test planning in partnership 
with the Army, Navy, and Air Force Operational Test Agencies (OTA), 
with the support of the Director for Operational Test and Evaluation 
and the warfighter community. This review is intended to revitalize the 
missile defense test program and make it more affordable. Using 
criteria supplied by the OTA, the warfighter, and MDA's system 
engineers, we are undertaking a comprehensive test review to ensure our 
ground and flight testing is designed to provide data that MDA and the 
operational test community use to anchor models and simulations and 
verify system functionality and operational effectiveness. Unlike MDA's 
previous convention of limiting test planning to a two-year period, the 
results of this review will be an event-oriented plan that extends 
until the collection of all identified data is complete.
    The BMDS performance evaluation strategy is to develop models and 
simulations of the BMDS and compare their predictions to empirical data 
collected through comprehensive flight and ground testing to validate 
their accuracy, since physically testing all combinations of BMDS 
configurations, engagement conditions, and target phenomena is 
economically prohibitive. We are changing from an architecture-based 
approach to a parameters-based approach. The focus of the on-going BMDS 
test review is to determine how to validate our models and simulations 
so that our warfighting commanders have confidence in the predicted 
performance of the BMDS, especially when those commanders consider 
employing the BMDS in ways other than originally planned or against 
threats unknown at this time. Despite this desire to rely on models, 
the complex phenomena associated with missile launches and associated 
environments mandates that some performance measurements can only be 
investigated through flight and ground testing of the operational BMDS.
    The ongoing BMDS comprehensive test program review is being 
conducted in three phases. In Phase One, MDA and the Army, Navy, and 
Air Force Operational Test Agencies studied the models and simulations 
and determined the data needed to accredit them using a comprehensive 
verification, validation, and accreditation process. Despite our desire 
to rely on models, they cannot provide all operational performance 
measurements required to assess the system. Much of the data needed to 
understand system survivability, reliability, performance in extreme 
natural environments, and supportability can only be measured through 
ground and flight tests.
    In Phase Two, test objectives and scenarios for a campaign of 
flight and ground tests are under development. Test personnel are 
prioritizing test designs based on requirements to determine the 
system's capabilities and limitations and the need of the Combatant 
Commanders to field a specific block of missile defense capability. 
Data from these tests are fed back into the models and simulations in 
order to make them credibly reflect system performance. These tests 
will not only address data necessary to validate the models of 
individual missile defense interceptor systems but will also 
demonstrate the performance of the BMDS working as an integrated 
system.
    During Phase Three of the review, to be completed by the end of 
June 2009, the funding and infrastructure needed to implement the test 
campaigns will be addressed. A key cost driver will be the ability to 
establish an inventory of reliable targets to satisfy test requirements 
over a variety of flight test regimes.
    At the end of this test review, we intend to report to Congress on 
needed changes in our test plans and implications for future funding 
needs.
    Question. How will the test plan review change the way MDA tests?
    Answer. MDA is changing from an architecture-based approach to a 
models and simulation Verification, Validation, and Accreditation 
parameters-based test approach. The new BMDS performance evaluation 
strategy is to develop models and simulations of the BMDS and compare 
their predictions to empirical data collected through comprehensive 
flight and ground testing. Once accurate, the models and simulations 
can predict system performance over a vast set of operating conditions. 
The current architecture-based approach physically tests all 
combinations of BMDS configurations, engagement conditions, and target 
phenomena. This became awkward and slow as the BMDS matured, as well as 
demanded unique and costly target development.
    The new test strategy is designed to validate the models and 
simulations so that the war fighting commanders have confidence in the 
predicted performance of the BMDS, especially when those commanders 
consider employing the BMDS in ways other than originally planned or 
against threats unknown at this time.
    Moreover, unlike the MDA's previous convention of limiting test 
planning to a two-year period, the results of this three-phase test 
plan review will be an event-oriented plan that extends until the 
collection of all identified data is completed. Additionally, MDA is 
engaging with war fighters to ensure MDA is testing the BMDS using 
operational doctrine and real-world constraints, so that, as much as 
possible, MDA is testing the system in a manner similar to how the war 
fighters will employ it in combat.

                              Test Review

    Question. The Department has spent billions on an anti-missile 
defense system without adequate testing due to failed and delayed 
tests. The Services often complain that MDA does not test how the 
Services test. As the Administration is reviewing MDA for its future 
budgets: How is the Agency rectifying these issues?
    Answer. First, simplify and refocus the test strategy. MDA is 
focused on conducting meaningful ballistic missile testing that 
rigorously demonstrates the capabilities of the BMDS. Our three-phase 
test strategy, with full involvement by DOT&E and the multi-Service 
Operational Test Agency (OTA) Team, will produce an Integrated Master 
Test Plan that is event-oriented and extends until the collection of 
all identified data is completed. MDA is engaging with war fighters to 
ensure that MDA is testing the BMDS using operational doctrine and 
real-world constraints, so that, as much as possible, MDA is testing 
the system in a manner similar to how the war fighters will employ it 
in combat.
    Unlike Service testing, MDA is inherently joint and tests to 
provide an integrated war fighting product on delivery. MDA is working 
in partnership with the multi-Service Operational Test Agency (OTA) 
Team and the war fighter community to revitalize the missile defense 
test program and make it more robust and affordable. Using criteria 
supplied by the OTA, the war fighter, and MDA's system engineers, 
ground and flight tests are designed to provide data that MDA and the 
operational test community use to anchor models and simulations and 
verify system functionality and operational effectiveness. To provide 
better oversight, the Test and Evaluation Standing Committee of the 
Missile Defense Executive Board was established and meets regularly to 
oversee the test and evaluation (T&E) planning and resource roadmap as 
it relates to MDA test requirements and test program, and to provide 
technical recommendations and oversight for the conduct of an 
integrated T&E program and investment strategy.
    Like Service testing, the new test program will have several 
Operational Tests (OT) to verify doctrine, tactics and procedures that 
will be operated by the OT and warfighting communities of the services.
    Question. How are you reorganizing the current test plan to ensure 
adequate test are completed?
    Answer. The focus of the on-going BMDS three-phase test review has 
been to determine how to validate our models and simulations so that 
our war fighting commanders have confidence in the predicted 
performance of the BMDS.
    In Phase 1, MDA and the multi-Service Operational Test Agency (OTA) 
Team studied the BMDS models and simulations and determined the 
variables (key factors) most sensitive to the predicted results. MDA 
then combined sets of key factors with test conditions that provide the 
greatest insight into the BMDS models' predictive capability, when 
compared to test results, and called them Critical Engagement 
Conditions (CECs). There are many cases where the only practical way to 
measure performance is by ground or flight testing under operationally 
realistic conditions. MDA calls these tests Empirical Measurement 
Events (EMEs). Much of the data needed for the OTA Critical Operational 
Issues (COIs), such as survivability, reliability, performance in 
extreme natural environments, and supportability, can only be collected 
through the conduct of EMEs.
    In Phase 2, MDA combined CECs, EMEs, and COIs into test objectives 
and developing scenarios to accomplish those objectives over a campaign 
of flight and ground tests. These test objectives would not only 
address data necessary to validate the models of individual missile 
defense interceptor systems, but would also demonstrate the performance 
of the BMDS working as an integrated system. MDA will prioritize the 
resulting test scenarios according to the need to determine BMDS 
capabilities and limitations and the Combatant Commanders' urgency of 
need for a specific missile defense capability.
    In Phase 3, MDA will determine the funding and infrastructure 
necessary to implement the test campaigns identified in the second 
phase. A key cost driver will be the ability to establish an inventory 
of reliable target configurations that will satisfy the CECs, EMEs, and 
COIs over a variety of BMDS flight tests.
    At the conclusion of the three-phase test plan review, MDA will 
produce, with full involvement by DOT&E and the multi-Service 
Operational Test Agency (OTA) Team, an Integrated Master Test Plan that 
is event-oriented and extends until the collection of all identified 
data is completed to ensure adequate test investments.

                         Multiple Kill Vehicles

    Question. MDA is developing the Multiple Kill Vehicle (MKV) to 
allow a single interceptor to engage a number of credible objects that 
an enemy missile might deploy. The Agency expects to deploy an 
operational capability in the 2017 timeframe. In January 2004, MDA 
awarded a contract to Lockheed Martin to develop a carrier vehicle that 
directs multiple kill vehicles with planned deliveries in 2014. This 
concept, if successful, would benefit GMD and KEI. MDA also proposed in 
the FY08 budget to have Raytheon develop an alternate concept in which 
a lead kill vehicle would direct other kill vehicles. This concept, if 
successful, would primarily benefit SM-3. In the third quarter of 
fiscal year 2010, MDA will determine whether a carrier vehicle with 
multiple kill vehicles is feasible or whether the program will move 
forward with a unitary carrier vehicle.
    If MDA finds that multiple kill vehicles are not feasible, how will 
this impact the GMD?
    Answer. In his April 6, 2009 briefing to the press on Fiscal Year 
2010 budget recommendations, the Secretary of Defense announced that 
``. . . we will terminate the Multiple Kill Vehicle Program because of 
its significant technical challenges and the need to task a fresh look 
at the requirement.''
    Question. How will the Aegis BMD programs and the kill vehicle 
planned by the KEI program be affected since you plan to stop all work 
on unitary kill vehicle work this year?
    Answer. We do not plan to stop work on unitary kill vehicles this 
year. The MDA intends to continue development of a unitary kill vehicle 
for integration in the SM-3 BLK IIA as agreed to with Japan. MDA 
programmatic leadership of the development effort is being reviewed 
during MDA PB10 discussions.

 Kinetic Energy Interceptor (KEI) Compared to Airborne Laser (ABL) for 
                          Boost Phase Defense

    Question. MDA awarded a contract in December 2003, which was to 
continue through January 2012, to develop and test the Kinetic Energy 
Interceptor (KEI). At that time, MDA stated that KEI was being designed 
as a mobile capability to destroy intermediate and long-range ballistic 
missiles during the boost/ascent phase of their flight. In 2005, MDA 
selected the Airborne Laser (ABL) as its primary boost phase 
capability, but continued development of KEI. Most recently an 
independent assessment was done that recommended a second booster in 
order to test two boosters simultaneously.
    Have there been any studies that conclude KEI is the better choice 
for a boost phase capability? If so, why has MDA chosen to continue to 
pursue ABL as its primary boost phase capability?
    Answer. The MDA submitted a Boost Phase Intercept study Report to 
Congress in April 2006 that described in detail the different boost 
phase capabilities and limitations of the ABL and KEI. There was no 
finding in this report that KEI was a better choice than ABL as a boost 
phase capability. The development of this Congressional report included 
significant interaction with PA&E and a detailed review of their 
independent study results. MDA openly shared our technical and 
programmatic data with the PA&E team, and we conducted several 
technical interchanges with them to review and discuss findings. These 
discussions with PA&E led to modifications of the MDA Report to 
Congress.
    The PB10 Budget Request cancels the Kinetic Energy Interceptor 
program because of incompatibility of the KEI concept with the 
Secretary of Defense's guidance to develop missile defenses against 
rogue nation threats and theater missile threats and concerns with 
performance, technical challenges and affordability. The KEI mission 
grew from a boost phase interceptor to a boost and midcourse phase 
interceptor. The schedule grew from a 5\1/2\-year to a 12- to 14-year 
development program (depending on currently identified spirals). 
Program cost grew from $4.6B to $8.9B and missile unit cost grew from 
$25M to over $50M per interceptor. Technical issues delayed the first 
booster flight test date, established in 2007, by over a year (it is 
not on track to be conducted in FY09). Affordability issues and 
government changing of requirements, not contractor performance, was 
the main contributor to KEI's execution problems.
    Question. Has KEI been redefined as a midcourse capability instead 
of a boost/ascent phase capability?
    Answer. KEI was both a boost and midcourse phase capability. The 
PB10 Budget Request cancels the Kinetic Energy Interceptor program 
because of incompatibility of the KEI concept with the Secretary of 
Defense's guidance to develop missile defenses against rogue nation 
threats and theater missile threats and concerns with performance, 
technical challenges and affordability.
    Question. Will the contract incur increased termination costs 
should MDA decide to terminate KEI's contract in 2009 or is contract 
termination not a possibility even if ABL remains the primary boost 
phase capability?
    Answer. The contract will not incur increased termination costs if 
it is terminated in FY09. The PB10 Budget Request cancels the Kinetic 
Energy Interceptor program because of incompatibility of the KEI 
concept with the Secretary of Defense's guidance to develop missile 
defenses against rogue nation threats and theater missile threats and 
concerns with performance, technical challenges and affordability.
    Question. In 2008, the KEI program flight tested the interceptor's 
boosters, a critical technology, to determine if they will function as 
intended. In 2009, MDA will use the results of the booster test and the 
results of ABL's lethality demonstration to decide the future of the 
KEI and ABL programs. However, in 2005 MDA directed the KEI program to 
incorporate the capability to engage missiles during the midcourse 
phase of flight and KEI's contract is being extended until September 
2015. MDA's Director previously has said that the mission of KEI has 
not been redefined. KEI is still an alternative for ABL should ABL fail 
in its lethality demonstration.
    Does the funding provided in FY2009 fulfill the objectives that 
reflect either the advancement of evolution of the KEI program?
    Answer. The booster development funded in FY09 has not fulfilled 
the objectives of either the boost or midcourse missions. The PB10 
Budget Request cancels the Kinetic Energy Interceptor program because 
of incompatibility of the KEI concept with the Secretary of Defense's 
guidance to develop missile defenses against rogue nation threats and 
theater missile threats and concerns with performance, technical 
challenges and affordability. Additionally, MDA is pursuing other more 
near-term ascent phase intercept capabilities.

                ABL Lethality Against Potential Threats

    Question. Even if ABL is successful in its lethality demonstration 
in 2009, there are still many questions about how it would be employed.
    What is ABL's capability against potential threats from China and 
Iran with respect to ICBMs? What about other nations?
    Answer. ------.
    Question. What about potential over flight of a hostile nation?
    Answer. ABL has considerable stand-off distance against MRBM, IRBM 
and ICBM threats allowing it to engage threats outside the range of 
most rogue nation adversary threats. Current ABL CONOPS dictate over 
flight can occur after achieving air superiority. The USAF would not 
achieve air superiority until after hostilities have started and the 
timeline would be dependent on the capabilities of the adversary. In 
addition, the ABL will be protected identical to other high value 
assets (i.e. JSTARS & AWACS) with a fighter combat air patrol.
    Question. Are there other programs currently in development at MDA 
that are possible better options for boost phase defense?
    Answer. MDA is assessing more near-term, cost-effective options for 
early intercepts. We are adding an ascent phase layer that will 
leverage existing and planned Aegis Standard Missile-3 (SM-3) 
capabilities and use them in new ways to enable earlier opportunities 
for missile intercepts. Ascent phase intercepts extend engagement 
windows so that the warfighter can shoot one interceptor, evaluate the 
consequence, and shoot again if necessary, avoiding wasteful 
interceptor salvos. This increases the battlespace to not just the 
midcourse phase, but moves it forward into the ascent phase. These 
earlier intercepts are enabled by using existing sensors such as the 
Overhead Persistent Infrared (OPIR) sensors, forward-based radars or 
Unmanned Aerial Vehicle (UAV)-based sensors. When integrated with 
existing midcourse and terminal systems, the resulting multi-tiered 
Ballistic Missile Defense System (BMDS) is better suited to counter 
complex threats cost effectively.
    We do not plan to completely cease our investments in boost phase. 
Our plan is to refocus our efforts to additionally develop and rapidly 
field lower risk ascent phase capabilities as they are demonstrated. We 
will continue researching concepts such as Airborne Laser (ABL) 
(including the demonstration of lighter weight, higher efficiency 
lasers that can enable more cost effective directed energy intercept 
concepts). These concepts will remain in the technology development 
phase until sufficient knowledge has been gained on technology 
readiness, operational viability, and contribution to the Ballistic 
Missile Defense System (BMDS) to warrant a higher level of investment.
    Question. Are there other missions for ABL?
    Answer. Yes, analyses have explored the potential utility of the 
ABL in several other classified missile defense missions.

             Airborne Laser (ABL) Costs for Full Deployment

    Question. After a schedule delay, the Airborne Laser is now 
expected to demonstrate a lethal shoot down in 2009. Based on the 
demonstration, intends to make a decision on development of a second 
ABL aircraft.
    What requirements determine the number of ABL aircraft needed?
    Answer. The number of ABL aircraft needed to defend against a named 
area of interest is highly dependent on the nature of the threat. 
Initial estimates for maintaining two simultaneous 24/7 Combat Air 
Patrols require a fleet of 5 ABLs, with a total fleet size of 7 
aircraft. Three ABLs should be able to provide a single, 24/7 Combat 
Air Patrol in a boost phase mission. Less Aircraft are required for 
other classified missile defense missions.
    Question. What type of aircraft will be used for the second ABL?
    Answer. Planning for Tail 2 has been cancelled in the FY10 PB 
submittal.
    Question. For 24/7 coverage, how many orbits of ABL aircraft are 
required, and how many ABL's per orbit are required?
    Answer. Depending on the distance to the Forward Operating Base and 
availability of tanker support, a single 24/7 Combat Air Patrol would 
require three ABL's. Less aircraft are required in other classified 
missile defense missions.
    Question. What is the basing concept for ABL? What is the plan for 
delivering the chemicals required for the laser into a forward-based 
location?
    Answer. The Joint Staff and the Combatant Commanders continually 
review and update ballistic missile threats and capability gaps. This 
information is, in turn, used by The Office of the Secretary of Defense 
to assess future development and employment options. MDA will support 
their decision making process with technical studies and performance 
analysis of current U.S. BMD assets including the potential basing of a 
second forward-deployed X-Band radar to Japan.
    Question. Do you have an independent cost estimate for an 
operational ABL? What about the cost of forward basing?
    Answer. No. Due to the maturity of the ABL program compared to 
other BMDS elements, MDA has decided to delay an OSD CAIG cost estimate 
of operational ABL costs and forward basing costs until ABL is part of 
the MDA block program.
    Question. Can the taxpayer afford to buy the number of ABL's 
required?
    Answer. The second aircraft for the ABL program was canceled in the 
PB 10 Budget Request. MDA will continue to conduct testing with the 
prototype ABL aircraft, and has taken steps to ensure critical 
industrial infrastructure is protected. Decisions on the future of the 
program, including affordability, will depend on successful completion 
of key knowledge points, including the lethal shootdown of a target 
during a flight test scheduled for the end of FY09.

                 U.S./Japan Missile Defense Cooperation

    Question. Over the past several years, the U.S. and Japan have 
conducted robust cooperation in the missile defense area including the 
deployment of a X-band radar in Japan and joint 50/50 cost-share 
development of the Standard Missile-3 Block IIA missile.
    Could you provide an update on the status of our cooperation with 
Japan on missile defense programs?
    Answer. BMD cooperation with Japan is a success story in the U.S.-
Japan Alliance and has resulted in the Japanese fielding both sea and 
land based missile defense systems. U.S.-Japan bi-lateral cooperation 
plays an important role in supporting our common strategic interest in 
defense and enhances Japan's ability to defend itself Our largest 
missile defense program with Japan is the SM-3 Block IIA Cooperative 
Development (SCD) Project. This year, we will sign Amendment 1 to the 
SCD Annex, defining costs and workshare for this program. We anticipate 
initiation of negotiations this summer for Amendment 2 of this program, 
which will finalize workshare including workshare for at sea test 
firing operations of SM-3 Block IIA. We are also pursuing a follow-on 
joint analysis with Japan to collaboratively review future missile 
defense requirements. We expect to develop and negotiate an agreement 
to proceed with the analysis this year. Finally, we are working with 
the Japanese on interoperability and information sharing. To that end, 
we are discussing requirements to facilitate eventual interoperability 
between their Japan Aerospace Defense Ground Environment (JADGE) 
command and control system with the U.S. BMDS. The AN/TPY-2 U.S. X-Band 
radar was deployed to Japan's Shariki Air Self Defense Force Base in 
northern Japan in 2006. Data is currently being shared with Japanese 
forces.
    Question. Are you considering moving the second Forward-Deployed X-
Band Radar to Japan?
    Answer. The Joint Staff and the Combatant Commanders continually 
review and update ballistic missile threats and capability gaps. This 
information is, in turn, used by The Office of the Secretary of Defense 
to assess future development and employment options. MDA will support 
their decision making process with technical studies and performance 
analysis of current U.S. BMD assets including the potential basing of a 
second forward-deployed X-Band radar to Japan.
    Question. MDA recently decided to incorporate a modular kill 
vehicle into the Block IIA even though Japan has only agreed to use a 
unitary warhead. Can you discuss how this could impact our cooperation 
with Japan?
    Answer. The U.S.-Japan SM-3 Block IIA Cooperative Development (SCD) 
Project calls for incorporation of a unitary kill vehicle only. The 
FY10 President's Budget terminates the MKV program.

                         Testing Infrastructure

    Question. The Committee has been told that one of the key elements 
limiting the current missile defense test program is the lack of 
infrastructure.
    What specific actions can be taken to improve MDA's testing 
infrastructure?
    Answer. As we complete the development of the Integrated Master 
Test Plan (IMTP) we are working key enablers to support more robust 
testing. The enablers fall into the two categories of supporting ground 
or flight test.
    In the ground test category we have identified the need for a 
second Hardware-in-the-Loop (HWIL) facility that allows us to 
simultaneously exercise the fielded BMDS with operations in the loop 
while we are simultaneously testing the next system upgrades with our 
government/industry development team. This second facility will 
leverage the Integrated System Test Capability(ISTC) laboratories 
already in place under our GMD program and expand to include other 
element representations. The following infrastructure will be required 
to support this concept:
          <bullet> Aegis Ballistic Missile Defense representations
          <bullet> Command, Control, Battle Management & Communications 
        (C2BMC) suite dedicated to Ballistic Missile Defense System 
        (BMDS) Integration/Development Testing
          <bullet> Additional Upgraded Early Warning Radar processes 
        (adds Thule to BMDS)
          <bullet> Radar Data Signal Injection System for two TPY-2 and 
        SBX and EMR radars
          <bullet> Equipment to link Cobra Dane radar directly into the 
        ground test architecture
          <bullet> Integration of digital models of Patriot for 
        integration tests
          <bullet> Integration of Patriot Drive Up System Test 
        Facilities for distributed tests
          <bullet> TBD Additional HWIL or digital representations of 
        Terminal High Altitude Area Defense (THAAD)
    In addition, a number of infrastructure enhancements are required 
to increase the capacity and/or the fidelity of the current element 
representations, which will improve the quality & quantity of the 
testing:
          <bullet> To better test ``end game'' capabilities 7V/10V 
        Arnold Engineering space chamber upgrades are necessary for 
        advanced scene projectors
          <bullet> Improvement to service test range communications and 
        operational communications emulations
          <bullet> Dedicated test control infrastructure to support 
        testing with international partners
          <bullet> Portable equipment to support increased data 
        handling requirements when we test in Europe or Japan
          <bullet> VAFB Salvo Launch capability under Flight test
    In the flight test area we will expand our test operating area by 
adding more integrated system flight tests to the Reagan Test Site 
(RTS) to allow more complex, operationally realistic testing and 
explore East Coast range options. Our vision includes developing a 
regional/theater range architecture that leverages existing capability 
at RTS and target launch capability at Wake Island leveraging MDA's 
mobile test infrastructure. To support this vision we will need more 
reliable communications at RTS (which is in work) and Wake Island. 
Additional investments are listed below:
          <bullet> Sea-mobile ship-based telemetry and range safety 
        capability to support off-range testing
          <bullet> Spare tracking sensor system for the common primary 
        sensors on the air-mobile HALO-II and WASP airborne sensor 
        platforms
          <bullet> Need to add an East Coast range item (either 
        feasibility study or Wallops Island expansion for MDA)
    Question. What are the costs associated with those steps?
    Answer.
          <bullet> Aegis Ballistic Missile Defense representations 
        ($0.6M)
          <bullet> Command, Control, Battle Management & Communications 
        (C2BMC) suite dedicated to Ballistic Missile Defense System 
        (BMDS) Integration/Development Testing ($6.5M)
          <bullet> Additional Upgraded Early Warning Radar processes 
        (adds Thule to BMDS) ($1 M)
          <bullet> Radar Data Signal Injection System for two TPY-2 and 
        SBX and EMR radars ($4.8M)
          <bullet> Equipment to link Cobra Dane radar directly into the 
        ground test architecture ($2M)
          <bullet> Integration of digital models of Patriot for 
        integration tests ($1.6M)
          <bullet> Integration of Patriot Drive Up System Test 
        Facilities for distributed tests ($1.4M each, max 3)
          <bullet> TBD Additional HWIL or digital representations of 
        Terminal High Altitude Area Defense (THAAD) ($TBD M)
          <bullet> To better test ``end game'' capabilities 7V/10V 
        Arnold Engineering space chamber upgrades are necessary for 
        advanced scene projectors ($4M)
          <bullet> Improvement to service test range communications and 
        operational communications emulations ($2M)
          <bullet> Dedicated test control infrastructure to support 
        testing with international partners ($4.6M)
          <bullet> Portable equipment to support increased data 
        handling requirements when we test in Europe or Japan ($1M)
          <bullet> VAFB Salvo Launch capability under Flight test ($5M)
          <bullet> Sea-mobile ship-based telemetry and range safety 
        capability to support off-range testing ($15M)
          <bullet> Spare tracking sensor system for the common primary 
        sensors on the air-mobile HALO-II and WASP airborne sensor 
        platforms ($5M)
          <bullet> Need to add an East Coast range item (either 
        feasibility study or Wallops Island expansion for MDA) ($TBD M)

            Testing and Lack of Sufficient Number of Targets

    Question. One of the key limiting factors of MDA's test program has 
been the lack of sufficient number of missile defense targets and the 
inventory of foreign assets.
    Do you currently have a sufficient amount of targets to execute 
your testing program?
    Answer. All of our FY09 planned target missions are under contract 
and all but one of the target FY10 missions (FTG-08) are on contract. 
Barring unforeseen increases to the number of tests, target failures or 
requirements that mandate mission tailoring, we have sufficient targets 
to execute the current test program. The FTG-08 targets mission is in 
negotiation under the existing Lockheed Martin Prime Contract and is 
expected to be definitized by end of 4th Qtr FY09. Because our 
increased investment in backup targets was only started to a very 
limited extent in FY09, we do not have backup targets for all FY10 and 
FY11 missions. We will be re-evaluating our allocations of targets, to 
include backup targets, to flight tests as part of the Agency's on-
going three phase test program review and the development of the 
Integrated Master Test Plan.
    Question. If not, what can we do to improve the number of targets?
    Answer. We have sufficient targets to support the PB09 program but 
the Targets and Countermeasures Program has limited flexibility to meet 
short-term, emergent, or contingency planning requirements. Improving 
opportunities for contingency planning and backup targets was addressed 
in the FY09 Congressional add of $32M that provided for the procurement 
of the LV-2 and an E-LRALT spare. Additionally, we are currently 
evaluating industry responses to our recent request for information to 
complete a business case analysis and consider an alternative 
acquisition strategy for targets due to the significant quality 
problems and high costs of our current targets program.
    Question. Would additional funds in this area be helpful?
    Answer. Yes, additional funding and maintaining a backup inventory 
of target hardware components would minimize target cycle time and 
mitigate risk of critical path schedules. As part of the future 
acquisition strategy development activities the Agency is developing a 
Business Case Analysis (BCA) of multiple acquisition Courses of Action 
against the responses to the January 2009 Request for Information. This 
BCA will include the impacts to the Targets and Countermeasures program 
resulting from the Integrated Master Test Plan (IMTP) replan and the 
Agency's Modeling and Simulation verification activities. The BCA 
results may indicate an opportunity to procure fewer target 
configurations in larger quantities, reducing costs, cycle times and 
improving opportunities for reliability enhancements.
    The Agency received a Congressional add of $32M to support the 
procurement of backup/spare targets in FY09, which was utilized to 
acquire an LV-2 and an E-LRALT spare. With completion of the BCA, an 
optimized procurement strategy may require additional funding in the 
near term to reduce unit costs, establish competitive base, and deliver 
sufficient backup targets to support the revised IMTP through increased 
quantity procurement. A final determination cannot be made until BCA, 
IMTP, and resulting acquisition strategy development in early 4th qtr 
FY09.
    Question. Would having a procurement account be beneficial?
    Answer. No. A procurement account does not offer the flexibility 
required to support providing numerous targets configurations in a 
dynamic environment for the BMDS flight test program. The RDT&E 
appropriation allows the Targets and Countermeasures Program Office the 
degree of flexibility necessary in the testing of the Ballistic Missile 
Defense System.

     Missile Defense Capabilities and Transition to the Warfighter

    Question. Ballistic missiles and technology continue to proliferate 
throughout the world. Some nations are using their developing ballistic 
missile capabilities to threaten their neighbors. Deployed U.S. forces 
have a missile defense capability with PATRIOT and fielding the of 
Standard Missile-3 as the intercept or on the Aegis system. 
Additionally, the Terminal High Altitude Area Defense (THAAD) has 
successfully returned to flight testing and should soon be a deployed 
missile defense asset.
    Looking to the future, how are you working to transition these 
missile defense capabilities to the warfighters and to determine the 
appropriate asset mix of PATRIOTS, Standard Missile-3s, and THAAD 
interceptors.
    Answer. Transition: The Patriot Program was transferred to the Army 
in 2003 by direction of the Patriot Advanced Capability-3 Transfer and 
Medium Extended Air Defense Systems (MEADS) Realignment Plan.
    In 2006, MDA, DOT&E, and the Navy agreed on the plan for 
transitioning Aegis BMD ``Block 04'' capability. In 2007, the Under 
Secretary of Defense for Acquisition, Technology and Logistics (USD 
AT&L) approved the Block 04 capability for entry into the transition 
phase. Operations and Sustainment (O&S) responsibilities for the 18 
Aegis BMD ships and up to 90 Standard Missile 3 (SM-3) Block lA 
missiles were transitioned to the Navy in FY08.
    The BMD 3.6/SM-3 Block lA system was transferred to the Navy in 
October 2008 after the Navy's operational test director recommended 
transfer, having found the system to be operationally suitable and 
effective. Future Standard Missile variants planned for transfer to the 
Navy will be addressed separately as they become technologically 
mature.
    The U.S. Army and MDA signed a Memorandum of Agreement (MOA) on 
January 23, 2009 for the transition of THAAD, AN/TPY-2 radar, and 
Ground Based Interceptors and Ground Systems to the Army. MDA and the 
Army are currently developing the THAAD annex to the MOA which will 
define the event based criteria for the transition of operations, 
support and physical accountability of THAAD firing units to the Army. 
In addition the THAAD annex, will document the roles, responsibilities, 
resources, and schedules as agreed to by MDA and the U.S. Army, is 
expected to be completed by the end of 4th quarter, FY09.
    Asset mix: The Army and Combatant Commanders work together to 
determine the required number of lower-tier PATRIOT interceptors.
    The Joint Capability Mix Study II (JCM II), sponsored by U.S. 
Strategic Command's (USSTRATCOM) Joint Functional Component Commander-
Integrated Missile Defense and the Joint Staff, Force Structure, 
Resources and Assessment Directorate, J-8, and endorsed by the Joint 
Requirements Oversight Council (JROC) in March 2008, determined the 
appropriate mix for the upper-tier THAAD and SM-3 interceptors. The JCM 
II recommended the acquisition of additional THAAD and SM-3 
interceptors to achieve the appropriate mix. The Missile Defense 
Executive Board and the Deputy's Advisory Working Group approved 
resources for the acquisition. The Department is programming these 
procurement quantities thru FY 2015.
    In addition to questions of inventory, MDA addresses warfighter-
desired capabilities through the Warfighter Involvement Process (WIP). 
The Combatant Commanders, coordinated by USSTRATCOM, document their 
desired capabilities in the Prioritized Capabilities List (PCL). MDA 
reviews each PCL entry in terms of affordability, technical difficulty, 
performance versus threat, and schedule, and informs the warfighter of 
its findings via the Achievable Capabilities List (ACL). USSTRATCOM 
presents its assessment of MDA's response via the Capabilities 
Assessment Report (CAR). This process to prioritize MDA's development 
efforts is overseen by the Missile Defense Executive Board (chaired by 
USD (AT&L) and provides key inputs to MDA POM and acquisition strategy.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                           Wednesday, May 20, 2009.

     FISCAL YEAR 2010 DEPARTMENT OF DEFENSE BUDGET OVERVIEW HEARING

                               WITNESSES

HON. ROBERT GATES, SECRETARY OF DEFENSE
ADMIRAL MICHAEL MULLEN, USN, CHAIRMAN, JOINT CHIEFS OF STAFF
HON. ROBERT HALE, UNDER SECRETARY OF DEFENSE, (COMPTROLLER)

                     Opening Remarks of Mr. Murtha

    Mr. Murtha. The committee will come to order.
    We will hold an open hearing on Fiscal Year 2010 Department 
of Defense budget request.
    As the members of the committee are aware, they have held a 
very robust hearing schedule, this is the 32nd of 35 hearings 
this year, and it includes Defense Subcommittee hearings as 
well as those of the Select Intelligence Oversight Committee.
    I would also note this is a historic day, the first time 
that this room has been used for a hearing.
    So, Mr. Secretary, Chairman, you are the first to use this 
room. We are pleased to welcome all three of you to the 
committee. We intend to work with you on your very vigorous 
schedule that you have set up.
    Stop-loss is a very interesting thing, stop-loss. Had to 
fight with the Army. They didn't want it. They argued with me. 
You stepped in, and we got stop-loss started, and we intend to 
continue stop-loss. We got a glowing letter from the White 
House, saying they supported what we are trying to do.
    This committee feels very strongly that if a person was 
extended--and the first thing you said when you became 
Secretary and you came before the committee, you said you 
wanted to stop stop-loss. Well, you weren't able to stop it, 
but at least we are going to be able to give money to the 
people who were extended in what I consider a draft.
    Outsourcing, the committee understands outsourced positions 
cost $44,000 more than comparable civilian positions. Last year 
we put $5 billion in the budget to cut contracting out. We put 
$1 billion for direct hiring. We know you are moving in that 
direction, and we appreciate what is happening.
    Acquisition reform is going to be much more difficult. The 
Congress itself cut a lot of money out of the numbers of people 
in acquisition. We know that has hurt, and we know it is a real 
problem for you; and we want to work with you, trying to get as 
much as we can and get it up to speed as quick as we can.
    Now, I met just yesterday with a contractor who was 
handling tires. This is Michelin hiring all of--they decide who 
gets the tire contracts. It looked very fair; I can't argue 
with the way they were doing it. But it costs us a lot more 
than we hoped, and next time you will be able to do this in-
house. You won't have to go to a contractor in order to do 
that.
    Since last year we have had significant change in the 
national security focus in the United States, and we have a new 
President, and we look forward to working with the 
administration on Iraq and Afghanistan and the rest of the 
world.
    So we appreciate your coming before the committee, Mr. 
Gates, chief and the controller, and turn to Mr. Young for any 
comments he may have.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. I want to add 
my welcome to Secretary Gates, Admiral Mullen and Secretary 
Hale.
    We appreciate your being here today, realizing you have an 
awful lot of work to do. But I think meeting with this 
committee is a very important part of your work, because as you 
know by now, you have no better friends on Capitol Hill than 
the members of this committee on both sides of the aisle.
    We remain committed to ensuring that our military men and 
women have the equipment they need, funding and support for 
training, and whatever is needed to carry out their mission and 
to do so safely.
    Mr. Secretary, you and your staff have described this 
budget as a reform budget. And as we look at some of the major 
decisions, it is easy to see why. The termination of many 
troubled programs, such as the Presidential helicopter, major 
parts of the Army's future combat system and the advanced 
communications satellite, TSAT, just to name a few, shows that 
you are dedicated and committed to reform.
    However, with only 2 percent real growth, even less if you 
consider the shift of funds from the supplemental to the base 
budget, I am not sure how much real progress we are going to be 
able to make, especially as we look at other agencies and see 
double-digit percentage increases.
    Further, the lack of a 5-year plan hampers our ability to 
review this request for the reformed budget it is supposed to 
be.
    While we understand the importance of the QDR, the 
combination of a late-budget submission and no-outyear data, 
while not unusual for the first year of a new administration, 
makes our job a little more difficult.
    Despite these challenges, the subcommittee will continue to 
work with you in a true bipartisan fashion to make sure that we 
have the necessary resources available to you to accomplish 
your mission.
    Further, I appreciate your commitment to our men and women 
in uniform and your willingness to make the difficult decisions 
included in this request, something that is not always easy in 
this environment.
    So, welcome, and I look forward to your comments and your 
testimony, and commit to continuing to work with you in a 
support role as we work through your fiscal year 2010 budget.
    Thank you very much for being here.
    Thank you, Mr. Chairman.

                          Remarks of Mr. Obey

    Mr. Obey. Thank you, Mr. Chairman.
    Gentlemen, I don't have any comments on the year's coming 
budget.
    I do just want to make one observation about the 
supplemental, and I hope that you and the administration 
understand that the number of votes that were cast against the 
supplemental last week, I think, significantly understate the 
concern that a lot of people have in Congress about events in 
Afghanistan and Pakistan.
    I think that virtually all of us understand the 
desirability of trying to stabilize the situation in 
Afghanistan and in Pakistan, and my comments should not be seen 
in any way as questioning the, quote, ``policy decisions'' that 
the administration is making in that arena.
    What I do have substantial doubt about is the capacity of 
the Afghan Government and the Pakistani Government to 
demonstrate that they are useful tools in leading to the 
stabilization of those two countries.
    I do not, in any way, want to see the Congress impose 
deadlines or timelines or conditions on the use of the money 
that we have appropriated for the last year; but I do think we 
have a right, as the legislation does as it left the House, to 
lay out certain standards of conduct or, rather, standards of 
performance that both governments should be meeting in order to 
justify continued support.
    It just seems to me that the American taxpayers have a 
right--when they are pumping this much money in and when so 
many of their sons and daughters are being committed in the 
area, I think they have a right to expect that over the next 
year we will see some significant progress in the focus, 
determination, coherence and sense of purpose of both of those 
governments.
    So I hope that--I don't want to--I don't think it is wise 
for us to be in a position of lecturing either government, but 
I also believe that they need to understand that the patience 
of the American public is not inexhaustible, and if they expect 
us to continue this effort, they need to show a sense of 
purpose and a sense of unity, which, heretofore, they have not 
demonstrated.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Lewis.

                          Remarks of Mr. Lewis

    Mr. Lewis. Thank you very much, Mr. Chairman.
    Secretary Gates, Admiral Mullen, Comptroller Hale, welcome 
to what is a very, very important beginning of your season.
    To say the least, the pressure within the Congress, from my 
perspective, to raise significant appropriations budgets in 
every other piece of government and to put the lid on your 
funding is a challenge that is very real. Frankly, I feel that 
Secretary Gates' appointment should be encouraging to all of us 
who care about really impacting that future and maintaining 
this priority.
    In the meantime, as we go to questions, Mr. Chairman, when 
we get to it, I have a major program I would like to discuss, 
but I will wait until then.
    Mr. Murtha. Mr. Secretary, if you will summarize your 
statement--and, Admiral and Comptroller, we will--without 
objection, we will put your full statements in the record.

                  Summary Statement of Secretary Gates

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, Representative Young, Chairman Obey, members 
of the committee, thank you for inviting us to discuss the 
details of the President's fiscal year 2010 defense budget. 
There is a lot of material here, and I know you have a lot of 
questions, so I will keep my opening remarks brief and focus on 
the strategy and thinking behind many of these recommendations.
    As you suggested, my submitted testimony has more detailed 
information on specific programmatic decisions.
    First and foremost, as Mr. Young indicated, this is a 
reform budget reflecting lessons learned in Iraq and 
Afghanistan. It also addresses the range of potential threats 
around the world now and in the future.
    I was recently in Afghanistan. As we increase our presence 
there and refocus our efforts with a new strategy, I wanted to 
get a sense from the ground level of the challenges and needs, 
so we can give our troops the equipment and support to be 
successful and to come home safely. Indeed, listening to our 
troops and commanders, unvarnished and unscripted, has, from 
the moment I took this job, been the greatest single source of 
ideas on what the Department needs to do both operationally and 
institutionally. As I told a group of soldiers in Afghanistan, 
they have done their job. Now it is time for us in Washington 
to do ours.
    In many respects, this budget builds on all the meetings I 
have had with troops and commanders and all that I have learned 
over the past 2\1/2\ years, all underpinning this budget's 
three principal objectives:
    First, to reaffirm our commitment to take care of the all-
volunteer force which, in my view, represents America's 
greatest strategic asset. As Admiral Mullen says, If we don't 
get the people part of this business right, none of the other 
decisions will matter.
    Second, to rebalance the Department's programs in order to 
institutionalize and enhance our capabilities to fight the wars 
we are in and the scenarios we are most likely to face in the 
years ahead, while at the same time providing a hedge against 
other risks and contingencies.
    And, third, in order to do this, we must reform how and 
what we buy, making a fundamental overhaul of our approach to 
procurement, acquisition and contracting.
    From these priorities flow a number of strategic 
considerations, more of which are included in my submitted 
testimony.
    The base budget request is for $533.8 billion for fiscal 
year 2010, a 4 percent increase over the fiscal year 2009 
enacted level. After inflation, that is 2.1 percent real 
growth. In addition, the Department's budget request includes 
$130 billion to support overseas contingent operations, 
principally in Iraq and Afghanistan.
    I know that there has been discussion about whether this 
is, in fact, sufficient to maintain our defense posture, 
especially during a time of war. I believe that it is. Indeed, 
I have warned in the past that our nation must not do what we 
have done after previous times of conflict on so many occasions 
and slash defense spending. I can assure you that I will do 
everything in my power to prevent that from happening on my 
watch.
    This budget is intended to help steer the Department of 
Defense towards an acquisition and procurement strategy that is 
sustainable over the long term, that matches real requirements 
to needed and feasible capabilities.
    As you know, this year we have funded the costs of the war 
through the regular budgeting process, as opposed to emergency 
supplementals. By presenting this budget, together, we hope to 
give a more accurate picture of the cost of the wars and also 
to create a more unified budget process to decrease some of the 
churn usually associated with funding for this Department.
    This budget aims to alter many programs and many of the 
fundamental ways that the Department of Defense runs its 
budgeting acquisition and procurement processes. In this 
respect, three key points come to mind about the strategic 
thinking behind the decisions:
    First, sustainability. By that I mean sustainability in 
light of current and potential fiscal constraints. It is simply 
not reasonable to expect the defense budget to continue 
increasing at the same rate it has over the last number of 
years. We should be able to secure our Nation with a base 
budget of more than a half a trillion dollars, and I believe 
this budget focuses money where it can more effectively do 
that.
    I also mean sustainability of individual programs. 
Acquisition priorities have changed from Defense Secretary to 
Defense Secretary, administration to administration, and 
Congress to Congress. Eliminating waste, ending requirements 
creep, terminating programs that go too far outside the line 
and bringing annual costs for individual programs down to more 
reasonable levels will reduce this friction.
    Second, balance. We have to be prepared for the wars we are 
most likely to fight, not just the ones we have traditionally 
been best suited to fight or threats we conjure up from 
potential adversaries who in the real world also have finite 
resources.
    As I said before, even when considering challenges from 
nation-states with modern militaries, the answer is not 
necessarily buying more technologically advanced versions of 
what we built on land, sea and in the air to stop the Soviets 
during the Cold War.
    And finally there are the lessons learned from the last 8 
years on the battlefield and perhaps, just as importantly, 
institutionally at the Pentagon. The responsibility of this 
Department, first and foremost, is to fight the Nation's and 
win the Nation's wars, not just constantly prepare for them. We 
have to do both. In that respect, the conflicts we are in have 
revealed numerous problems that I am working to improve, and 
this budget makes headway in that respect.
    At the end of the day, this budget is less about numbers 
than it is about how the military thinks about the nature of 
war and prepares for the future, about how we take care of our 
people and institutionalize support for the warfighter in the 
long term, about the role of the services and how we can buy 
weapons as jointly as we fight, about reforming our 
requirements and acquisition processes.
    I know that some of you will take issue with individual 
decisions. I would ask, however, that you look beyond specific 
programs and, instead, at the full range of what we are trying 
to do, at the totality of the decisions and how they will 
change the way we prepare for and fight wars in the future.
    As you consider this budget and specific programs, I would 
caution that each program decision is zero sum, a dollar spent 
for capabilities excess to our real needs is a dollar taken 
from capability that we do need, often to sustain our men and 
women in combat and bring them home safely.
    Once again, I thank you for your ongoing support of our men 
and women in uniform, and we look forward to your questions.
    [The statement of Secretary Gates follows:]

    [GRAPHIC] [TIFF OMITTED] T6285B.057
    
    [GRAPHIC] [TIFF OMITTED] T6285B.058
    
    [GRAPHIC] [TIFF OMITTED] T6285B.059
    
    [GRAPHIC] [TIFF OMITTED] T6285B.060
    
    [GRAPHIC] [TIFF OMITTED] T6285B.061
    
    [GRAPHIC] [TIFF OMITTED] T6285B.062
    
    [GRAPHIC] [TIFF OMITTED] T6285B.063
    
    [GRAPHIC] [TIFF OMITTED] T6285B.064
    
    [GRAPHIC] [TIFF OMITTED] T6285B.065
    
                  Summary Statement of Admiral Mullen

    Admiral Mullen. Mr. Chairman, Mr. Young, Mr. Obey, Mr. 
Lewis, distinguished members of this committee, thank you for 
the opportunity to appear before you here today.
    Let me start off by saying. I not only support the 
President's fiscal year 2010 budget submission for this 
Department, but more specifically, the manner in which 
Secretary Gates developed it. He presided over a comprehensive 
and collaborative process, the likes of which, quite frankly, I 
have not seen in more than a decade of doing this sort of work 
in the Pentagon. Over the course of several months and a long 
series of meetings and debates, every service chief and every 
combatant commander had a voice and every single one of them 
used it.
    Now, normally, budget proposals are worked from the bottom 
up with each service making the case for specific programs and 
then fighting it out at the end to preserve those that are most 
important to them. This proposal was done from the top down. 
Secretary Gates gave us broad guidance, his overall vision, and 
then he gave us the opportunity to meet it.
    Everything was given a fresh look and everything had to be 
justified. Decisions to curtail or eliminate a program are 
based solely on its relevance and on its execution. The same 
can be said for those we decided to keep, and I can tell you 
this: None of the final decisions were easy, but all of them 
are vital to our future.
    It has been said that we are what we buy. I really believe 
that. And I also believe that the force we are asking you to 
help us buy today is the right one, both for the world we are 
living in and the world we may find ourselves living in 20 to 
30 years down the road.
    This submission before you is just as much a strategy as it 
is a budget. And let me tell you why I believe that. First, it 
makes people our top strategic priority. I have said many times 
and remain convinced the best way to guarantee our future 
security is to support our troops and their needs and the needs 
of their families.
    It is the recruit-and-retain choices of our members and 
their families and, quite frankly, the American citizens writ 
large that will make or break the all-volunteer force. They 
will be less inclined to make those decisions should we not be 
able to offer them viable career options, adequate health care, 
suitable housing, advanced education and the promise of a 
prosperous life long after they have taken off the uniform.
    This budget devotes more than a third of the total request 
to what I would call the people account, with the great 
majority of that figure, nearly $164 billion, going to military 
pay and health care. When combined with what we plan to devote 
to upgrading and modernizing family housing and facilities, the 
total comes to $187 billion, $11 billion more than we asked for 
last year, and almost all of that increase will go to family 
support programs.
    I am particularly proud of the funds we have dedicated to 
caring for our wounded. There is, in my view, no higher duty 
for this Nation or for those of us in leadership positions than 
to care for those who sacrifice so much and who must now face 
lives forever changed by wounds both seen and unseen. I know 
you share that feeling, and I thank you for the work you have 
done in this committee and throughout the Congress to pay 
attention and support these needs.
    And I would add to that the families of the fallen. Our 
commitment to them must be for the remainder of those lives. 
That is why this budget allocates funds to complete the 
construction of additional wounded warrior complexes, expands a 
pilot program designed to expedite the processing of injured 
troops through the disability evaluation system, increases the 
number of mental health professionals assigned to deployed 
units and devotes more resources to the study and treatment of 
post-traumatic stress and traumatic brain injuries.
    After nearly 8 years of war we are in the most capable and 
combat-experienced military we have ever been, certainly, 
without question, the world's best counterinsurgency force. Yet 
for all this success, we are pressed and still lack a proper 
balance between op tempo and home tempo, between coin 
capabilities and conventional capabilities, between readiness 
today and readiness tomorrow.
    And that, Mr. Chairman, is the second reason this budget of 
ours acts as a strategy for the future. It seeks balance by 
investing more heavily in critical enablers such as aviation, 
special forces, cyber operations, civil affairs and language 
skills. It rightly makes winning the wars we are in our top 
operational priority. By adjusting active Army BCT growth to 45 
it helps ensure our ability to help impact the fight sooner, 
increase dwell time and reduce overall demand on equipment. And 
by authorizing Secretary Gates to transfer money to the 
Secretary of State for reconstruction, security or 
stabilization, it puts more civilian professionals alongside 
warfighters in more places like Iraq and Afghanistan.
    Having just returned from a trip to Afghanistan, I can 
attest to the critical need for more civilian capacity. I was 
shocked to learn there are only 13 U.S. civilian development 
experts in all of southern Afghanistan, where the Taliban 
movement is strongest and the local economy is almost entirely 
dependent on opium production. We have twice that many working 
in the relatively peaceful Kurdish region of northern Iraq.
    I have said it before, but it bears repeating, more boots 
on the ground are important, but they are not the complete 
answer. We need people with slide rules and shovels and 
teaching degrees, bankers and farmers and law enforcement 
experts. As we draw down responsibly in Iraq and shift the main 
effort to Afghanistan, we need a more concerted effort to build 
up the capacity of our partners.
    The same can be said of Pakistan where boots on the ground 
aren't even an option, where helping the Pakistani forces help 
themselves is truly our best and only recourse.
    Some will argue this budget devotes too much money to these 
sorts of low-intensity needs, that it tilts dangerously away 
from conventional capabilities. It does not. A full 35 percent 
of the submission is set aside for modernization, and much of 
that will go to what we typically consider conventional 
requirements. We know there are global risks and threats out 
there not tied directly to the fight against al Qaeda and other 
extremist groups, and we are going to be ready for them.
    In all this, Mr. Chairman, we are also working hard to fix 
a flawed procurement process. More critically, in my view, the 
Nation is getting the military it needs for the challenges we 
face today and the ones we will likely face tomorrow.
    Thank you and this committee for your continued support of 
that important work and for all you do to support the men and 
women of the United States military and their families.
    [The statement of Admiral Mullen follows:]
    [GRAPHIC] [TIFF OMITTED] T6285B.066
    
    [GRAPHIC] [TIFF OMITTED] T6285B.067
    
    [GRAPHIC] [TIFF OMITTED] T6285B.068
    
    [GRAPHIC] [TIFF OMITTED] T6285B.069
    
    [GRAPHIC] [TIFF OMITTED] T6285B.070
    
    [GRAPHIC] [TIFF OMITTED] T6285B.071
    
    [GRAPHIC] [TIFF OMITTED] T6285B.072
    
    [GRAPHIC] [TIFF OMITTED] T6285B.073
    
    [GRAPHIC] [TIFF OMITTED] T6285B.074
    
    [GRAPHIC] [TIFF OMITTED] T6285B.075
    
    [GRAPHIC] [TIFF OMITTED] T6285B.076
    
    [GRAPHIC] [TIFF OMITTED] T6285B.077
    
    [GRAPHIC] [TIFF OMITTED] T6285B.078
    
    [GRAPHIC] [TIFF OMITTED] T6285B.079
    
    [GRAPHIC] [TIFF OMITTED] T6285B.080
    
    [GRAPHIC] [TIFF OMITTED] T6285B.081
    
    [GRAPHIC] [TIFF OMITTED] T6285B.082
    
    [GRAPHIC] [TIFF OMITTED] T6285B.083
    
    [GRAPHIC] [TIFF OMITTED] T6285B.084
    
    [GRAPHIC] [TIFF OMITTED] T6285B.085
    
    [GRAPHIC] [TIFF OMITTED] T6285B.086
    
    [GRAPHIC] [TIFF OMITTED] T6285B.087
    
                        PRESIDENTIAL HELICOPTER

    Mr. Murtha. Mr. Hale.
    Mr. Hale. I don't have a prepared statement.
    Mr. Murtha. Well, let me tell the committee, we only have 
until 1,500, according to Admiral Mullen, 3 o'clock.
    But--I am not going to ask any questions, but I just want 
to say about this Presidential helicopter, if it is true it is 
going to cost us $555 million, which is 5,000 man-hours at 
$100,000 a year, I think we have to relook at the first phase 
of that. And I hope we can work together in some form to come 
up with a helicopter to not only take care of the President, 
but to take care of that very vital need.
    Mr. Obey.
    Mr. Obey. Mr. Chairman, I will pass.
    Mr. Murtha. Mr. Young.

                            MISSILE DEFENSE

    Mr. Young. On the Presidential helicopter, I have spent 
quite a bit of time reviewing the options, and I think there 
are some good options that should be available to the President 
and the President's party, and I am hopeful that we can work 
out something that will accommodate the needs and the financial 
requirements.
    And Mr. Murtha and I have spent a lot of time talking with 
each other on this subject, and it is an important subject.
    But I want to ask you today specifically about missile 
defense. And the reason I do is because of the latest firing of 
the longer-range missile by Iran and Ahmadinejad's continuing 
rhetoric about threats to our friends and allies in the region.
    I note that the missile defense budget would be reduced 
somewhat, which I think maybe doesn't put us in as strong a 
case for the booster-phase launches, but that is something we 
will work on.
    But I want to go to the issue of our radar sites and our 
interceptor sites in Europe, specifically in the Czech Republic 
and in Poland.
    I understand now, based on some of the comments from the 
administration, that the parliaments of both countries are 
considering whether or not to proceed with the agreement that 
we thought we had, in view of maybe they have a question about 
what our intentions really are. So talk to us a little bit 
about the missile defense sites, the radar and the interceptors 
in Europe that would be very, very important not only to our 
friends and allies, but to American troops deployed in that 
region.
    Secretary Gates. I would be happy to, Mr. Young.
    We took the money out for the third site in the fiscal year 
2010 budget because we have enough money left over for this 
purpose in the 2009 budget to be able to cover any potential 
costs, to go ahead and begin construction on both the radars 
and the interceptors, the radars in the Czech Republic and the 
interceptors in Poland.
    As I am sure you know, the Czech Government that agreed to 
the radars has fallen, and they are going to have an election, 
I guess this summer or this fall.
    They have to, under the statutes passed by the Congress--
both the Czech Republic and Poland have to pass both a status 
of forces agreement and the agreements on the sites before any 
money can be sent on construction. And so, depending on how the 
Czech election comes out, we will see how that goes.
    There is considerable interest, I would say, in the 
administration in pursuing the third site, but I would say also 
there is great interest--which, frankly, I have been working on 
for 2 years--to see if we can partner with the Russians and see 
if we can make this, in effect, a quadripartite effort of 
Poland, the Czech Republic, the Russians and ourselves. The 
reality is that the radar located in Russia supplementing those 
in the Czech Republic would give additional capability to the 
sites in Europe.
    So we have the money, we need to see what the Czech 
Republic does in their elections. And I might add that, in 
parallel with the Quadrennial Defense Review, the Department of 
Defense is carrying out a Missile Defense Review that will 
address the role of the third site in the overall program.
    So I think we have got the money and we just need to see 
how the politics in Eastern Europe go.
    Mr. Young. Mr. Secretary, I understand those issues, and I 
think that you are approaching them in the proper way.
    In the statement by Ahmadinejad on their missile fire, he 
said it was a very successful flight and that it hit the target 
exactly as they intended. Can you comment whether that is 
accurate, whether there was a successful flight?
    Secretary Gates. The information that I have read indicates 
that it was a successful flight test. The missile will have a 
range of approximately 2,000 to 2,500 kilometers. Because of 
some of the problems they have had with their engines, we think 
at least at this stage of the testing, it is probably closer to 
the lower end of that range.
    Whether it hit the target that it was intended for, I have 
not seen any information on that. I don't know if the Admiral 
has any.
    Admiral Mullen. No, sir.
    Mr. Young. Thank you very much.
    In view of our limited time available, a lot of questions 
on shipbuilding, aircraft production, tankers, a lot of 
important issues, but I know a lot of other members want to 
talk about those issues.
    So, Mr. Chairman, I would yield back.
    Mr. Murtha. Mr. Dicks.

                        PRESIDENTIAL HELICOPTER

    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. Washington State is 
still out there, I want you to know.
    Admiral, good to see you and Mr. Hale.
    On the Presidential helicopter, you know, this decision, I 
hadn't been involved in this program and hadn't followed it, 
but the only question I have is, it appears that there was a 
certain amount of money that has been spent, around $3 billion; 
and we developed a number of helicopters that didn't have the 
full capability that the final helicopters were going to have.
    Is there any way to salvage those first four or five 
helicopters and use them for some purpose?
    Secretary Gates. Those helicopters, if we completed them, 
first of all, they have a relatively limited life span--10 
years, something like that. The current helicopters have a 
useful life span of about 30 to 40 years.
    There is minimum capacity on the Increment 1 helicopters to 
add capabilities. So even if you bought those helicopters, you 
would almost immediately have to begin a new helicopter program 
to begin addressing the requirements that the White House has 
had, that were posited under the previous administration.
    Now, I would just tell you that, first of all, those 
helicopters amortized would be about a billion dollars apiece. 
And I just--you have heard the President speak on this. The 
reality is, in some respects, those new Increment 1 helicopters 
have less capability than the current helicopter. With 10 
passengers, the VH-71 has only 55 percent of the range of the 
VH-3, the existing helicopter.
    Mr. Murtha. Would the gentleman yield?
    Mr. Dicks. I yield.
    Mr. Murtha. How could we get this far? How could we spend 
all this taxpayer money and now finally decide it has less 
capability than the other helicopter?
    Secretary Gates. Well, the first increment of five or six 
were intended as an increment leading to the second increment, 
which would have all the new capabilities.
    The second--to complete the program through the second 
increment, first of all, it is already 6 years overdue--but it 
would cost $13 billion to finish it out.
    So the first increment was never intended to have the 
capabilities and meet the full requirements that the second 
increment would. But the truth of the matter, Mr. Chairman, is 
that this program is a poster child for an acquisition process 
gone seriously wrong.
    Mr. Dicks. So what do we do? Are we just going to use the 
existing helicopters?
    Secretary Gates. No. First of all, we have programs under 
way to extend the life of the President's--the current 
Presidential helicopters. And the termination cost of the VH-71 
plus the cost of additional life extension, which would 
actually take these helicopters for another decade or more, is 
$1.2 billion. And our intent is immediately to sit down with 
the White House and look at the requirements and come up with a 
new program that will be reasonable and meet the requirements.
    And I will tell you, one of the ideas that I heard this 
morning that I think is worth pursuing. What we may have tried 
to do in this VH-71 is put too many requirements, too high 
requirements on a single kind of aircraft in terms of 
protections and the number of passengers and so on and so 
forth.
    So one idea is that you look at two different helicopters, 
that you look at one that the President basically uses here in 
town to go to Andrews and on regular trips here in the United 
States and things like that; and an escape helicopter that has 
different kinds of capabilities and that could perhaps be a 
modified kind of helicopter that we use now in combat.
    So we are going to be looking at a lot of different ideas 
on how we can get this program back on track, get a 
Presidential helicopter program back into the budget, and get 
the President and his successors' helicopters within a 
reasonable period of time.
    Mr. Dicks. Thank you, Mr. Chairman. We have limited time so 
I want to make sure everybody gets a chance.
    Mr. Murtha. Mr. Secretary, I lined up 13 people, two from 
the White House, telling them: Why does this cost this much? It 
is the White House that put these requirements on, from the 
former administration. They said, Well, we will push it over to 
the Obama administration.
    But it is going to cost more than $1.3 billion, you can be 
assured, because I have never seen an estimate yet that didn't 
cost a lot more. So I wish you would really look at the present 
money we have spent to see if we can't adapt something to that.
    Mr. Lewis.

                    PAKISTAN COUNTERINSURGENCY FUND

    Mr. Lewis. Thank you, Mr. Chairman.
    Admiral Mullen, you and I have communicated a bit about the 
priority that this committee feels relative to our challenges 
in Pakistan. Our initial communications suggested that the 
administration was on the right track, that is, they are asking 
for redirection of funding to Pakistan to help stabilize that 
government. The administration's direction, I thought, was 
appropriate.
    The 2010 decisions made by this committee would take us off 
that course; that is, for 2010, they would have money to go 
into Pakistan handled through the State Department. I would 
like to have both the Secretary and Admiral Mullen give us the 
administration view on this for the record in this committee 
here.
    Secretary Gates. The proposal that we have put forward for 
this, if you are speaking about the Pakistan Counterinsurgency 
Fund--which was $400 million in the 2009 supplemental, and our 
request is for $700 million in the 2010 budget--what we have 
proposed is that it be voted in the 2009 supplemental as a 
Department of Defense fund, but obviously with a dual key for 
the Secretary of State.
    For 2010, the basic problem is that State lacks the 
authorities and the capacities to implement this program. So 
what we have suggested, because of concern in the House Foreign 
Affairs Committee and elsewhere, is that for fiscal year 2010, 
the money be directed to the State Department as a pass-through 
to the Department of Defense, but at least the money would come 
through the State Department. And our hope would be that it 
would come through without restriction, so we have maximum 
flexibility and agility, as we do when we implement these 
programs, and that it doesn't become subject to all the 
restrictions and so on of the Foreign Assistance Act and so on 
and so forth.
    Then, in 2011, we would hope that during 2010, the Congress 
and the State Department could work together to make sure the 
State Department had the authorities and the capacity to 
implement this program; but the idea would be that beyond 2010 
this program would be increasingly run through the State 
Department in partnership with us. And we still anticipate that 
a substantial part of the money would come to us just because 
of the nature of the projects, but this would allow for the 
State Department to basically receive the money.
    Mr. Lewis. Admiral Mullen.
    Admiral Mullen. If I could just add, I think one of the 
most important parts of this, in a bridge strategy to get to 
that point, is speed of execution.
    And I think, Mr. Obey, to your point earlier about both 
visibility and understanding the American people, we have in 
DOD mechanisms to put this money to work right away.
    And, in Pakistan, there is, I believe, a requirement for 
patience on the part of us in dealing with them. And yet I know 
there are, in many places, strong feelings that we have got to 
get moving quickly.
    So what we asked for, no, not what the Secretary laid out, 
is a strategy to be able to execute as quickly as possible on 
the ground, and the vast majority of this money is military 
money. And keeping that in mind is what makes me think that 
this strategy that Secretary Clinton and Secretary Gates had 
worked out is the right strategy.
    Mr. Lewis. But it occurs to me, as we go forward towards 
conference, following regular order, we are going to really 
want to have your help paying careful attention to the language 
that actually ends up being in conference regarding this 
matter.
    I personally believe it is a defense matter, and State 
Department, as of this moment at least, doesn't have the 
capacity to follow through. So I appreciate your statement.

                            KEI TERMINATION

    Moving to one other question, the kinetic energy 
interceptor, as you know, KEI, the program has been terminated 
in the fiscal year 2010 budget and the Missile Defense Agency 
is moving fast to shut it down. In fact, a stop-work order was 
issued on May 11, 2009, for the program. I am told that they 
will immediately begin the termination process, and the program 
will be destaffed by July 1.
    In partnership with the Department of Defense, Congress has 
supported the requested budgets for KEI. In past years, 
Congress went beyond that and requested and provided the 
Department with additional dollars to accelerate this critical 
boost-phase capability. In total, the Department has expended 
more than $1 billion towards this effort to date in providing 
the Nation with a technically viable solution to boost an 
ascent engagement of a ballistic missile targeted at our 
country or at our troops.
    Six years of development and testing, with most of the more 
than $1 billion in funding spent to date, was to culminate in 
the first booster flight of 2009, less than 5 months from now. 
With the issuance of the stop-work order, the Department is 
walking away from this development without the benefit of 
knowing what the technology has to offer.
    Why would the Department kill the program 4 months before 
its booster flight? Why not allow the program to execute the 
fiscal year 2009 funds?
    Secretary Gates. Actually, this is one decision that I 
can't take credit for. The Missile Defense Agency itself, last 
fall during the Bush administration, essentially eliminated the 
kinetic energy interceptor from its fiscal year 2010 POM.
    And the reasons for that are as follows: First of all, this 
was to have been a 5-year development program, and it now looks 
like it is about a 16-year development program. As you suggest, 
there has not been a single flight test. There are a couple 
more static tests, as I understand it, that have to take place 
before a test of the booster. There has been little work on the 
third stage or the kill vehicle, which are obviously critical.
    But a big part of the problem with this program is that it 
needs to be close to the launch site to be able to be 
effective. And so the only potential country where it could 
have a role with some confidence would be North Korea. It has 
poor capability against Iran and virtually no capability 
against either Russia or Chinese launch facilities. And so you 
have a very limited capability here at considerable cost.
    The other problem we have is that we don't know what to put 
it on. The missile is 38 or 39 feet long. It weighs 12 tons. 
There is no extant ship that we could put it on; we would have 
to design a new ship to put it on. And as I say, it would have 
to operate in close proximity to the territorial waters of 
these countries.
    So for all these reasons, the decision has been made that 
this is not a productive way to look at the booster problem.
    General Cartwright and I were here on the Hill this 
morning, talking to several Senators about this program; and 
the fact is, we have a very strong and very capable terminal 
phase missile defense. And it is getting better, and this 
budget devotes a lot of money to that program, to make it even 
more robust.
    We have a strong ground-based interceptor program in Alaska 
and California, mid-course intercept program. And we are going 
to keep funding the development of that to keep improving that 
capability.
    The boost phase is really the hardest, and that is because 
you either have to have an extremely powerful beam or you have 
to be fairly close to the source of the launch. And, frankly, 
the airborne laser is another example where the technology is 
lagging very far behind what were decisions to go ahead with an 
operational concept and a procurement program. On the boost 
phase, we got way out in front of our headlights in terms of 
going forward with a procurement program before we really had 
mastered the technology.
    And so we have a number of programs. One of the reasons I 
am keeping the first, the prototype airborne laser, is to keep 
working the directed energy kind of solution to the boost-phase 
program. But overall, all these things considered, I think that 
is why the Missile Defense Agency made this decision actually 
last fall.
    Mr. Lewis. Mr. Secretary, the chairman has already 
expressed the reality that $1 billion here, $1 billion there, 
sometimes it gets very expensive. In this program area, we have 
seen the Department go in several directions over a reasonably 
short period of time and the taxpayers' moneys have been spent 
in the meantime.
    So I would hope that you would recognize the committee does 
have some priority in this item and want to hear more from you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky.

                       INDEPENDENT COST ESTIMATES

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentlemen, thank you very much. And as Mr. Young indicated, 
I have a number of areas of concern that, as questions are 
answered for the record, I would be focused on. One is the 
Joint Strike Fighter alternative engine; the others are your 
shipbuilding programs.
    But for this afternoon, I have two questions for you, Mr. 
Secretary. The first is on acquisition program costs.
    Although the Department of Defense is required by law to 
conduct an independent cost estimate on major acquisition 
programs; these programs can be funded to lower confidence 
levels of the estimates, presumably to fit more program within 
a given year's request.
    Recent examples of programs that have not been funded to 
full independent cost estimates include the DDG-1000 program, 
the Joint Strike Fighter, the Advanced Extremely High Frequency 
Satellite program, the CVN-21 aircraft carrier, the VH-71 
helicopter that has been spoken about.
    When the inevitable cost growth is realized, it creates 
ripples throughout the rest of the budget, and somewhere moneys 
have to be shifted to pay for the growth. Funding these major 
acquisition programs to their full cost estimates from their 
inception might, as the alternative, go a long way toward 
creating more stability in the budget.
    In the manager's statement for the fiscal year 2009 bill, 
this committee asked for a report and the Department was 
forthcoming. The Department indicated that in 2004 only 13 of 
29 major acquisition programs were funded to the independent 
cost estimate level.
    My question is, do you not find the disruption caused by 
these faulty estimates--and there has been a protracted 
conversation this afternoon on one of those--to be much more 
severe than the constraints you would face if you had, 
hopefully, more accurate cost estimates going forward, even 
though they might be higher?
    Secretary Gates. Let me respond, and then the Admiral, who 
probably has more direct experience with this sort of thing 
than I do.
    I think this is really one of the focuses of the 
acquisition reform, both the bills here in the Congress and our 
efforts in the Department itself. And I think one of the 
innovations in the legislation that is moving is to get at the 
question of better cost estimates and more reliable cost 
estimates, along the lines that you are describing.
    Admiral Mullen. I have been on both ends of this problem, 
both--if you talk about the 13 or 24 programs, and I don't know 
what that list is right now. But I have seen programs that have 
been, I think, funded to the full estimate and, in fact, 
sometimes that becomes a self-fulfilling prophecy, because it 
was--because that estimate was out there, we figure out a way 
to spend that money. I have also seen programs that were 
underfunded, below the full cost estimate, in order to put 
pressure on them.
    And so that is to say, for me, there is no magic bullet 
here about just getting the cost estimate right. I think it is 
the totality of the acquisition approach that has got to be 
taken into effect, taken into consideration, which includes 
accurate cost estimates; holding people accountable, once we 
get to a point where we agree, this is what the cost should be; 
holding requirements down, which has a tendency to make cost 
estimates, whatever they are, whether they are underestimated 
or fully estimated, explode; and it speaks to the need of the 
entire requirements process, as well as getting at all of 
acquisition.
    There are examples on every end of the spectrum here, but 
the need to get good cost estimates and properly assess risk in 
programs at the right time is absolutely critical.
    Mr. Hale. May I add one thought to that.
    I can assure you that we see that cost analysis improvement 
group numbers in the intended group you are referring to, in 
all the cases. So they do enter the debate and they are fully 
considered. And as the comptroller, I will continue to ensure 
that happens in the future.

                        NUCLEAR WEAPON STRATEGY

    Mr. Visclosky. Thank you.
    My final question relates to my service on another 
subcommittee and that is the Energy Subcommittee along with Mr. 
Frelinghuysen. As you know, we have jurisdiction over the NNSA 
and the nuclear weapons program. That budget for the weapons 
program is about $6.3 billion and obviously we have 
nonproliferation.
    For fiscal year 2008 and fiscal year 2009, we have been 
adamant that before the Department of Energy, that does not 
have a stellar track record as far as managing major 
construction projects, goes down the road as far as 
reconfiguring the complex, we would want to have a strategy in 
place formulated by yourselves, the Intelligence Community, the 
Department of Energy, as far as the proposed use of nuclear 
weapons, conventional weapons, non-kinetic means to protect 
ourselves going forward, realizing that the world changes every 
day.
    The point of that is, before we would provide moneys for 
the Department of Energy, we would want to know a strategy and 
then the types and numbers of nuclear weapons that fit the 
strategy you determine, which would then lead us to make 
sounder financial decisions for the Department of Energy.
    The concern I have is Defense doesn't pay for that complex 
over at Energy, and I am just wondering where you are with that 
strategy. I know you have the Nuclear Posture Review coming, 
but I must tell you, Mr. Secretary, I am not just looking for 
that annual report, if you would, but some confidence before we 
start down that road with the Department of Energy that there 
is a sense of a strategy in the world we exist in today. And 
you have made some very difficult decisions on programs already 
at Defense--as to what are those weapons types, what are their 
numbers? Then we would be happy to proceed with Department of 
Energy.
    Secretary Gates. Well, I think that, as you suggest, the 
key here in terms of the administration having an overall and 
longer-term strategy----
    Mr. Visclosky. And just parenthetically, not for the Obama 
administration any more than we asked for it for the Bush 
administration, but one that as a government we would proceed 
with.
    Secretary Gates. I understand. And I think that the basis 
for an administration review of these policies and development 
of a strategy will be the Quadrennial Defense Review and the 
Nuclear Posture Review. These are being compressed in time 
because I want the conclusions available to be able to help 
shape the fiscal year 2011 budget.
    So I am hoping that by the end of the summer or very early 
in the fall, we would have the information available, the 
analysis available to us not only to help shape a longer-range 
administration strategy in this area, but to inform the kind of 
decisions you are talking about.
    Mr. Visclosky. I appreciate that and would encourage you in 
that good work. The strategy is obviously important and 
critical for the Department of Energy. So I thank you very 
much.
    Thank you, Mr. Chairman.

                       ACQUISITION PROGRAM COSTS

    Mr. Murtha. Mr. Secretary, I think it goes beyond even the 
cost estimates. LCS is a perfect example of that. The Navy said 
we could build it for $188 million; it went way beyond it. I 
remember saying at the time, you will never build that ship for 
$188 million. And there are all kinds of examples where the F-
22 they said we are going to build 600 of them so that gets the 
cost down per unit.
    I think we have to have the departments be more honest when 
they are putting forward these projections. And then industry 
counts on the requirements changing, and so they can up the 
price. I mean, it is not simple, but I think that is the 
complicated part of this problem.
    Secretary Gates. It is, as Admiral Mullen said, a 
combination of several things; it is more realistic cost 
estimating, it is better control of the requirements anybody 
who ever added a room onto their house knows what happens when 
you change the specs. And that is what happens with these big 
weapons systems; people keep adding requirements and it keeps 
driving the cost up. We need better execution in the Department 
of Defense, and we need to negotiate better contracts.
    Mr. Murtha. Well, the taxpayer has to pay the bill, and 
that is our problem. And so we wish you well and we want to 
work with you in trying to get this thing under control.
    Mr. Lewis was deeply involved in the F-22, and the 
Department fought him tooth and nail because he wanted to make 
sure that the research was done before we put the thing out 
there in the field for production. And we had one hell of a 
fight with the Senate and other people.
    Mr. Frelinghuysen.

                        NEW AFGHANISTAN STRATEGY

    Mr. Frelinghuysen. Thank you, Mr. Chairman. And gentleman, 
thank you for your service.
    Now that the President has made his decision and outlined a 
new strategy for Afghanistan and directing more troops we need 
to support those troops--I worry about the drumbeat that 
accompanied our efforts in Iraq, the drumbeat for 6 years that 
we should withdraw from Iraq; sort of the issue of timetables 
or benchmarks. I am afraid we are going to--and maybe this is 
what Chairman Obey was alluding to--we are going to get the 
same sort of refrain in Afghanistan.
    I would like to know where you think our involvement in 
Afghanistan is going. Obviously we are going to be supportive 
of our troops, the President's mission, but how is this going 
to turn out? And do we have the resources, do we have enough 
soldiers to do the job? And do they have the capacity, with 
enough equipment, to be successful in their mission?
    Secretary Gates. This is one we should both take a crack 
at.
    It actually was a view of mine, as we were putting together 
the Afghan/Pakistan strategy, that the administration needed to 
develop its own measures of effectiveness so that we could 
evaluate over a period of time whether we were actually making 
progress or not, and so we weren't rolling our goals in front 
of us and pretending we were making progress when maybe we 
weren't. So part of this process has been an interagency 
development of measures of effectiveness--benchmarks, whatever 
you want to call them--to see how we can measure progress.
    My own view, sir, is that I think that there needs to be, 
on the part of the administration at least, an evaluation of 
where we are about next March or April, to see if we have begun 
to change the momentum in some respects, to see if we are 
making progress. And I think future decisions in terms of 
troops and things like that should depend on that.
    I think that even if this goes well, it is a multiyear 
undertaking. The way we would see it evolving is, in many 
respects, the way it has evolved in Iraq, which is Iraqis 
increasingly taking more and more responsibility for security, 
and our taking a narrower and narrower view until finally we 
leave; and that the same thing would happen in Afghanistan, 
which is one of the reasons there is money in this budget for 
supporting the expansion of the Afghan Army.
    I will tell you that I think our troops have the equipment 
that they need. In terms of the numbers of the troops, my 
experience on this is shaped very much by my experience in CIA 
and fighting the Soviets in Afghanistan in the 1980s, where the 
Soviets, with 110,000, 120,000 troops, didn't care about 
civilian casualties and they still lost. And so in a country 
like Afghanistan--I think each of these countries has to be 
taken one at a time in terms of what the traffic will bear and 
at what level of foreign troops do we become, instead of 
partners and allies, do we become seen as occupiers by the 
Afghan people?
    So, personally, I am going to take some convincing in terms 
of going significantly beyond the troop levels the President 
has already approved. But I think that these troops are flowing 
in now. I think we will see them make a difference. And I am 
confident that they are going to do a great job.
    Admiral.
    Admiral Mullen. I have confidence in the strategy. I think 
we need the benchmarks or the measures so that we can 
accurately assess where we are and adjust. And doing that 
towards the end of this year and the first part of next year, I 
think is absolutely critical.
    We do have enough people. I think the strategy is about 
right. It also offers, I think, great potential for success in 
terms of what we have learned in Iraq, rolling those lessons 
in, whether they are how to move through this, recognize it is 
not all about military, that we can't forfeit the security of 
the same people that we are trying to protect, and that we have 
got to have a development program and we have got to have a 
rule of law governance program that is delivering capability to 
the Afghan people.
    I think we have got to work rapidly this year and next to 
stem the violence and to start to turn this around. And I think 
that is doable with the troops the President has supported so 
far.

                       AFGHANISTAN SUPPLY ROUTES

    Mr. Frelinghuysen. It is ironic that we are depending on 
the Russians for two supply routes, the other route being the 
Khyber Pass. The Russians lost in Afghanistan and have made 
life so difficult for us in Kyrgyzstan, that we would rely on 
the people who lost to Afghanistan earlier. And I hope that we 
have a greater degree of reliability because, obviously, to 
supply our troops, those overland routes are pretty vital to 
us.
    Secretary Gates. And we have developed some alternatives to 
those as well.
    I think one should not underestimate Russia's concern about 
Afghanistan being taken over again by the Taliban and being a 
refuge for violent extremists, and especially religious 
extremists. And also the Russians are seeing firsthand the 
consequences of the drug flow out of Afghanistan, and that is a 
big concern to them.
    Mr. Frelinghuysen. Thank you, both.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Moran. Thank you, Mr. Chairman.
    All of the subject matter that has been addressed today is 
of great interest and importance.
    I want to bring you back home a bit though, if I could, Mr. 
Secretary, to the BRAC decisions. I had voted against the 2005 
BRAC realignment because I thought that the operational 
benefits were grossly overstated and the costs understated. And 
this budget shows that that turned out to be the case.
    The cost to implement BRAC increased to over $32 billion, 
up from the original estimate of about $20 billion, and the 
savings decreased to only $4 billion annually. The GAO 
calculates that the long-term savings for BRAC will save less 
than half of the $36 billion that was originally estimated.
    There are 230 locations scheduled to be completed only 
within the last 2 weeks of the statutory deadline. It is not 
going to happen, and yet we continue to budget under the 
assumption that it will. This includes--and this is why I am 
particularly sensitive to this--more than 6,000 Washington 
headquarters service employees who are to move to Alexandria--
again they say it is going to be completed in the last 2 weeks 
of 2011--8,500 employees to the new NGA facility at Fort 
Belvoir and the realignment at Walter Reed.
    These decisions relocated 20,000 workers away from transit-
accessible locations to sites where there is no public 
transportation. And as a result, the Army Corps of Engineers 
estimates that the traffic around these new facilities--
primarily at the Fort Belvoir-395 Beltway area--is going to 
result in an extra 3 to 4 hours of delay in each direction when 
these employees are trying to get to work and leave work.
    So, given the estimates that we now know are far more 
accurate than the rosy projections back 4 years ago, do you 
have any intent to reconsider the September 15, 2011 deadline? 
And I guess that goes to the Comptroller. My guess is you are 
going to buck that to the Comptroller, Mr. Secretary, so go 
ahead.
    Mr. Hale. I think I will be glad to try this.
    We are committed to BRAC. And I understand your concerns, 
but we feel we have fully funded it in a way that will allow us 
to meet the September 15, 2011 deadline.
    Mr. Murtha. Would the gentleman yield?
    Are these figures accurate, in your estimation, of what Mr. 
Moran just explained?
    Mr. Hale. Yes.
    Mr. Murtha. In other words, there is going to be very 
little savings and a big cost, and who pays it?
    Mr. Hale. Well, when you say ``very little savings,'' we 
still believe it will be on the order of $4 billion a year. 
That is our best estimate. And these are in perpetuity once 
they occur. So when you look at it on a net present value 
basis, Mr. Chairman and Mr. Moran, I think they will be more 
impressive than they appear now.
    Mr. Moran. Well, if I could suggest, Mr. Hale, the decision 
was made on the basis of information that proved to be wrong. 
And the $4 billion savings is much less than we were told when 
we made the decision to go forward with BRAC.
    Mr. Murtha. If the gentleman would yield again, Bethesda 
alone, when I sat in the hearing, was $200 million; it is 
already well over $1 billion. How do we get these kind of 
estimates? How can you say you are going to reform acquisition 
and we can have these kinds of estimates from the Department?
    Mr. Moran. Of course it wasn't these guys, in all fairness, 
Mr. Chairman.
    Mr. Hale. I was going to offer that defense.
    Part of the growth is because we grew the force and 
increased it. But I think you are right, I know you are right; 
part of this is we did not estimate these clearly or well at 
the beginning. We used a rough model called the COBRA model, 
and it doesn't have a great deal of ongoing attention because 
we do BRAC so episodically. Right now, I think if we were going 
to do BRAC every year, we would be hard at work revising the 
model, and yet who knows when or if there will be another BRAC 
round. So I don't offer that as an excuse, but you are right, 
costs have gone up significantly.
    I would just repeat my point. Once you start saving--let's 
say it is 2- or 3- or hopefully $4 billion a year, you are 
going to save it forever unless you have to reverse the 
decisions. So it does start to add up. I think BRAC is one of 
the few areas where we really have achieved some substantial 
long-term savings in the Department of Defense.
    Mr. Moran. In the Washington area, you didn't. And to 
create a 4-hour traffic jam every single day has even national 
security implications. You have got tens of thousands of people 
trying to get to Fort Belvoir, trying to get into work in 
Washington. And it is because you moved 20,000 people from 
Metro to a fort that has no public transit. It was a dumb 
decision to make. You didn't make it. But I don't think it 
would be responsible for you not to reconsider it.
    Mr. Hale. We will certainly consider it. It is the law.
    Mr. Moran. I understand it is the law, but it is a law that 
was made because the Pentagon gave us estimates that turned out 
not to be accurate. And I am talking about one area where I 
know this was not a thoughtful decision. It can still be 
rectified, and that is what should happen. And I am going to 
tell you right now, we are going to be here next year and these 
numbers are going to be worse than they are today.
    I have one other area, Mr. Chairman. Do we have time to do 
that?
    Mr. Murtha. No.
    Mr. Moran. We don't. Okay, that is fair.
    Mr. Murtha. Mr. Tiahrt.

                         SUSTAINING AFGHANISTAN

    Mr. Tiahrt. Thank you, Mr. Chairman. And, gentlemen, thank 
you for your service to the country.
    Mr. Secretary, in your budget the tanker program seems to 
keep lingering on; hopefully we will have a decision in 2010. 
You also shut down the C-17 production. And in light of the 
uncertainty of Russian influence, the instability in Pakistan, 
and the current situation in Iran, I think there may be a good 
argument that there is some risk that Afghanistan could become 
landlocked. And if that is the situation, how will we sustain 
our troops and how will we maintain the air bridge back and 
forth into Afghanistan?
    Secretary Gates. Well, when we were contemplating the loss 
of Manas, we looked at a number of different options. First of 
all, I think the loss of all of the land lines simultaneously 
is probably not very likely. But we did look at a number of 
options, including a lot of flights from facilities in the 
Middle East, in Kuwait and elsewhere. And certainly the cost 
goes up fairly considerably, but it was deemed to be a 
manageable challenge.

                         AIRBORNE LASER PROGRAM

    Mr. Tiahrt. But it is still something we have as a 
contingency plan. I am glad that you are planning on having 
some fallback position.
    One other program that concerns me is in the airborne 
laser. If you look at the current situation in Iran with their 
most recent launch, with launches from North Korea, it seems 
that the greatest deterrent would be the ability to knock down 
an airplane in the initial phase of the launch and leave the 
debris in the country of origin. The airborne laser is the only 
tool we have that could do that. And we have reduced the amount 
of funding, even though they are on schedule for a shootdown 
this coming fall.
    So I am concerned that we are shortchanging this program 
that has a great need today and an even greater need in the 
future. And I would also like to note that, even though the F-
35 hasn't completed its testing, we are moving forward into a 
production program.
    So I am concerned that we are shortchanging the ABL program 
when we have such a huge need that is very apparent in current 
world events, and we are on track for completion of not only 
what has been proven in the lab and on the ground, now to be 
completed in the air.
    Is there any consideration in how we are going to get this 
tool online more quickly when we have delayed the second 
aircraft purchase and shortchanged the program?
    Secretary Gates. I don't know anybody at the Department of 
Defense, Mr. Tiahrt, who thinks that this program should or 
would ever be operationally deployed. The reality is that you 
would need a laser something like 20 to 30 times more powerful 
than the chemical laser in the plane right now to be able to 
get any distance from the launch site to fire.
    So right now, the ABL would have to orbit inside the 
borders of Iran in order to be able to try and use its laser to 
shoot down that missile in the boost phase. And if you were to 
operationalize this, you would be looking at 10 to 20 747s at 
$1.5 billion a piece and $100 million a year to operate. And 
there is nobody in uniform that I know who believes that this 
is a workable concept.
    I have kept the prototype because we do need to continue 
the research on directed energy and on lasers, and that will be 
robustly funded because we do need to continue developing a 
boost phase capability. But operationally this first test, for 
example, is going to be from a range of 85 miles.
    Mr. Tiahrt. Well, thank you for the information. There are 
a series of comments I would like to leave you with.
    In the competition for the tanker during the last go-
around, we saw that there were some inequities in the request: 
there was no accounting for subsidies in the bidding process; 
there was no accounting for cost accounting standards; 
international traffic in arms regulations, and Foreign Corrupt 
Practices Act for our European allies. There was no accounting 
for the industrial base, there was no accounting for the 
lifecycle cost long term, as required by the FAR.
    And as we go forward with this tanker procurement, I hope 
that we will take these things into consideration.
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Kaptur.

                        DEPENDING ON FOREIGN OIL

    Ms. Kaptur. Thank you, Mr. Chairman. And gentleman, thank 
you for your service to our country.
    These questions can be answered very quickly. Admiral 
Mullen, how dependent is the United States economy and our 
military on foreign sources of oil and imported petroleum to 
meet our national economic needs and our military needs? Are we 
5 percent dependent, 20 percent dependent, 50 percent dependent 
or 80 percent dependent?
    Admiral Mullen. I don't know the exact number. I would say 
that from a national security perspective, we are 
proportionately as dependent as the United States is.
    Ms. Kaptur. I beg your pardon?
    Admiral Mullen. That the proportional dependence we have in 
terms of foreign oil in the Department of Defense and in the 
military is consistent with the proportion that we have as a 
country.
    Ms. Kaptur. Are you aware that we import about 80 percent 
of our oil?
    Admiral Mullen. Yes, I am.
    Ms. Kaptur. Well, that seems to be a serious vulnerability.
    Let me ask you, how important are Iraq's oil fields in 
terms of global oil reserves; are they not important, are they 
somewhat important, or very important?
    Admiral Mullen. I think they are very important.
    Ms. Kaptur. Who is guarding our facilities in Iraq at this 
juncture, the U.S. military or through contractors?
    Admiral Mullen. Actually, I don't know the specific answer 
to that.
    Ms. Kaptur. All right. Is it possible that you or Secretary 
Gates know the answer to that?
    Secretary Gates. I think that the Iraqis are guarding them.
    Ms. Kaptur. Through some type of contract, or directly 
through their security forces?
    Secretary Gates. I think through their security forces, but 
we will get you an answer to that question.
    Ms. Kaptur. And if there are private firms involved somehow 
in the guarding of those facilities, could you provide that for 
the record, sir?
    Secretary Gates. Sure.
    [The information follows:]

    Our facilities in Iraq are guarded by both service members and 
contractors, working in concert to provide unparallel levels of safety 
and protection for those in harms way. There are currently 27 Private 
Security Contractors (PSCs) consisting of approximately 11,500 armed/
unarmed U.S. citizens, third-country nationals, and host-nation 
personnel assisting U.S. Forces in excess of 130,000 providing security 
to our facilities in Iraq. PSCs augment the security provided by U.S. 
Forces through static security and dynamic security) Convoy operations, 
personal security details.)
    Examples of ``static security'' include guards situated ``outside 
the gate'' manning checkpoints and guard towers, ensuring only 
authorized personnel have access to our bases. Additionally, guards are 
utilized at key locations on our bases to ensure only authorized 
personnel are accessing our facilities. In terms of dynamic security, 
PSCs provide an additional layer of protection already being provided 
by U.S. Forces (in terms of manning and armament) by assisting in 
defending high-value assets and personnel traveling within theater.

                          CONTRACTORS IN IRAQ

    Ms. Kaptur. Secretary Gates or Admiral Mullen, what is the 
actual number of contracted personnel that the U.S. military 
anticipates will remain in Iraq this year and next year?
    Secretary Gates. The high number was in the 160,000s. We 
expect them to be down to about 138,000 by the end of this 
year, and about 90,000 at the end of 2010.
    Ms. Kaptur. And could you provide for the record as well, 
in terms of security forces, what happens to those as those 
numbers come down?
    Secretary Gates. Yes, ma'am.
    [The information follows:]

    Private security contractors (PSCs) perform a variety of security 
functions to include: personal security, convoy security and static 
security missions. Current trend data indicates a three month lag 
between troop reductions and a corresponding decrease in the number of 
contractors. PSC data represents an anomaly to that trend. In the short 
term, I expect the number of PSCs in theater to increase slightly for 
two reasons: First, as our forces decrease, the security functions they 
performed will be absorbed by PSCs, and secondly, although our forces 
are being reduced, the number of facilities initially will remain 
unchanged. In the long run, as troop departures normalize and the 
military facilities close, I'd expect a decrease in the total number of 
PSCs.

    Ms. Kaptur. Are you removing cooks or are you removing 
contract security forces?
    Secretary Gates. I think it is across the board, but we 
will get it for you.

                        CONFLICT IN AFGHANISTAN

    Ms. Kaptur. I thank you very much. In Afghanistan, the bulk 
of the Taliban are Pashtun. Are we fighting the Pashtun, 
Secretary Gates?
    Secretary Gates. I think we are fighting several different 
enemies. The Taliban are clearly the principal force in 
Afghanistan, but you also have the Haqqani network. You have a 
variety of different groups, including Pakistani insurgents, al 
Qaeda, foreign fighters, and so on.
    Ms. Kaptur. Are they under a central command and control 
structure?
    Secretary Gates. I would say loosely.
    Ms. Kaptur. Who is the commander?
    Secretary Gates. Well, Mullah Omar still is alive. And to 
the extent that anyone oversees the whole operation, that would 
be him.
    Ms. Kaptur. Is Bin Laden an objective of the war?
    Secretary Gates. Yes, but I would say secondary.
    Ms. Kaptur. What is the platform of the moderate Taliban, 
and is it something we can live with?
    Secretary Gates. Well, I think we have to figure out who 
the moderate Taliban are first. Right now, in terms of 
potential reconciliation, I think that the odds are against us. 
I think that as long as the Taliban think that they have the 
upper hand, it is going to be difficult to get them to 
reconcile, at least on the terms that are acceptable to the 
Afghan Government.
    We do believe that a significant number of the Taliban 
fighters are doing it mainly for money. And so if we can help 
Afghanistan rehabilitate their agriculture and find jobs for 
these people, you could get a number of those people who are 
doing it just for money to walk away from that movement. But 
there will be a certain hard core that will be totally 
irreconcilable.
    Ms. Kaptur. How will we know when we have won in 
Afghanistan?
    Secretary Gates. When our troops are out.
    Ms. Kaptur. After they have achieved what?
    Secretary Gates. After they have achieved a situation in 
which the Afghan Security Forces, with international help, are 
able to maintain the security of their own country against both 
the Taliban and any external threats.

                             ALLIED SUPPORT

    Ms. Kaptur. Finally, let me ask Admiral Mullen, for the 
record, in your testimony at several points you inject the word 
``partner''--page 2, page 4, page 6--``networks of partners and 
allies, expanding the sets of partnerships.'' Could you, for 
the record, clarify what you mean by ``partnerships'' as 
opposed to ``allied support?''
    Admiral Mullen. I would say that in many ways they overlap. 
It would depend specifically on the relationship we had with a 
given country. I think both of them are critical in the world 
we are living in now and the world we are going to be living in 
the future.
    Ms. Kaptur. Is it possible for you to provide for the 
record what you mean by--a partnership is not a country?
    Admiral Mullen. Say that again.
    Ms. Kaptur. A partnership is, then, not a country?
    Admiral Mullen. A partnership with a country is exactly 
what I mean.
    Ms. Kaptur.Then why on page 6 would you say ``steadily 
expanding the sets of partnerships as opposed to allied 
engagements available to address future challenges.'' On page 
2, page 4, page 5, page 6, this word ``partnerships'' keeps 
cropping up. I don't understand what that means. Could you 
clarify that for the record and explain how that is distinct 
from allied support?
    Admiral Mullen. Yes, ma'am.
    [The information follows:]

    ``All alliances are partnerships of some sort. But not all 
partnerships are alliances.
    In today's dynamic security environment, where threats arise not 
only from nation-states, but also from loosely-knit networks of 
malcontents and extremists, where natural disasters and international 
crimes alike demand the occasional use of military power--we can no 
longer afford to organize that power solely within the confines of 
traditional alliances.
    Alliances still have their place, to be sure. NATO, for all the 
criticism it has received in recent years, has without question 
transformed itself into a much more expeditionary force. Some 59,000 
service members from 41 nations, all 28 NATO nations and 14 NATO 
partner nations are supporting the mission in Afghanistan. ISAF forces 
are conducting security and stability operations, providing senior 
leadership in all five regional commands, and are directly involved in 
the mentoring, training and equipping of the Afghan National Army.
    But we cannot rely solely on allied support to succeed in places 
like Afghanistan and Iraq. We need flexible partnerships outside these 
more formal relationships. Consider Afghanistan. After nearly two years 
as Chairman, it is clear to me that we must make the Afghan people our 
center of gravity--providing them the security they need to beat back 
the Taliban and the stability they need to prosper.
    Allied military might will only get us so far. We need Pakistan--
which is not an official ally--to partner with us against safe havens 
on their side of the border. We need civilian expertise from the State 
Department and other federal departments to assist in developing good 
governance all the way down to the district level. And we need the 
support of non-governmental agencies and charitable organizations to 
alleviate shortages of foodstuffs and promote education and 
development. In short, we need partnerships that don't always come in 
the tidy packages of alliances.
    Nobody can do it alone anymore, not even the best of alliances.''

    Ms. Kaptur. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Kingston.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Kingston. Mr. Secretary, in April you announced that 
there would be 45 brigade combat teams and not 48. I have the 
honor of representing Fort Stewart, Georgia in Hinesville, and 
of course they have a lot of pride. Under BRAC, they were going 
to get another brigade. It is a community that, as you know, 
does everything they can to support the post, as does Savannah 
with the Hunter part of it.
    Fort Stewart is a four-time winner of the Community of 
Excellence Awards. And the community, after the BRAC 
announcement, has been spending lots of money in preparation 
for a new brigade--hotels and new roads and putting investment 
on the post itself. Actually, millions of dollars have been 
spent on it. But now everything is a little bit on hold, up in 
the air. Banks won't lend money anymore; the community is not 
sure if this is going to happen or not, definitely, maybe, not 
another brigade, or maybe more troops will come back, filling 
the existing brigades. Developers and investors are now back on 
the sideline. And so there is a lot of angst down there.
    I was wondering if you could comment, what kind of 
direction can we give the folks there, both the people in 
uniform and then the civilians who support the post?
    Secretary Gates. Well, as you know better than I do, there 
were some significant additional units that were deployed to 
Fort Stewart last fall. And with respect to where the 
additional Army brigade combat teams will go, my understanding 
as of this morning is that the Army has not yet made that 
decision.
    But the one thing that I would explain or hope to make 
clear is that one of the reasons we are doing this is that, had 
the Army gone to 48 brigade combat teams, they were doing so 
with the same number of people that they had, regardless. And 
so you would have had a thinning out in the brigades, and it 
would have hindered our effort to get rid of stop loss. So this 
is to make these brigades more robust, so they are more fully 
staffed, manned, if you will; and so these units will all be 
filled in, if you will, in a way that we have not seen, at 
least in the last few years.
    But in terms of an additional full brigade moving in there, 
the Army just hasn't made that decision yet.
    Mr. Kingston. Well, the community does share your vision in 
the caring for our troops----
    Secretary Gates. Yes, they do.
    Mr. Kingston. They are 100 percent behind you on that, and 
also the stop loss and getting everybody up to full strength. 
So that is very important.
    When do you think the Army will make that decision?
    Secretary Gates. I just don't know. We can try and get 
something for the record for you.
    [The information follows:]

    On June 2, 2009, the Secretary of the Army announced that in 
accordance with the President's budget, the Army has halted the plan to 
build three additional brigade combat teams (BCTs) at Fort Bliss, 
Texas, Fort Carson, Colorado, and Fort Steward, Georgia. This decision 
will not affect the Army's authorized end strength of 547,400. The army 
will reach its target of 45 BCTs in FY10 with the activation of the 2nd 
Brigade, 1st Armored Division at Fort Bliss.
    With this announced change, the population at Fort Bliss is 
projected to grow from 13,742 in 2003 to 36,069 in 2013; Fort Carson 
from 15,199 to 25,033; and at Fort Stewart from 20,512 to 24,970.
    This announcement does not involve the restationing of two Heavy 
BCTs scheduled to return from Europe in FY12 and FY13, which is being 
examined as part of the ongoing Quadrennial Defense review. White Sands 
Missile Range, New Mexico will no longer receive a BCT from Europe in 
FY13 as originally planned.
    Halting the three additional BCTs ensures that the Army retains its 
ability to support future requirements and maximizes:
    <bullet> The ability of brigades to deploy for contingency 
operations and major exercises;
    <bullet> Opportunities and access to training facilities, Battle 
Command Centers, and Training Support Centers to provide ready units to 
meet Army Campaign Plan missions; and
    <bullet> Quality of life for Soldiers and Families.
    Additionally, this plan allows for the best use of existing funding 
and current and planned FY09 and FY10 military construction projects. 
These projects play an essential role in supporting the Army's growth 
to 547,400 and ensuring Army Soldiers and Families have the quality 
facilities they deserve.
    This announcement allows Congress to make time-sensitive and 
important authorization and appropriations decisions. The Army will 
provide Congress shortly a detailed, project-by-project list that 
specifies which facility requirements have changed and which remain 
valid.
    The Army understands the tough economic impact this decision will 
have on the communities that have worked so hard to prepare for the 
arrival of the three brigades. They are great partners with the Army, 
and we will need their continued support as we work together on the 
growth that is underway at those locations.

    Mr. Kingston. And we actually do have a delegation letter 
outlining this in more specifics that is going to be coming to 
you Friday. We have given you an advance copy of that right 
now. But we are totally in support of your vision and Fort 
Stewart and the soldiers, but it is very difficult when the 
banks that were starting to lend money--during these economic 
times it was important that here was a bright spot, and now all 
of that is sidelined again.
    Mr. Murtha. Excuse me, just a minute, Mr. Kingston. I am 
going to go vote. Mr. Dicks is going to take over.
    I am impressed, Mr. Secretary, you have been deeply 
involved in this budget. You answered the questions, you know 
what the hell is going on. That is interesting for a Secretary.
    Mr. Dicks [presiding]. Very unusual.

                      IMPROVISED EXPLOSIVE DEVICES

    Mr. Kingston. Mr. Secretary, on another subject, I want to 
make a comment that when Americans think about IEDs, and I 
think Members of Congress, we think about Iraq and don't 
realize that there will be, and there already is, an uptick of 
IED incidents in Afghanistan, but that IEDs are not going to be 
isolated to those two countries. They are already around in 
other nations and people are more familiar with them. But IEDs 
could start taking place on domestic soil.
    Your budget has a lot for IED research and training. But I 
just want to say that I think a lot of us would certainly 
support IED continued research beyond 2010. And regardless of 
what happens in Afghanistan, I think we want to support your 
commitment to the IED Task Force.
    Secretary Gates. Mr. Kingston, I think that this is a 
program we have now moved from the supplemental into the base 
budget, so that it will be a sustained effort over an extended 
period of time; because I share your view that the IED, 
unfortunately, is a very cheap weapon that is very effective. 
And I worry a lot that, as you just said, that Afghanistan and 
Iraq are not the only two countries where we will see this.
    Mr. Kingston. I thank the gentleman.

                         FUTURE COMBAT SYSTEMS

    Mr. Dicks. Mr. Secretary, tell us, you have restructured 
the Army's Future Combat System. Can you tell us about that?
    Secretary Gates. Sure. We are going forward with the first 
increment of the Future Combat System, which has the UAVs, 
unmanned ground vehicles, sensors, and the networking. And 
instead of limiting it to 15 FCS brigade combat teams, we are 
going to expand it to all 73 brigade combat teams of the Army. 
So all of this networking technology that has been developed 
and spun off will all be filtered into the entire Army.
    The part of the Future Combat System where I said we need 
to start over is the vehicle part. And there are a couple of 
reasons for that. One is, we were applying a lot of Band-Aids 
trying to figure out what this system was going to look like, 
because we were having trouble absorbing the lessons of war.
    So this program, which began 9 years ago, for example, 
began with an 18.5-ton vehicle, so it would fit into a C-130. 
Then in 2006 the weight went to 26 tons. In 2007, it went to 27 
tons. It has now gone to 30 tons, and is probably headed toward 
35 tons. So we were putting Band-Aids on as people were trying 
to figure out how to accommodate these vehicles to the lessons 
of war.
    For example, they identified a couple of years ago that the 
Infantry Fighting Vehicle had a flat bottom and was going to be 
18 inches off the ground, so it contained none of the defenses 
against IEDs that we have just been talking about.
    Because MRAPs didn't exist when the program was first 
initiated, the program had no place in it for the $26 billion 
the taxpayers have invested in the MRAPs and for our role 
there. And frankly, we did not negotiate a very good contract. 
All eight vehicles were allocated to two builders, so there was 
no competition for the vehicles. We were paying a third party a 
pass-through fee to acquire the vehicles for us, instead of the 
way we bought the MRAPs, which was directly with the 
manufacturers. And 90 percent of industry's performance fee was 
guaranteed at critical design review, leaving very little 
incentive when it came to building the prototypes or final 
testing.
    So for all those reasons, we have restructured the program. 
I have told the Army and I have told the authorizing 
committees, an Army vehicle modernization program is a very 
high priority, and I believe--the latest I heard just this 
morning or yesterday was that as early as this fall the Army 
may have an alternative proposal coming forward in terms of 
these vehicles. So I think little, relatively little, time will 
be lost, but in a program that will potentially cost $150 
billion, it seemed to me important to get it right.

                                PAKISTAN

    Mr. Dicks. In Pakistan, there has been a lot of discussion 
about trying to get--and Admiral Mullen, I know you have been 
there many times--trying to get the Pakistanis to focus more on 
the insurgence and the Taliban and less on their concerns about 
India. Are we making any progress on that direction?
    Admiral Mullen. Yes, sir, I think we are. In fact, I will 
cite two examples: the level of activity in the last couple of 
weeks in Bunair, Indirh, and now Swat. And it has been a 
sustained level of activity. Clearly there is a history in Swat 
and it is a big challenge. So part of the future assessment and 
judgment is, are they going to be able to sustain it and have 
an impact, and can they in fact in classic counterinsurgency 
hold the territory that they cleared the insurgents from. And 
we are in that phase right now in some places. And we just 
don't know because it hasn't been long enough.
    Secondly, when I was there about 3 or 4 weeks ago, General 
Kiani, who is the Chief of Staff of the Army, took me out in 
the field with two of his divisions who were doing 
counterinsurgency training, training that he has put in place 
over the last 12 to 18 months for his entire Army. These two 
battalions that I was observing were actually battalions 
preparing to go to the West and spend upwards of 1 or 2 years 
up in the West. And when I say they were doing training, they 
built the training ranges, they have looked at best practices 
here and other countries to build these training ranges, done 
it very rapidly, so they are starting to move in that 
direction.
    All of that said, it is my view that they are not going to 
lose the focus on India. And they have got a challenge of 
literally two fights: a conventional challenge and threat, 
along with a counterinsurgency challenge, which they 
increasingly recognize. It is just going to take some time, and 
our patience level with them is key to establishing the long-
term relationship with them to, one, counter this threat, and 
two, to have a relationship with them in that part of the 
world, which I think is absolutely critical.

                      ROLE OF THE STATE DEPARTMENT

    Mr. Dicks. Let me ask you this. We had this debate. I 
actually was at the White House several times when Secretary 
Rumsfeld and Secretary Rice would clash over the role the State 
Department wasn't playing in Iraq. And you talked about this a 
little bit earlier. But do you think there needs to be 
legislation to give more authority to the Secretary of State to 
get her people into the field? At that time they were saying 
they only could stay for 75 days or 90 days, some very short 
period of time. And I believe it is true you can't win this 
thing militarily, you have got to help this economy change, we 
have got to get rid of these drugs, and we have to develop 
their agricultural capability. What do you think about that?
    Secretary Gates. I think mainly what the Secretary of State 
needs is resources. She does need some authorities that give 
her more flexibility. For example, she needs to be able to 
provide the kind of benefits and pay to people in combat 
situations, combat zones, that we pay to the military.
    She makes the point that, and I won't get the numbers 
right, but I am going to be in the right ball park--and maybe 
you remember it--but there is a significantly higher percentage 
of civilians who have been killed in Iraq and Afghanistan than 
military, given the number of people who were there. And so she 
does need the authorities to be able to be more flexible in 
paying these people in terms of providing benefits and family 
care, like we have, and so on. But above all, she needs more 
people and more dollars.
    Mr. Dicks. Thank you.
    Mr. Murtha. Ms. Granger.

                          COUNTER DRUG EFFORTS

    Ms. Granger. Thank you.
    Chairman Mullen, I have two questions for you, please. The 
first question has to do with the Merida Initiative. And we 
have worked closely together to ensure that the key equipment 
was delivered to Mexico as part of that initiative. I was 
disappointed to discover how our bureaucracy led to some 
significant delays in delivering the equipment that was 
essential to President Calderon as he fights these drug 
cartels, and I thank you for your efforts to get this process 
back on track.
    My question first is, are you aware of steps we are taking 
to make sure that doesn't happen again and to make our 
bureaucracy more efficient and prevent similar situations from 
arising in the future?
    Admiral Mullen. Ma'am, in my recent visit there is when I 
really got exposed to the delays. Merida, this was its first 
year. In fact the money, which was 2008 money, didn't start 
flowing until December. And this is something they don't 
understand and is not unique to Mexico, I see it all over the 
world--you said you would do this, can we start moving this 
pretty quickly? And our bureaucracy can be pretty cumbersome at 
times.
    The areas I was focused on specifically were helicopters, 
which they need. And then when I pulled the string on it, in 
fact there were discussions about we were going to give you 
five, and now it looks like three. And putting pressure, at 
least looking into it, it looks like they are going to get the 
five helicopters late this year--at least that is the last 
input that I had--and some other equipment that they need to 
fight these cartels.
    And as many have said, there is dual responsibility here. 
This isn't just a problem in Mexico, because clearly it has 
been supported by money, supported by weapons here. It had a 
big impact, obviously, particularly in the border states, 
although not exclusively within our own country.
    We are into our FMS system, which can be very cumbersome, 
and take a lot of time. The Secretary has actually asked the 
Department to go look at ways now to make this much more 
flexible because of the world that we are living in. And it was 
originally designed to be slow. The law sort of set in place 
was we don't want this system to move very quickly.
    But when I have needs like Mexico--and I can talk about 
Afghanistan and Iraq and Pakistan--we need to move stuff 
through much more quickly than we have.
    Secretary Gates. What I have tried to do in this review--
and I have told the President about it, because it really does 
hinder our ability to help other countries who are our allies 
and partners in these fights. And so the study really has two 
pieces to it: What is it in the Pentagon bureaucracy and the 
executive branch bureaucracy that slows this stuff down, and 
what is there in the law that slows it down? And when we get 
the answers to those questions, we are going to get your help 
to try and fix this thing.

               PAKISTAN COUNTERINSURGENCY CAPABILITY FUND

    Ms. Granger. My second question has to do with the Pakistan 
counterinsurgency capability fund. We have talked about that 
already today.
    Your staff, Admiral Mullen, have been very helpful in 
helping me understand the details of that, and why it is so 
critical to our warfighting component. And we agree that the 
situation and the strategy demand enhanced capacity from the 
State Department as well.
    Help me understand the military component to the PCCF that 
may endure after we increase state capacity.
    Admiral Mullen. Actually, for the PCCF, the vast majority 
of the money is focused on the military. It gets at training 
capabilities for the Pakistani military; it gets at 
requirements like helicopter requirements; not just the 
helicopters themselves, but the Pakistani military, aviation 
side, has a very, very difficult maintenance challenge, and so 
supporting that as well. The kinds of intelligence, 
surveillance and reconnaissance capabilities, night vision 
goggles, training facilities, all of which focuses on 
counterinsurgency, and the vast majority which will be 
enduring, I believe, in their country for a significant period 
of time. And it breaks down across those various kinds of 
capabilities. And there is not an insignificant amount that 
also goes to the State Department to support the kind of 
developmental needs that also must go hand and glove with the 
military requirements.
    Ms. Granger. I happen to sit on State Foreign Operations 
and Defense. But we will continue to look at that. And make 
sure that you continue to keep us apprised of that joint 
capability and necessity.
    Thank you very much.

                           MILITARY UNIFORMS

    Mr. Murtha. Admiral, a lot of older guys like me see in the 
Pentagon people running around in jumpsuits, running around in 
utility uniforms. Do we not have enough money for Class A 
uniforms?
    Admiral Mullen. Yes, sir, we have money for Class A 
uniforms.
    Mr. Murtha. I remember the day when we were constrained 
from even leaving the base wearing a uniform; you had to wear a 
uniform. You didn't wear the field uniform; field uniforms are 
for the field. Are we going to get back to that?
    Admiral Mullen. Well, we went to this a few years ago--as I 
know you know, Mr. Chairman--because we are at war. And that 
was really the intent of the change. I can't remember exactly 
when it happened, I was in the Pentagon at the time. There is 
no guidance right now to reverse that, although I share your 
concern that some of these uniforms aren't necessarily the 
right uniforms for the workplace in every kind of situation.

                          SUPPLEMENTAL FUNDING

    Mr. Murtha. Well, I appreciate the endorsement of the White 
House for our version of the supplemental. I hope the Senate 
agrees with the amount, because we are going to be 
constrained--I figure we are going to get a lot less money in 
the allocation for our 2010 bill. And so I would hope that we 
can convince the Senate that they need to at least look at the 
possibility of going a little higher in their estimate than 
where they are right now. And I have talked to Senator Inouye; 
I know he is constrained by a lot of other things.
    But Mr. Secretary, do you have all the tools you need? Mr. 
Obey keeps talking about the tools you need in order to fight 
this war. Do you have all those tools in place? I heard the 
first briefing and I liked the briefing, I think you are going 
in the right direction. I think you have the right idea. You 
are going to train the Afghans, you are going to put State 
Department to work--I mean, you are not going to, but the 
President is. Have you got the tools? Is there anything we need 
to do?
    I know you are constraining the other services coming to 
us, and I agree with that. We told you a couple years ago we 
would try to work through the Comptroller, and we appreciate 
that. But is there anything you need that we are not doing that 
should be included in the supplemental?
    Secretary Gates. I don't think so, Mr. Chairman. One of the 
projects we are working on right now is an interim solution for 
MRAPs in Afghanistan to give them more off-road capability. And 
until we can get a new vehicle over there--the request for 
which is in the budget, the MRAP all-terrain vehicle--we are 
looking at a program that is working for the Marines, which is 
changing out the suspension on the Cougars. It costs about one-
tenth as much as a new vehicle and gives you about 80 percent 
of the capability. And we are looking at how we can accelerate 
that over the period of the next months to provide more 
protection for the troops until we can get this ATV.
    But on the whole, the truth is you all have been very 
generous to us. Like when I came up here 18 months ago, 2 years 
ago, and asked for the money for the MRAPs, you all just 
stepped right up to the plate.
    Mr. Hale. Mr. Chairman, could I mention one issue with 
regard to the supplemental I think you are aware of? We have a 
significant shortfall of military personnel funding in fiscal 
2009. Before your actions, it started at about $2.5 billion 
associated with the services being over strength, partly 
because the recruiting environment was good. They were trying 
to cut back on stop loss for a variety of reasons. That is 
about half of it; the other half higher than expected in the 
budget for a pay raise. There were a lot of other reasons. You 
were very helpful and solved more than half of that, but we are 
still about $1.1 billion short this fiscal year in military 
personnel.
    Mr. Murtha. Wait a minute. We put $2.5 billion in.
    Mr. Hale. Well, there were also some cuts that you made in 
military personnel, principally in bonuses, so the net effect 
still left us short.
    Mr. Murtha. You are not talking about the bonuses.
    Mr. Hale. The committee made some cuts, primarily in bonus 
payments in various accounts.
    Mr. Murtha. With the environment you have, I mean, bonuses 
have never been one of my favorite subjects, and when you get 
on that subject I get worried. I mean, we still have to have 
bonuses?
    Mr. Hale. Well, actually, some of the cuts there actually 
went to even the anniversary payments for past bonuses. And in 
some cases the cuts are below what we have already obligated 
for this year. I understand your general point----
    Mr. Murtha. We will work with your guys and we will try to 
work that out. We have some other people who haven't asked any 
questions, so I am going to let them ask questions.
    Mr. Rothman.

                         NUCLEAR PROLIFERATION

    Mr. Rothman. Thank you, Mr. Chairman, Mr. Secretary, 
Admiral Mullen, Mr. Hale. Thank you for being here.
    President Obama reiterated on Monday that if Iran were to 
acquire nuclear weapons capability, it would be a grave threat 
to the region, including our number one ally in the region, the 
State of Israel, but also many Arab nations in the region. It 
probably would start a nuclear arms race in the region. Such 
weapons capability would threaten our allies in Europe, and 
would also threaten the national security interests of the 
United States of America.
    I am glad to see that the President will begin new 
diplomatic conversations with Iran, directly or indirectly, in 
the coming weeks or months, and has said he will give it to the 
end of the year to reassess how Iran is doing with regards to 
reversing its position on acquiring nuclear weapons capability.
    But we are in the business, on this subcommittee, of 
contingency planning. And if, as the President and others have 
described, a nuclear weapons-capable Iran are accurate--and I 
believe they are--and that it would be an unacceptable threat 
to U.S. national security, do you feel, Mr. Secretary, that 
this present budget and our present military capabilities can 
fully accommodate a worst-case scenario where Iran would not 
step down from its efforts to acquire a nuclear weapon and 
military action was necessary?
    Secretary Gates. Let me just say in open session here that 
I believe we have the resources in the proposed budget that 
would allow us to deal with all possible contingencies.
    Admiral Mullen. I agree with that.
    Mr. Rothman. Thank you, gentleman.
    The other issue--and I know others wanted a chance to ask 
questions as well, so I will limit myself to one other 
additional question regarding nuclear weapons now in possession 
of Pakistan.
    It has been discussed that one threat to U.S. national 
security and the region's security in and around Pakistan would 
be if, God forbid, the terrorists and those designed on the 
death of Americans and innocents were to get hold of Pakistan's 
nuclear weapons, are you confident that our present capability 
and the resources you are asking for in the 2010 fiscal year 
Defense budget are adequate to guarantee that those nuclear 
weapons possessed by Pakistan are secure and will be safe from 
interception by terrorists?
    Admiral Mullen. I am comfortable that the security measures 
the Pakistani military, in particular, is taking ensures their 
security. We, the United States, have invested in improving 
their security program over the last 3 or 4 years--that is not 
done through the Department of Defense, it is done through the 
Department of Energy--and that they have improved dramatically.
    That said, it is a sovereign country, a very sovereign 
program, very well protected from a proprietary standpoint by 
the Pakistani people, the Pakistani Government. And there are 
limits to what our knowledge is. They certainly are aware of 
the concerns. And at the top of my list for threats right now 
globally would be terrorists getting ahold of nuclear weapons. 
And I have certainly expressed that concern both publicly here 
and privately to the leadership in Pakistan.
    Mr. Rothman. And beyond the sovereign issues and your 
expressions of concern--again, we deal in worst-case 
scenarios--in open session, can you comment on our capability 
to address the worst-case scenarios?
    Admiral Mullen. I wouldn't comment on that in open session.
    Mr. Rothman. Thank you.
    Mr. Murtha. Mr. Rogers.

                          AFGHANISTAN STRATEGY

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome. Mr. Secretary, in the recent change of our 
leadership in Afghanistan, you cited the need for ``a fresh 
approach in Afghanistan.'' Tell us what you mean by that.
    Secretary Gates. Well, first of all, I wanted to follow the 
model that we followed as we implemented the surge in Iraq 
which was, when the President decided to implement the surge in 
Iraq, he moved forward--by not much, but some--a change of 
commander in Iraq. And General Petraeus took General Casey's 
place. So General Petraeus was able to manage that strategy 
from the moment it began to be implemented, through significant 
success.
    I was very concerned about changing commanders midway 
through a few months, or 7 or 8 months into this strategy and 
having somebody brand new come in, in effect, in the middle of 
the stream. And so one of the considerations for me was having 
a commander who was there from the beginning of the 
implementation of this new strategy.
    I also think that with the new forces coming in, I think 
that with the 68,000 troops that the President has approved--
and I go back to my comments earlier about my concern about a 
significantly higher number of troops in Afghanistan--I wanted 
fresh eyes in terms of are we using the troops that we have 
there in the most effective possible way, and are there other 
ways in which we can make better use of them?
    I think another piece of this is the fact that we are 
sending a team in. Both General Rodriguez and General 
McChrystal have a broad range of experience, not just 
counterinsurgency. And General Rodriguez, when he was the 
commander in Regional Command East, was very successful when he 
was commander of the 82nd Airborne there. And so it is this 
combination of talents between McChrystal and Rodriguez that I 
think creates some opportunities for us. And so it is in that 
context that I was referring to fresh eyes.
    Mr. Rogers. With what you can say in an open session, how 
will what we are doing in Afghanistan now change under this 
fresh approach?
    Secretary Gates. Well, I think that is really for them to 
get out there and get involved, talk to the commanders, the 
brigade commanders, talk to the Afghans, and make their own 
decisions in terms of what changes in our campaign strategy do 
we need to make. The Admiral may have some.
    Admiral Mullen. I would comment, first of all, General 
Rodriguez has spent 15 months in the eastern part of 
Afghanistan, and did exceptionally well and is immersed in 
their culture and in what the requirements are there. In my 
position as Chairman, I spend a lot of time trying to figure 
out who should go to what jobs. And in this case, long before 
the decision was made or even on the table to change leadership 
in Afghanistan, General McKiernan and General Odierno, both due 
to rotate out of those jobs next year, I had done a 
considerable amount of work contacting and discussing with 
leaders from all services who the best individuals would be for 
the future. And Generals McChrystal and Rodriguez have come out 
at the top of the Army list--and lots of other people as well--
for the last 18 months that I have been on this job. And, 
obviously, before that as well. They are the best we have right 
now. And I am greatly dependent on great leadership. They are 
great leaders. And I think they will change the calculus and 
move us in a way that will create potential for success.
    Mr. Rogers. Well, what I am trying to get at is, what will 
be this new strategy? Will it be similar to the surge in Iraq? 
Or just what does it amount to?
    Admiral Mullen. It will be lessons taken from Iraq. It is 
counterinsurgency strategy. I was just in RC East, and I was 
taken by how much our troops have absorbed that almost as a way 
of life. So we have enough troops in the east. We just put in 
an additional brigade in January.
    We are putting more troops in the south. But it is not just 
military, it has got to be the civilian side, it has got to be 
putting the Iraqi Security Forces, Army and police, in a 
position to provide for their people; and, in creating a secure 
environment, allow for the other things that need to be done to 
get done, including a dramatic reduction and elimination, if 
possible, of the opium problem.
    So there is an agriculture piece here that lays down right 
over where they are growing poppies, and that has got to happen 
as well.
    Admiral Mullen. The Government of Afghanistan, at every 
level, has to get to a point where it can provide for its 
people, and they are falling short there now, and also it is a 
terrible amount of corruption. So those are all things that 
have to be addressed not just by our government, but by all of 
the nations that are involved there.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Bishop.

                              OUTSOURCING

    Mr. Bishop. Thank you, Mr. Chairman, Secretary Gates, 
Admiral Mullen, Mr. Hale. Thank you so much for your service.
    For the record, I would like to associate myself with the 
remarks of Mr. Kingston to the extent that we jointly support 
the 4th Brigade Combat Team at Fort Stewart. I just want to do 
that for the record.
    I would like to talk with you for a moment about 
outsourcing. I am sure that you are aware on March 23, the 
committee wrote you expressing concern about DOD's outsourcing. 
Can you remind us or refresh our memories on what the response 
was, if there was a response?
    Secretary Gates. I don't know about the specific response, 
but I will tell you that this has been a concern to me as well. 
And part of the proposals for the fiscal year 2010 budget is to 
begin in a fairly dramatic way replacing contractors in 
management services, management support and professional 
services, to replace contractors in those areas with full-time 
civil service employees.
    Our goal is to hire 13,000 new civil service employees in 
fiscal year 2010, and overall through the next 5 years to hire 
33,000.
    Our goal is to take the percentage of contractors in those 
areas from the current 39 percent of the workforce back to 26 
percent, which is where it was before 2001.
    Mr. Bishop. Mr. Secretary, can I ask you then why the 
Department has not suspended its A-76 outsourcing efforts in 
2009?
    Secretary Gates. Well, we can't get rid of outsourcing 
altogether, and if there is a specific aspect of this, I am 
happy to take a look at it.
    Mr. Bishop. Well, the A-76 studies, ongoing, presumably to 
continue the outsourcing while at the same time you are 
budgeting for 2010 to reduce the outsourcing.
    Secretary Gates. Well, as I say, in these particular areas 
we are reducing from 39 percent to 26 percent. So there is 
still 26 percent that even at the end of 5 years or so, there 
are going to be some kinds of services outsourced.
    Mr. Bishop. I appreciate your comment there, but it is a 
very serious concern for the subcommittee, and we have had this 
concern for some time at the large amounts of outsourcing. And, 
of course, we have expressed it, and we appreciate very much 
the fact that you are responding in 2010.
    And, of course, if you still have a need for it, you have 
to go forward with that, the remaining outsourcing needs. But I 
am very uncomfortable with the A-76 studies because I really 
feel like we probably need to do as much in house as we can 
possibly do.
    Thank you, Mr. Chairman.
    Mr. Murtha. I just want to reiterate my concern. Last year 
we took 5 billion out of the contracting services. We put 1 
billion in for direct hire. The Department objected strenuously 
to what we have done.
    But I appreciate the fact you are now going in the right 
direction after a little bit of prodding.
    Mr. Hinchey.

                        PRESIDENTIAL HELICOPTER

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Mr. Secretary, I would like to return to a subject that was 
mentioned a few times earlier, and that is the VH-71 
helicopter. And it seems to me, based upon all the information 
that I have been able to obtain, that it really makes perfect 
sense for us to continue that project for a variety of reasons.
    First of all, for the safety and security of the present 
President, the helicopter that he is using now, that system, 
was designed more than a half century ago, and the helicopter 
that he is using was manufactured about 35 years ago. The 
effectiveness and the efficiency of that device, based upon its 
age, is not nearly what it ought to be, and the safety and 
security of it is diminishing. That is a vehicle which is 
becoming weaker and weaker, and in some cases it seems to be 
even falling apart. So the need for a new system is, I think, 
very, very obvious.
    And the project that was initiated after the attack of 
September 11, 2001, and then the contract which was put into 
place in 2005, brought about this VH-71. And the VH-71, 
frankly, seems to make perfect sense. It is much more effective 
and efficient than the existing helicopter. It can travel 
further, I think 200 miles, from what we have been told.
    And the new information that has come out indicates clearly 
that the structural integrity is stronger than what some 
evaluation of it came out erroneously earlier, and that the 
service life is much longer, service life anticipated to be 
approximately 30 years.
    So the fact that this system has already experienced 
approximately $4 billion in expenditure, and the documents 
themselves, or the helicopters themselves, are essentially 
ready to go. Five of them are almost ready to move. They have 
been all through the tests and all through the operations that 
lead to that final movement. And then there are four behind 
that, and it would take a minimal amount of money to bring this 
whole system into play.
    And bringing this whole system into play would make the 
safety and security of the President much more sound and 
secure, would enable him to engage in the kinds of thing that 
he would have to do under threats and dangers that may occur 
and his response to that.
    We have to keep in mind that on September 11, that 
helicopter that was crashed down in Pennsylvania as a result of 
the courage of the people who were being transported in that 
and overcoming the hijackers, that that helicopter was likely 
to slam into the White House. So that means that it may be that 
something like that or something similar to that in some way 
may be a threat to this President and the future Presidents.
    So it just seems so obvious, based upon the amount of money 
that has been spent, based upon the improvement in this 
helicopter design, much more so than the existing one, based 
upon the age of the existing one and the fact that it doesn't 
function effectively, all of these things and more, and much of 
the more is classified and can't really be talked about in this 
particular context, all of that and more makes it clear that 
this VH-71, this Marine One helicopter, really is needed.
    I would just ask you deeply if you would go back and take 
another look at the facts, particularly the information that 
has come out more recently on the strength, the solidity, the 
length of the life of these helicopters and the ability for 
them to function effectively. Go back and take another look at 
this. And I think and hope that you would decide on your own, 
as many of us have, that this is something that really needs to 
take place. So I am just asking you, sincerely, to engage in 
that. We really need this new helicopter.
    Secretary Gates. Well, first of all, I would say that there 
is no question about the fact that the current helicopters that 
the President is flying in are safe and secure. The Navy has 
confidence in that, and I don't think the Secret Service would 
allow the President to get on it if there wasn't complete 
confidence in it.
    And the reality is that it may be that the airframe on some 
of these helicopters is 30 or 35 years old, but virtually 
everything else has been replaced. For example, they are 
replacing rotors right now. So there is life extension.
    If you are talking about going with the whole system, if 
you are going with both increments 1 and 2 for the VH-71 
helicopter----
    Mr. Hinchey. Only about increment 1.
    Secretary Gates. Okay. The Navy's estimates would be about 
a $9.4 billion program.
    We currently have spent $3.2 billion on it. It has 55 
percent of the range of the current helicopter the President is 
flying in the increment 1. It does not meet a lot of 
requirements in terms of other protections, whether it is 
chemical, biological, nuclear, communications and some of the 
other things.
    Even if we bought increment 1, we would have to then 
initiate a new Presidential helicopter program anyway to get to 
some of the capabilities that were going to be in increment 2.
    So whether or not you do increment 1, you are going to end 
up with a new Presidential helicopter program. And we believe 
that the helicopters he is flying in are safe. The Navy 
believes their lives can be extended until we can get a new 
helicopter.
    Frankly, if we went with increment 1 with 23 aircraft, the 
cost per aircraft would be $485 million apiece, and I think the 
President has a real problem with that.
    Mr. Murtha. The time of the gentleman has expired.
    I just want to say one thing. One question I asked these 13 
people, I had them lined up, saying we are not going to pay 
that much for a helicopter, meaning the two. I said, we all 
appreciate the President. We all appreciate his safety. But 
what about us? They just laughed. I don't know if they laughed 
because to hell with you or what, but what about Secretary of 
Defense, what about the Chief?
    I mean, you know, the Secret Service went way too far in 
this thing. You have to keep them under control as you go 
forward with this program. I mean, that is all there is to it.
    Secretary Gates. Well, we do have to deal with the 
requirements, and that is one of the things I said that we are 
thinking about is, in fact, all of the requirements that are 
being placed on this helicopter may not be feasible in a single 
helicopter.
    And maybe we look at one for escape and one for regular 
everyday use, but we will go back and look at them.
    Mr. Murtha. Mr. Young, any questions?
    Mr. Young. No, sir.
    Mr. Murtha. Mr. Dicks has one question.

                             C-17 AIRCRAFT

    Mr. Dicks. Thank you, Mr. Chairman.
    I wanted to ask you about the C-17. This is an important 
program, and, you know, as I understand it, we are coming to 
the end of it. But there are going to be some in the 
supplemental. But there is another issue tied to this, I think, 
and that is the fact that Congress has kept some C-5s in 
service that should be shut down.
    And I wanted to give you a chance to talk about that. Our 
committee has supported you on this. The House committee has 
supported you, House Armed Services Committee, but we don't 
seem to be able to get this done. And could you explain why it 
is so important?
    Secretary Gates. Well, there is a restriction. There are 
significant restrictions on our ability to retire the old C-5s. 
We believe that the mobility force, that we originally--that we 
sized a few years ago, 2 or 3 years ago, of 292 aircraft, 180 
C-17s and 112 C-5As would meet the needs for two simultaneous, 
conventional conflicts, major conventional conflicts, three 
domestic disaster events here in the States, and a number of 
lesser contingencies.
    We now have 205 C-17s. It looks like we may be headed for a 
few more C-17s, and we have still got 112 C-5s. This is more 
than the Air Force believes they need, and it goes back to what 
I have said in my opening statement. Every dollar we spend on 
excess capability is a dollar we can't spend on something that 
the Air Force really does need.
    And so that is what our problem is, and we have worked with 
the Armed Services Committee and the House, and also we are 
working with the Senate to try and get the restrictions lifted 
that would allow us to retire some of the C-5As and save some 
money in that respect.
    Mr. Murtha. The time of the gentleman has expired.
    We agree with you, Mr. Secretary.
    And the Committee adjourns until tomorrow at 10:00.
    [Clerk's note.--Question submitted by Mr. Boyd and the 
answers thereto follow:]

    Question. Secretary Gates, you have completed the F-22 program at 
187 aircraft and propose to retire 250 Air Force fighters creating a 
gap in capability. These decisions will lock in the range of national 
security options for decades into the future. How do you rationalize 
these decisions?
    Answer. The aircraft retirement target is essential to meet 
warfighting requirements, maintain readiness, and perform missions 
safely. With respect to the F-22, detailed analysis showed that 187 
Raptors, combined with a robust buy of the F-35 Joint Strike Fighter, 
are what we need to deal with future threats. The Department does not 
foresee a gap in capability as a result of completing the F-22 program 
of record and the proposed Air Force fighter aircraft retirements. 
Furthermore, the savings from retiring the legacy fighters are being 
used to fund high-priority programs relevant to today's and future 
threats. Rest assured that the Department will continue to assess the 
nation's needs for defense and will pursue procuring the right size and 
mix for all of our forces.
    Question. What has changed in the last year to justify your 
proposals relating to tactical aircraft? What studies should this 
Committee be aware of that substantiate these decisions?
    Answer. During the last year the Department continued to wage two 
wars in Afghanistan and Iraq and both of those conflicts have provided 
valuable lessons learned about our personnel, weapons systems, and 
readiness. A key lesson learned from this experience is the importance 
of unmanned systems such as the MQ-1 and MQ-9. Additionally, the 
Department was guided by the current National Defense Strategy, most 
recent threat projections, and world-wide geopolitical events that 
provide indications of where and how our military forces will be 
required in the near future. Over the past several years the Department 
has studied in depth the number and mix of tactical aircraft needed. 
The Joint Air Dominance Study informed our view on F-22 and JSF. The 
Fiscal Year 2010 Defense Budget is a reform budget. The budget request 
represents the initial step in rebalancing the Department's programs to 
enhance our ability to fight the wars we are currently engaged in, and 
address the scenarios we are most likely to face in the years ahead. 
The Department will continue that process with the Quadrennial Defense 
Review (QDR). With respect to tactical aircraft, the QDR will study the 
appropriate mix and size of the future force. Analysis from the QDR 
will assist the Department in planning for the Fiscal Year 2011 budget, 
and form the basis for tactical aircraft procurement in future budget 
requests.
    Question. Secretary Gates, the platform that will provide the most 
relief for the tactical fighter shortfall is the F-35 (Joint Strike 
Fighter). As with the majority of complex, new weapons systems, this 
program has seen its share of problems. In fact, the Marine Corps 
variant has been delayed from its original schedule due to engine 
problems. Do you anticipate the Joint Strike Fighter (JSF) becoming 
operational in time to help with the shortfall or continue to make it 
worse? Does the Department have a contingency plan to mitigate the 
tactical aircraft shortfall should the JSF program continue to slip?
    Answer. The Initial Operational Capability (IOC) schedules for the 
Joint Strike Fighter (JSF) are 2012 (USMC), 2013 (USAF), and 2015 
(USN). The JSF program is managing the development, test, and 
procurement of the three variants to meet the Services IOC 
requirements. The Department believes the JSF program is making solid 
progress in addressing earlier issues that created some schedule 
delays. In 2008, the Department chartered a Joint Estimate Team (JET) 
to provide an independent assessment of the program cost and schedule. 
The JET identified F-35 development and production risks that could 
negatively impact schedule. In the FY 2010 budget request, additional 
development funding was added as a result of the assessment. The 
additional funding requested in the FY 2010 budget submission will help 
address those risks, and the Department will review the progress again 
in preparation for the FY 2011 budget submission. The Department is 
committed to ensuring the success of the JSF program and providing the 
three U.S. Services the critical tactical aircraft capability that they 
require. The Department will also assess the appropriate mix and size 
of the tactical aircraft force structure in the upcoming Quadrennial 
Defense Review (QDR). Analysis from the QDR will assist the Department 
in forming the basis for tactical aircraft procurement in future budget 
requests. The analysis will look at all options available to address 
force structure requirements should the JSF program be delayed.
    Question. What are the proposed savings from the early retirement 
of aircraft like the F-15, F-16, and A-10's? Were infrastructure needs 
(like Military Construction) a part of the Department's consideration? 
The Department has previously estimated savings from reducing manpower 
to pay for recapitalization of older systems. The savings never 
materialized. What makes this budget different?
    Answer. The aircraft retirement target is essential to meet 
warfighting requirements, maintain readiness, and perform missions 
safely. In FY 2010, the Department plans to retire 384 aircraft across 
all the Services, both fixed wing and rotary wing, with a total 
estimated savings of $497.5 million to reapply to new aircraft 
operations. The cost savings associated with retiring these aircraft is 
already incorporated into the Services' budgets. If Congress does not 
support these retirements, the Services must continue supporting these 
aircraft and other planned priority programs will go unfunded.
    The FY 2010 President's Budget does not adjust infrastructure (like 
Military Construction) for aircraft retirements.
    To meet the demands of an uncertain and dynamic international 
security environment, the FY 2010 President's Budget reflects a broad 
reallocation of resources across diverse mission sets that make 
strategic sense. This budget does not reduce the Services' manpower, 
but rather redistributes the positions to higher priority missions that 
directly support the combatant commanders.
    Question. Some of your decisions rely on making decisions in the 
Quadrennial Defense Review which is expected out next year, while other 
decisions have been made without strategic guidance from the QDR. What 
analyses have the Department conducted to ensure you are making the 
correct strategic decisions to guide the FY10 budget?
    Answer. The FY10 budget decisions were informed by the 2008 
National Defense Strategy, lessons learned from operations in 
Afghanistan and Iraq and prior reviews and analyses of specific issues 
associated with the relevant systems. The QDR will build on the same 
strategic guidance that informed the FY10 decisions to further address 
current and future threats and reform the way we do business. This 
budget reflects substantial analysis conducted across the Department 
over several years, culminating in intensive discussions among the 
Service leadership, the Chairman and Vice Chairman of the Joint Chiefs 
of Staff and me. Where I felt decisions would require further analysis 
and examination to ensure a complete assessment of capabilities, 
capacity, requirements and risks, I deferred them to the Quadrennial 
Defense Review.
    Question. The future development of the LCS ships is important to 
the national defense and my district, however, with such a low 
shipbuilding rate, how do you envision reaching and maintaining a fleet 
of 313 ships? The 2009 out year budget showed an increase in the 
quantity of ships being requested, but the Committee has seen a promise 
of more ships in the out years before that were never realized. Just 
last year, the 30 year shipbuilding plan showed a fleet size of 313 
ships being achieved in 2019. The year before that showed it being 
achieved in 2016. With this disturbing trend, can you reassure the 
Committee to your commitment to ensuring the shipbuilding plan stays 
intact?
    Answer. The National Security strategy and Quadrennial Defense 
reviews, currently in progress, will determine the shape of the Navy's 
future. While the demands placed on the Navy for forces by the 
Combatant Commanders and by our force presence, Security Cooperation, 
and Humanitarian Assistance missions continue to be significant, we 
have been able to meet these demands largely with the force we have in 
commission today. The 313 force construct represented both a total 
inventory of ships and a specific mix of ships and was focused on the 
threats that were envisioned for the 2020 timeframe.
    Since completing the Force Structure Assessment that led to the 313 
requirement, there have been a myriad of changes in the strategic 
security environment around the globe. There has been a burgeoning 
proliferation of advanced cruise missiles, submarine technology is 
getting ever more difficult to counter, and ballistic missile 
capabilities are becoming more precise and lethal. All of these 
challenges require the Department to reassess its force structure and 
mission capabilities.
    While we continue to review these challenges, there also is a 
budgetary reality that we must face. As we increase our capacity to 
conduct 21st century tasks, such as Special Operations, Civil Affairs, 
Irregular Warfare, Humanitarian Assistance, and Counterinsurgency, it 
will cause us to rebalance our conventional capabilities. This might 
present additional challenges to maintaining existing levels of force 
structure for certain ship types.
    Until we complete these ongoing studies and determine the 
priorities for these critical areas, it is difficult to confirm a 
specific Navy force structure. However, I can assure you that the 
Department is committed to building a force structure that does not 
place our sailors, airmen, and Marines at risk. Whether this is a force 
of 313 ships, or one larger, or one smaller, we will ensure they have 
the tools they need to be successful in pursuit of their mission and 
that they are able to do so without undue risk.

    [Clerk's note.--End of questions submitted by Mr. Boyd. 
Questions submitted by Mr. Tiahrt and the answers thereto 
follows:]

    Question. How would the necessary medical supplies such as 
bandages, blood supply, and equipment be supplied to theater and 
funded?
    Answer. Additional costs for medical supplies are included in the 
Department's supplemental appropriation request for Overseas 
Contingency Operations (OCO). The majority of these requirements are 
generated by models and planning factors based upon the number of 
personnel, types of units deployed, and the types of contingency 
operations expected during the deployment. The funding included in the 
OCO supplemental for supplies is allocated to the Military Services or 
to the Defense Health Program depending where the costs are incurred.

                       Additional Troops In Iraq

    Question. As a result of the President's Afghanistan strategy 
review, the Secretary of Defense has increased forces for Operation 
Enduring Freedom by 21,000 including 17,000 combat troops and 4,000 
trainers.
    How will additional troops deployed to Afghanistan affect the 
Military Health System (MHS) and its ability to treat the families and 
dependents?
    Answer. When our medical personnel deploy, we generally lose 
capability in the military treatment facility (MTF) supporting the 
deployment. However, in advance of the deployment, MTF commanders work 
with the TRICARE Managed Care Support Contractors to either provide 
physicians and ancillary staff to work in the MTF and refine the 
civilian TRICARE network to ensure that needed care is available, 
either in the MTF or in the network.
    The MHS is structured so that the purchased care subsystem augments 
MTFs by expanding, as necessary, to absorb overflow of workload from 
the direct care subsystem when the MTFs experience increases in demand 
for services or reduction in capability and/or capacity due to staff 
deployments. The efficacy of this structure has been proven throughout 
deployments, with data from a number of sources--formal surveys of 
providers and beneficiaries, monitoring of TRICARE customer service 
logs, regular meetings with the Military Coalition, data showing the 
capacity of TRICARE purchased care to absorb a tremendous increase in 
mental health workload since 9/11--all indicating that the MHS has been 
functioning as designed, with no systemic problems preventing our 
beneficiaries from accessing purchased health care services. We 
anticipate this to continue when additional deployments to Afghanistan 
occur.
    Question. What additional medical personnel will be needed to 
support the additional troop presence in theater?
    Answer. The number and skills of medical personnel in theater is 
dependent upon the size and missions of the Forces assigned, which 
require operational decisions not medical decisions. Therefore, the 
Joint Staff and the Combatant Commander determine the need and assign 
the staffing requirement to the Service components. The Services would 
determine which medical resources were available and assign specific 
units.
    Question. Secretary Gates, one of the highlights of this budget is 
the emphasis on irregular warfare. As you know, Project Liberty in 
Afghanistan and Task Force Odin in Iraq have been designed to place 
additional ISR capabilities quickly into the battlefield. So far, over 
$2 billion has been appropriated in FY08-09 for this ISR surge 
capability. What do you see as the future growth of manned ISR combat 
air patrols?
    Answer. ISR Task Force-driven FY08-10 investments will generate 
over 50 manned ISR aircraft. The first wave of these platforms has 
already begun arriving on CENTCOM battlefields; deliveries will 
continue over the next 12-plus months. In combination with Service 
program of record deliveries of unmanned ISR platforms, we are rapidly 
and dramatically expanding the airborne ISR capability set available in 
theater.
    The driving rationale for the ISR Task Force adding ISR capacity in 
the form of manned ISR platforms was rapid fielding demonstrated by the 
fact that these very complex platforms are already delivering, well 
inside the normal Department of Defense procurement timelines. The ease 
of integrating multiple, newer emergent sensors, superior speed, and 
outstanding operational flexibility and responsiveness are very 
appealing characteristics of manned ISR aircraft. When operationally 
employed in combination with unmanned ISR platforms that deliver 
superior persistence, manned ISR provides an invaluable complement for 
irregular warfare operations.
    As we move forward, the Department and the Services are carefully 
analyzing long-standing and emergent theater ISR requirements and 
refining plans and programs aimed at satisfying those requirements. It 
is my expectation that ISR growth will continue, in both the manned and 
unmanned categories, throughout the FYDP. However, the details of the 
balance between manned and unmanned growth are still evolving.
    Question. Another aspect of Irregular Warfare is light-attack 
aircraft, like the AT-6B. The Navy has started a program called 
Imminent Fury that originated from a requirement from the Navy Seals in 
Afghanistan for a light-attack turboprop aircraft. The Air Force is 
also examining the value of a light-attack aircraft with a new program 
called AO-X. What is your vision for developing a light-attack aircraft 
like the AT-6B?
    Answer. The Department will be looking carefully at light-attack 
aircraft capabilities in the Quadrennial Defense Review (QDR). Light-
attack aircraft offer viable candidates for Irregular Warfare 
operations, particularly in providing innovative alternatives for 
intelligence, surveillance and reconnaissance; mobility; command and 
control; and light strike applications. While our conventional assets 
are diverse and agile enough to execute all of these functions over the 
threat spectrum, they might not always be the most cost effective 
employment of our forces in an Irregular Warfare scenario. Hence, the 
QDR will provide a timely forum for assessing light attack aircraft in 
depth, as potentially flexible and affordable options for meeting those 
requirements.
    Question. As the drawdown of U.S. Forces from Iraq progresses, the 
importance of ensuring that the Iraqi Armed Forces has the necessary 
equipment has increased. Recently the Iraqi Ministry of Defense signed 
an agreement to purchase 8 aircraft trainers, the T-6As. They have also 
requested to purchase the AT-6B, a light-attack aircraft. What is the 
equipping plan for the Iraqi Air Force? What is the equipping plan for 
the Afghani Air Force?
    Answer. The Multinational Security Transition Command--Iraq is 
focused on preparing the Iraqi Security Forces (ISF) for 
counterterrorism and counterinsurgency operations as U.S. forces 
withdraw. With this in mind, the Iraqi Air Force added to their 
existing rotary wing inventory of 16 Mi-17s and 16 Huey Its in March-
April 2009 by ordering 24 Eurocopters, 22 Mi-17s and 24 Bell 407 armed 
scout helicopters with deliveries expected to begin by late 2009. Other 
significant Iraqi Air Force orders include 15 PT-6A training aircraft 
and simulators--ointly funded by the Iraqis and the U.S. in May 2009--
to improve training capabilities for the eventual acquisition of light 
attack aircraft and a multi-role jet such as the F-16. While the Iraqi 
Air Force initially considered acquiring the armed AT-6B, they are 
reviewing lower cost alternative light attack aircraft as well. 
Comprehensive long-term plans for equipping the Iraqi Air Force beyond 
2012, however, are currently being developed.
    Combined Security Transition Command--Afghanistan is building the 
Afghan Army Air Corps for the counterinsurgency fight. The current 
aircraft inventory is 35: 17 Mi-17 helicopters, 9 Mi-35 helicopters, 6 
An-32 fixed wing aircraft, 1 An-26 fixed wing aircraft, and 2 L-39 
fixed wing aircraft. The equipping plan calls for the Air Corps to grow 
to 128 total aircraft by 2016: 60 fixed wing (20 C-27s; 18 light attack 
aircraft; 8 intelligence, surveillance and reconnaissance aircraft; 10 
trainers; and 4 screeners) and 68 rotary wing (61 Mi-17s and 7 
trainers). Final procurement decisions have not yet been made.
    Question. Several months ago, I had the opportunity to visit with 
students studying at Fort Leavenworth's Command and General Staff 
College. I met students from each branch of the US military in addition 
to military members of allied nations. What is the Department of 
Defense's strategic plan to increase foreign student enrollment at the 
Army Command and General Staff College, the Air Command and Staff 
College, and the Joint Forces Staff College? What steps have the 
Department taken to expand enrollment at these schools forfederal 
government employees outside of the Department of Defense?
    Answer. Currently international students represent approximately 10 
percent of resident Staff College classes; federal civilian students 
represent approximately 2 percent. The remainder is active and reserve 
component officers of the Armed Forces (to include the Coast Guard) 
(88%).
    Current percentages of international and federal civilian students 
are considered appropriate. Part of this is an appreciation for how 
much capacity there is for these colleges to increase their attendance.
    Strategic actions have been therefore aimed at getting priority 
partners into the schools. Strategic documents such as the ``Guidance 
for the Employment of the Force'' (GEF) prioritize nations and 
Alliances not only to harmonize Combatant Commander and Service Chief 
engagement efforts but also to inform invitations to partners to attend 
the various schools. Therefore, the Department of Defense has 
consciously put priority partners at the head of the line. In 2008, 67 
percent of school seats were filled by priority partners.
    You have asked specifically about Command and Staff College level 
programs. Additionally, it is important to highlight international and 
federal civilian student participation at the senior level War 
Colleges.
    The Staff College coursework is focused on warfighting at the 
tactical to operational levels of both traditional and irregular war. 
It is aimed at a younger student body (10 years of service) still 
developing inside their individual warfighting competencies and is as a 
result, less applicable to non-DOD--especially civilian-students.
    In comparison, War Colleges operate at the operational and 
strategic levels and have student bodies (15-20 years of service) that 
are already mature in their individual competencies. This makes a War 
College education more accessible to non-DOD personnel.
    War College student bodies have 20 percent less US officers than at 
the Staff Colleges. This articulates as 68 percent US officers, 14 
percent international officers and 18 percent Federal civilian.

    [Clerk's note.--End of questions submitted by Mr. Tiahrt. 
Questions submitted by Ms. Granger and the answers thereto 
follow:]

    Question. Mr. Secretary, we have not seen aircraft production rates 
like what is intended for the JSF since the F-16 was built in the early 
1980's. Obviously, we are involved in a different style of conflict, 
but it is undeniable that positive lessons-learned in procurement were 
obtained and should be used with the taxpayer's dollar.
    At full rate production for the JSF, we will be producing one 
aircraft per day. In order to achieve full rate production quickly and 
to meet cost requirements, building JSFs must be accelerated now during 
low-rate production by almost doubling each year's previous rate. 
Quickly getting to full-rate production on the F-16 years ago proved to 
be KEY in keeping costs down for an affordable US and allied aircraft. 
How does the FY 2010 budget proposal help to accomplish the same 
affordability goals achieved in the early 1980's during the F-16 
program?
    Answer. Carefully managing investments in the JSF production line 
is critical to getting to full-rate production in 2015 and meeting our 
warfighter commitments while minimizing the cost to taxpayers. The 
Department plans to procure 513 US F-35 jets between now and FY 2015, 
which is an increase of 28 jets from the previous program of record. 
The primary reason for the change was to smooth the year to year ramp 
rate, including the planned procurements from our 8 JSF international 
partners, and appropriately stress the production system. The FY 2010 
President's Budget funds 30 US jets for Low Rate Initial Production Lot 
4 and fully funding these jets is critical toward achieving that one 
aircraft per business day rate.
    Question. Mr. Secretary, recent defense budgets show investments in 
rotorcraft science and technology, including demonstrations, ranging 
from $100 million to $113 million. Back in the 1980s, the nation was 
investing in excess of $250 million in rotorcraft technology or more 
than twice the amounts we are allocating today. Given our dependence on 
rotorcraft in wars such as those in Iraq and Afghanistan, shouldn't the 
nation be investing more in future vertical flight capabilities? Aren't 
helicopter resources the best suited for our forces remaining mobile in 
the harsh terrain of Afghanistan in a dynamic counter-insurgency 
effort?
    Answer. These are the kind of questions we are getting answered in 
our ongoing Quadrennial Defense Review and its follow-on program and 
budget review. In considering future resource and funding options for 
helicopters, we need to take into full account today's threats and the 
capabilities needed to counter these threats, to include unmanned 
aerial vehicle capabilities.
    Question. Also, specific statistics from ``icasualties.org'' cite 
helicopter related losses as the third largest cause for loss of life 
in Operation Iraqi Freedom (OIF), and they are THE largest factor in 
loss of life in Afghanistan with Operation Enduring Freedom (OEF). This 
past year, Congress added Section 1043 in the National Defense 
Authorization Act to review the causes of these losses and potential 
strategies to reduce these losses. That report is due in August of this 
year. Mr. Secretary, is the Department of Defense prepared to make 
needed investments in vertical flight aviation science and technology, 
with specific focuses on safety, survivability, and improved 
capabilities to reduce helicopter losses in the future and ultimately 
reduce our casualty figures?
    Answer. In response to section 1043, the Department is completing 
the study on rotorcraft survivability to identify the causes of 
helicopter losses and to make recommendations to reduce them, and a 
draft report is currently under review. In addition, the Department is 
developing a science and technology plan for future vertical lift 
aircraft and rotorcraft as part of a larger review of our efforts in 
response to section 255 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009. The recommendations from the 
survivability study will be addressed within that plan, which is 
projected to be complete by the third quarter of Fiscal Year 2010. The 
Department will take appropriate measures to address the 
recommendations from these reviews and continue to improve the safety 
of helicopters for our warfighters while giving them the capability 
they need.

    [Clerk's note.--End of questions submitted by Ms. Granger.]


                           W I T N E S S E S

                               __________
                                                                   Page
Architzel, Vice Admiral David....................................   167
Barnum, Barney...................................................    57
Coleman, Lieutenant General R. S.................................    57
Crosby, Brigadier General W. T...................................   223
Davis, Brigadier General W. L....................................   223
Ferguson, Vice Admiral M. E., III................................    57
Gates, Hon. Robert...............................................   413
Hale, Robert.....................................................   413
Lanier, Jerry....................................................     1
McCullough, Vice Admiral B. J....................................   273
Mullen, Admiral Michael..........................................   413
O'Reilly, Lieutenant General P. J................................   329
Pleffner, Mary...................................................     1
Shackelford, Lieutenant General M. D.............................   167
Stiller, Allison.................................................   273
Thompson, Lieutenant General N. R., III..........................   223
Ward, General W. E...............................................     1

                                  <all>
</pre></body></html>
